<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2011 
budget request for programs within the subcommittee's 
jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, members of the subcommittee, this statement is 
respectfully submitted on behalf of the ad hoc coalition composed of 
the organizations listed below. The coalition supports sustained 
funding for our Nation's food aid programs, including titles I and II 
of Public Law 480, and therefore strongly opposes all proposals to 
divert funding away from these important programs.

                         FOOD AID'S UNIQUE ROLE

    The donation of American commodities as food aid has been the 
cornerstone of U.S. and global foreign assistance programs since their 
inception. However, food aid has evolved in important ways over the 
years. Food aid began as an outgrowth of American farm policy that 
generated sizeable surpluses and American foreign policy characterized 
by the cold war competition for the hearts and minds of impoverished 
populations across the globe. Since then, American farm policy has 
evolved away from surpluses, and therefore food can no longer be 
mischaracterized as ``dumping'' of excess commodities. Indeed, the 
United States now purchases commodities for donation on the open 
market. In today's political and economic climate, the need to provide 
societal stability, avoid failed states, prevent terrorist breeding 
grounds, and bolster America's image abroad has never been more 
important. Our in-kind food aid programs are needed now more than at 
any time in their history. Hunger is a powerful and destabilizing 
force, and America faces a convergence of terrorist and other security 
threats from failed and unstable states that feed on ill will toward 
our Nation. The United Nations World Food Program tells us that in 
recent years the food insecure have been hit by a ``perfect storm'' of 
increases in food prices coupled with export restrictions imposed by 
traditional regional and local food exporters. Here at home, the ranks 
of long term unemployed have soared. U.S. food aid programs not only 
further our humanitarian and food security goals by allowing Americans 
to contribute to the needy in a tangible way, but the programs also 
provide stable jobs for Americans.

  FOOD AID VERSUS CASH DONATIONS FOR ``LOCAL AND REGIONAL PURCHASES''

    Food for Peace, which provides farm products grown in the United 
States to millions overseas in bags marked as gifts ``From the American 
People,'' is a clear and tangible sign of America's concern and 
generosity to its recipients. This same ``in-kind'' composition 
generates important economic benefits to our Nation--vital jobs in many 
industries, farm income, markets for agriculture processors, and 
revenue for American transportation providers and ports. It also 
generates Federal, State, and local tax revenues, as well as secondary 
economic effects, such as farm equipment purchases and farm family 
spending in our broader economy. For these reasons, a strong domestic 
constituency for food aid, in good economic times and bad, has 
sustained America's food aid programs through decades of competing 
funding priorities. Furthermore, for over 50 years American agriculture 
has provided a dependable source of high-quality nutritious food that 
is not always reliably available to ``local'' or ``regional'' markets. 
Given the recent food crisis experienced by many nations, in terms of 
price, availability, and quality, and considering the recent actions by 
some food-exporting nations to halt food exports when domestic price 
increases occurred, the amount and dependability of U.S. produced food 
aid in Public Law 480 is crucial to our humanitarian assistance effort. 
Using American taxpayer dollars to purchase foreign agricultural 
commodities would forego the unique benefits of U.S. food aid, such as 
predictable food aid supply, unparalleled quality, and good American 
jobs, when our country and food-deficit areas need them most. 
Nevertheless, additional resources have already been directed to so-
called ``local and regional purchases'': USAID has been provided 
hundreds of millions of dollars of new funding for such purchases under 
the Foreign Assistance Act through the International Disaster and 
Famine Assistance Account and Congress also established a $60 million 
CCC-funded USDA pilot program in the 2008 Farm Bill to examine the 
potential dangers and benefits of this approach before considering 
further expansion of its use in conjunction with a strong in-kind food 
aid program centered around American commodities. Additionally, the 
U.N. World Food Program operations have wide latitude to purchase grain 
from Europe, Australia, and elsewhere.

               RESTORATION OF TITLE II FOOD FOR PROGRESS

    The title I concessional sales food aid program is an important 
tool in the aid ``toolbox''. In order to ensure that countries with the 
most dire need have sufficient donated food aid, the coalition 
recommends that USDA offer the title I concessional sales program to 
countries that can afford it. Title I allows us to leverage our aid 
dollars, helping more people in need with our limited budget resources. 
To the extent that the title I funding truly cannot be used for 
concessional sales, it may be converted to donations on full grant 
terms through the Food for Progress (``FFP'') program.

                    CONCLUSIONS AND RECOMMENDATIONS

    Mr. Chairman, the coalition is committed to maintaining the funding 
for America's food aid programs to meet humanitarian needs, enhance the 
potential for economic growth in recipient countries, and stimulate the 
economy here at home. Our recommendation is to increase, over time, 
annual food assistance with a blend of programs drawing upon the unique 
strengths of the different U.S. food aid program authorities. 
Specifically, the coalition respectfully recommends the following:
  --Full up-front funding of title II at the $2.5 billion authorized by 
        law, which is consistent with the fiscal year 2008 and fiscal 
        year 2009 appropriation levels, and should serve to help avoid 
        the cycle of emergency supplemental appropriations for this 
        program.
  --Title I/Food for Progress program levels should be restored to 
        responsible levels so that the unique efficiencies of the 
        program are not lost and more people can be fed.
  --Increase funding available for the McGovern-Dole program, 
        leveraging the special ability of this program to reach 
        children and to spur long-term development.
    Public Law 480 Food for Peace is the world's most successful 
foreign assistance program, and has saved countless lives. Its 
straightforward delivery of American food to the hungry fills a clear 
and immediate need overseas, and its unique architecture has made it a 
successful program here at home that has endured for over 50 years.
    Thank you, Mr. Chairman.

America Cargo Transport Corp.
American Maritime Congress
American Maritime Officers
American Maritime Officers' Service
American Peanut Council
American Soybean Association
APL Ltd.
Central Gulf Lines, Inc.
Global Food and Nutrition Inc.
Hapag-Lloyd USA, LLC
International Organization of Masters, Mates & Pilots
Liberty Maritime Corporation
Maersk Line, Ltd.
Marine Engineers' Beneficial Association
Maritime Institute for Research and Industrial Development
National Association of Wheat Growers
National Corn Growers Association
National Council of Farmer Cooperatives
National Potato Council
Sailors' Union of the Pacific
Seafarers International Union
Sealift, Inc.
Transportation Institute
United Maritime Group, LLC
U.S. Dry Bean Council
U.S. Dry Pea & Lentil Council
U.S. Wheat Associates, Inc.
USA Rice Federation
Waterman Steamship Corporation.
                                 ______
                                 

         Prepared Statement of the Alliance for a Stronger FDA

    The Alliance for a Stronger FDA requests at least $2.857 billion 
for the U.S. Food and Drug Administration for fiscal year 2011. This 
request is exclusive of user fees.
    We thank the Senate Appropriations Committee for the opportunity to 
present our views on the fiscal year 2011 appropriations for the U.S. 
Food and Drug Administration. The Alliance has 180 members from every 
stakeholder group interested in FDA. Our members include consumer and 
patient groups, associations, non-profits, health professions 
organizations, individuals and industry. Three former DHHS Secretaries 
and six former FDA commissioners are also part of our cause. We are 
united in the belief that:

A strong FDA benefits all Americans: Patients, consumers, health 
professionals, industry . . . and the whole world benefits, too.

    We would like to express our appreciation to the Senate 
Appropriations Committee and its Subcommittee Chair, Senator Herb Kohl 
and Ranking Member, Senator Sam Brownback. The FDA's appropriation has 
gone up significantly over the last 3 years and their support and 
leadership has been essential.
    Those increases have been critical to strengthening the Agency. 
Nonetheless, there remains an extraordinarily large gap between FDA's 
responsibilities and FDA's resources. Every year, the Agency's job 
becomes more complex scientifically and more difficult to implement. 
New laws affecting FDA are enacted with some regularity, further 
straining the FDA's ability to meet the expectations of the Congress 
and the American people.
    There are a number of legislative initiatives this year that would 
further expand the responsibilities of the FDA. As a very broad-based 
coalition, we take no position on the merits of any of these.
    We are concerned, however, that FDA's appropriation reflect any 
further increases in responsibilities. As will be described, we are 
recommending a $495 million increase or more for the Agency. This is 
the amount we believe is needed to make further progress against 
existing responsibilities. Any new legislation needs to come with the 
assurance that there will be larger ``budget authority'' appropriations 
to cover the cost of the additional work.
    We remind the committee that FDA's appropriation is quite small, 
especially when matched against its jurisdiction over one-quarter of 
consumer spending, 80 percent of the food supply and all of the drugs, 
biologics, medical devices, animal drugs, cosmetics and dietary 
supplements used anywhere in the United States. FDA must also deal with 
the food and medical products that are sourced from overseas. Despite 3 
years with appropriations above the break-even point, the FDA still 
gets only $2 billion per year. There cannot be many agencies in the 
U.S. Government that have such a vast scope of responsibilities and so 
few dollars to get the job done.
    As a way to sum up many points about the Agency, we have 10 things 
that we hope policymakers will know and remember about FDA:
  --FDA is a comparatively small agency with an appropriation: just 
        $2.35 billion in 2010 to regulate products that represent a 
        quarter of all consumer spending.
  --Twenty-five years ago, FDA and CDC were the same size; today the 
        CDC budget is nearly 2\1/2\ times as large.
  --A strong FDA is good for the U.S. economy and for our balance of 
        trade.
  --FDA is an integral part of our response to public health 
        emergencies, including defense against bioterrorism.
  --FDA's appropriation is almost entirely staff costs, requiring 
        nearly 6 percent increase each year to sustain program levels.
  --After 3 years of good increases (thank you, Congress), FDA staffing 
        levels from the 2010 appropriation have only just been restored 
        to the previous high-level achieved in 1994.
  --User fees serve valuable functions, but they are targeted and 
        support only specific activities. They don't strengthen the FDA 
        in carrying out its overall public health mission.
  --All FDA stakeholders support a stronger FDA (consumers, patients, 
        health professionals, and industry).
  --FDA's responsibilities increase each year--through new mandates, 
        globalization, scientific complexity.
  --FDA touches every American multiple times each day. Today's 
        investment (2 cents per day per American) is a pittance 
        compared to the benefit of a strong FDA and the risk of an 
        underfunded FDA.
    The Alliance often compares the FDA's budget to that of the 
Montgomery County school system's budget. The Superintendent of Schools 
and the FDA Commissioner had offices less than three miles apart before 
the Commissioner moved to White Oak. When the Superintendent looks out 
his window, he reflects on the educational needs between Takoma Park 
and Germantown. When the Commissioner looks out his window, he reflects 
on the food and medical product needs of the entire world. Yet, until 
last year, the Superintendent had a significantly larger budget to 
spend than the Commissioner.
    More than 80 percent of the FDA's budget is people-related. This 
includes salary, benefits, rent, telecom, training, office equipment, 
travel, etc. There are no grants to pull back if the money comes up 
short. Instead, over much of the last 20 years, when FDA's funding has 
been inadequate, the result has been layoffs, hiring freezes and buy-
outs. Now that the Agency's funding situation has improved, there are 
still many FDA managers concerned that this year's hires may need to be 
dismissed if next year's appropriation doesn't continue to grow.
    At this point, FDA needs more than $100 million more each year just 
to sustain the prior year's FTEs and program initiatives. Substantial 
dollars are needed above that level to help close the gap between 
responsibilities and resources.
    The solution, which is also our goal, is to strengthen FDA's 
ability to operate a modern, scientifically based regulatory program. 
To do so, the FDA needs to be provided with resources to rebuild the 
infrastructure and assure the safety of foods and cosmetics and the 
safety and efficacy of drugs and medical devices.
    In the mid-1980s, FDA and CDC had similar budgets (about $400 
million each in fiscal year 1985). In fiscal year 2010, CDC has a 
budget authority appropriation of $6.37 billion dollars, a compound 
annual growth rate greater than 11 percent. In comparison, FDA has a 
budget of $2.35 billion, a compound annual growth rate of about 7 
percent.
    The impact is particularly pronounced when the differences are 
graphed and the upward slopes compared (below). The chart is in nominal 
dollars. If we were to look at constant dollars, CDC is a substantially 
bigger agency than 25 years ago. In FDA's case, the net grown over the 
same period has been insubstantial and much of the growth is in the 
last 3 years. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We are not suggesting that FDA should have a $6 billion budget. 
Rather, the degree to which FDA has fallen behind is often hard to see, 
because the Agency is being compared to itself. In this comparison, it 
is dramatic and can lead to only one conclusion: FDA is not funded to 
meet its responsibilities as a public health and regulatory agency.
    We do not know what the right number for FDA is . . . only that it 
is significantly more than the current budget. Large increases for a 
number of years are going to be needed.
    For the immediate timeframe, the Alliance for a Stronger FDA 
requests a $495 million increase or more for the FDA in fiscal year 
2011. We believe that the President's budget request of $154 million is 
a step in the right direction, but substantially below what is needed. 
Below, our request is broken down by centers and major functions. We 
show fiscal year 2008, 2009 and 2010 for comparison. This recognizes 
that growth over the last three has changed the direction of the 
Agency. More will be needed . . . this year, next year and thereafter.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                    Fiscal year                                        2011
                                                    2008 actual     Fiscal year     Fiscal year   recommendation
 Function note: budget authority only, by center     (December      2009 final      2010 final        of the
                                                       2007)       (March 2009)   (October 2009)  Alliance for a
                                                                                                   Stronger FDA
----------------------------------------------------------------------------------------------------------------
Food............................................    $510 million    $649 million    $784 million    $955 million
Human Drugs.....................................     353 million     413 million     465 million     580 million
Biologics.......................................     155 million     183 million     206 million     255 million
Animal Drugs/Feed...............................      97 million     116 million     135 million     165 million
Devices & Radiological Health...................     238 million     280 million     315 million     385 million
Natl. Ctr. for Toxicological Research...........      44 million      52 million      59 million      72 million
HQ, Office of Commissioner/Other................      97 million     121 million     144 million     183 million
Rent and Facilities.............................     220 million     223 million     237 million     250 million
                                                 ---------------------------------------------------------------
      TOTAL, Salaries and Expenses..............   1.714 billion   2.039 billion   2.346 billion   2.857 billion
----------------------------------------------------------------------------------------------------------------

    We have allocated new money to building and facility rental, which 
is more than 20 percent of the FDA's budget. We are told that the FDA 
will reach a point where White Oak (even with the new building being 
constructed) and College Park will barely fit the FTE's that have been 
authorized and/or will be transferring from Parklawn and other 
facilities that are closing. A more substantial increase in rental 
costs may be needed in fiscal year 2011. We hope the Committee will 
follow this closely and assure that rental costs are fully funded. 
Increases in rental costs should not be covered by tapping into new 
program monies or by disproportionate allocations from user fees.
    New monies from this year and last year are now flowing into the 
FDA and are being translated into recruitment, hiring, training and 
deployment. Because of the nature of FDA jobs, many of the new hires 
may not reduce division workloads for upwards of a year. This is a slow 
process, but necessary to grow and strengthen FDA.
    Going forward, the Alliance is committed to working with the 
Congress and FDA to ensure:
  --Transparency in how new appropriated monies are spent, and
  --Clear communications from FDA about the public health benefits that 
        have been achieved with the new funding.
    In closing, the Alliance for a Stronger FDA reiterates its 
appreciation for the efforts of Committee members and their staffs to 
change the course of the FDA. They are strengthening the Agency and 
guiding it toward success.
    We remain available to the Committee to provide information and 
analysis at any time.
                                 ______
                                 

 Prepared Statement of the American Commodity Distribution Association 
                                 (ACDA)

    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
subcommittee's official record. ACDA members appreciate the 
subcommittee's support for these vital programs. We also thank you for 
this opportunity to share our experiences and recommendations with you.
    We urge the subcommittee to maintain administrative expense funding 
for the Emergency Food Assistance Program (TEFAP) at $74.5 million; to 
make TEFAP food purchase dollars available for 2 fiscal years; to 
approve the Administration's budget request for the Commodity 
Supplemental Food Program, and to evaluate alternative approaches for 
the Department of Defense Fresh Program.
    ACDA is a non-profit professional trade association, dedicated to 
the growth and improvement of USDA's Commodity Food Distribution 
Program. ACDA members include: State agencies that distribute USDA-
purchased commodity foods; agricultural organizations; industry; 
associate members; recipient agencies, such as schools and soup 
kitchens; and allied organizations, such as anti-hunger groups. ACDA 
members are responsible for distributing over 1.5 billion pounds of 
USDA-purchased commodity foods annually through programs such as 
National School Lunch Program, the Emergency Food Assistance Program 
(TEFAP), Summer Food Service Program (SFSP), Commodity Supplemental 
Food Program (CSFP), Charitable Institution Program, and Food 
Distribution Program on Indian Reservations (FDPIR).

 MAINTAIN TEFAP ADMINISTRATIVE FUNDS AT $74.5 MILLION, AS PROVIDED FOR 
                 FISCAL YEAR 2009 AND FISCAL YEAR 2010

    We urge the subcommittee to maintain TEFAP Administrative Funds at 
$74.5 million, as provided for fiscal year 2009 and fiscal year 2010 
when ARRA funds were added to the regular appropriation.
    Food banks around the Nation are in great need. The number of 
Americans who are turning to food banks for assistance continues to 
increase. The Congress appropriated $49.5 million for TEFAP 
Administrative Funds in both fiscal year 2009 and 2010, and, through 
the American Recovery and Reinvestment Act, supplemented these amounts 
with an additional $25 million. These resources have been used 
responsibly, and are sincerely appreciated.
    Donations to food banks are declining as many individuals and 
businesses no longer have the ability to be as supportive as they had 
been in the past. One of our members, Hunger Solutions Minnesota, 
reports that one-half to two-thirds of the food distributed by 
Minnesota food banks is from TEFAP. TEFAP has allowed Minnesota to 
distribute more food to more people with no impact on their budget. 
Minnesota Food Shelves are able to procure this much needed product 
from the food banking system without paying for the shared maintenance 
or transportation fees. Most Minnesota food shelves are small nonprofit 
organizations run by volunteers with thrifty budgets. They have very 
limited capacity for raising more funds to cover this potential loss of 
funding.
    In Florida, TEFAP operators are distributing over 39 million pounds 
of USDA food at no charge (administrative, shared maintenance, etc.) to 
their sub-distributors. The TEFAP Administrative funds help pay for 
that distribution which often includes delivery to sub-distributors 
more than 100 miles away. The additional funding has gone a long way 
toward compensating the TEFAP Recipient Agencies for the cost of 
trucking, fuel, storing the additional TEFAP food, and other related 
costs, without passing those costs on to sub-distributors like food 
pantries, soup kitchens, and shelters. This in turn helps those 
emergency feeding organizations which would otherwise have to find the 
resources to help defray the costs of acquiring the food, picking it up 
from the Recipient Agency, and other necessary activities in order to 
assist the needy residents of their communities.
    The Food Bank Association of New York State believes that the 
fiscal year 2011 budget proposal may result in statewide cuts in excess 
of $1.4 million, adversely impacting the three million people served by 
almost 2,500 emergency food programs throughout the State.
    Other ACDA members tell us that if TEFAP expense funds are reduced 
as effectively proposed by the fiscal year 2011 budget request, they 
will have to accept less food to reduce shipping/warehousing expenses, 
and will likely have to cut reimbursement to local distributors. These 
reimbursements are key to maintaining distribution sites, especially in 
rural distribution sites.
    We recognize that States have had the ability to convert a portion 
of their food funds to administrative funds, and have done so. We 
appreciate this flexibility, but must respectfully point out that even 
if this flexibility is continued, TEFAP operators will experience a 
significant reduction in available administrative expense funds that 
jeopardizes their ability to provide essential food assistance to needy 
Americans.
    Sec. 4201 of the Food, Conservation, and Energy Act of 2008 (Public 
Law 110-246) increased the authorization for TEFAP Administrative 
Expense funds from $60 million to $100 million, recognizing the need 
for increased expense funds to responsibly manage increased TEFAP food 
supplies. Our request for $74.5 million, is, therefore, not an increase 
over the total amounts provided in fiscal year 2009 and fiscal year 
2010, and is well within the amounts authorized.

         MAKE TEFAP FOOD DOLLARS AVAILABLE FOR TWO FISCAL YEARS

    We urge the subcommittee to make TEFAP food dollars available for 2 
fiscal years, as was done under ARRA.
    While the agencies of the Department of Agriculture work closely 
with food banks to provide as much food for distribution as possible, 
there are occasions when food dollars are at jeopardy through no fault 
of recipient agencies.
    If food orders are cancelled by either USDA or vendors for any 
reason near the end of the Federal fiscal year, State agencies must 
either purchase whatever items might be available through USDA, or lose 
these end-of-year balances.
    At the end of fiscal year 2009 Florida had an ARRA TEFAP balance of 
$1.6 million on September 28, 2009 due to the cancellation of cheese 
orders that day. Florida's regular TEFAP balance was $218,023. On 
September 8, 2009 the TEFAP entitlement balance in New York was just 
over $12,000. On September 28 it was $415,000 due to the significant 
cancellations and deletions of truckloads of commodity foods. On July 
28, 2009, New York's ARRA balance was $11,000. On September 28 it was 
$481,000. Other ACDA members have told us of similar experiences in 
their States.
    Food banks are working diligently to use every dollar responsibly 
because every dollar is needed. When ARRA was passed, TEFAP food 
dollars were allowed to be carried over from fiscal year 2009 to fiscal 
year 2010. This procedure helped food bank operators to make 
responsible decisions and to take maximum advantage of available 
resources.
    We urge the committee to make TEFAP food dollars available for 2 
years, and urge the Secretary of Agriculture to allow those States who 
made responsible efforts to use their TEFAP Food dollars to roll over 
to the next fiscal year balances unexpended through no fault of the 
TEFAP operator.

  ACDA SUPPORTS THE FISCAL YEAR 2011 BUDGET REQUEST FOR THE COMMODITY 
                       SUPPLEMENTAL FOOD PROGRAM

    ACDA is pleased to support the fiscal year 2011 budget request of 
$176,788,000 for the Commodity Supplemental Food Program (CSFP). The 
Congress in fiscal year 2010 once again demonstrated its support for 
this important program with a funding level that allowed seven States 
with approved plans to begin serving eligible individuals within those 
States, while allowing for needed caseload expansion in the 32 States, 
the District of Columbia, and 2 Indian Tribal Organizations previously 
offering the program.
    While we understand that there may be as many as four additional 
States considering making application for their own CSFP, at this time 
we believe the President's request will fully fund the current 
caseload, including the caseload provided to the seven new States. It 
may be necessary at a later date to add to the budget request should 
USDA approve State plans.
  acda requests the evaluation of alternative approaches for dod fresh
    There is broad consensus that improving the nutritional well-being 
of Americans, particularly children, includes increasing fruit and 
vegetable consumption, including fresh items. USDA's commodity program 
is constrained in its ability to distribute fresh foods.
    However, in the 1990s the Department developed a partner 
relationship with the Department of Defense to utilize some of the 
Federal commodity entitlement for school meal programs to allow school 
districts to purchase through the DOD distribution system. This 
program, DOD Fresh, was very successful.
    Changes in the DOD procurement and distribution program which have 
outsourced these procurement activities have had a deleterious effect 
on the school program. This change has also created a situation where 
each school that participates must pay a fee to access the DOD secure 
ordering system.
    The Secretary has worked to ameliorate these fees, approximately $3 
million per year, in the short term, but this is a temporary fix. We 
believe that there may be an alternate approach that will restore the 
many benefits of the original DOD Fresh program.
    We are asking the Committee to direct the Secretary to evaluate 
alternative approaches for replacing DOD Fresh including, but not 
limited to, developing an analog program through the Agricultural 
Marketing Service, and report back to the Committee on these options.
    We look forward to continuing to partner with you and USDA in the 
delivery of these needed services.
                                 ______
                                 

    Prepared Statement of the American Farm Bureau Federation (AFBF)

    The American Farm Bureau Federation (AFBF) has identified five 
general areas for increased emphasis and funding for United States 
Department of Agriculture (USDA) programs in the fiscal year 2011 
agriculture spending bill. They are:
  --Programs that enhance and improve food safety and protection;
  --Programs that expand domestic and export markets for agriculture;
  --Programs that strengthen rural communities;
  --Programs that improve USDA efficiency; and
  --Research Priorities.
    Farm Bureau strongly opposes any cuts to funding for the farm 
safety net. Such cuts would break a 5-year commitment made to America's 
farmers and ranchers in the 2008 farm bill. Producers have made 
business decisions based on this contract with the government, and to 
break these commitments would be destabilizing to a rural economy that 
is already impacted by this country's severe recession and credit 
crisis.

      PROGRAMS THAT ENHANCE AND IMPROVE FOOD SAFETY AND PROTECTION

    Americans spend more than $1 trillion annually on food--nearly half 
of it in restaurants, schools and other places outside the home. 
Consumers have a reasonable expectation that the food products they buy 
are safe. The continued safety of food is crucial to consumers, as well 
as production agriculture and the food industry. AFBF believes that 
sufficient, reliable Federal funding for the government's food and feed 
safety and protection functions is vital to this effort.
    Therefore, we recommend that funding be increased for food 
protection at the Food and Drug Administration (FDA) and at the Food 
Safety and Inspection Service (FSIS) and directed to:
  --Increased education and training of inspectors;
  --Additional science-based inspection, targeted according to risk;
  --Research and development of scientifically based rapid testing 
        procedures and tools;
  --Accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market and minimize 
        disruption to producers; and
  --Indemnification for producers who suffer marketing losses due to 
        inaccurate government-advised recalls or warnings.
    We also support authorized funding of $2.5 million for the Food 
Animal Residue Avoidance Databank (FARAD). FARAD aids veterinarians in 
establishing science-based recommendations for drug withdrawal 
intervals, critical for both food safety and animal health. No other 
government program provides or duplicates the food safety information 
FARAD provides to the public. Without the critical FARAD program, 
producers may be forced to euthanize animals or dispose of meat, milk 
and eggs due to the lack of withdrawal information.

    PROGRAMS THAT EXPAND DOMESTIC AND EXPORT MARKETS FOR AGRICULTURE

    America is increasingly committed to being a Nation fueled by 
clean, renewable, domestic energy. Biofuels are a crucial to this 
effort and create new domestic markets for our commodities. AFBF 
supports the research, production and promotion of agricultural 
products into home-grown fuels. We urge you to provide $10,000,000 for 
the establishment of Regional Biofuels Feedstocks Research and 
Demonstration Centers in USDA.
    In order to take full advantage of the market opportunities offered 
through trade agreements AFBF supports funding at authorized levels 
for:
  --The Foreign Agricultural Service (FAS) to maintain services that 
        expand agricultural export markets. We urge continued support 
        for the Office of the Secretary for trade negotiations and 
        biotechnology resources.
  --The Market Access Program, the Foreign Market Development Program, 
        the Emerging Markets Program and the Technical Assistance for 
        Specialty Crops program that are effective export development 
        and expansion programs. These programs have resulted in 
        increased demand for U.S. agriculture and food products abroad 
        and should be fully funded.
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities. In addition to 
        providing short-term humanitarian assistance, the program helps 
        to develop long-term commercial export markets.
    As trade increases between countries, so do does the threat of new 
invasive and noxious pests that can destroy America's agricultural and 
natural resources. Therefore, we support full funding for the following 
Animal Plant Health Inspection Service (APHIS) programs:
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, that are necessary to 
        protect U.S. agriculture from costly pest problems that enter 
        the United States from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS Biotechnology Regulatory Services (BRS) that play an 
        important role in overseeing the permit, notification and 
        deregulation process for products of biotechnology. BRS 
        personnel and activities are essential to ensure public 
        confidence and international acceptance of biotechnology 
        products.
    Funding for the U.S. Codex Office is essential to developing 
harmonized international standards for food and food products. Codex 
standards provide uniformity in food rules and regulations by allowing 
countries to adopt similar levels of safety protection for consumers 
while concurrently facilitating transparency in food trade.
    The International Food for Education Program is an effective 
platform for delivering severely needed food aid and educational 
assistance and should be fully funded.

               PROGRAMS THAT STRENGTHEN RURAL COMMUNITIES

    The lack of high-speed, modern telecommunications systems in rural 
America hinders its residents' access to educational, medical and 
business opportunities, and therefore hampers the economic growth of 
rural America. We support funding for loans and grants administered by 
the Rural Utilities Service to increase rural broadband capacity and 
telecommunications services and to fund the Distance Learning and 
Telemedicine Program.
    Rural entrepreneurs often lack access to the capital and technical 
assistance necessary to start new businesses. These new ventures are 
needed for rural communities to sustain themselves and contribute to 
our national economy. AFBF supports funding for USDA Rural Development 
(RD) programs that foster new business development in rural 
communities. These programs include Value-Added Agricultural Producer 
Grants, the Rural Innovation Initiative, the Rural Microentrepreneur 
Assistance Program, and Business and Industry Direct and Guaranteed 
Loans.
    Many rural communities lack access to the tax base necessary to 
provide modern community facilities like fire stations. Farm Bureau 
support funding for RD's Community Facility Direct and Guaranteed 
Loans, which finance the construction, enlargement or improvement of 
essential community facilities in rural areas and small towns.
    Renewable energy production holds great promise as a means to help 
America's farmers and rural communities contribute to our national 
economy and enhance our national security. We support increasing 
funding for the Renewable Energy for America Program (REAP). REAP 
offers grants, guaranteed loans and combination grant/guaranteed loans 
for agricultural producers to purchase renewable energy systems and 
energy efficiency improvements, as well as offer funding for energy 
audits and feasibility studies.
    The Revolving Fund (RFP) Grant Program helps communities acquire 
safe drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents. We support funding for 
this important program.
    AFBF supports funding for and opposes any effort to eliminate the 
Resource Conservation and Development program. This vital program 
supports economic development and resource protection. This program, in 
cooperation with rural development councils, helps local volunteers 
create new businesses, form cooperatives, develop marketing and agri-
tourism activities, improve water quality and flood control, improve 
leadership and other business skills and implement renewable energy 
projects.
    AFBF supports full funding for Agriculture in the Classroom, a 
national grassroots program coordinated by the USDA. This worthy 
program helps students gain a greater awareness of the role of 
agriculture in the economy and society, so that they may become 
citizens who support wise agricultural policies.

                 PROGRAMS THAT IMPROVE USDA EFFICIENCY

    Farm Bureau supports providing $95.3 million to improve computer 
technology in the Farm Service Agency (FSA). FSA currently operates on 
the oldest technology system within USDA and one of the oldest systems 
in the entire Federal Government. These outdated systems create 
enormous inefficiencies throughout the department, and it is unclear 
how long these antiquated systems can continue to support increasingly 
complex farm programs. Systems across agencies under USDA jurisdiction 
cannot communicate with each other, which could lead to improper 
payments and often requires duplicative paperwork and additional labor 
hours. Upgrading FSA computer technology now will lead to greater 
efficiencies down the road and could prevent a future system failure.

                          RESEARCH PRIORITIES

    Farm Bureau utilizes commodity advisory committees to identify USDA 
program areas important to specific agricultural industries. Based on 
the recommendations of these advisory groups, Farm Bureau supports:
  --Funding for efforts to control, prevent and eradicate Citrus 
        Greening Disease including funding for research, public and 
        industry outreach and border monitoring.
  --Funding to conduct research on Colony Collapse Disorder (CCD) as 
        authorized in the 2008 Farm Bill including research on the 
        affects of pesticides, viruses, parasitic mites and other 
        distress management issues.
  --Appropriating $2.25 million, as authorized in the 2008 Farm Bill, 
        to conduct a National Honeybee Pest Survey to identify what 
        pests, diseases, viruses and pathogens are present in the 
        United States.
  --Funding for research to determine the impact on public lands sheep 
        and goat herds of species that currently exist, have been 
        reintroduced, or are planning to be introduced for the first 
        time.
  --Funding for research for soybean diseases using sentinel plots and 
        mapping.
  --Funding for research for the USDA-ARS Floriculture and Nursery 
        Research Initiative and ``regionalization'' of research 
        throughout the land grant system.
  --Funding for genomic research on the peanut plant.
  --Funding to support Texas Cattle Fever Tick control and eradication 
        programs and to encourage development of new user-friendly 
        products and management practices.
                                 ______
                                 

 Prepared Statement of the American Forest & Paper Association (AF&PA)

                      PRIMARY AF&PA RECOMMENDATIONS
                          [Dollars in millions]
------------------------------------------------------------------------
                                                 Fiscal year
           Account                  Program          2010        AF&PA
------------------------------------------------------------------------
Food and Drug Administration.  Center for Food     $236.600     $259.400
                                Safety and
                                Applied
                                Nutrition
                                (CFSAN).
Animal and Plant Health        Lacey Act               (\1\)       5.500
 Inspection Service.            Enforcement.
Animal and Plant Health        Emerging Plant       158.769      176.269
 Inspection Service.            Pests.
National Institute of Food     McIntire-Stennis      29.000       35.000
 and Agriculture.               Cooperative
                                Forestry
                                Research.
------------------------------------------------------------------------
\1\ No funding specifically designated.

                              INTRODUCTION

    The American Forest & Paper Association (AF&PA) is the national 
trade association of the forest products industry, representing forest 
landowners and pulp, paper, packaging, and wood products manufacturers. 
AF&PA companies make products essential for everyday life from 
renewable and recyclable resources.
    The U.S. forest products industry accounts for approximately six 
percent of total domestic manufacturing GDP (putting it on par with the 
automotive and plastics industries). Forest industry companies produce 
$200 billion in products annually, employ one million people, and 
provide $54 billion in annual payroll. The industry is among the top 10 
manufacturing sector employers in 48 States. Lumber, panel, pulp, and 
paper mills are frequently the economic hub of local communities, 
making the industry's health critical to the economic vitality of 
hundreds of rural areas across the country.
    Declining timber harvests from Federal lands have resulted in 
severe job losses in many forestry-dependent communities. Many actions 
are needed to help preserve the industry's remaining jobs and 
contribute to the broader revitalization of the economy. Congress and 
the Administration must continue to improve credit markets, stimulate 
demand for housing, and craft policies that recognize the significant 
contributions made by the wood and paper industries towards renewable 
energy and climate goals. Within the jurisdiction of this subcommittee, 
continued resources for approval of paper-based food packaging, 
protecting forest health, and providing adequate resources to enforce 
existing trade laws are essential. Specific recommendations follow.
    food and drug administration--food contact notification program
    The Food Contact Notification (FCN) program protects consumer 
health, food safety and quality while providing packaging manufacturers 
with an efficient process which is less burdensome than the food 
additive approval process. It has allowed packaging manufacturers to 
bring new products to market which are more environmentally friendly 
and have extended product shelf life, thereby increasing consumer 
value.
    The President's fiscal year 2011 budget includes $2.5 billion for 
the Food and Drug Administration (FDA). On a current authorities basis, 
the budget proposes $259.4 million in funding for FDA's Center for Food 
Safety and Applied Nutrition (CFSAN), an increase of $22.8 million from 
fiscal year 2010 funding levels. The FDA's Congressional Budget 
Justification states that the FDA budget request assumes continued 
funding for the Food Contact Notification Program. AF&PA appreciates 
that the subcommittee has previously rejected proposals to eliminate 
the FCN program. AF&PA supports the Administration's budget request 
which ensures continued funding of the Food Contact Notification 
Program.

   ANIMAL AND PLANT HEALTH INSPECTION SERVICE--LACEY ACT ENFORCEMENT

    The 2008 Farm Bill amended the Lacey Act (16 USC 3371 et seq.) to 
make it unlawful to trade wood products or other plants taken in 
violation of the laws of either a U.S. State or foreign country. This 
ground-breaking legislation is already beginning to influence the way 
companies make sourcing decisions and monitor their supply chains. Full 
and effective implementation and enforcement of the Lacey Act will 
enable American forest product companies to compete fairly in the 
global marketplace, help keep jobs in the United States, deter the 
destructive impacts of illegal logging on forests and forest-dependent 
communities in developing countries, and reinforce initiatives to 
mitigate climate change.
    The law requires U.S. importers of wood products to file a 
declaration identifying the species name and country of harvest--a 
critical measure intended by the law's sponsors to increase supply 
chain transparency and assist Federal agencies in fair and strong 
enforcement. The prohibition and the declaration requirement affect a 
wide array of American industries, so it is critical that the 
declaration process generates data in a streamlined, cost-effective 
manner without unduly burdening legitimate trade. To that end, APHIS--
which is responsible for implementing the declaration provision--needs 
$5.5 million in funding to establish an electronic declarations 
database and to add internal capacity to perform data analysis needed 
for monitoring and enforcement purposes.
    AF&PA supports $5.5 million to provide for implementation of the 
Lacey Act, as amended by the 2008 Farm Bill.

    ANIMAL AND PLANT HEALTH INSPECTION SERVICE--EMERGING PLANT PESTS

    As world trade continues to expand, global weather patterns shift, 
and an increasingly affluent world population has the ability to travel 
to--and demand products from--the far corners of the globe, the 
inadvertent, yet inevitable introduction of nonnative pests and 
diseases into the United States continues. Additional funding is 
vitally needed to aid in combating pests such as the Asian longhorn 
beetle, the Emerald Ash borer, and the Sirex woodwasp, as well as 
diseases such as Phytopthora ramorum. These are but a sampling of the 
diseases which harm commercial timber stands, community parks, and 
private forest landowners. American citizens will most certainly bear 
the cost of combating these and other emergent threats. We believe that 
a comprehensive, coordinated response to each is more effective and 
more economical.
    AF&PA supports additional funding for APHIS Emerging Plant Pests 
and urge the provision of at least an additional $17.5 million to aid 
in combating these, and other pests and diseases.

     NATIONAL INSTITUTE OF FOOD AND AGRICULTURE--MC INTIRE-STENNIS 
                     COOPERATIVE FORESTRY RESEARCH

    Approximately one-third of the United States is forested and these 
forests enhance our quality of life and economic vitality and are an 
invaluable source of renewable bioproducts, outdoor recreation, clean 
water, fish and wildlife habitat, and carbon sequestration. Sustaining 
these forests in a healthy and productive condition requires a strong, 
continuing commitment to scientific research and graduate education. 
Foundational financial support for university-based forestry research 
and graduate education comes from the McIntire-Stennis Cooperative 
Forestry program, funded through the USDA's National Institute of Food 
and Agriculture (NIFA). Funds are distributed according to a statutory 
formula to each of the 50 States, Puerto Rico, Guam, and the Virgin 
Islands, with a dollar-for-dollar match required from the States.
    Additional funding is needed to:
  --Provide the additional scientific discoveries needed to address 
        critical forest issues such as fires, storms, climate change, 
        insects, diseases, urbanization, fragmentation, and lost 
        economic opportunities.
  --Develop new knowledge and innovations to sustain healthy, 
        productive forests and address the challenges facing forest 
        owners, forest products manufacturers and all Americans who 
        benefit from our forest resources.
  --Support research capacity within each State to address issues that 
        are essential to their private forest owners, and develop new 
        opportunities for economic benefit from their forests.
    AF&PA requests $35 million for the McIntire-Stennis Cooperative 
Forestry Research Program.
                                 ______
                                 

 Prepared Statement of the American Honey Producers Association, Inc. 
                                 (AHPA)

    Chairman Kohl and members of the subcommittee, my name is Kenneth 
Haff, and I currently serve as president of the American Honey 
Producers Association (``AHPA''). I am pleased today to submit the 
following statement on behalf of the AHPA, a national organization of 
commercial beekeepers actively engaged in honey production and crop 
pollination throughout the country. The purpose of this statement is to 
bring to your attention the continued threats faced by American 
beekeepers and the billions of dollars in U.S. agriculture that rely 
upon honeybee pollination services. With those threats in mind, we 
respectfully request an appropriation that meets the needs anticipated 
by the 2008 Farm Bill authorization of $20 million in additional 
research funds to combat CCD and to conduct other essential honeybee 
research through the Agricultural Research Service (ARS) and other 
agencies at the Department of Agriculture.
    As I speak to you today, U.S. beekeepers are facing the most 
extraordinary of challenges. Colony Collapse Disorder (``CCD'') has 
continued to ravage bee colonies across the United States, moving from 
one hive to another in unpredictable patterns. The result has been the 
death of up to 90 percent of the bee colonies in affected apiaries. In 
early 2007, the National Research Council at the National Academy of 
Sciences characterized the beekeeping industry as being in ``crisis 
mode''--a point echoed and re-emphasized in a 2008 action plan 
regarding honeybee threats. Hundreds of news articles and many in-depth 
media reports have continued to chronicle the looming disaster facing 
American beekeepers and the producers of over 90 fruit, vegetable and 
fiber crops that rely on honeybee pollination. The President's own 
budget documents for fiscal year 2011 state, ``The beekeeping industry, 
and growers that depend on the honey bee for pollination are facing a 
crisis because of CCD, a new syndrome that appeared throughout the 
country in late 2006, killing 25 percent of hives nationally and 80 to 
90 percent of hives in some apiaries. Mitigation will depend on 
determining the cause of the syndrome, and finding practical, cost-
effective solutions useful to the bee industry.''
    However, despite extensive and coordinated work by experts from 
government, academia and the private sector, the definitive causes of 
and solutions for CCD have yet to be identified. In fact, USDA is yet 
unable to provide even a definition for CCD for purposes of insurance 
recovery for associated losses. In a March 15, 2010 Washington Post 
article entitled, ``Bees are busier than ever as disease besieges 
colonies'', Adrian Higgins writes that ``more than 3 years after 
beekeepers started seeing the sudden disappearance of hive populations, 
scientists have yet to find the cause--let alone the fix--for a 
condition called colony collapse disorder (CCD). Meanwhile, the 
commercial beekeeping industry is struggling to provide pollination 
services to the nations' farmers. One-third of food crops rely on 
insect pollination.'' One of the most respected editors to follow honey 
matters, Kim Flotsam, reported in his March issue of ``Bee Culture'' 
that ``incidences of colony losses to CCD and other stresses this 
spring have been much higher than the last 2 years, and some predict 
when all is said and counted, will be the worst year since the malady 
raised its ugly head.'' This assessment is consistent with the 
experiences of the AHPA membership.
    The emergence of CCD shines a bright light on the inadequacies of 
current honeybee research, particularly on the lack of capacity to 
address new challenges and to take long-term steps to assure honeybee 
health. In saying this, we do not mean to diminish the vital, ongoing 
work of ARS and other honeybee scientists. They do their job and they 
do it very well. In recent years, however, honeybee research has become 
largely confined to four ARS laboratories that provide the first line 
of defense against exotic parasitic mites, Africanized bees, viruses, 
brood diseases, pests, pathogens and other conditions. Universities and 
the private sector have substantially scaled back their efforts due to 
a lack of available funds. Moreover, ARS laboratories lack sufficient 
resources even for current honeybee research priorities. For example, 
we understand that ARS currently lacks funds even to test high priority 
CCD samples that ARS scientists have already collected.
    In past fiscal years, this subcommittee has supported the 
beekeeping industry through funding for agricultural research 
activities. As you know, in the fiscal year 2003 cycle, the 
subcommittee rejected a proposal that would have resulted in the 
elimination of three ARS laboratories that are indispensable to the 
survival of our industry. Again, in the fiscal year 2009 omnibus 
appropriations bill, Congress preserved funding for the Weslaco, Texas 
ARS research facility despite a recommendation in the President's 
fiscal year 2009 budget proposal to close that facility. In fiscal year 
2010, the Congress increased funding by $1.5 million for the ARS labs 
and added $3 million for the work of the Department of Agriculture's 
Cooperative State Research, Education, and Extension Services (CSREES), 
now known as the National Institute of Food and Agriculture (NIFA). 
Those were wise decisions. Without these labs, and without the work of 
other researches supported by Federal funds, the American honeybee may 
not have survived the various above-mentioned threats, and the 
infrastructure would not exist today upon which an aggressive research 
campaign may continue to be built.
    For fiscal year 2011, President Obama has requested an additional 
$500,000 in increased funding for CCD research. We thank the President 
and we urge this subcommittee to continue in its long demonstrated 
commitment to addressing the crises before us by supporting the 
President's request and adding desperately needed funding. However, we 
believe strongly that an increase of $500,000 does not come close to 
meeting the growing demands imposed by CCD and other threats to 
honeybee health. Instead, to meet the needs of the American beekeeper 
and to stave off a pending agricultural crisis for growers and 
consumers, we respectfully urge the subcommittee to appropriate at 
least $3 million in additional funding for ARS laboratories and to 
achieve across the agencies a full $20 million in new research funds 
dedicated toward CCD and other honeybee health research projects. As 
you know, the 2008 Farm Bill included an authorization of $100 million 
over 5 years for such initiatives. A $20 million appropriation in 
fiscal year 2011 would reflect that authorization, and would provide 
government, academic and private sector researchers with the vital 
resources needed to combat CCD and other emerging threats and assure 
long-term honeybee health. Such funding would be a prudent investment 
in the U.S. farm infrastructure, which, along with U.S. consumers, 
derives tens of billions of dollars of benefit directly from honeybee 
pollination. While we do not otherwise specify the locations of the 
labs where this research is to be performed, we do believe it is 
important that at least $500,000 be provided in support of the genome 
work done at the Baton Rouge lab on Russian bees that have developed a 
resistance to varroa mites.

            THE IMPORTANCE OF HONEYBEES TO U.S. AGRICULTURE

    Honeybees are an irreplaceable part of the U.S. agricultural 
infrastructure. Honeybee pollination is critical in the production of 
more than 90 food, fiber, and seed crops and directly results in more 
than $15 billion in U.S. farm output. The role of pollination is also 
vital to the health of all Americans given the dietary importance of 
fruit, vegetables and nuts, most of which are dependent on pollination. 
Honeybees are necessary for the production of such diverse crops as 
almonds, apples, oranges, melons, blueberries, broccoli, tangerines, 
cranberries, strawberries, vegetables, alfalfa, soybeans, sunflower, 
and cotton, among others. In fact, honeybees pollinate about one-third 
of the human diet.
    The importance of this pollination to contemporary agriculture 
cannot be understated. In fact, the value of such pollination is vastly 
greater than the total value of honey and wax produced by honeybees. 
More than 140 billion honeybees, representing 2 million colonies, are 
transported by U.S. beekeepers across the country every year to 
pollinate crops.
    The importance of honeybees--and the U.S. honey industry which 
supplies the honeybees for pollination--is illustrated by the 
pollination of California's almond crop. California grows 100 percent 
of the Nation's almond crop and supplies 80 percent of the world's 
almonds. Honeybees are transported from all over the Nation to 
pollinate California almonds, which are the largest single crop 
requiring honeybee pollination. More than 1 million honeybee hives are 
needed to pollinate the 600,000 acres of almond groves that line 
California's Central Valley. Thus, nearly half of the managed honey-
producing colonies in the United States are involved in pollinating 
California almonds in February and March of each year.
    Many other U.S. agriculture producers require extensive honeybee 
pollination for their crops, including blueberry, avocado, and cotton 
growers. Cattle and farm-raised catfish industries also benefit from 
honeybee pollination, as pollination is important for growing alfalfa, 
which is fodder for cattle and farm-raised fish. As OnEarth magazine 
has noted, the fate of California's almond crop rests ``on the slender 
back of the embattled honeybee.'' Over the past year, both beekeepers 
and almond growers have struggled to meet almond crop pollination 
demands, forced to bring inadequate bee supplies to the crops. Many 
expect that the almond crop will suffer noticeably this season as a 
result, an added drain on the United States economy at a time when we 
can least afford it.

                   ONGOING AND NEW CRITICAL RESEARCH

    Since 1984, the survival of the honeybee has been threatened by 
continuing infestations of mites, pests and other conditions for which 
appropriate controls must continually be developed by scientists at the 
four ARS laboratories and other highly qualified research institutions. 
CCD, while the most severe, is only the most recent threat to the bee 
population. Unfortunately, the specific cause of CCD and treatments for 
it remain elusive to both beekeepers and scientists. The research is 
complex, as there are a wide range of factors that--either alone or in 
combination--may be causes of this serious condition. Areas for 
research include the stress from the movement of bees to different 
parts of the country for extensive commercial pollination, the 
additional stress of pollinating crops, such as almonds, that provide 
little honey to the bees, and the impact of certain crop pesticides and 
genetic plants with altered pollination characteristics. Continuing 
infestations of the highly destructive Varroa mite, combined with other 
pests and mites, are also thought to compromise the immune systems of 
bees and may leave them more vulnerable to CCD. At the same time, 
researchers will need to focus on the many reported instances in which 
otherwise healthy, pest-free, stationary bee colonies are also 
suffering collapse or problems with reproduction.
    AHPA, other industry officials, and leading scientists believe that 
an important contributing factor in the current CCD crisis is the 
longstanding, substantial under funding of U.S. bee research. In recent 
years, the Federal Government has spent very modest amounts at each ARS 
Honeybee Research Laboratory--for a sector that directly contributes 
$15 billion per year to the U.S. farm economy. Worse still, funding 
amounts have not been increased to account for growing bee health 
concerns. USDA honeybee researchers remain under funded. As noted 
above, current funding shortages have caused important CCD-related bee 
samples to go untested. Additionally, despite their ability to provide 
significant and innovative new research on emerging bee threats, 
researchers in the academic and private sectors also lack the necessary 
financial resources for these vital tasks. With the emergence of CCD, 
there is a serious gap between the threats faced by U.S. honeybees and 
the capacity of our researchers to respond. Closing this gap will 
require significant new resources. It is estimated that each new 
scientist, technician and the support materials that they need will 
cost an additional $500,000 per year.
    To address these challenges, the AHPA respectfully requests an 
appropriation of at least $20 million to combat CCD and conduct other 
essential honeybee research. These funds should be allocated in 
accordance with authorizations provided in the 2008 Farm Bill. 
Specifically, the funds should be divided among the following 
Department of Agriculture agencies and programs: (1) the four ARS Bee 
Research Laboratories for new personnel, facility improvement, and 
additional research; (2) the Animal and Plant Health Inspection Service 
to conduct a nationwide honeybee pest and pathogen surveillance 
program; (3) the ARS Area Wide CCD Research Program divided between the 
Beltsville, MD and the Tucson, Arizona research laboratories to 
identify causes and solutions for CCD in affected States; (4) the NIFA 
to fund extension and research grants to investigate the following: 
honey bee biology, immunology, and ecology; honey bee genomics; native 
bee crop pollination and habitat conservation; native bee taxonomy and 
ecology; pollination biology; sub-lethal effects of insecticides, 
herbicides, and fungicides on honey bees, native pollinators, and other 
beneficial insects; the effects of genetically modified crops, 
including the interaction of genetically modified crops with honey bees 
and other native pollinators; honey, bumble, and other native bee 
parasites and pathogens effects on other native pollinators; and (5) 
the additional ARS research facilities in New York, Florida, 
California, Utah, and Texas for research on honey and native bee 
physiology, insect pathology, insect chemical ecology, and honey and 
native bee toxicology.
    Since the beekeeping industry is too small to support the cost of 
needed research, publicly funded honeybee research by the four ARS bee 
laboratories is absolutely key to the survival of the U.S. honey and 
pollination industry. For example, the pinhead-sized Varroa mite is 
systematically destroying bee colonies and prior to CCD was considered 
the most serious threat to honeybees. Tracheal mites are another 
contributing factor to the loss of honeybees. Tracheal mites infest the 
breathing tubes of adult honeybees and also feed on the bees' blood. 
The mites essentially clog the bees' breathing tubes, blocking the flow 
of oxygen and eventually killing the infested bees.
    The industry is also plagued by a honeybee bacterial disease that 
has become resistant to antibiotics designed to control it, and a 
honeybee fungal disease for which there is no known treatment. These 
pests and diseases, especially Varroa mites and the bacterium causing 
American foulbrood, are now resistant to chemical controls in many 
regions of the country. Further, we have seen that these pests are 
building resistance to newly developed chemicals more quickly than in 
the past, thereby limiting the longevity of chemical controls.
    As previously mentioned, the cause or causes of CCD are unknown. 
Thus, pest, viral and bacterial disease research takes on added 
significance. First, pest, viral and bacterial disease research may 
itself provide insight into the discovery of CCD's root causes. Second, 
whether pests and bacterial diseases are directly a factor in CCD or 
not, they nonetheless continue to threaten bee population health and 
vitality. Given CCD's particularly devastating impact on bee 
populations, even greater emphasis must be placed on mitigating known 
threats in order to achieve the overall goal of ensuring adequate honey 
production and pollination capacity.
    In addition to pest and bacterial disease research, the sequencing 
of the honeybee genome in 2006 at Baylor University has opened the door 
to creating highly effective solutions to bee health and population 
problems via marker-assisted breeding. Marker-assisted breeding would 
permit the rapid screening of potential breeders for specific DNA 
sequences that underlie specific desirable honeybee traits. The 
sequenced honeybee genome is the necessary key that will allow 
scientists to discover the important DNA sequences. Additional funding 
for the ARS research laboratory at Baton Rouge, in particular, will 
assure that this critically important work goes forward.
    Because of the sequenced honeybee genome, it is now possible to 
apply molecular biological studies to the development of marker-
assisted breeding of honeybees. Marker-facilitated selection offers the 
first real opportunity to transform the beekeeping industry from one 
that has been dependent upon a growing number of expensive pesticides 
and antibiotics into an industry that is free of chemical inputs and 
that is economically viable in today's competitive global marketplace. 
Additionally, this new sequencing capacity may prove central to 
identifying both the causes of and solutions to CCD. New pathogens have 
recently been identified in the United States that are thought to be 
associated with CCD. Genetic research can be utilized to determine 
whether a comparative susceptibility to such pathogens exists among 
various bee populations, and if so, can serve to facilitate breeding 
with enhanced resistance.
    The four ARS Honeybee Research Laboratories work together to 
provide research solutions to problems facing businesses dependent on 
the health and vitality of honeybees. The key findings of these 
laboratories are used by honey producers to protect their producing 
colonies and by farmers and agribusinesses to ensure the efficient 
pollination of crops. Each of the four ARS Honeybee Research 
Laboratories (which are different in function from the ARS Wild Bee 
Research Laboratory at Logan, Utah) focuses on different problems 
facing the U.S. honey industry and undertakes research that is vital to 
sustaining honey production and assuring essential pollination services 
in this country. Furthermore, each of the four ARS Honeybee Research 
Laboratories has unique strengths and each is situated and equipped to 
support independent research programs which would be difficult, and in 
many cases impossible, to conduct elsewhere. Given the multi-factor 
research capacity needed to address the scourge of CCD, it is important 
that each research laboratory is permitted to continue and expand upon 
its unique strengths.
    And while to date the four ARS Research Laboratories have been the 
backbone of American Honeybee research, we do not believe that those 
four facilities alone--even when fully funded--will have the capacity 
to meet today's research needs. This is why, after analyzing the new 
and serious threats to U.S. honeybees, Congress, representatives of the 
farm sector and leading researchers developed the research priorities 
that were incorporated into the 2008 Farm Bill. In addition to 
increased resources for ARS research, these experts pressed for new 
funding, through NIFA, for government, academic and private sector 
research. They also urged new bee surveillance programs through the 
Animal and Plant Health Inspection Service to address the alarming lack 
of accurate information about the condition of U.S. bee colonies. 
Unfortunately, these programs are not yet funded to the level expected 
in 2008.
    One particularly effective way of adding needed capacity and 
innovative expertise in the effort to ensure honeybee health would be 
to reinvigorate private sector and university bee research initiatives. 
For many years, these sectors played a vital role in honeybee research, 
and many leading universities have significant bee research 
capabilities. In recent years, non-Federal agency research has 
substantially declined due to a lack of support for such initiatives. 
Funding the 2008 Farm Bill authorization of $10.26 million for the 
Department of Agriculture's NIFA would go a long way toward achieving 
this goal.
    NIFA is tasked with advancing knowledge for agriculture by 
supporting research, education, and extension programs. Funds may be 
channeled through the Department to researchers at land-grant 
institutions, other institutions of higher learning, Federal agencies, 
or the private sector. The requested funding for NIFA would provide 
important flexibility in allocating badly needed Federal dollars among 
government, private sector and university researchers. The recipients 
would provide more widespread research on honeybee biology, immunology, 
ecology, and genomics, pollination biology, and investigations into the 
effects on honeybees of potentially harmful chemicals, pests, other 
outside influences, and genetically modified crops. The result of such 
funds would be to ensure flexible financing with a comprehensive plan 
for battling CCD, pests, and other ongoing and future honeybee threats.
    Additionally, the same coalition of experts identified a need for a 
honeybee pest and pathogen surveillance program. Although significant 
data exists on American honey production, comparably less and lower 
quality data exists on beekeepers and bees. Providing $2.31 million 
under the 2008 Farm Bill authorizations to the Animal and Plant Health 
Inspection Service at the Department of Agriculture would allow the 
Department to utilize such data to better respond to pest and disease 
outbreaks, and to compile data that may better enable prediction of new 
threats. Given the roughly $15 billion added to the U.S. farm economy 
each year by honeybees, this is certainly a worthwhile investment in 
the honeybee and pollinator industry.
    Finally, these longstanding and worsening threats have caused great 
strain on the American honeybee to the point where some U.S. honey 
producers have felt the need--for the first time in over 80 years--to 
import bees from New Zealand and Australia for pollination. Ironically, 
scientists and industry leaders have since concluded that there is 
likely a correlation between the introduction of foreign bees and the 
emergence of CCD, the newest and greatest challenge to the survival of 
American honeybees. While researchers continue in their exhaustive 
effort to isolate the specific causes of CCD, the AHPA strongly urges 
the Congress to work with the Department of Agriculture to ensure that 
exotic bees and the threats they pose are restricted from importation 
into the United States. Under current law, the Department of 
Agriculture has the duty to refuse a shipment's entry into the United 
States where the export certificate identifies a bee disease or 
parasite of concern to the United States or an undesirable species or 
subspecies of honeybee, including the Oriental honeybee or ``Apis 
cerana'' (7 CFR  322.6(a)(2) (2004)). In the case of Australian 
honeybees, officials in that country have detected the presence of the 
Apis cerana honeybee throughout their country, a species known to 
harbor parasitic mites and possibly viruses that do not currently exist 
in the United States.

                               CONCLUSION

    In conclusion, we wish to thank you again for your past support of 
honeybee research and for your understanding of the critical importance 
of these ARS laboratories. By way of summary, in fiscal year 2011, the 
American Honey Producers Association strongly encourages at least $20 
million in funding for CCD and other honeybee research spread among the 
four ARS Honeybee Research Laboratories, other ARS research facilities 
across the country, the NIFA at the Department of Agriculture, and the 
Animal and Plant Health Inspection Service. Specifically, we urge at 
least an additional $3 million in funding for the ARS research 
laboratories in fiscal year 2011, including a $500,000 increase for 
high priority, specialized genetic work with Russian bees to be 
performed at the Baton Rouge laboratory. AHPA also opposes importation 
of Australian honeybees. Only through critical research can we have a 
viable U.S. beekeeping industry and continue to provide stable and 
affordable supplies of bee-pollinated crops, which make up fully one-
third of the U.S. diet. I would be pleased to provide answers to any 
questions that you or your colleagues may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium 
                                (AIHEC)

    On behalf of the American Indian Higher Education Consortium 
(AIHEC) and the 32 tribal Colleges and Universities (TCUs) that compose 
the list of 1994 Institutions, thank you for this opportunity to share 
our funding requests for fiscal year 2011.

                          SUMMARY OF REQUESTS

    We respectfully request the following funding levels for fiscal 
year 2011 for our land grant programs established within the USDA 
National Institute of Food and Agriculture (NIFA) and the Rural 
Development mission area. In NIFA, we request: $8 million for the 1994 
Institutions' competitive Extension grants program; $5 million for the 
1994 Institutions' competitive Research grants program; a minimum of 
$3.342 million for the higher education equity grants; and a $12 
million payment into the Native American endowment fund. In the Rural 
Development--Rural Community Advancement Program (RCAP) we request that 
the separate TCU Essential Community Facilities grants program be 
retained and that $5 million be appropriated each year for the next 5 
fiscal years to help the TCUs to address the critical facilities and 
infrastructure needs that increase their capacity to participate fully 
as land grant partners.

             BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES

    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
148 years after enactment of the first land grant legislation, the 1994 
Institutions, as much as any other higher education institutions, 
exemplify the original intent of the land grant legislation, as they 
are truly community-based institutions.
    The 1994 Institutions are accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. The vast majority of the 1994 Institutions 
is located on Federal trust territory. Therefore, States have no 
obligation, and in most cases, provide no funding to TCUs. In fact, 
most States do not even provide funds to our institutions for the non-
Indian State residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 21 percent 
of their student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their State land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of TCUs, American Indian 
communities are availing themselves of resources needed to foster 
responsible, productive, and self-reliant citizens. It is essential 
that we continue to invest in the human resources that will help open 
new avenues to economic development, specifically through enhancing the 
1994 Institutions' land grant programs, and securing adequate access to 
information technology.

   1994 LAND GRANT PROGRAMS--AMBITIOUS EFFORTS TO ECONOMIC POTENTIAL

    In the past, due to lack of expertise and training, millions of 
acres on Indian reservations lay fallow, under-used, or had been 
developed through methods that caused irreparable damage. The Equity in 
Educational Land Grant Status Act of 1994 is addressing this situation 
and is our hope for the continued improvement of our reservation lands. 
Our current land grant programs remain small, yet very important to us. 
With increased capacity and program funding, we will become even more 
fundamental contributors to the agricultural base of the Nation and the 
world.
    Competitive Extension Grants Programs.--In fiscal year 2011, the 
1994 Institutions' extension programs, which strengthen communities 
through outreach programs designed to bolster economic development; 
community resources; family and youth development; natural resources 
development; agriculture; as well as health and nutrition education and 
awareness, is our first priority for increased 1994 land grant program 
funding. Last year, $4,321,000 was appropriated for the 1994 
Institutions' competitive grants for extension services. Without 
adequate funding the 1994 Institutions' ability to maintain existing 
programs and to respond to emerging issues such as food safety and 
homeland security, especially on border reservations, is severely 
limited. Increased funding is needed to support these vital programs 
designed to address the inadequate extension services that have been 
provided to Indian reservations by their respective State programs. It 
is important to note that the 1994 extension program is not duplicative 
of the Federally Recognized Tribes Extension Program, formerly known as 
the Extension Indian Reservation Program (EIRP) that is administered by 
State land grant institutions. Funding for extension services at the 
1994 Land Grants is extremely modest. The 1994 Institutions have 
applied their resourcefulness for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Two examples of effective 1994 extension programs 
include: Extension activities at the College of Menominee Nation 
(Wisconsin) strengthen the sustainable economic development potential 
of the Menominee, Stockbridge-Munsee, Oneida, and Potawatomi 
Reservations and surrounding communities by increasing distance 
education capacity, conducting needs assessment studies, providing 
workshops and training sessions, and offering strategic planning 
assistance. The Agriculture & Natural Resources Outreach Education 
Extension program at Oglala Lakota College (South Dakota), which is 
located in one of the poorest counties in the Nation, utilizes 
education to promote the environmentally sound use of agriculture and 
natural resources by Lakota people. The program coordinates activities 
between the college's Agriculture and Natural Resources department, 
reservation schools, other tribal departments, South Dakota State 
University, and county extension programs. Specific issues addressed by 
the program include poverty, isolation, health, cultural dissonance, 
and land use practices by Lakota landowners. To continue and expand 
successful programs like these, we request that the subcommittee 
support this competitive program by appropriating $8 million to sustain 
the growth and further success of these essential community-based 
extension programs.
    1994 Competitive Research Program.--As the 1994 Institutions enter 
into partnerships with 1862/1890 land grant institutions through 
collaborative research projects, impressive efforts to address economic 
development through natural resource management have emerged. The 1994 
Research Grants Program illustrates an ideal combination of Federal 
resources and TCU-State institutional expertise, with the overall 
impact being far greater than the sum of its parts. We recognize the 
severe budget constraints under which Congress is currently 
functioning. However, the $1,805,000 appropriated in fiscal year 2010 
is grossly inadequate to develop capacity and conduct necessary 
research at our institutions. The 1994 Research Program is vital to 
ensuring that TCUs may finally be recognized as full partners in the 
Nation's land grant system. Currently, many of our institutions are 
conducting applied research, yet finding the resources to continue this 
research to meet their communities' needs is a constant challenge. This 
research authority opens the door to funding opportunities to maintain 
and expand the vital research projects begun at the 1994 Institutions, 
but only if adequate funds are secured and sustained. A total research 
budget of $1,805,000, for which all 32 of the 1994 Institutions 
compete, is vastly insufficient. Priority issue areas currently being 
studied at the 1994 Institutions include: sustainable agriculture and 
forestry; biotechnology and bioprocessing; agribusiness management and 
marketing; plant propagation, including native plant preservation for 
medicinal and economic purposes; animal breeding; aquaculture; human 
nutrition (including health, obesity, and diabetes); and family, 
community, and rural development. For example, the Standing Rock Sioux 
Reservation, home to Sitting Bull College and located in North and 
South Dakota, is often characterized by high unemployment and health 
concerns. The college is conducting a research project to develop a 
natural beef enterprise on the reservation that will maximize use of 
existing natural resources, allow American Indian students to be 
actively involved in research and to produce a healthier agricultural 
product for the community. This project combines expertise from Sitting 
Bull College, North Dakota State University, and the USDA-ARS Northern 
Great Plains Research Laboratory. We strongly urge the subcommittee to 
fund this program at a minimum of $5 million to enable our institutions 
to develop and strengthen their research capacity.
    1994 Institutions' Educational Equity Grant Program.--This program 
is designed to assist 1994 Institutions with academic programs. Through 
the modest appropriations first made available in fiscal year 2001, the 
TCU Land Grant Institutions have begun to support courses and to 
conduct planning activities specifically targeting the unique 
educational needs of their respective communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; and food science and nutrition. This last 
category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. We 
request that the subcommittee appropriate a minimum of $3,342,000 to 
allow the 1994 Institutions to build upon their course offerings and 
successful activities that have been launched.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Institutions' account remain with the U.S. Treasury. 
Only the annual interest yield, less the USDA's administrative fee, is 
distributed to the 1994 Institutions. The latest annual interest yield 
for the 1994 Institutions' Endowment was $3,822,753 and after the USDA 
NIFA claimed its standard 4 percent administrative fee, $3,667,843 was 
distributed among the eligible 32 TCU Land Grant institutions by 
statutory formula. Once again, the administrative fee paid to USDA-NIFA 
to distribute the funds was larger than the amount paid to all but nine 
of the 1994 Institutions--in other words the USDA-NIFA fee is higher 
than the amount paid to 72 percent of 1994 Institutions.
    Many of the colleges have used the endowment interest in 
conjunction with the 1994 Equity Grant funds to develop and implement 
their academic programs. As earlier stated, TCUs often serve as primary 
community centers and although conditions at some have improved 
substantially, many of the colleges still operate under less than 
satisfactory conditions. In fact, most of the TCUs continue to cite 
improved facilities as one of their top priorities. Several of the 
colleges have indicated the need for immediate new construction and 
extensive renovations to replace buildings that have long exceeded 
their effective life spans and to upgrade existing facilities to 
address accessibility, modernization, and safety concerns.
    Endowment payments appropriated increase the size of the corpus 
held by the U.S. Treasury and thereby increase the base on which the 
annual interest yield is determined for distribution to the 1994 
Institutions. These additional funds would continue to support faculty 
and staff positions and program needs within 1994 agriculture and 
natural resources departments, as well as to help address the critical 
and very expensive facilities needs at these institutions. In order for 
the 1994 Institutions to become full partners in this Nation's great 
land grant system, we need and, through numerous treaty obligations, 
are due the facilities and infrastructure necessary to fully engage in 
education and research programs vital to the future health and 
wellbeing of our reservation communities. We respectfully request the 
subcommittee fund the fiscal year 2011 endowment payment at $12 million 
and strongly urge the subcommittee to review the USDA-NIFA 
administrative fee and consider directing the department to reduce said 
fee for the Tribal College Endowment program so that more of these 
already limited funds can be utilized by the 1994 Institutions to 
conduct essential community-based programs.
    Tribal Colleges and Universities Essential Community Facilities 
Program (Rural Development).--The President's fiscal year 2011 budget 
request recommends eliminating the TCU Essential Community Facilities 
grant program. The reason stated for this drastic move is an ill-
considered one. The administration has stated that the TCUs' grant 
program should be eliminated because TCUs can participate in other 
programs offered in the Community Facilities Loan and Grant Programs 
(CFLGP). However, history indicates otherwise. Before the TCU-specific 
grant funding was made available, only 3 of the 32 TCU 1994 
Institutions received awards under CFLGP. That constitutes successful 
participation by less than 10 percent of the eligible TCUs. By 
contrast, in fiscal year 2001 when the TCU-specific program launched, 
22 TCU Land Grant Institutions, or almost 70 percent of the 1994 
Institutions received grant awards. We strongly urge the subcommittee 
to reject the proposal to eliminate this critical program and to 
designate $5 million each year for the next 5 fiscal years to afford 
the 1994 Institutions the means to aggressively address critical 
facilities and infrastructure needs, thereby allowing them to better 
serve their students and their respective communities.

                               CONCLUSION

    The 1994 Institutions have proven to be efficient and effective 
vehicles for bringing educational opportunities to American Indians and 
the promise of self-sufficiency to some of this Nation's poorest and 
most underserved regions. The modest Federal investment in the 1994 
Institutions has already paid great dividends in terms of increased 
employment, access to higher education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense. 
American Indian reservation communities are second to none in their 
potential for benefiting from effective land grant programs and, as 
earlier stated, no institutions better exemplify the original intent of 
the land grant concept than the 1994 Institutions.
    We appreciate your support of the 1994 Institutions and recognition 
of their role in the Nation's land grant system. We ask you to renew 
your commitment to help move our students and communities toward self-
sufficiency. We look forward to continuing our partnership with you, 
the U.S. Department of Agriculture, and the other members of the 
Nation's great land grant system--a partnership with the potential to 
bring equitable educational, agricultural, and economic opportunities 
to Indian Country.
    Thank you for this opportunity to present our funding proposals to 
the subcommittee. We respectfully request your continued support and 
full consideration of our fiscal year 2011 appropriations 
recommendations.
                                 ______
                                 

  Prepared Statement of the American Museum of Natural History (AMNH)

                                OVERVIEW

    Recognizing its shared commitment to developing a science-literate 
workforce, ensuring the safety of the Nation's agriculture and food 
supply, improving nutrition and health, and protecting the Nation's 
natural resources and environment, the American Museum of Natural 
History seeks $1.5 million in fiscal year 2011 to partner with the USDA 
in a multifaceted initiative focused on food, nutrition, and the 
critical issues underlying our Nation's food supply.

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY

    Since its founding in 1869, the American Museum of Natural History 
(AMNH) has pursued its joint mission of scientific investigation and 
public education. More than 200 Museum scientists conduct 
groundbreaking research in fields as diverse as systematic and 
conservation biology, astrophysics, and Earth and biodiversity 
sciences, and AMNH's collections of some 32 million specimens and 
cultural artifacts provide an irreplaceable record of life on Earth. 
The work of the Museum's scientific staff fuels exhibitions and 
educational programming, the goal of which is to communicate to a broad 
public of varying ages and backgrounds about basic scientific concepts, 
scientific research, and new discoveries.
    Each year, the Museum welcomes and engages some 4 million on-site 
visitors--more than half of them children--with exhibitions and 
programs that are grounded in current scientific research. In addition, 
the Museum reaches beyond its walls to communities across the country 
and around the world, through extensive touring of its award-winning 
exhibitions and space shows, broad-ranging online initiatives, and 
publishing ventures. Because of the scale and scope of this audience, 
the Museum is uniquely positioned to have a significant impact on 
millions of children, families, teachers, adults, and students from 
preschool to graduate school.
    AMNH has a particularly successful history of translating current 
research for public audiences of all ages through its internationally 
renowned exhibitions. Most recently, the Museum's environmental 
science-based exhibits Water: H<INF>2</INF>O=Life and Climate Change: 
The Threat to Life and a New Energy Future helped illuminate these 
critical issues for millions, making important scientific research 
relevant to the daily lives of our audiences.

          INITIATIVE TO ADVANCING PUBLIC UNDERSTANDING OF FOOD

    Drawing on these unique strengths, AMNH seeks to collaborate with 
the USDA on an initiative that will both research and educate the 
public about food, nutrition, and the Nation's food supply. Through the 
proposed initiative, AMNH would develop an exhibition supported by 
associated educational and research programs:
  --Food Exhibition.--The production, consumption, and nutrition of 
        food in the United States today is perhaps more complex than 
        ever before, but despite its national importance there is 
        currently no major educational exhibition on the subject. 
        AMNH's Food exhibition would address these issues relevant to 
        U.S. concerns, answering such questions as: ``What is the role 
        of food in health?''; ``What is the environmental impact of the 
        food we eat?''; and ``How will we feed a growing population?''. 
        The exhibit would address several topics key to scientific 
        literacy, potentially including the biology behind the food we 
        eat, the process of agriculture, the role of food in overall 
        nutrition, the manufacturing and safety of food, and the impact 
        on the environment. An engaging mix of hands-on elements, 
        interactive media installations, live demonstrations, and food 
        tastings would immerse visitors in the core educational topics 
        of the exhibit. Through AMNH's traveling program, the 
        exhibition would reach millions in New York, across the 
        country, and abroad.
  --Educational Programs and Resources.--AMNH proposes to develop a 
        suite of educational resources associated with the topic of 
        food and nutrition, including professional development programs 
        for teachers and multimedia presentations for its Science 
        Bulletins program, which presents current science news to 
        Museum and online audiences at AMNH and other venues. Through 
        documentary feature stories about scientists in the field and 
        regular brief research updates using scientific visualizations 
        and imagery, Science Bulletins present the latest developments 
        in the fields of astrophysics, Earth science, biodiversity, 
        human biology, and evolution. All Science Bulletins content is 
        produced through the collaboration of in-house scientists, 
        writers, producers, and designers, and through partnerships 
        with other institutions worldwide.
  --Research.--Museum scientists carry out cutting-edge research in 
        areas such as environmental and systematic biology, 
        conservation and biodiversity, and comparative genomics. Their 
        research will serve as the springboard for all programs, 
        resources, and activities developed.
    Requested funding, which the Museum will leverage with support from 
non-Federal as well as other Federal sources, will be used for 
exhibition development and production, traveling exhibition 
implementation, associated online educational resources, multimedia 
presentations on food and nutrition, and related environmental and 
biodiversity research. In addition to the creation of these resources 
and the expansion of the public's understanding of these issues, it is 
anticipated that this project will support 3 full-time and 30 part-time 
positions.
                                 ______
                                 

   Prepared Statement of the American Public Power Association (APPA)

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities in 49 States (all but 
Hawaii). Public power utilities deliver electricity to one of every 
seven electricity consumers (approximately 45 million people), serving 
some of the Nation's largest cities. However, the vast majority of 
APPA's members serve communities with populations of 10,000 people or 
less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2011 funding priorities within the jurisdiction of the 
Agriculture, Rural Development, Food and Drug Administration and 
Related Agencies Subcommittee.

DEPARTMENT OF AGRICULTURE: RURAL UTILITY SERVICE RURAL BROADBAND GRANTS 
                               AND LOANS

    APPA supports the Administration's efforts to provide funding in 
the amount of $418 million for the Rural Utilities Service Rural 
Broadband Grants and Loans. APPA believes it is important to provide 
incentives for the deployment of broadband to rural communities, many 
of which lack broadband service. Increasingly, access to advanced 
communications services is considered vital to a community's economic 
and educational development. In addition, the availability of broadband 
service enables rural communities to provide advanced healthcare 
through telemedicine and to promote regional competitiveness and other 
benefits that contribute to a high quality of life. Approximately one-
fourth of APPA's members are currently providing broadband service in 
their communities. In addition, several APPA members are planning to 
apply for RUS broadband loans to help them finance their future 
broadband projects.

              DEPARTMENT OF AGRICULTURE: TITLE IX PROGRAMS

    APPA supports full funding of programs authorized in title IX of 
the 2008 Farm Bill for energy efficiency, renewable energy and 
biofuels. APPA is extremely pleased that the President's budget 
provides an additional $39.3 million in addition to the $70 million in 
discretionary funding for the Rural Energy for America Program (REAP). 
In addition, we request the full authorized level of $5 million for the 
Rural Energy Self-Sufficiency program, and $5 million for the Community 
Wood Energy Program for fiscal year 2011.
                                 ______
                                 

  Prepared Statement of the American Sheep Industry Association (ASI)

    The American Sheep Industry Association (ASI) is a federation of 
State-member associations representing 82,000 sheep producers in the 
United States. The sheep industry views numerous agencies and programs 
of the U.S. Department of Agriculture (USDA) as important to lamb and 
wool production. Sheep industry priorities include expanding sheep 
operations and inventory by strengthening the infrastructure of the 
industry primarily through the programs of USDA, APHIS, Veterinary 
Services and Wildlife Services, as well as targeted research and 
education. The industry and the benefits to rural communities will be 
strengthened by fully funding critical predator control activities and 
national animal health efforts and by expanding research opportunities.
    We appreciate this opportunity to comment on the USDA fiscal year 
2011 budget.

           ANIMAL AND PLANT HEALTH INSPECTION SERVICE (APHIS)

Scrapie
    ASI believes that the Administration's request of $18,043,000 is an 
inadequate level of funding if scrapie eradication is to be achieved in 
the reasonably near future. ASI urges the subcommittee to increase the 
funding for scrapie eradication by at least $10.64 million beyond the 
Administration's request for a total of $28.687 million in fiscal year 
2011.
    Scrapie is one of the families of transmissible spongiform 
encephalopathies (TSEs), all of which are the subject of great 
importance and interest around the globe. USDA/APHIS, along with the 
support and assistance of the livestock and allied industries, began an 
aggressive program to eradicate scrapie in sheep and goats 10 years 
ago. The plan USDA/APHIS is implementing is designed to eradicate 
scrapie by 2010. Through a subsequent monitoring and surveillance 
program, the United States could be declared scrapie-free by 2017 
according to the APHIS plan. Becoming scrapie-free will have a 
significant positive economic impact to the livestock, meat and feed 
industries and, of course, rid our flocks and herds of this fatal 
animal disease. Through a concerted effort, USDA/APHIS, along with 
industry and State regulatory efforts, is in the position to eradicate 
scrapie from the United States with a multi-year attack on this animal 
health issue. As the collective and aggressive efforts of Federal and 
State eradication efforts have included expanded slaughter surveillance 
and diagnostics, the costs are, as expected, escalating.
    ASI has made it clear to USDA that the appropriations requests of 
recent years have been inadequate for successful eradication of 
scrapie. When the scrapie eradication program was first being 
implemented in 2000, USDA/APHIS projected the cost to be $170,259,083 
over the first 10 years of the eradication program with a cost peak of 
$31,974,354 in the fifth year and projected funding decreasing 
afterwards. At the end of 2009, $145,996,000 (not counting rescissions) 
has been spent and peak-year funding was only $18.6 million in 2006 
(see exhibit A ``Scrapie Funding Comparisons'').
    The program cannot function properly without sufficient funding for 
diagnostic support, surveillance and enforcement of compliance 
activities that are dedicated to scrapie eradication as an animal 
health priority. We believe that funding the scrapie eradication 
program at an appropriate level will help provide for an achievable 
eradication program and eventually scrapie-free status for the United 
States. As with the other successful animal disease eradication 
programs conducted by USDA/APHIS in the past, strong programs at the 
State level are key. Without strong, appropriately funded scrapie 
programs at the State level, eradication will not become a reality. 
Only a fraction of what USDA/APHIS projected for State scrapie 
cooperative agreements has been spent. In addition to recommending 
funding of $28.687 million for fiscal year 2011, we urge the 
subcommittee to send a clear message to USDA to (A) make scrapie 
eradication a top disease eradication priority within USDA and the 
APHIS field staff with a focus on animal identification compliance and 
enforcement; and (B) increase the slaughter-surveillance numbers so 
that the disease can be found and dealt with wherever it resides.

                      WILDLIFE SERVICES OPERATIONS

    With well over one-quarter million sheep and lambs lost to 
predators each year, the Wildlife Services (WS) program of USDA-APHIS 
is vital to the economic survival of the sheep industry. The value of 
sheep and lambs lost to predators and predator control expenses are 
second only to feed costs for sheep production. Costs associated with 
depredation currently exceed our industry's veterinary, labor and 
transportation costs.
    WS cooperative nature has made it the most cost effective and 
efficient program within the Federal government in the areas of 
wildlife management and public health and safety. WS has more than 
2,000 cooperative agreements with agriculture, forestry groups, private 
industry, State game and fish departments, departments of health, 
schools and county and local governments to mitigate the damage and 
danger that the public's wildlife can inflict on private property and 
public health and safety.
    ASI strongly disagrees with the Administration's proposed reduction 
of nearly $7 million in WS operations from the $77,780,000 enacted for 
2010 to the proposed $71,000,000 and urge the subcommittee to fund WS 
operations at least at the 2010 level of $77,780,000. Such a reduction 
would place a larger burden on the livestock industry, as well as 
county and State government cooperators which already fund far more of 
the livestock protection programs than Federal sources.
    We urge the subcommittee to increase funding at the livestock 
industry's request for the western region of Wildlife Services 
operations of livestock protection to $19 million and the eastern 
region to $3.6 million.
    The western region requires an additional $8.3 million to meet the 
$19 million federally sourced level of the livestock protection 
program. Federal funding available for livestock predation management 
to the western region program has remained relatively constant for 
approximately 16 years. WS program cooperators have been forced to fund 
more and more of the costs of the program. The Federal base funding for 
WS western region has increased only 5.6 percent in the past 10 years 
while cooperative funding has increased 110 percent. This increase has 
primarily come from individual livestock producers, associations, 
counties and States.
    The eastern region requires $3.6 million of increased 
appropriations to meet the needs of the 11 States that participate in 
livestock protection programs with only $878,000 in current funding 
($650,000 of which is non-Federal). The $3.6 million needed for the WS 
eastern region would help fund livestock predation protection programs 
in Pennsylvania, Virginia, West Virginia, Mississippi, Minnesota, 
Michigan, Florida, Ohio, Tennessee, Kentucky, and Wisconsin.
    Additionally, new Federal mandates and program investments such as 
narrow-banding of radios, computer record keeping and compliance with 
the Endangered Species Act are requiring a larger portion of the 
already stretched budget and negatively impacting the amount of 
livestock predation management work that WS can conduct.
    We encourage and support continued recognition in the 
appropriations process of the importance of aerial hunting as one of WS 
most efficient and cost-effective core programs. It is used not only to 
protect livestock, wildlife and endangered species but is a crucial 
component of the WS rabies control program.
    Similar to the increasing needs in the aerial hunting program, we 
encourage continued emphasis in the programs to assist with management 
of wolf depredation in the States of Montana, Idaho, Wyoming, 
Minnesota, Wisconsin, Michigan, New Mexico and Arizona. Additionally, 
program expenses are expected to increase in the States surrounding the 
Montana, Idaho and Wyoming wolf populations.

                 WILDLIFE SERVICES METHODS DEVELOPMENT

    The sheep industry considers control of canid predation on sheep as 
a major concern and believes an array of control tools and 
methodologies, which includes predacides, is critical. Weather 
conditions, topography, different species of predators, vegetation 
cover and government regulations all pose situations in which one tool 
may not work for an area or period and another tool must be employed. 
The Administration's proposed reduction from $18,630,000 to $16,064,000 
is not supported by the cooperators of the program.
    The USDA, APHIS, WS, Methods Development Center is currently 
evaluating a theobromine and caffeine mixture as a possible tool for 
predation management. The mixture induces mortality in coyotes with 
minimal morbidity. The mixture is selectively toxic to canids and is 
present in high concentrations in the extract of tea, coffee and cocoa 
plants. Because theobromine and caffeine are readily available to 
persons and pets, the medical community has developed antidotes. The 
Agency estimates that it will cost $1.5 million to complete field 
studies and other EPA registration requirements. ASI urges the 
subcommittee to recommend funding for this research and registration 
effort in the fiscal year 2011 budget.

                 FARM AND FOREIGN AGRICULTURAL SERVICES

Foreign Agricultural Service (FAS)
    The sheep industry participates in FAS programs such as the Market 
Access Program (MAP), Quality Samples Program (QSP) and the Foreign 
Market Development Program (FMD). ASI strongly supports appropriations 
at the full authorized level for these critical FAS programs. ASI is 
the cooperator for American wool and sheep pelts and has achieved solid 
success in increasing exports of domestic product. Exports of American 
wool have increased dramatically with approximately 60 percent of U.S. 
production now competing overseas.

             NATURAL RESOURCES CONSERVATION SERVICE (NRCS)

    ASI urges increased appropriations for the range programs of the 
Soil Conservation Service to benefit the private range and pasture 
lands of the United States with conservation assistance. We support the 
budget item and recommend an increased level for the Grazing Lands 
Conservation Initiative, which ASI and other livestock and range 
management organizations have worked jointly with to address this 
important effort for rangelands in the United States.

                   RESEARCH, EDUCATION AND ECONOMICS

    Our industry is striving to be profitable and sustainable as a user 
of and contributor to our natural resource base. Research, both basic 
and applied, and modern educational programming is essential if we are 
to succeed. We have been disappointed in the decline in resources USDA 
has been targeting toward sheep research and outreach programs. In 
order for the sheep industry to continue to be more globally 
competitive, we must invest in the discovery and adoption of new 
technologies for producing, processing and marketing lamb and wool. We 
urge the subcommittee to recommend a bold investment in sheep and wool 
research.
Agricultural Research Service (ARS)
    Infectious Diseases and the Domestic-Wildlife Interface project is 
a top priority to address as it is one of the most pressing issues 
facing the U.S. sheep industry. ASI strongly endorses a request for 
appropriations to fund this project as do the numerous State sheep 
producer associations and the Wild Sheep Foundation. This vital 
research will help resolve one of the more important issues of the 
western sheep industry.
    The research funding is targeted toward the development of methods 
to control infectious diseases at the domestic-wildlife interface with 
specific focus on bighorn sheep health and species compatibility. These 
funds are to be directed to ARS's Animal Disease Research Unit that is 
co-located with the University of Idaho and Washington State 
University. The funds are to be used in collaborative research efforts 
with those institutions, the U.S. Sheep Experiment Station in Dubois, 
Idaho, and in collaboration with other agencies as appropriate.
    The request will provide for acquisition of genetic and disease 
transmission details leading to the development of vaccines, which are 
critical for the continued grazing of sheep on public lands and healthy 
bighorn herds. $900,000 is requested for fiscal year 2011 to be 
directed to the Animal Disease Research Unit, ARS-USDA, co-located at 
the University of Idaho and Washington State University to develop 
methods to control infectious diseases at the domestic animal interface 
with specific focus on bighorn sheep health and species compatibility.
    We continue to vigorously support the administration's funding of 
research concerning emerging and exotic diseases. Emerging and exotic 
diseases continue to have significant impact on industry global 
competitiveness due to animal health and trade issues related to 
endemic, exotic and wildlife interface disease issues. The continued 
and expanded support of animal disease research is urgently needed to 
protect the U.S. livestock industry. Scrapie, the transmissible 
spongiform encephalopathy of sheep, remains an industry priority. We 
respectively request that the subcommittee urge ARS to continue 
important research aimed at rapid diagnostic methods and the role of 
other small ruminants as environmental sources of the TSE agent in 
transmission of TSEs within the United States and the world to further 
understand the basis of genetic resistance and susceptibility to this 
devastating disease.
    A virtual map of the sheep genome has been completed. A more 
complete sheep genome sequence is now essential because, as expected, 
there are significant inconsistencies in the virtual map that will 
hinder the use of SNPs in animal or population evaluations. The USDA 
Animal Genomics Strategic Planning Task Force recently released a 
``Blueprint for USDA Efforts in Agricultural Animal Genomics.'' In this 
document, it is stated: ``. . . sheep . . . should have a high quality 
draft genome sequence (approximately 6X). This level of genome sequence 
quality is necessary for accurate functional genomics studies as well 
as comparative analyses.'' By investing in sequencing the sheep genome 
now, the United States helps insure our competitive position in the 
global marketplace for sheep, wool and their products. A much needed 
AFRI grant was awarded in 2009 for the purpose of further sequencing 
the sheep genome. We urge the subcommittee to remind USDA/ARS that 
sheep genome sequencing should be a high priority within its program to 
help assure the completion of the effort in a timely manner.
    Due to the extreme importance of agricultural genomics in enhancing 
the global competitiveness of sheep production and the recent progress 
toward fully sequencing the sheep genome, we respectively request that 
this initiative be expanded within ARS to include sheep genomics. 
Endemic, exotic and domestic agricultural animal wildlife interface 
infectious diseases continue to impose significant impact on the 
economy of animal agriculture and the related food supply. Most 
recently the presumed infectious disease risk associated with contact 
between domestic and bighorn sheep has led to significant economic 
hardship. Genomics represents a unifying tool for many scientific 
disciplines and is capable of providing research resolutions to the 
most difficult disease and resulting economic losses. Genomic research 
efforts should be directed to the early determination of which sheep 
are susceptible to disease and responsible for economic losses. High 
throughput genomics has ushered in a new era of unifying research 
regarding the ability to link control of chronic, economically 
important diseases such as OPPV and important production traits.
    Research into Johne's disease has received additional funding 
through ARS over the past several years with a focus on cattle. Johne's 
disease is also endemic in the U.S. sheep population and is not well 
understood as a sheep disease. The same food safety concerns exist in 
both sheep and cattle. Other countries are also very concerned about 
Johne's in sheep. We urge the subcommittee to send a strong message to 
ARS that Johne's disease in sheep should receive more attention with an 
emphasis on diagnostics.
    In response to USDA's strategic goals of expanding opportunities 
for bio-energy and bio-based products, we request that the subcommittee 
recommend $400,000 as a targeted increase for the USDA/ARS Eastern 
Regional Research Center (ERRC) at Wyndmoor, Pennsylvania, to be 
directed toward research on wool at the molecular level focusing on 
anti-microbial properties, flame retardation and enhancement of fiber 
properties through enzyme treatments targeting high priority military 
needs and other niche market applications for consumers.
National Institute of Food and Agriculture (NIFA)
    The Minor Use Animal Drug Program has had great benefit to the U.S. 
sheep industry. The research under this category is administered as a 
national program, NRSP-7, cooperatively with FDA/CVM to provide 
research information for the approval process on therapeutic drugs that 
are needed. The mission of the Minor Use Animal Drug Program/NRSP-7 is 
to identify animal drug needs for minor species and minor uses in major 
species, to generate and disseminate data for safe and effective 
therapeutic applications and to facilitate FDA approval for drugs 
identified as a priority for a minor species or minor use. The program 
is funded through a USDA Special Research Grant administered by NIFA. 
The program also receives in-kind support from several sources 
including the institutions conducting the research (e.g., State 
Agriculture Experiment Stations), animal producer groups through 
contributions of animals for research, and pharmaceutical companies. 
Without this program, American sheep producers would not have effective 
products to keep their sheep healthy. We urge the subcommittee to fund 
the NRSP-7 program at the level of $1 million for 2011.
    On-going funding for the Food Animal Residue Avoidance Databank 
(FARAD) program is critically important for the livestock industry in 
general and especially for ``minor species'' industries, such as sheep, 
where extra-label use of therapeutic products is more the norm rather 
than the exception. We urge the subcommittee to recommend that funding 
be restored for this program at least at the level of $1.5 million in 
2011 to help meet the needs of the animal industries. FARAD provides 
veterinarians the ability to accurately prescribe products with 
appropriate withdrawal times protecting both animal and human health as 
well as the environment.
    On-going research to improve value quantification and marketing of 
wool is critically important to the sheep and wool industry.
    The Livestock Marketing Information Center (LMIC) is a unique and 
very effective cooperative effort. This is not a State specific effort; 
it operates as a national virtual ``Center of Excellence'' for 
extension education, research and public policy. Members of LMIC 
represent 26 Land Grant Universities, six USDA agencies and a variety 
of associate institutions. In conjunction with the USDA's Economic 
Research Service (ERS), this cooperative effort started in the mid-
1950s. This effort is an integral part of U.S. livestock marketing and 
outlook programs for cattle, hogs, sheep, dairy and poultry. Demands on 
the LMIC staff continue to increase from other USDA agencies, Land 
Grant Universities, State governments, commodity associations and 
directly from producers. We strongly urge that funding should be 
reinstated under NIFA at least at the 2006 level of $194,000 for LMIC 
in fiscal year 2011.
Food and Drug Administration, Center for Veterinary Medicine
    The Minor Use and Minor Species (MUMS) Animal Health Act of 2004 
included a provision to make competitive grants available to fund 
studies to support new animal drug approval for new animal drug 
products for minor use and minor species indications that have already 
obtained ``designated'' status. This grants program parallels the human 
orphan drug grants program. The final rule became effective October 
2007 for the administration of this program. All drugs labeled for 
sheep fall under the minor-use category, therefore, this program should 
be very helpful to our industry. ASI urges Congress' support for $1 
million for the MUMS grants program.

                 EXHIBIT A--SCRAPIE FUNDING COMPARISONS
------------------------------------------------------------------------
                                               APHIS
                  Year                    projections in  Funds received
                                               2000        by APHIS \1\
------------------------------------------------------------------------
2000....................................  ..............     $12,991,000
2001....................................      $6,310,778       3,024,000
2002....................................      20,000,000       9,122,000
2003....................................      20,438,943      15,373,000
2004....................................      30,056,592      15,607,000
2005....................................      31,974,354      17,768,000
2006....................................      30,794,507      17,911,000
2007....................................      26,994,991      18,487,000
2008....................................      26,994,991      17,980,000
2009....................................      26,994,991      17,733,000
2010....................................      26,994,991      17,906,000
------------------------------------------------------------------------
\1\ Does not count rescissions.

                                 ______
                                 

   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM), which includes 40,000 
members, is pleased to submit the following testimony on the fiscal 
year 2011 appropriation for the Food and Drug Administration (FDA). The 
ASM recommends $2.857 billion for the FDA in fiscal year 2011, a $495 
million increase above the Agency's fiscal year 2010 funding. The ASM 
is pleased to see that the Administration's proposed fiscal year 2011 
FDA budget of $2.5 billion represents an increase of about 6 percent 
over fiscal year 2010. This is noteworthy at a time when most funding 
for Federal programs is being frozen or cut. We also appreciate that 
after years of chronic underfunding, the FDA budget has recently begun 
to recover. However, given the FDA's substantial role in protecting the 
American consumer, the ASM urges Congress to consider increasing the 
FDA's budget above that requested by the President to a level of $2.857 
billion.
    The FDA's expansive mission is to assure the safety, efficacy and 
security of human and veterinary drugs, biological products, medical 
devices, the Nation's food supply, cosmetics and products that emit 
radiation; to facilitate innovation in food safety and affordable 
medicine; and to provide the public with science based information to 
help Americans make wise choices and safeguard public health. Because 
of its oversight of drugs, biologics, foods and laboratory tests, FDA 
plays a critical role in the development and dissemination of medical 
countermeasures for biological, chemical and radiologic attacks.
    Despite some recent improvements, serious deficiencies in FDA 
resources persist. These problems have been highlighted by several 
critical external reviews in recent years most prominently its own 
Science Board Report released in 2007, FDA Science and Mission at Risk. 
Products regulated by the FDA arrive from more than 150 countries, with 
nearly 20 million shipments of food, devices, drugs and cosmetics 
expected this year (compared to about 6 million 10 years ago). Faced 
with a flood of consumer goods, the FDA's import inspectors (fewer than 
500) typically examine only 1 percent of shipments at U.S. ports of 
entry. The FDA's own science expertise has failed to keep up with 
innovations in product research and development. Outmoded computing 
also complicates oversight by the FDA. Informed by expert advice, the 
FDA is currently attempting to transform food safety, better protect 
patients from unsafe products and revitalize its own scientific 
enterprise. Important steps have been taken to upgrade information 
technology and management at the FDA. However, without more substantial 
increases in funding, the Agency will barely keep up much less 
strengthen the scientific infrastructure that is so badly needed. In 
the fiscal year 2011 budget, the ASM believes that two areas need 
particular attention: one is to assure sufficient resources to continue 
efforts to transform Agency approaches to food safety and the second is 
to enable FDA to implement new mechanisms to enhance scientific 
expertise and capacity in key areas.

                        TRANSFORMING FOOD SAFETY

    The FDA needs additional resources to overhaul and modernize its 
food safety efforts. Regulation of the U.S. food supply is a monumental 
challenge for the FDA foods program, which has responsibility for $417 
billion worth of domestic food, $49 billion worth of imported food, and 
$62 billion worth of cosmetics per year. As a result, the FDA oversees 
about 156,000 registered U.S. food establishments, 230,700 registered 
foreign facilities, and more than 3,500 cosmetic firms. The ASM 
appreciates efforts made last year by the Congress and the 
Administration to improve the safety and security of the Nation's food 
supply. The President's new Food Safety Working Group reaffirmed 
previous external reviews of FDA regulatory activities that supported 
upgrading food safety through a greater focus on prevention as a 
priority, better surveillance and enforcement capabilities, and 
improved response to identified threats.
    Advances in food safety require funding levels that can sustain 
long term efforts, such as the Agency's wide-ranging fight against 
Salmonella species that are responsible for more than a million 
illnesses each year and the leading cause of foodborne illness in the 
United States. Salmonella enteritidis (SE) accounts for about 17 
percent of all salmonellosis in humans, with shell eggs and broiler 
chickens the most common sources. One high priority FDA goal is to 
decrease, by the end of 2011, the annual number of illnesses and 
outbreaks linked to SE in this country by 10 percent. In July 2009, the 
FDA published its final rule on preventing SE in shell eggs, affecting 
production on farms, storage and transportation and requiring producers 
to maintain compliance records. The FDA expects the new regulation to 
prevent 79,000 cases of SE associated foodborne illness and 30 deaths 
each year, with eventual annual savings in medical costs estimated to 
be $1.4 billion or more.
    The FDA also continues to strengthen its collaborations with other 
government agencies, academic and industry entities and professional 
organizations, toward enhancing its own performance. Last year, the 
Agency opened its Reportable Food Registry electronic portal, where 
food manufacturers are required to alert the FDA within 24 hours if 
they suspect a health threat is linked to their products. In the case 
of food product tracing, the Agency announced in November its 
partnership with the USDA to expedite improvements in tracing specific 
foods throughout the supply chain, and solicited public input. A week 
later, CFSAN released a report on food product tracing that it had 
commissioned from the Institute of Food Technologists to help redesign 
its food surveillance. In fiscal year 2009, the FDA awarded 83 grants 
worth $17.5 million to State and local groups to build food safety 
initiatives; for example, three States received funding for Food 
Protection Rapid Response Teams especially trained to respond to food 
hazard incidents. Grants support FDA's ongoing strategy to integrate 
food safety among Federal, State, and local partners. This program 
needs to be expanded to additional States as quickly as possible.

                   BUILDING FDA SCIENCE & TECHNOLOGY

    The FDA's capacity in regulatory science, which underlies all 
Agency activities, has been under great scrutiny since the FDA Science 
Board's highly critical 2007 review of FDA science and technology. 
There is an indisputable need for leading edge science and technology 
capabilities within the FDA to provide the careful review of today's 
innovative medical products and burgeoning food supply that the public 
expects and demands. Last year, the FDA approved the first DNA test for 
two specific human papillomaviruses, while other FDA researchers showed 
that a nanotechnology based test could detect anthrax bacteria in 
quantities 100 times lower than current tests. Both diagnostics rely on 
emerging technologies that certainly must be within a flexible FDA 
portfolio of scientific expertise.
    The ASM applauds the Administration's $25 million budget request 
for advancing regulatory science, the first time that fiscal support 
has been explicitly designated for building FDA science. Solid science 
must be the basis for the numerous FDA rules and guidelines promulgated 
to industry here and abroad. The request includes funding for 
nanotechnology safety review, a stem cell initiative, and multi-faceted 
support for FDA's Critical Path Initiative and its new Office of 
Science and Innovation. However, the ASM believes more needs to be done 
in this area.
    The FDA Science Board review of Science and Technology at FDA (FDA 
Science and Mission at Risk, 2007) found that the FDA mission was at 
risk for the following key reasons:
  --The FDA scientific base has eroded and its scientific 
        organizational structure is weak at a time when there have been 
        major scientific advances and when new products and 
        technologies under the regulatory authority are more 
        scientifically complex.
  --The FDA scientific workforce does not have sufficient capacity and 
        capability.
  --The FDA information technology (IT) infrastructure to support the 
        scientific base is inadequate.
    Food safety, just one mission area for the FDA, is an important 
case study demonstrating the urgent need to build regulatory science at 
the FDA. Food safety today is largely based on 1970-1980s science and 
1950s regulation approaches. It is critical that policy, science and 
public health experts collaborate to identify where the science and 
practice of regulation is significantly limited for food safety and 
then develop and implement a strategic road map to mitigate these 
deficiencies. In some cases that will require the development and 
support for new technologies that have little to no commercial or 
academic value so they remain ``orphan technologies'' and in other 
cases it will require translating new science (industry, academic or 
government supported) into more effective regulations and then provide 
training for how to apply and enforce these new regulations.
    The 2007 Science Board report recognized that the FDA is confronted 
by many such regulatory challenges and recommended the development of a 
FDA Centers of Excellence network to strengthen the science capability 
of the FDA and to discover solutions for complex problems such as food 
safety. At the time of its release the ASM strongly endorsed the 
recommendations of the Science Board report and believes that 
establishment of Academic Centers of Excellence in Regulatory Science 
will rapidly and efficiently build FDA science capability and capacity 
through three types of activities: research and innovation, regulatory 
services and education. All the activities of the Centers of Excellence 
would be grounded in a well developed and disciplined applied research 
agenda in regulatory and information sciences.
    Regulatory and information sciences are the foundation of the FDA's 
mission. Regulatory science is a broad term concerning drug, food and 
other product regulations, regulatory standards, law and procedures 
across many disciplines. It is a systemized body of knowledge 
(practiced by FDA and similar regulatory agencies worldwide) comprising 
public protection oriented medical product regulations, policy and 
decisions using scientific methods employing empirical and causal 
evidence utilized in the evaluation and approval of all the products 
that FDA regulates. The activities for which FDA needs such expertise 
are wide-ranging: the review and assessment of laboratory data; animal 
and human clinical data; methods development; facilities inspection; 
and development of technical and scientific standards for preclinical 
assessment, product development, postmarket surveillance, 
manufacturing, packaging standards, food safety standards and food 
processing technologies. FDA must have the scientific expertise, 
resources and collaborations to ensure that the regulatory scientific 
research priorities are addressed and that services will be delivered 
that provide a basis to: (1) Improve capacity for safety and efficacy 
evaluations and monitoring of candidate and licensed products, (2) 
Modernize current regulatory pathways, and (3) Develop new regulatory 
pathways where there are currently none.
    The lack of new science capability or capacity places the FDA's 
mission at risk, and may actually stall progress in development of 
products at the leading edge of innovation. This compromises not only 
the public health mission since the Agency cannot effectively regulate 
products built on emerging science, but it also compromises the 
Agency's ability to support innovation in the industries and markets 
that it regulates. These logistical, technical and budgetary 
limitations will continue to constrain, rather than enable, the 
innovation on which advances in healthcare delivery and public safety 
depend.
    The recognition that the FDA is a science based and ultimately 
science dependent organization is the basis for the 2007 Science Board 
report recommendation for the creation of a Center of Excellence in 
Regulatory Science within the Agency and an external network of Centers 
of Excellence in regulatory and information science. A network of 
Centers of Excellence based in research intensive institutions could 
deliver the scientific and informatics expertise that will result in 
the tools, methods and information that the FDA requires to fulfill its 
mission. The network will provide opportunity for the FDA to harness 
the substantial potential of the academic sector where many of the 
innovations and early applications of emerging technologies are likely 
to occur. Each center might bring to the FDA a particular incremental 
expertise. For example, centers might add critical mass to the FDA 
mission by providing expertise in novel approaches to trial design; to 
the development of novel informatics tools or to various aspects of 
translational therapeutics wherein preclinical and clinical information 
studies are designed and integrated to enhance prediction of efficacy 
and safety of novel therapeutics. In addition to providing critically 
important access to safety data, patients, health outcomes, enabling 
technologies and process or technical expertise, the centers will 
enable targeting limited resources to the research priorities that are 
most relevant to the health and public safety challenges faced by the 
FDA. Importantly, these will allow the Agency to address important 
safety issues and opportunities for disease intervention in a proactive 
rather than a reactive manner.
    Our best estimate for the cost of the Centers of Excellence network 
is $650 million over 5 years, or $150 million per year. As a first 
step, the Administration and Congress should consider implementing the 
internal FDA Center ($70 million in fiscal year 2011) and establishing 
at least four of the external Centers ($40 million or $10 million per 
center in fiscal year 2011). The ASM encourages Congress and the 
Administration to begin the establishment of the Centers of Excellence 
network in fiscal year 2011.
    Thank you for the opportunity to comment on the FDA budget.
                                 ______
                                 

   Prepared Statement of the American Society for Microbiology (ASM)

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
Department of Agriculture (USDA) science programs. The ASM is the 
largest single life science organization in the world with more than 
40,000 members. The ASM mission is to enhance the science of 
microbiology, to gain a better understanding of life processes, and to 
promote the application of this knowledge for improved health and 
environmental well-being.
    USDA supported scientific research strengthens food safety, water 
quality, agriculture production, clean energy, and animal and public 
health. The ASM endorses the Administration's proposed fiscal year 2011 
funding for the USDA's science and food safety programs, including $1.5 
billion for the National Institute for Food and Agriculture (NIFA), and 
about $1 billion for the Food Safety and Inspection Service (FSIS). The 
ASM strongly endorses the proposed $429 million for the USDA's recently 
created NIFA Agriculture and Food Research Initiative (AFRI) as an 
important step, but encourages Congress to fund AFRI at its fully 
authorized level of $700 million.
    Agriculture in the United States produces $300 billion worth of 
products each year. USDA employees including, scientists, inspectors, 
educators, and regulatory experts, deliver public services through more 
than 300 programs here and abroad. Increased funding will strengthen 
programs focused on threats to the U.S. food supply, as well as climate 
change and other environmental challenges facing our agribusiness 
sectors. Funding also will sustain the USDA support for basic and 
applied research at the Nation's universities and land grant 
institutions.
    The recently established, National Institute of Food and 
Agriculture, funds research, education, and extension activities that 
advance knowledge critical to U.S. public health and our national 
economy. The USDA also formulated new food safety rules in 
collaboration with the Food and Drug Administration (FDA). These 
science based actions align with the Agency's fiscal year 2011 strategy 
to focus USDA research on high impact solutions like radically improved 
food safety and innovations in biofuels and climate stress resistant 
crops. The ASM urges the Congress to recognize the importance of USDA 
science with strong fiscal year 2011 funding levels.

                   IMPROVING FOOD SAFETY AND SECURITY

    The USDA is responsible for ensuring that our meat, poultry, and 
processed egg products are safe, wholesome and properly labeled. These 
products, from both domestic and foreign sources, account for roughly 
20 percent of the U.S. food supply. There are innumerable possibilities 
for contamination within the massive system that feeds Americans, who 
spend nearly $1.2 trillion on food annually. Disease outbreaks from 
foodborne microbial pathogens persist as sporadic public health crises, 
and about 76 million new cases of food related illness are reported 
each year, with likely many more unreported. A new report estimates the 
total economic impact of U.S. foodborne illness to be a combined $152 
billion annually.
    In 2007, and again in 2009, the Government Accountability Office 
(GAO) listed ``revamping Federal oversight of food safety'' among its 
high risk areas demanding immediate Federal attention and resources. 
Last September, another GAO report called for the FDA and USDA to close 
gaps in their collaborative oversight of imported foods. In 2009, the 
new Food Safety Working Group (FSWG) co-chaired by the Secretaries of 
the USDA and the Department of Health and Human Services recommended 
actions that will shape how USDA science affects future food safety 
standards. The proposed fiscal year 2011 USDA budget would specifically 
address several key FSWG findings, including the development of better, 
high tech tools to reduce the prevalence of pathogens, as well as risk 
based methods for targeting inspections of USDA regulated products.

         THE NATIONAL INSTITUTE OF FOOD AND AGRICULTURE (NIFA)

    The ASM supports the Administration's proposed $1.5 billion for the 
USDA's National Institute of Food and Agriculture. In 2009, the newly 
created NIFA replaced the Cooperative State Research, Education, and 
Extension Services (CSREES) program as the USDA's extramural research 
enterprise. Its principal responsibility is linking together a diverse 
nationwide collection of Federal, State, and higher education entities 
involved in agriculture related research. Like its predecessor, NIFA 
supports new scientific discoveries and provides Federal leadership in 
key areas including food safety, climate change, clean energy and 
public education.
    The NIFA's mission is to fund projects at the State and local level 
through 60 target driven programs, which have been grouped by the USDA 
into a dozen national emphasis areas: agricultural systems; animals; 
biotechnology and genomics; economics and community development; 
education; environment and natural resources; food, nutrition and 
health; international; pest management; plants; technology and 
engineering; and families, youth and communities.

            AGRICULTURE AND FOOD RESEARCH INITIATIVE (AFRI)

    The ASM strongly supports the Administration's proposed budget for 
AFRI of $429 million, an increase of $166 million from fiscal year 
2010. AFRI, the Nation's leading funding source for basic and applied 
sciences in agriculture, was created by the Food, Conservation, and 
Energy Act of 2008 as a competitive grants program for research, 
extension, and education activities. The ASM supports the end goal of 
funding AFRI to its fully authorized level of $700 million annually and 
stresses that a fiscal year 2011 budget of $429 million is only a 
crucial first step.
    Funding for AFRI will support critical USDA initiatives on 
biofuels, global climate change, international food security, food 
safety, and nutrition.
    Through competitive, peer reviewed grants, AFRI promotes creative 
solutions across disciplines throughout the United States. Grants 
awarded in 2010 will be larger in size and longer in duration than 
previous CSREES awards, matching resources with the magnitude of 
challenges currently faced by agriculture.
    USDA supported discoveries have significant health and economic 
impact. In 2009, researchers reported a protein in Clostridium bacteria 
that protects spores of the foodborne pathogen from heat and sodium 
nitrite, imparting resistance to common food hygiene techniques. C. 
perfringens is the second most common bacterial cause of foodborne 
illness in the United States, affecting as many as 250,000 people each 
year. A new poultry vaccine against Campylobacter bacteria, using 
genetically engineered Salmonella to induce antibodies in chicks, is 
under development. Campylobacter is the most common bacterial cause of 
U.S. foodborne illness, infecting an estimated 2.4 million people 
annually. Contaminated poultry is a significant reservoir for human 
infection and, more importantly, infection by drug resistant strains of 
Campylobacter.
    Multi-year AFRI grants awarded in 2009 include projects to (1) 
sequence the genomes of Chlamydiaceae bacterial species that cause 
severe livestock diseases and significant annual economic losses, to 
inform drug and vaccine development; (2) determine the fate of 
antibiotic containing poultry litter applied to pastures as fertilizer, 
testing antibiotic levels in surface waters affected by runoff; and (3) 
develop a new soil-phosphorus index based on molecular biological and 
biochemical assays of soil microorganisms. Current AFRI funding 
opportunities for fiscal year 2011 include projects in carbon cycle 
science and in risk assessment of biotechnology generated agricultural 
products.

                   AGRICULTURE RESEARCH SERVICE (ARS)

    Since fiscal year 2009, the ARS budget has decreased by more than a 
staggering thirteen percent. This disturbing trend is continued with 
the Administration's proposed fiscal year 2011 budget for the ARS of 
$1.22 billion, a further 4 percent reduction from fiscal year 2010. ASM 
strongly urges Congress to fund the ARS with at least $1.4 billion in 
fiscal year 2011 to begin to regain the critical research capabilities 
lost with previous reductions.
    The ARS is the Department's principal in house research component, 
with an 8,000 member workforce that includes 2,100 scientists from 
diverse disciplines. It maintains about 1,200 research projects at more 
than 100 U.S. locations and four overseas laboratories. Its national 
research programs include food safety, global climate change, 
bioenergy, and food animal production, among others. To strengthen its 
own research efforts, ARS has a long history of partnering with 
commercial firms to transfer ARS technologies to the marketplace.
    The ARS portfolio also utilizes international research partnerships 
to address global issues. Food safety and food security, for example, 
must be dealt with far beyond the United States, which imports 15-20 
percent of its food supply and is vulnerable to migrating pathogens. 
Current collaborations include an Argentina study of immune responses 
to the virus that causes foot and mouth disease in cattle, to identify 
the genetic basis of why some animals are more resistant to disease; 
and the creation of a virtual Joint U.S.-Sino Food Safety Research 
Center with Shanghai Jiao Tong University, to promote training and 
research programs in China and the cooperative development of new 
analysis methods like biomarker screening for Salmonella and other 
foodborne pathogens.

               FOOD SAFETY AND INSPECTION SERVICE (FSIS)

    The ASM endorses the Administration's fiscal year 2011 budget for 
USDA's Food Safety and Inspection Service of $1.05 billion. Sufficient 
funding for the FSIS is crucial to successful oversight of the Nation's 
food supply.
    The FSIS provides the USDA regulatory force to ensure the safety of 
domestic and imported meat, poultry and egg products (liquid, frozen, 
and dried). It employs about 9,250 full-time staff, including more than 
8,500 deployed in the field. FSIS personnel inspect more than 6,280 
federally regulated meat, poultry, and egg product plants in 50 States, 
Puerto Rico, Guam and the U.S. Virgin Islands. In fiscal year 2009, 
those facilities processed 150 million head of livestock and nine 
billion poultry carcasses.
    The FSIS science-based inspection system, the Hazard Analysis and 
Critical Control Point (HACCP) system, emphasizes prevention and 
control of foodborne threats to public health. FSIS inspectors verify 
that individual food producers and processors meet HACCP requirements, 
determined by routine sampling of products for pathogens like 
Salmonella and Listeria monocytogenes. In fiscal year 2009, FSIS 
personnel condemned more than 527 million pounds of poultry and 227,000 
head of livestock during pre and post slaughter inspections. That year, 
more than 3.4 billion pounds of meat and poultry were presented to FSIS 
for import from 20 eligible countries, with 6.6 million pounds refused 
entry or rejected post inspection. Also in fiscal year 2009, there were 
71 recalls of FSIS regulated commercial products, totaling 9.5 million 
pounds; and 27 recalls were linked to contamination by Listeria and E. 
coli bacteria.

                      EDUCATION AND COLLABORATION

    The USDA is the lead Federal agency for higher education in the 
food and agriculture sciences; in particular, NIFA's Office of Higher 
Education Programs links teaching, research and extension activities. 
Its mission includes the training of food and agriculture scientists 
and other professionals. Ten percent of the AFRI budget is marked for 
USDA Strengthening Awards and postdoctoral fellowships. The proposed 
fiscal year 2011 budget allocates up to $5 million for pre- and 
postdoctoral grants, designed to create ``a cadre of NIFA Fellows'' as 
agriculture's next generation of scientists, educators, and 
practitioners. Many of the AFRI funded programs require that education 
and outreach activities be integrated with research components.
    Fiscal support for USDA science yields benefits that reach far 
beyond the Agency's immediate responsibilities. The Agency routinely 
establishes collaborations with other Federal agencies, State agencies, 
land grant universities, non profit organizations, professional 
societies, commodity groups and grower associations, private industry, 
the military, various foreign government and academic entities, and 
other groups. For example, FSIS participates in the Foodborne Diseases 
Active Surveillance Network with the FDA and Centers for Disease 
Control and Prevention (CDC), and, with the FDA, is responsible for the 
Healthy People 2010 food safety objectives. In October, USDA agreed to 
help FDA personnel develop new safety rules for fresh produce. Last 
year, the FDA and the USDA's Animal and Plant Health Inspection Service 
created an online tool to help farmers and producers identify and fix 
vulnerabilities in their production processes. FSIS will partner with 
other government agencies to provide on-site expertise at the new 
Commercial Targeting and Analysis Center for Import Safety, recently 
opened in Washington, DC, by the U.S. Customs and Border Protection 
agency.
    The proposed fiscal year 2011 USDA budget will support much needed 
improvements in the Agency's ability to carry out its regulatory duties 
more efficiently and more quickly. Computing capabilities will be 
upgraded and expanded within key program areas like FSIS. The USDA 
expects to begin phased in implementation of its Public Health 
Information System (PHIS) in October, automating food safety 
verification and sampling procedures by FSIS personnel. PHIS will link 
in real time with the CDC's PulseNet human outbreak system, addressing 
in part the GAO's criticism of interagency gaps in Federal food 
oversight.

                               CONCLUSION

    The ASM urges Congress to increase research and education funding 
in the USDA budget, and provide at least $1.5 billion for NIFA, at 
least $429 million for AFRI, at least $1.4 billion for ARS, and $1 
billion for FSIS.
    Research in the agricultural and biological sciences is imperative 
to combat current and future threats to human, environmental, plant and 
animal health. The research supported by the USDA should be a priority 
that deserves steady, predictable and sustainable funding; the future 
of our agricultural systems, a basis for human health, relies on it.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the USDA.
                                 ______
                                 

     Prepared Statement of the American Society for Nutrition (ASN)

    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2011 
appropriations for the U.S. Department of Agriculture (USDA) and 
specifically, its research programs. ASN is the professional scientific 
society dedicated to bringing together the world's top researchers, 
clinical nutritionists and industry to advance our knowledge and 
application of nutrition to promote human and animal health. Our focus 
ranges from the most critical details of research to very broad 
societal applications. ASN respectfully requests $108 million in fiscal 
year 2011 for the Human Nutrition Research program at the Agricultural 
Research Service. We request $500 million for the Agriculture and Food 
Research Initiative in fiscal year 2011, which is housed under the 
National Institute of Food and Agriculture (NIFA).
    Basic and applied research on nutrition, food production, nutrient 
composition, food processing and nutrition monitoring is critical to 
American health and the U.S. economy. Awareness of the growing epidemic 
of obesity and the contribution of chronic illness to burgeoning 
healthcare costs has highlighted the need for improved information on 
dietary intake and improved strategies for dietary change. Demand for a 
safer and more nutritious food supply continues to increase. 
Preventable chronic diseases related to diet and physical activity cost 
the economy over $117 billion annually, and this cost is predicted to 
rise to $1.7 trillion in the next 10 years. Nevertheless, funding for 
food and nutrition research at USDA over the past two decades has 
neither kept pace with inflation, nor the growing complexity of our 
food supply and public health needs. This decline in our national 
investment in agricultural research seriously threatens our ability to 
sustain the vitality of food, nutrition and agricultural research 
programs and in turn, threatens the future of our economy and the 
health of our Nation.
    USDA historically has been identified as the lead nutrition agency 
and the most important Federal agency influencing U.S. dietary 
patterns. Through the nutrition and food assistance programs, which 
form roughly 60 percent of its budget, USDA has a direct influence on 
the dietary intake (and ultimately the health) of millions of 
Americans. It is important to understand better the impact of these 
programs on the food choices, dietary intake, and nutritional status of 
those vulnerable populations which they serve. Research is the key to 
achieving this understanding and the foundation upon which U.S. 
nutrition policy is built.
    USDA is in full or in part responsible for the development and 
translation of Federal dietary guidance, implementation of nutrition 
and food assistance programs and nutrition education; and, national 
nutrition monitoring. The USDA Human Nutrition Research programs ensure 
nutrition policies are evidence-based, ensure we have accurate and 
valid research methods and databases, and promote new understanding of 
nutritional needs for optimal health.

                  ARS HUMAN NUTRITION RESEARCH PROGRAM

    ASN's recommendation of $108 million for the Human Nutrition 
Research program at ARS is based on three major components: a requested 
increase by the President for specific projects, funding needs related 
to national nutrition monitoring, and stabilizing, in a graded fashion, 
funding for the six Human Nutrition Research Centers (HNRCs).

                        THE PRESIDENT'S REQUEST

    ASN strongly supports the President's budget request of an 
additional $6.75 million for the Human Nutrition Program under ARS. 
These dollars would be aimed at: supporting key research projects such 
as one studying whether and how American diets adhere to the Dietary 
Guidelines; bolstering the nutrition monitoring program, What We Eat in 
American (WWEIA); and, funding critical updates to www.nutrition.gov, 
which is maintained by the National Agricultural Library.

                     WHAT WE EAT IN AMERICA SURVEY

    In addition to supporting the specific request made in the 
President's budget, ASN urges Congress to consider additional needs 
such as those of the What We Eat in America Survey (WWEIA). WWEIA is 
another example of the unique nutrition research at ARS. This program 
allows us to know not only what foods Americans are eating, but also 
how their diets directly affect their health. This survey is a partner 
to the National Health and Nutrition Examination and Survey (NHANES) 
that is run by the CDC's National Center for Health Statistics. 
Information from the survey guides policies on food safety, food 
labeling, food assistance, military rations, pesticide exposure and 
dietary guidance. In addition to having an impact on billions of 
dollars in Federal expenditures for nutrition assistance programs, the 
survey data leverages billions of private sector dollars allocated to 
nutrition labeling, food product development and production. For 
example, data collected through WWEIA provided critical information to 
the Institute of Medicine expert panel reviewing the WIC food package a 
few years ago. The panel's recommendations to USDA, based on these 
data, guided a revision of the food package. The changes have now been 
implemented and are having a positive influence on the nutritional 
intake of WIC participants.
    Despite its enormous value and importance, WWEIA has been flat-
funded at $11.5 million for over 14 years and is in jeopardy. While we 
are grateful that the President proposed $900,000 for the survey, it 
does not go far enough. The USDA budget for WWEIA should be increased 
two-fold to $23 million to make up for losses to inflation over the 
years and to ensure this program can remain a state-of-the-art, 21st 
century data collection effort. Otherwise, we risk losing this national 
treasure and the essential information it provides.

               SETTING THE STAGE FOR A SUCCESSFUL FUTURE

    USDA has built a program of human nutrition research housed in six 
HNRCs\1\ geographically disperse across the Nation and affiliated with 
the ARS, which links producer and consumer interests and forms the core 
of our knowledge about food and nutrition. More than a decade of flat 
funding at ARS for this program seriously jeopardizes the future of the 
centers, their important research projects, and the critical 
infrastructure provided by the USDA from which the HNRCs and scientists 
benefit. These unique centers are working closely with a wide variety 
of stakeholders to determine just how specific foods, food components, 
and physical activity can act together during specific life-stages 
(e.g. prior to conception, in childhood, in older adult years) to 
promote health and prevent disease. The HNRCs are a critical link 
between basic food production and processing and health, including food 
safety issues. Moreover, the center structure adds value by fully 
integrating a multitude of nutritional science disciplines that cross 
both traditional university department boundaries and the functional 
compartmentalization of conventional funding mechanisms.
---------------------------------------------------------------------------
    \1\ Of the six HNRCs, three are fully administered by ARS and are 
located in Davis, CA; Beltsville, MD; and Grand Forks, ND. The other 
three are administered through cooperative agreements with Baylor 
University Medical Center in Houston, TX; Tufts University in Boston, 
MA; and the University of Arkansas in Little Rock.
---------------------------------------------------------------------------
    In addition to supporting the specific request made in the 
President's budget and additional support for WWEIA, ASN urges Congress 
to consider a renewed commitment to the Human Nutrition Research 
Centers program over the next 5 years that would lead to a doubling of 
its current budget to $180 million by fiscal year 2015.
    An important basic premise of research in the HNRCs is that many 
chronic diseases, such as diabetes and obesity, can be prevented by 
lifestyle issues, the most important of which are: consuming 
appropriate amounts of a well-balanced, healthful diet; and regularly 
engaging in adequate levels of physical activity. Using state-of-the-
art facilities and a concentration of critical interdisciplinary 
scientific teams, the HNRCs are conducting the highest quality 
translational research. Also of importance are the long-term 
experiments involving the derivation of dietary reference intake values 
and nutrient requirements of individuals. Often compared to the 
intramural program at the National Institutes for Health, these centers 
tackle projects that are unlikely to be funded through other means, 
such as through competitive grants or by industry.
    Flat-funding coupled with inflation has led to considerable funding 
deficits that threaten to compromise the Centers' abilities to continue 
their work at the level necessary to solve the significant nutrition 
problems facing our country. For example, the ARS HNRC located at Tufts 
University in Boston, MA has been flat-funded at $15 million since 
2004. The Center today would need over $19 million in funding just to 
keep up with the costs of inflation over the past 6 years--a 28 percent 
increase. The other five centers have had similar flat-funding during 
this time period.
    Beginning next year in fiscal year 2012, the provision of 
approximately $18 million in additional funds each year would result in 
a budget by fiscal year 2015 that is double that of today. By making 
this stepwise commitment to the Human Nutrition Research program, 
Congress would ensure that it, through the six HNRCs, can continue 
current research projects, plan for the future and restore purchasing 
power lost to inflation over a decade of flat budgets.

  AGRICULTURE AND FOOD RESEARCH INITIATIVE COMPETITIVE GRANTS PROGRAM

    The Food, Conservation, and Energy Act of 2008 established the 
Agriculture and Food Research Initiative (AFRI), a new competitive 
grants program authorized at $700 million annually, for research, 
extension, and education in support of our Nation's food and 
agricultural systems within the newly established National Institute of 
Food and Agriculture (NIFA) at USDA. This unique program, the successor 
to USDA's National Research Initiative (NRI) and the Initiative for 
Future Agriculture and Food Systems (IFAFS), takes research and 
innovation beyond the development phase, into implementation through 
contemporary education and extension programs.
    ASN is pleased that the NIFA has identified human nutrition and 
specifically, childhood obesity, as a top priority. AFRI includes 
programs aimed to improve the Nation's nutrition and health which focus 
on two objectives: (1) improving human health by better understanding 
an individual's nutrient requirements and the nutritional value of 
foods; and (2) promoting research on healthier food choices and 
lifestyles. For example, USDA-funded projects funded by the Human 
Nutrition and Obesity program have led to a better understanding of the 
behavioral and environmental factors that influence obesity, and to the 
development and evaluation of effective interventions. Specifically, 
USDA competitive grants have funded nutrition education interventions 
focusing on the reduction of childhood obesity in low-income families.
    ASN believes the program should be funded at its full authorization 
level of $700 million, but we understand that in the current fiscal 
climate, that is unlikely. However, with the Nation and world facing 
unprecedented health, food security and nutrition challenges, now is 
the time to renew investment in our Nation's agricultural research 
enterprise. We applaud the President's strong request of $429 million 
for the program with an additional $50 million for nutrition and 
obesity research, but urge Congress to take this a step further and 
fund AFRI at $500 million in fiscal year 2011. Such funding will not 
only position the program to achieve its full funding as we approach 
the next Farm Bill, but it will provide America's agriculture, food and 
nutrition scientists, land managers and farmers with the tools 
necessary to solve problems and keep the country competitive, while 
also protecting the natural resource base and environment, enhancing 
human nutrition and fostering vibrant rural communities.
    The AFRI and the Human Nutrition Research Program under ARS are 
synergistic programs equally important to the nutrition field, because 
together they provide both the infrastructure and the investigator-
initiated, peer-reviewed research that generates new knowledge and 
allows for rapid progress towards meeting national dietary needs. These 
programs allow USDA to make the connection between what we grow and 
what we eat. And through strategic nutrition monitoring, we learn more 
about how dietary intake affects our health.
    ASN thanks your Committee for its support of the ARS and the AFRI 
Competitive Grants Program.
                                 ______
                                 

 Prepared Statement of the American Society of Plant Biologists (ASPB)

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of increased 
funding for the U.S. Department of Agriculture's (USDA) National 
Institute of Food and Agriculture in fiscal year 2011, specifically 
funding the Agriculture and Food Research Initiative at the requested 
level of $429 million. This testimony highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including a sustainable food supply, climate change and 
energy security. We would like to thank the subcommittee for its 
consideration of this testimony and for recognizing that its support of 
agricultural research is an important investment in America's future.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.

  FOOD, FUEL, CLIMATE CHANGE, AND HEALTH: PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, plant biology research is 
making many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can help the Nation both predict and prepare for the impacts of climate 
change on American agriculture, and it can make major contributions to 
our Nation's efforts to combat global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Plant biology also has much to offer to our basic understanding of 
biology. Many common biological problems can best be addressed using 
plants. For example, plants cells are totipotent and, unlike animal 
cells, can be regenerated to whole plants. Many genetic studies are 
best done in plants due to the ability to analyze large numbers of 
individuals. Fundamental biological discoveries (e.g., the discovery of 
gene silencing) derive from initial studies in plants.
    Despite the fact that plant biology research--the kind of research 
funded by USDA--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like 
energy, agriculture, health and nutrition.

                            RECOMMENDATIONS

    ASPB is in an excellent position to articulate the Nation's plant 
science priorities as they relate to agriculture. Our recommendations 
are as follows:
  --It is ASPB's hope that USDA will have an elevated role to play as 
        part of the expanding Federal research landscape. USDA already 
        funds research that is intended to provide a foundation for 
        creating sustainable food and new energy supplies; however, 
        much higher investment in competitive funding is needed if the 
        Nation is to continue to make ground-breaking discoveries. ASPB 
        strongly encourages the appropriation of at least the requested 
        level of $429 million in fiscal year 2011 for the Agriculture 
        and Food Research Initiative (AFRI). ASPB encourages efforts to 
        fully fund AFRI at the $700 million level, as currently 
        authorized in the Farm Bill. This is justified since AFRI will 
        play a vital role in maintaining America's food and energy 
        security through funding innovative research.
  --There are clear opportunities to use biological systems to 
        ameliorate and respond to climate change, such as through 
        carbon sequestration or modification of plants to resist 
        environmental stress. Therefore, ASPB calls for additional 
        funding focused on studies of the effect of climate change on 
        agricultural cropping systems, basic studies of its effects on 
        plant growth and development, and targeted research focused on 
        modification of plants to resist climate change and for use in 
        carbon sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce change. For example, there is a clear need for 
        additional scientists in the areas of interdisciplinary energy 
        research and plant breeding. USDA has not traditionally been a 
        major funding agency for education and training, other than 
        that which occurs through the funding of individual 
        investigator and center grants. So ASPB applauds the pending 
        inauguration of the NIFA Fellows program. However, given the 
        expected need for additional scientists and engineers who are 
        well-grounded in agriculture research and development 
        activities, ASPB calls for increased funding of specific 
        programs (e.g., training grants and fellowships) that are 
        targeted to provide this needed workforce over the next 10 
        years and to adequately prepare these individuals for careers 
        in the agricultural research of the future. It should be noted 
        that this recommendation is directly in-line with the findings 
        of the recently published National Research Council (NRC) 
        report entitled ``A New Biology for the 21st Century: Ensuring 
        the United States Leads the Coming Biology Revolution.''
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. However, if crops are to 
        be used to their full potential, considerable effort must be 
        expended to improve the understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for additional funding that would be 
        targeted to efforts to increase the utility and agronomic 
        performance of bioenergy crops.
  --The launch of NIFA in 2009 brought to the table numerous 
        representatives from Federal research agencies such as the 
        Department of Energy, National Science Foundation, and the 
        National Institutes of Health that welcomed the new research 
        structure at USDA. With NIFA now in place, USDA should be able 
        to cultivate stronger interagency relationships (as well, 
        potentially, as relationships with private philanthropies) and 
        take on bolder new initiatives to address grand challenges 
        related to food, energy, the environment, and health. Although 
        ASPB is excited to see this new research infrastructure take 
        shape, ASPB wants to ensure that USDA remains committed to 
        individual grantees, in addition to group awards and larger 
        multi-institution partnerships. Truly paradigm shifting 
        discoveries cannot be predicted and can only be insured by 
        maintaining a broad, diverse, and robust research agenda.
  --The Agricultural Research Service (ARS) provides vital research to 
        serve USDA's mission and objectives and the Nation's 
        agricultural research needs. As USDA begins to transform its 
        extramural research programs through NIFA, ASPB asks that the 
        parallel reorganization of the Agency's intramural research 
        programs around the five core challenges identified by the USDA 
        be carried out with due care and diligence. Indeed, ASPB 
        supports continued robust funding for ARS.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future. For more information about the American Society of Plant 
Biologists, please see www.aspb.org.
                                 ______
                                 

                    Letter From Amicus Therapeutics

                                                     June 23, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
    Dear Chairman Kohl: My name is John F. Crowley of Princeton, New 
Jersey. I am honored today to present this letter of testimony to you 
and the Senate Committee on Appropriations, Subcommittee on 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies, and thank you for this opportunity. I do so as the 
chairman and CEO of Amicus Therapeutics of Cranbury, New Jersey, a 
biopharmaceutical company developing orally administered, small 
molecule drugs called pharmacological chaperones, a novel, first-in-
class approach for treating a broad range of diseases with unmet 
medical needs, including lysosomal storage disorders and diseases of 
neurodegeneration. Amicus' lead program is in Phase 3 for the treatment 
of Fabry disease, a rare lysosomal storage disease affecting an 
estimated 10,000 individuals worldwide. I also do so as the father of 
three children, two of whom bravely face each day living with Pompe 
disease, another rare and chronic lysosomal storage disorder. Pompe is 
a progressive, multi-systemic, often fatal muscular disease. From both 
of my perspectives, I am most appreciative that the subcommittee is 
discussing the FDA's review process for orphan products to treat rare 
diseases. The time to consider change and build on past successes could 
not be better.

                        A FOUNDATION OF SUCCESS

    The Orphan Drug Act of 1983 has brought unprecedented success. To 
date, in excess of 1,000 orphan product designations have been granted 
by the FDA's Office of Orphan Product Development and more than 250 
drugs and biologics have received approval by the FDA, collectively 
helping hundreds of thousands of adults and children with rare 
diseases. Among these are accomplishments I have participated in 
professionally and, in the case of my own children, have witnessed most 
personally. There are an estimated 7,000 rare diseases, each one 
affecting 200,000 or fewer individuals, but collectively affecting 25 
million Americans. Unfortunately, treatments exist for only a fraction 
of these devastating, life-threatening diseases leaving so many people 
of all ages with significant unmet medical need. And of those 
treatments, the majority of approved orphan drugs are for those rare 
diseases with higher prevalence.

                      CONTINUED UNMET MEDICAL NEED

    Rare or orphan diseases with lower prevalence remain without 
treatment. Of 588 rare diseases included in a recent study by H.E. 
Heemstra, et al, (Drug Discovery Today 14 (23-24):1166-73), 64 percent 
(115/179) of the more common rare diseases had at least one orphan 
designation, while only 32.5 percent (133/409) of the ultra-rare 
diseases had at least one orphan designation. According to an Orphan 
Drug Development Trends report published by BioMedical Insights in 
January of this year, 83 percent of rare diseases are ultra-rare, yet 
only 11 percent of orphan designations issued between 1997 and 2009 
were for these ``ultra-rare'' diseases (144/1,310). What do these 
numbers translate to for the average patient family in the rare disease 
community? No treatment options. After a rollercoaster of a diagnostic 
journey that takes an average of 5 years, the majority of individuals 
and families facing rare, usually progressive and often fatal diseases, 
may be ``lucky'' enough to finally learn the name and prognosis of what 
they or their loved one has, but chances are they can do nothing about 
it. In 2010, in the United States of America, that extent of unmet 
medical need simply should not exist.
    For most of these rare and extremely rare diseases, perhaps as many 
as two-thirds, medical research is absent--completely. Affected 
patients, their families and friends strive to bring attention to their 
causes. For other diseases, such as Tay-Sachs, for example, medical 
research is just now gaining momentum, despite it being one of the most 
commonly known rare, genetic diseases, with one of the oldest advocacy 
groups in the country, and the first disease for which a carrier 
genetic test was perfected back in 1970. Yet it could be many more 
years before a safe, effective treatment is ready for the clinic, and 
tens of children and adults will still die from this neurodegenerative 
disease. As a past-president of the National Tay-Sachs & Allied 
Diseases Association, I've seen the hope sustained by parents listening 
to academic researchers, while they watch Tay-Sachs ravage their young 
children physically and mentally. And for those rare diseases fortunate 
to have a treatment, not all is perfect. As can be the case with Pompe 
disease, for example, many patients cannot tolerate the treatment due 
to immunogenicity or other significant issues. For others, the 
treatment may not be effective but there are no other options. Much 
work remains to be done in orphan drug development to evolve the 
unmistakably critical work already achieved for rare diseases.

                     ABILITY TO MEET THE CHALLENGES

    In the year 2010, we have the collective ability to tackle the 
challenges of understanding and developing viable treatment options for 
rare and ultra-rare diseases with unmet medical need. Basic scientific, 
biomedical and preclinical research is taking place with groundbreaking 
technology in laboratories at colleges and universities, independent 
academic medical centers, at the National Institutes of Health, and in 
the biotech industry. Initiatives such as the Therapeutics of Rare and 
Neglected Diseases (TRND) Program at the National Human Genome Research 
Institute (NHGRI) have impressive capabilities and hold great promise 
for discovery at the level of public/private collaboration that is 
necessary to help address these challenges. In particular, this is a 
new and exciting approach to moving forward from screening and 
developing compounds through the junctures of pre-clinical and clinical 
work, optimizing resources and harnessing the varied expertise of 
collaborators along the way.
    Collaboration is now mandated for Federal funding issued by the NIH 
Office of Rare Diseases through its Rare Disease Clinical Research 
Centers Consortia program. These grants support the formation of 
cooperative agreements for: collaborative clinical studies, 
investigator training, conducting pilot and demonstration projects, 
providing a test bed for data collection, management, mining and 
sharing, and access to rare disease information for basic and clinical 
researchers, academic and practicing physicians, patients, and the lay 
public--all across diverse geographies, institutions and stakeholders. 
In fact, the patient community, with its advocates, outreach experts 
and educators, can be considered a driving force in bringing the 
professionals together.
    Families and friends of children and adults affected by these 
debilitating, horrific, often fatal rare diseases no longer passively 
sit around sick rooms and hospital rooms. They--we, because I am one of 
them, are well aware of the promising developments taking place in the 
clean rooms of industry and research institutions and are confident 
that technology can match our sense of urgency. Patient advocates are 
proactive, agents for changing how this research can be conducted, how 
quickly it gets translated to the clinic, all with the hope it will 
positively influence their loved one's clinical outcome. Today's 
patient advocacy and disease organizations are partners in social and 
venture philanthropy. They want the exciting and promising technology 
that exists for their diseases to see the light of day, and that 
developing treatments and potential cures can be realities in their 
lifetimes. Here are just two examples.
    The Cystic Fibrosis Foundation is one such health venture 
philanthropist. In 2000, there were few potential treatments in the CF 
pipeline. Today, there are more than 30 treatments in development, a 
few already available to patients, with a pipeline portfolio ranging 
from gene therapy, protein rescue, mucus alteration, restoring airway 
surface liquid (ion transport), anti-inflammatory, anti-infective, 
transplantation, and nutrition. In the area of protein rescue alone, 
the CF Foundation invested more than $100 million with Vertex 
Pharmaceuticals and $25 million with PTC Therapeutics for two different 
small molecules in the past few years.
    Fight Spinal Muscular Atrophy dedicates itself to research for a 
cure for this group of diseases which affect the motor neurons of the 
spinal cord and brain stem. In its infantile form, SMA kills more 
babies than any other genetic disease. With grants up to $250,000 each, 
FightSMA is a social philanthropist funding about 20 academic and 
medical institutions in the United States and internationally. The 
organization brings approximately 25 SMA researchers together for an 
annual scientific conference to encourage collaboration at the same 
time that SMA-affected families come to meet each other for support and 
learn from these researchers.
    It is exactly this type of community-driven, cross-fertilization 
and financial support of ideas, and sharing of disease experience that 
has occurred at advocacy organization conferences for years that the 
patient community is more recently asking take place on a broader scale 
in clinical research and drug development. Patients are appreciative of 
the active role of the Office of Rare Diseases at NIH in supporting 
these meetings and of the Office of Orphan Product Development 
participation at many programs. Collaborative approaches are in the 
United States and abroad, originated by highly respected organizations 
such as NORD and now assumed by their counterparts, such as EURORDIS, 
CORD and ICORD. The 2010 European Conference on Rare Diseases held last 
month in Krakow, Poland, attracted more than 600 participants from 43 
countries, with one-third from Eastern Europe: the aim to discuss 
public policies and actions that will improve the lives of people with 
rare diseases. The rare disease community may be growing, but it 
represents a world that is getting smaller all the time. The demands of 
the diseases themselves always have been there; however, the presence 
of the diseases is augmented by the fast-paced technology available to 
researchers, the charged atmosphere of advocacy, immediate access to 
information about diseases, research and support groups, and 
connectiveness through the Internet and social media for all disease 
stakeholders.
    Collectively, these activities represent a trend toward 
acceleration of all aspects of orphan drug development to ultimately, 
and most importantly, benefit patients living with rare diseases.

                        KEEPING PACE FOR CHANGE

    Given these changes in the rare disease landscape, it is timely 
that the subcommittee is discussing the FDA's review process for orphan 
products. The sheer size of patient populations is an important factor 
for consideration in study design. Affected individuals are part of 
such small individual patient populations; they may represent disease 
prevalence of as many as 67:100,000 to as few as 2:100,000. No one rare 
disease exceeds an incidence of 200,000 in the United States. However, 
as an overarching group of 25 million in this country alone, they have 
several commonalities worthy of consideration. Limited individual 
disease experience makes it unlikely that there are organized 
registries from which to draw information for the majority of these 
diseases, and unrealistic to consider conducting natural history 
studies as prelude to or in parallel with clinical trials. (The topic 
of disease and product registries currently is a controversial one in 
the rare disease community and one worth exploring, as well.) All 
numbers of subjects for any orphan product study should be carefully 
considered based on current disease situations. Given that these 
trials, especially registration studies requiring larger numbers of 
subjects, typically necessitate global recruitment, protocols should be 
able to satisfy institutional review boards/ethics committees 
internationally. In the ultra-rare category, consideration also should 
be given to combined Phase 1/2 and Phase 2/3 studies with a Phase 4 
commitment from sponsor companies making these investments.
    The subcommittee should respectively consider funding that enables 
the Agency to focus on orphan diseases/orphan products beyond the fine 
work already being conducted by the Office of Orphan Product 
Development. The multi-systemic, complex nature of the majority of rare 
diseases, as genetic, metabolic, inborn errors of metabolism, further 
complicates a simple route forward for the guidance and development of 
well-designed clinical protocols. Therefore, study design guidance and 
review for rare diseases should also have an approach 
characteristically distinct from that used with common disease guidance 
and review. The FDA would benefit from a dedicated team of experts in 
the genetic and metabolic disorders that together with regulatory 
colleagues can offer guidance to study sponsors that will result in 
clinical protocols that account for limited patient numbers, the most 
current collective thinking on disease biomarkers, surrogate endpoints 
and better use of pharmacogenetics. Along these same lines, the Agency 
might consider having reviewers, staff other than OOPD, spend more time 
with rare disease patient organizations to learn from their leadership 
and members what they think and know of clinical trials, barriers to 
participation, etc. This might be mutually beneficial for educational 
purposes and understanding the rare disease patient experience.

                           THE COST OF CHANGE

    This suggested interaction might enhance the understanding for 
addressing the tolerance for risk in drug development in the rare 
disease space. Individuals directly affected by these highly unusual 
disorders, or their parents, custodial family members and caregivers 
are experiencing unusual, almost unique and unprecedented unmet need. 
They have a sense of urgency few if any can understand, but this does 
not necessarily cloud their judgment or ability to understand the risks 
and benefits of clinical trial participation. There should be no less 
scrutiny of safety for patients with ultra-orphan diseases but many of 
the traditional pre-clinical and clinical safety studies typically 
required of most drugs need to be reevaluated in the context of the 
cost and time associated and the severity of the unmet need.
    Certainly, the protracted timelines too often impose the ultimate 
cost on affected families awaiting treatment for their rare disease . . 
. the loss of their child or other loved one. It behooves the Agency to 
reassess the process and the extraordinary financial costs involved in 
developing orphan drugs. For example, the last five drugs developed and 
approved to treat lysosomal storage diseases have cost more than $200 
million each in research and development expenses alone to develop, 
while addressing populations in the United States of less than 3,000 
patients. There is no current economic framework that exists to promote 
this kind of investment. While the industry is appreciative of the 
existing incentives established by the Orphan Drug Act 27 years ago, it 
is time to update these to ensure ongoing and future innovation to 
benefit rare diseases. Some very practical considerations are: 
investment tax credits, permanent R&D credits and tax grants for 
companies conducting research for ultra-orphan treatments, accelerated 
clinical studies, and special tax treatments for investments in smaller 
companies with fewer than 250 employees.
    Change does not come easily. It was not an easy process when a 
group of parents lead by Abbey Meyers spearheaded the development of 
the Orphan Drug Act in 1983. In January of 1984, when Ronald Reagan 
signed the Orphan Drug Act into law, with Democrats and Republicans at 
his side, he stated that: ``I only wish that with the stroke of this 
pen that I could also decree that the pain and suffering of people 
living with these diseases would cease as well.'' It didn't, but the 
Act did create an environment with a system of special incentives for 
industry and certain government supported programs that spawned a new 
era of research and drug development. We have come very far in that 
last quarter of a century but we have much further to go. The change 
brought about by the Orphan Drug Act improved hundreds of thousands of 
lives in this country and abroad, helped launch an industry and 
established the global rare disease advocacy movement. It does not come 
easily for every family that struggles with illness and then receives a 
life-altering diagnosis of a rare disease with no treatment or cure. 
But each of us committed to orphan drug development, including the FDA 
and those responsible for seeing the Agency is appropriately funded, 
owe those families a more-than-fighting chance that their medical needs 
will be met.
            Respectfully submitted,
                                           John F. Crowley,
                                                  Chairman and CEO.
                                 ______
                                 

        Prepared Statement of the Animal Welfare Institute (AWI)

    The Animal Welfare Institute welcomes this opportunity to submit 
testimony in support of funding for animal welfare-related activities 
within the U.S. Department of Agriculture.

      USDA/APHIS/ANIMAL CARE/ANIMAL WELFARE ACT (AWA) ENFORCEMENT

AWI Request: $23 Million (Near-Level Funding)
    Over the past decade, the subcommittee has responded to the urgent 
need for increased funding for the Animal Care (AC) division to improve 
its inspections of nearly 16,000 sites, including animal dealers, 
commercial breeding facilities, laboratories, zoos, circuses, and 
airlines to ensure compliance with AWA standards. Animal Care now has 
115 inspectors (with two vacancies), compared to 64 inspectors at the 
end of the 1990s. During fiscal year 2009, they conducted 13,948 
inspections, including required annual visits to all research 
facilities that alone house over 1 million animals (excluding birds, 
rats, and mice who are not covered by law). Moreover, AC inspectors 
engaged in extended and more time-consuming follow-up with licensees 
regarded as problems because of the nature and frequency of their 
violations.
    It is important to sustain the progress that has been made. This 
budget request of $23 million provides a minimal increase over fiscal 
year 2010 to cover pay costs as well as the added responsibilities 
associated both with the growing number of licensed/registered 
facilities, and with enforcing the Congressional ban on imports from 
foreign puppy mills.

        APHIS/ANIMAL CARE/HORSE PROTECTION ACT (HPA) ENFORCEMENT

AWI Request: Support Administration's Request for $900,000
    The goal of the Horse Protection Act, passed in 1970, is to end the 
cruel practice of soring, by which unscrupulous owners and/or trainers 
primarily of Tennessee Walking Horses intentionally inflict pain on the 
legs and feet of horses, through the application of chemical and 
mechanical irritants, to produce an exaggerated gait. In 2008, the 
American Association of Equine Practitioners condemned soring as ``one 
of the most significant welfare issues faced by the equine industry.'' 
Three Girl Scouts bravely documented the brutality of this crime in 
their video ``See it through my eyes.'' (Available at www.youtube.com/
watch?v=kqFeYu1CrjU)
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. USDA inspectors are 
able to attend fewer than 6 percent of Tennessee Walking Horse shows. 
Consequently, there is continued reliance on an industry-run system of 
certified Horse Industry Organization (HIO) inspection programs that 
utilize Designated Qualified Persons (DQPs), usually industry insiders 
with a history of looking the other way. Reliance on DQPs has been an 
abysmal failure. Statistics clearly indicate that the presence of USDA 
inspectors at shows results in violations being cited at a far higher 
rate than occurs when DQPs are present. The greater the likelihood of a 
USDA inspection, the greater the deterrent effect on those who 
routinely sore their horses. Enforcement of this law should not be 
entrusted to individuals with a stake in the status quo.
    USDA is to be commended for seeking to do a more rigorous job of 
enforcement than has been done in the past. For instance, in 2009, 
inspectors cited twice as many violations at the largest show, the 
National Celebration, as in the previous year. However, the top three 
winning horses at the Celebration were afterwards found to have been in 
apparent violation of the HPA.
    Given the problems as outlined above and in separate, more detailed 
testimony signed by AWI and many other groups (www.awionline.org/hpa), 
it is clear that USDA cannot make progress in this area with current 
funding levels. We ask that Congress appropriate the $900,000 for HPA 
enforcement as provided in the Administration's budget. This sum would 
allow government oversight at many more horse shows and greater 
investment in technologies (gas chromatography/mass spectrometry and 
thermography) that improve detection of sored horses. It should be 
noted that in fiscal year 2007, the use of GC/MS, which detects foreign 
substances used to sore horses, resulted in positive findings in 50 
percent of the animals tested.

           APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES (IES)

AWI Request: $15 Million
    IES handles investigations related to enforcement of the laws and 
regulations for APHIS' programs, which involves collection of evidence; 
both civil and criminal investigations; and investigations carried out 
in conjunction with Federal, State, and local enforcement agencies. In 
addition, IES, in collaboration with USDA's Office of the General 
Counsel, handles other types of enforcement actions, including 
stipulations and formal administrative proceedings. We respectfully 
request a $15 million appropriation for IES to enable the Service to 
fulfill its full range of responsibilities, particularly its increasing 
Horse Protection Act and Animal Welfare Act investigatory demands.
    The number of HPA investigations undertaken by IES has jumped 
dramatically in the past half dozen years from a mere 7 in 2004 to 152 
this year. IES must have additional funds to deal with this 
substantially increasing workload. Further, it is anticipated that HPA 
enforcement by Animal Care will continue to rise to reach a level where 
it will actually serve as a deterrent, and thus IES must be equipped to 
handle the ever-increasing number of cases that are expected. New 
strategies are being employed to further strengthen enforcement, 
including the consolidation of cases of alleged violations (Form 7077s) 
over a 2-year period, thereby demonstrating that violations are not 
isolated but of an ongoing nature.
    We applaud and encourage increased attention by Animal Care, IES, 
and OGC in their efforts to stop the abuse of gaited horses. We are 
confident that, with the support of Congress, USDA can ensure a fair, 
competitive field that permits horses and their riders to win shows 
based upon the natural animated gait of the horses rather than a 
freakish gait induced by an array of agonizing techniques applied to 
the front feet and legs of the horses.

  AGRICULTURAL RESEARCH SERVICE/NAL/ANIMAL WELFARE INFORMATION CENTER 
                                 (AWIC)

AWI Request: $1,978,400
    We very much appreciate the subcommittee's continuing support for 
the Animal Welfare Information Center (AWIC). AWIC's services are 
vitally important to the Nation's biomedical research enterprise, as 
well as other regulated entities, because they facilitate compliance 
with specific requirements of the Federal animal welfare regulations 
and policies governing animal-related research. It proves its worth 
time and time again.
    The AWIC was established in 1986 in response to a mandate in the 
Improved Standards for Laboratory Animals amendment to the Animal 
Welfare Act (AWA). The Center serves as a clearinghouse, training 
center, and education resource for those involved in the use of animals 
for research, testing, and teaching, as well as other entities covered 
by the AWA. It provides training and compiles, distributes, and posts 
on its Web site information resources from the scientific literature to 
assist researchers who use animals. The subjects covered include 
husbandry, handling, and care of animals; personnel training; animal 
behavior; alternatives; improved methodologies; environmental 
enrichment; and pain control via anesthesia and analgesia and other 
methods. It also serves as a resource for the wider scientific and 
agricultural communities by providing access to material on zoonotic 
diseases such as avian influenza, transmissible spongiform 
encephalopathies, tuberculosis, West Nile Virus, foot and mouth 
disease, the H1N1 virus, and others. Its activities contribute 
significantly to science-based decision-making in animal care.
    In fiscal year 2009, staff conducted 13 sessions of AWIC's 
workshop, ``Meeting the Information Requirements of the Animal Welfare 
Act'' (evaluations of which are overwhelmingly positive, with 
participants indicating a high degree of new information acquisition); 
this was an increase of six over fiscal year 2008. At the end of 2009 
in Kansas City, AWIC and APHIS/Animal Care jointly presented the 
workshop ``Considering Alternatives; Making a Difference,'' which was 
open, without cost, to any research facility personnel; about 60 people 
attended. AWIC and AC will collaborate again this April, again in 
Kansas City, on a workshop for Animal Care inspectors to help them 
better understand the alternatives requirement. It will train them to 
do alternatives searches so that they can better evaluate the products 
of such searches conducted by research institutions.
    The AWIC Web site (http://awic.nal.usda.gov/) is one of the most 
accessed sites at NAL, with an average of over 363,000 page-views each 
month in fiscal year 2009, a 7 percent increase over fiscal year 2008. 
Many improvements to the Web site have been made in the past year, 
including increased timeliness and accessibility through Facebook, a 
Twitter account, and a blog. Currently, 250 full text documents are 
available on the Web site; 11 new ones were added in fiscal year 2009, 
and already completed or in process for fiscal year 2010 are documents 
on big cats, camels (update), blood collection, zebra fish, swine, 
elephants (update), rodent enrichment, sheep and goats, reducing animal 
numbers in research, and interpretive summaries of the Animal Welfare 
Act. Making this information available in a timely fashion urgently 
requires additional staff.
    The need and demand for AWIC's services continue to outstrip its 
resources. We write in support of an appropriation of $1,978,400, which 
is urgently needed to fund, in addition to current salaries and other 
expenses, AWIC's services and its ongoing efforts to improve their 
delivery:
  --$300,000--To support the addition of 2 FTEs to the professional 
        staff.
  --$100,000--Develop Web-based training modules, including interactive 
        modules, in order to provide online delivery of training 
        opportunities.
  --$50,000--Present workshops for research personnel, in collaboration 
        with Animal Care, similar to those held in 2009 in Kansas City 
        described above. The workshops must be free of charge to the 
        institutions in order to encourage attendance.
  --$20,500--Internet services.
  --$10,000--AWIC staff training.
  --$15,000--To fund an internship program that would provide 
        opportunities for postgraduate students (including 
        veterinarians) to work on special projects, such as creating 
        specialized information resources on animal (especially 
        zoonotic) diseases.
  --$200,000--Resume acquisition of veterinary publications that NAL 
        discontinued several years ago, and increase the pace of 
        indexing all such publications.
  --$259,000--Overhead to ARS and NAL.
  --$50,000--Meet congressional mandate to digitize more materials; in 
        particular, scanning historically relevant animal welfare 
        materials dating from the 1800s.
  --$65,000--Funding is urgently needed to update Essentials for 
        Animals in Research, as well as certain animal care manuals, 
        and then to translate them, as well as, and perhaps most 
        especially, the Animal Welfare Act and its regulations, into 
        Spanish; develop training DVDs, etc. In the past, this program 
        yielded very useful products, including the original Essentials 
        for Animal Research: A Primer for Research Personnel (which was 
        also translated into Spanish and is still among the top 10 
        downloaded documents); a video on normal animal behaviors; and 
        a training video on using animals in research. It also provided 
        support for the first World Congress on Animal Use in the Life 
        Sciences, and for the proceedings of conferences for the 
        Scientists Center for Animal Welfare.
    The growing numbers of Spanish-speaking animal-care personnel in 
U.S. research facilities and zoos, as well as increasing interest on 
the part of the scientific communities in Central and South America, 
have made the availability of Spanish-language materials a priority.
    AWIC's value to the research community and other entities that must 
comply with the Animal Welfare Act, and to the general public, 
justifies this modest proposed increase in its budget.

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                              ENFORCEMENT

AWI Request: Reallocate $2 Million From Existing Activity (HATS)
    We request that $2 million of the FSIS Humane-handling Activities 
Tracking (HATS) funding be allocated to strengthen Humane Methods of 
Slaughter Act enforcement via creation of a mobile team of slaughter 
plant auditors or by hiring additional District Veterinary Medical 
Specialists. While past appropriations have contributed to improved 
HMSA oversight, inadequate enforcement remains a problem. We have 
accumulated evidence of repeated violations at particular Federal 
slaughter plants, as well as data demonstrating that humane slaughter 
and handling violations are reported with greater frequency in the 
presence of outside inspection personnel, such as the DVMSs, as 
compared to in-plant personnel.
    Based on these findings, we respectfully request that funds be 
appropriated toward one of two alternatives: (1) to convene a roving 
slaughter inspection team that would conduct mostly unscheduled audits 
of handling and slaughter practices in Federal plants to ensure 
compliance with humane standards; or (2) to increase the presence of 
outside personnel by hiring additional DVMSs to provide scheduled and 
unscheduled plant audits in accordance with their preexisting duties as 
prescribed by FSIS. Hiring and training of these new personnel could be 
funded from $2 million of the $3 million currently allocated to the 
Humane-handling Activities Tracking computer system.

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

AWI Request: Support Administration's Request for $90.3 Million
    In 2007, violations of the AWA's animal fighting provisions, as 
well as the possession of related implements, became felonies. AWI 
supports providing OIG with adequate funding to allow it to pursue 
animal fighting cases vigorously. Animal fighting is often associated 
with other violent crimes, including drugs, weapons violations, and 
even homicide, thus posing a threat to both the welfare of animals and 
the welfare of our communities. This level of funding is also needed to 
enable OIG to carry out audits and investigations to improve compliance 
with the Humane Methods of Slaughter Act, the Horse Protection Act, and 
the downed animal rules.
    Thank you for your consideration of our comments.
                                 ______
                                 

      Prepared Statement of the Association of Clinical Research 
                          Organizations (ACRO)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: The Association of Clinical Research Organizations (ACRO) 
represents the world's leading clinical research organizations (CROs). 
Our member companies provide a wide range of specialized services 
across the entire spectrum of development for new drugs, biologics and 
medical devices, from pre-clinical, proof of concept and first-in-man 
studies through post-approval and pharmacovigilance research. With more 
than 70,000 employees engaged in research activities in more than 115 
countries around the world, ACRO advances clinical outsourcing to 
improve the quality, efficiency and safety of biomedical research. Last 
year, member companies were involved in conducting more than 9,000 
clinical trials that included nearly 2 million research participants.
    From approving new drugs and biologics to ensuring the safety of 
the food supply, the U.S. Food and Drug Administration faces many 
challenges across a diverse portfolio. And, whether the issue is 
assessing the safety of marketed drugs or monitoring the conduct of 
clinical trials, that portfolio is increasingly global in scope. Thus, 
we applaud Commissioner Hamburg's commitment to international 
cooperation and engagement. In fact, under Section 903 of the Food Drug 
and Cosmetic Act, it is part of the FDA's mission to ``(b)(3) 
participate through appropriate processes with representatives of other 
countries to reduce the burden of regulation, harmonize regulatory 
requirements, and achieve appropriate reciprocal arrangements.''
    Today, FDA-regulated products are part of an international 
marketplace in which consumers shop, and borders are no longer 
barriers. In 2007, the United States imported more than $2 trillion 
worth of FDA-regulated products from roughly 200 countries or 
territories. Both the number of drugs manufactured at foreign sites and 
the number of foreign sites making FDA-regulated drugs have more than 
doubled since 2001. Given these realities of the 21st century, 
international activities at FDA are no longer ``discretionary''; 
rather, they are an integral part of our Nation's public health 
apparatus.
    Like many other important economic activities, the conduct of 
clinical research has become increasingly globalized in recent years. 
For example, in 2004 clinical trial activity in India totaled $30 
million; the estimate for 2010 is $1.5 billion, a figure that will 
constitute 5 percent of all clinical trials worldwide. According to 
clinicaltrials.gov, today 53 percent of clinical studies are performed 
in the United States, 24 percent are performed in Europe, and 23 
percent are performed in the rest of the world.
    The expansion of clinical research to foreign countries results in 
benefits to U.S. patients. As The Case for Globalization, (a white 
paper ACRO commissioned in 2009,) suggested, a cancer trial that would 
take 5.8 years using only U.S. patients would be completed in only 1.9 
years when global research sites are used. While this globalization is 
a positive trend for many reasons, it presents challenges as well, 
especially in terms of the FDA's capacity to oversee non-U.S. drug 
development and manufacturing.
    Globalization of the biomedical research industry has greatly 
increased the demand on the FDA's resources. Between 2004 and 2007, the 
number of FDA-regulated investigators increased by 15.9 percent in 
Central and Eastern Europe (CEE), by 12.1 percent in Latin America and 
by 10.2 percent in the Asia-Pacific region. (Meanwhile, the number of 
North American and Western European investigators declined by 5.2 
percent and 6.1 percent, respectively.) Yet, despite the tremendous 
growth of clinical research abroad, 83 percent of FDA clinical 
investigator inspections between 2000 and 2008 were conducted in the 
United States and only 10 percent outside the United States and Western 
Europe.
    As part of the Alliance for a Stronger FDA, ACRO supports an FDA 
budget that provides adequate resources to fulfill the Agency's far-
flung obligations. Beyond the agency-wide budget, ACRO is especially 
interested in funding for the FDA's Office of International Programs 
(OIP). The President's proposed budget for fiscal year 2011 requests 
only $16.9 million for OIP.
    ACRO recommends funding OIP at $35 million in fiscal year 2011. 
Such an increase would not only improve the FDA's capacity to perform 
audits and inspections around the world, but facilitate capacity-
building in, and in cooperation with, the non-U.S. regulatory 
authorities whose competence and strength will ultimately impact the 
safety and efficacy of the drugs and biologics used by patients in the 
United States. Simply, the FDA remains the gold standard among drug 
regulators worldwide. As such, it is imperative for the FDA to increase 
its oversight capabilities in countries where many of the drugs it will 
approve in the future are being tested and to actively partner with its 
foreign counterparts. A budget of $35 in fiscal year 2011 would allow 
the Office of International Programs to accelerate the necessary 
globalization of the FDA's presence.
    Thank you for allowing ACRO to submit this statement. Please feel 
free to have your staff contact us with any questions.
                                 ______
                                 

     Letter From the California Association of Winegrape Growers; 
 WineAmerica; the Winegrape Growers of America; and the Wine Institute

                                                     April 7, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Senator Brownback: Our organizations are 
pleased to provide recommendations to fund important programs that will 
allow the national grape and wine industry to continue its record of 
growth in job creation, exports and rural development efforts to 
attract tourism and diversify local economies.

               RECOMMENDATION: FUNDING FOR GRAPE RESEARCH

    Grapes are the Nation's eighth largest crop. Grape growing 
contributes to the U.S. economy in diverse ways. It generates jobs, 
exports, tax revenues, tourism and enhances the quality of life in 
rural communities while producing outstanding wines, juices, raisins, 
and table grapes. But wine and grapes and grape products are subject to 
intense global competition that may seriously affect the ability of our 
industry to successfully compete. The industry's future success will 
hinge on public and private policies that facilitate, rather than 
impede, responses to new competitive conditions.
    The Federal Government does not subsidize grape production. 
American grape growers compete in the global market with growers who 
are subsidized by their countries. Our success in maintaining a 
competitive edge is directly tied to investment by industry and 
government in research and extension of research results to stimulate 
innovation by industry and accelerate the adoption of new best 
practices. This will keep grapes and wine competitive, enhance our 
environmental stewardship, create new jobs and generate revenues to 
keep rural communities healthy.

                       THE VITICULTURE CONSORTIUM

    We support funding for the very successful Viticulture Consortium 
which has been administered as a national competitive peer-and-industry 
reviewed program. It is one of the finest examples of collaboration 
between industry, Federal and State resources to provide and enhance 
efforts to improve a major agricultural industry's quality and cost 
effectiveness. Initiated in fiscal year 1996, the Viticulture 
Consortium is administered by Cornell University, Pennsylvania State 
University and the University of California and funds competitive 
grants in about 20 States for grape-related research. The program is 
designed to focus research efforts to avoid duplication and target 
resources to strategic priorities that will accelerate innovation and 
knowledge-based tools to enhance the competitiveness of the grape and 
grape products industries that are facing intense margin pressures and 
loss of market share to imports. The Consortium leverages Federal, 
State and industry funding to maximize coordination, collaboration and 
efficiency, eliminate duplication and ensure the extension of research 
results to industry users.
    We respectfully recommend increasing funding for the Viticulture 
Consortium to $3 million.

                           ARS GRAPE RESEARCH

    The President's fiscal year 2011 budget increases ARS funding for 
grape-related research. We support those increases:
    We support the:
  --President's budget increase for USDA/ARS Crop Breeding and 
        Protection, specifically the $400,000 to breed new table grape 
        varieties that are tolerant to drought stress and $500,000 to 
        phenotype the grape collection for drought tolerance and winter 
        hardiness.
  --President's budget increase for USDA/ARS Plant, Animal, and 
        Microbial Collections, specifically the $400,000 to strengthen 
        the National Plant Germplasm System to expand capacity and 
        conservation of horticultural crops.
  --President's budget increase for USDA/ARS Adapting American 
        Agriculture to a Changing Global Climate, specifically the 
        $500,000 to develop greenhouse gas mitigation solutions and 
        carbon sequestration management practices for specialty crops.

 RECOMMENDATION: FUNDING FOR PIERCE'S DISEASE CONTROL, CONTAINMENT AND 
                                RESEARCH

    Pierce's disease, a fatal infection of grape vines by the bacterium 
Xyella fastidiosa (XF), is being spread throughout California by the 
Glassy-winged Sharpshooter (GWSS). GWSS was first detected in 
California in 1989. It has invaded much of southern California and is 
effectively contained in the southern San Joaquin Valley and southern 
California. This vigorous and difficult-to-control insect vector, 
indigenous to the southeastern United States and northern Mexico, 
threatens California's entire grape and wine-producing community. 
Commercial grape varieties grown in California cannot tolerate 
infection by the If bacterium and are quickly killed or rendered 
uneconomical. There is no cure for Pierce's disease.
    The onslaught of the GWSS and its spread of Pierce's disease has 
triggered a massive and expensive cooperative response by the Federal 
and State agencies, California nurseries, citrus and winegrape growers 
to contain, control and develop long-term viable management solutions. 
There are many other crops threatened by the agents that cause Pierce's 
disease, including almonds, citrus, stone fruits, alfalfa, and 
oleander. The risks to California agriculture presented by the GWSS 
were recognized by a USDA declaration of emergency June 23, 2000, and 
subsequent allocation of CCC funds to conduct research, manage and 
fight the disease.
    While progress is being made, annual discoveries have shown the 
need to continue funding this vital program. Last year GWSS egg masses 
were found on nursery plants shipped to Amador and San Luis Obispo 
counties. This underscores the importance of an aggressive containment 
and control program with a strong nursery shipping inspection 
component.
    Congress has appropriated money to fund GWSS and Pierce's disease 
research beginning in fiscal year 2001 and every year thereafter. To 
date, other stakeholders have contributed $99.5 million to assist in 
funding research and inspection efforts. The breakdown is as follows: 
California State government: $59.5 million; local government: $1.3 
million; growers and vintners: $38.7 million. California's experience 
in controlling and containing Pierce's disease assists States that have 
infestations by sharing resources on how to stop the spread and 
eventually eradicate the disease and the insect that spreads it.
    Our organizations strongly support an increase in funding for the 
Animal and Plant Health Inspection Service (APHIS) for the control and 
containment to $30 million.
    We also request $3 million in National Institute of Food and 
Agriculture funding for research work on Pierce's disease at the 
University of California.

                         MARKET ACCESS PROGRAM

    The Market Access Program (MAP) provides export assistance to over 
70 different agricultural industries, most producing specialty crops. 
This assistance is frequently the only kind of government export 
assistance given these producers to allow them to compete in world 
markets against highly subsidized European producers. The wine industry 
has made excellent use of the MAP program. According to Wine Institute, 
exports have increased 80 percent by value over the past 10 years, and 
despite an export rise of 6 percent in value in 2008 over the prior 
year, our industry has less than 6 percent of the world's wine export 
market. Clearly, there is considerable potential to increase our share.
    MAP is funded at $200 million per year in mandatory funds in the 
Food, Conservation and Energy Act of 2008. Funding for the MAP pales in 
comparison to the support given other major world producers.
    We respectfully request that the full amount of mandatory funding 
remain intact for this program in fiscal year 2011.
    Chairman Kohl and Senator Brownback, we appreciate your 
consideration of our requests.
            Sincerely,
                              Camron King, Program Manager,
                       California Association of Winegrape Growers.
                                    Bill Nelson, President,
                                                       WineAmerica.
                                      Ron Bitner, Chairman,
                                      Winegrape Growers of America.
                                         Sally Hope Murphy,
                                                    Wine Institute.
                                 ______
                                 

 Prepared Statement of Campaign for Contract Agriculture Reform (CCAR)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the Campaign for Contract Agriculture Reform (CCAR) regarding 
fiscal year 2011 funding requests for USDA's Grain Inspection, Packers 
and Stockyards Agency (GIPSA).
    The Campaign for Contract Agriculture Reform (CCAR) is a national 
alliance of organizations working to provide a voice for farmers and 
ranchers involved in contract agriculture, as well as the communities 
in which they live. The goal of the campaign is to assure that the 
processor-producer relationship serves as a fair partnership, rather 
than a dictatorship.
    The Packers and Stockyards Act of 1921 prohibits packers, swine 
contractors, and live poultry dealers from engaging in unfair, unjustly 
discriminatory, or deceptive trade practices. The Act is administered 
by the Grain Inspection, Packers and Stockyards Agency (GIPSA).
    Contract poultry growers regularly experience unfair and deceptive 
treatment in their dealings with the live poultry dealers with whom 
they contract. While is it GIPSA's job to take action against these 
companies when such practices occur, the Agency's capacity to do so has 
been greatly limited by staff resources. As a result, many growers have 
had to wait years for their cases to be addressed, and others have had 
cases unresolved because of lack of resources at GIPSA. Because of the 
vulnerable economic positions that most growers are in, justice delayed 
on enforcement of unfair practices is indeed justice denied.
    Therefore, we are greatly encouraged by the new dedication to the 
mission of GIPSA by the Obama Administration, the recent actions taken 
by the Agency to increase enforcement of the Packers and Stockyards 
Act, and their willingness to do what's necessary to make further 
improvements. In keeping with that new commitment, the Administration's 
fiscal year 2011 budget requests an increase of $2.035 million for the 
Packers and Stockyards Program within GIPSA, to add 16 additional staff 
years to strengthen enforcement of the Act.
    As described in USDA's Fiscal Year 2011 Budget Justification 
document (page 20-7):

``This increase will strengthen direct enforcement of the Packers and 
Stockyards (P&S) Act and promote greater voluntary compliance with the 
Act through an expanded GIPSA presence within the industry. The P&S Act 
provides an important safety net for livestock producers and poultry 
growers in rural America by prohibiting unfair, deceptive, and 
fraudulent practices in the livestock, poultry, and meatpacking 
industries. As such, compliance with the Act is a measure of the level 
of protection provided in the marketplace. The Agency strives to 
increase industry compliance to maximize the level of protection 
afforded to all market participants. GIPSA conducts routine and ongoing 
regulatory inspections and audits to assess whether subject entities 
are operating in compliance with the Act, and conducts investigations 
of potential P&S Act violations identified by either industry 
complaints or previous GIPSA regulatory inspections. All activities are 
carried out by professionals including economists, attorneys, 
accountants, and agricultural marketing professionals. Economic 
conditions will result in a continued increase in complaints and, 
therefore, an increased need for GIPSA protection under the Packers and 
Stockyards Act. Additional resident agents and investigative attorneys 
are needed to expand investigative, regulatory, and audit activities in 
order to raise industry compliance levels from the 80 percent level 
attained in 2008; enhance market protections for buyers and sellers of 
livestock, poultry, and meat; and enforce the amendments in the 2008 
Farm Bill. Funding will also provide for attorneys to provide 
additional legal support for enforcement of the P&S Act.''

    We strongly urge the subcommittee to provide the increased 
resources requested by GIPSA for Packers and Stockyards Act 
enforcement. Without swift and thorough enforcement of the act, contact 
growers will continue to experience trade practice abuses that are 
unacceptable.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    This testimony is in support of funding for the U.S. Department of 
Agriculture (USDA) with respect to its on-farm Colorado River Basin 
Salinity Control Program for fiscal year 2011. This program has been 
carried out through the Colorado River Basin Salinity Control Act 
(Public Law 93-320), since it was enacted by Congress in 1974. With the 
enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996 (Public Law 104-127), specific funding for salinity 
control projects in the Colorado River Basin were eliminated from the 
Federal budget and aggregated into the Department of Agriculture's 
Environmental Quality Incentives Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP. In 2008, Congress passed the Food, 
Conservation, and Energy Act (FCEA). The FCEA addressed the cost 
sharing required from the Basin Funds. In so doing, the FCEA named the 
cost sharing requirement as the Basin States Program (BSP). The BSP 
will provide 30 percent of the total amount that will be spent each 
year by the combined EQIP and BSP effort.
    The Program, as set forth in the Act, benefits both the Upper Basin 
water users through more efficient water management and the Lower Basin 
water users, hundreds of miles downstream from salt sources in the 
Upper Basin, through reduced salinity concentration of Colorado River 
water. California's Colorado River water users are presently suffering 
economic damages in the hundreds of millions of dollars per year due to 
the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California along with the other six Colorado River 
Basin States through the Colorado River Basin Salinity Control Forum 
(Forum), the interstate organization responsible for coordinating the 
Basin States' salinity control efforts, established numeric criteria in 
June 1975 for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission.
    The goal of the Colorado River Basin Salinity Control Program is to 
offset the effects of water resources development in the Colorado River 
Basin after 1972 as each State develops its Colorado River Compact 
apportionments. In close cooperation with the U.S. Environmental 
Protection Agency (EPA) and pursuant to requirements of the Clean Water 
Act (Public Law 92-500), every 3 years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured in Total Dissolved Solids--TDS) at or below 
the levels measured in the Colorado River system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams. The latest report was prepared 
in 2008 titled: 2008 Review, Water Quality Standards for Salinity, 
Colorado River System (2008 Review). The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review includes an updated Plan of 
Implementation.
    Concentrations of salts in the River annually cause about $376 
million in quantified damage in the United States (there are 
significant un-quantified damages as well). For example, damages occur 
from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. Although the Program, thus far, has been able to 
implement salinity control measures that comply with the approved plan, 
recent drought years have caused salinity levels to rise in the River. 
Predictions are that this will be the trend for the next several years. 
This places an added urgency for acceleration of the implementation of 
the Program.
    Enactment of the Farm Security and Rural Investment Act of 2002 
provided an opportunity to adequately fund the Salinity Program within 
EQIP. The Colorado River Basin Salinity Control Advisory Council has 
taken the position that the USDA portion of the effort be funded at 2.5 
percent of the EQIP funding, but at least $20 million annually. Over 
the past few years, the Natural Resources Conservation Service (NRCS) 
has designated 2.5 percent of EQIP funds be allocated to the Colorado 
River Salinity Control program. The Colorado River Board supports the 
recommendation of the Advisory Council and urges this subcommittee to 
support funding for the Colorado River Basin Salinity Control Program 
for 2011 at this level.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important Basin-wide 
program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
continue to be honored, it is essential that in fiscal year 2011, and 
in future fiscal years, that Congress continues to provide funds to 
USDA to allow it to provide needed technical support to agricultural 
producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California as 
well as throughout the Colorado River Basin. As stated earlier, 
preservation and improvement of the Colorado River water quality 
through an effective salinity control program will avoid the additional 
economic damages to users of Colorado River water in California, 
Arizona, and Nevada.
                                 ______
                                 

          Letter From the Colorado River Commission of Nevada

                                                     March 5, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, and Related 
        Agencies, Washington, DC.

RE: Support of Funding of the Department of Agriculture's Fiscal Year 
        2011 Appropriations
    Dear Chairman Kohl: As a Nevada representative of the Colorado 
River Basin Salinity Control Forum, the Colorado River Commission of 
Nevada supports full funding of the Department of Agriculture's fiscal 
year 2011 appropriations for the Environmental Quality Incentives 
Program (EQIP) and recommends that this Committee advise the 
Administration that 2.5 percent or, at a minimum, $20,000,000, of the 
EQIP funds be designated for the Colorado River Basin Salinity Control 
Program.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
current funding recommendations for the Colorado River Basin Salinity 
Control Program is essential to move the program forward so that the 
congressionally directed salinity objectives are achieved.
            Sincerely,
                                            George M. Caan,
                                                Executive Director.
                                 ______
                                 

          Prepared Statement of the Cystic Fibrosis Foundation

    Chairman Kohl and Ranking Member Brownback, it is my pleasure to 
submit this statement on behalf of the Cystic Fibrosis Foundation. We 
commend the subcommittee for convening this hearing to consider Food 
and Drug Administration (FDA) review of products for rare and neglected 
diseases and to assess the impact of priority review vouchers for 
tropical diseases. For all of those affected by rare and neglected 
diseases, an efficient and effective review system is absolutely 
critical. Delays in the evaluation of safety and effectiveness of 
promising new therapies for rare diseases adversely impact those 
affected by these diseases, and we support efforts by the Agency to 
improve its review record as well as the oversight provided by 
Congress.

                            THE CF PIPELINE

    Cystic fibrosis (CF) is a disease that affects only 30,000 
Americans and 70,000 individuals worldwide. The effects of this disease 
are severe, despite significant therapeutic advances, outstanding 
management of the disease by patients and their physicians, and 
enhanced adherence to standards of clinical care. There is a pressing 
need for improved therapies for CF, and as new treatments are 
developed, efficient review is necessary.
    Through aggressive investment in and management of the CF 
therapeutic development program, the Cystic Fibrosis Foundation is now 
managing a rich portfolio of potential new treatments with more than 30 
drugs in the clinical development pipeline. Included in our research 
efforts are drugs that may correct the genetic defects that cause CF. 
The CF Foundation is assuming an expansive role in research, supporting 
basic research, functioning as a venture philanthropist through 
investment in biotechnology companies for development of new CF 
therapies, and coordinating CF care quality improvement through a 
patient registry that includes most CF patients in the Nation.
    The venture philanthropy effort has yielded a number of potential 
CF treatments. Our efforts to date have focused on translating basic 
research findings into agents for clinical testing, coordinating the 
clinical trials network for testing CF treatments, and removing 
barriers to participation in trials by CF patients. As promising 
treatments will soon emerge from the development pipeline, our 
attention is increasingly focused on guaranteeing an efficient FDA 
review process.
    We have identified a number of issues that should be addressed to 
improve FDA review of CF therapies, and we believe that FDA action on 
these issues would benefit review of all rare disease treatments. These 
issues include: (1) identification of and regulatory agreement 
regarding endpoints for approval of rare disease treatments; (2) making 
widely and readily known the process for validation of biomarkers to 
identify subpopulations of CF patients who might benefit from therapies 
approved for other populations; (3) consistency between FDA and the 
European Medicines Agency, to eliminate difficulties associated with 
conducting parallel and duplicative trials in orphan populations; and 
(4) regulatory guidance regarding methods for evaluating supplemental 
uses of devices, including nebulizers, without undertaking trials that 
are prohibitive for cost and other reasons. We also encourage the 
Agency to ensure that it receives appropriate expert advice and 
guidance on rare diseases as products for those diseases are reviewed.
    We are encouraged by initiatives that the Agency has undertaken to 
enhance its scientific expertise for review of rare diseases and more 
generally by the willingness of FDA leaders and review staff to engage 
in constructive dialogue to address the problems of rare disease review 
that we have identified.
    The joint regulatory science initiative of FDA and the National 
Institutes of Health (NIH) signals the firm commitment of the agencies 
to enhance the scientific expertise of FDA review staff. This effort, 
still a relatively new one, promises to provide special benefits in 
strengthening the scientific knowledge and experience for rare disease 
treatment review. In addition, the Agency directed important resources 
and attention to rare disease treatments by naming a lead reviewer on 
rare diseases. We have also found the Agency to be willing to engage in 
constructive dialogue to address other problems posed by rare disease 
review and those issues that are specific to CF product review.
    We applaud the subcommittee for turning its attention to FDA review 
of treatments for rare diseases and to evaluating initiatives or 
programs that might enhance such review. The priority review voucher 
program for rare diseases deserves a fair and full evaluation, to 
ensure it is meeting program goals and to assess whether its expansion 
to rare diseases might be appropriate. We support a collaborative and 
constructive approach to enhancing FDA review and are pleased to see 
that spirit of cooperation in the efforts of the subcommittee.
    Thank you again for this opportunity to submit this statement.
                                 ______
                                 

       Prepared Statement of the Farm Credit Administration (FCA)

    Mr. Chairman, members of the subcommittee, I am Leland A. Strom, 
chairman and chief executive officer of the Farm Credit Administration 
(FCA or Agency). On behalf of my colleagues on the FCA Board, Kenneth 
Spearman of Florida and Nancy Pellett of Iowa, and all the dedicated 
men and women of the Agency, I am pleased to provide this testimony.
    Before I discuss the Agency's role, responsibilities, and budget 
request, I would like to thank the subcommittee staff for its 
assistance during the budget process. Also, I would respectfully bring 
to the subcommittee's attention that the funds used by FCA to pay its 
administrative expenses are assessed and collected annually from the 
Farm Credit System (FCS or System) institutions we regulate and 
examine--the FCS banks, associations, and service corporations, and the 
Federal Agricultural Mortgage Corporation (Farmer Mac). FCA does not 
receive a Federal appropriation.
    Earlier this fiscal year, the Agency submitted a proposed total 
budget request of $59,537,346 for fiscal year 2011. FCA's proposed 
budget for fiscal year 2011 includes funding from current and prior 
assessments of $59,400,000 on System institutions, including Farmer 
Mac. Almost all this amount (approximately 83 percent) goes for 
salaries, benefits, and related costs.
    The fiscal year 2011 proposed budget is driven largely by two 
factors: (1) stress on the System caused by conditions in the 
agricultural and the general economy and (2) the large number of 
retirements that FCA anticipates in the coming 5 years. Although the 
System remains safe and sound overall, risks have increased across the 
System, and conditions in several institutions have deteriorated. As a 
result, we are hiring additional staff members to provide more 
intensive examination and oversight. We are also hiring employees to 
fill the positions of those who will be retiring soon. The funding 
we've requested for fiscal year 2011 will allow us to provide the 
additional supervision and oversight required in challenging economic 
times and to ensure that we maintain a staff with the skills necessary 
to properly examine, oversee, and regulate the System.

               MISSION OF THE FARM CREDIT ADMINISTRATION

    As directed by Congress, FCA's mission is to ensure a safe, sound, 
and dependable source of credit and related services for agriculture 
and rural America. The Agency accomplishes its mission in two important 
ways. First, FCA protects the safety and soundness of the FCS by 
examining and supervising all FCS institutions, including Farmer Mac, 
and ensures that the institutions comply with applicable law and 
regulations. Our examinations and oversight strategies focus on an 
institution's financial condition and any material existing or 
potential risk, as well as on the ability of its board and management 
to direct its operations. We also evaluate each institution's 
compliance with laws and regulations to serve all eligible borrowers, 
including young, beginning, and small farmers and ranchers. If a System 
institution violates a law or regulation or operates in an unsafe or 
unsound manner, we use our supervisory and enforcement authorities to 
ensure appropriate corrective action. Second, FCA develops policies and 
regulations that govern how System institutions conduct their business 
and interact with customers. FCA's policy and regulation development 
focuses on protecting System safety and soundness; implementing the 
Farm Credit Act; providing minimum requirements for lending, related 
services, investments, capital, and mission; and ensuring adequate 
financial disclosure and governance. The policy development program 
includes approval of corporate charter changes, System debt issuance, 
and other financial and operational matters.

          EXAMINATION PROGRAMS FOR FCS BANKS AND ASSOCIATIONS

    The Agency's highest priority is to maintain appropriate risk-based 
oversight and examination programs. With changes in the System and 
human capital challenges within our Agency (pending retirements, normal 
attrition of staff, and the ever-increasing need for more sophisticated 
skills in the financial sector), we have undertaken a number of 
initiatives to enhance our skills and expertise in key examination 
functions. On a national level, we actively monitor risks that may 
affect groups of System institutions or the entire System, including 
risks that may arise from the agricultural, financial, and economic 
environment in which the System institutions operate.
    The scope and frequency of each examination is based on our 
assessment of an institution's internal controls and the ability of its 
board and management to manage risks. FCS institutions are required to 
have prudent loan underwriting and loan administration processes, to 
maintain adequate asset-liability management, to establish high 
standards for governance, and to issue transparent shareholder 
disclosures. Furthermore, we also are requiring institutions to 
complete stress tests to determine their ability to withstand increased 
risk and to develop appropriate contingency plans. The frequency and 
depth of our examinations may vary, but each institution is provided a 
summary of our activities and a report on its overall condition at 
least every 18 months. Most issues are resolved through corrective 
actions established in the Report of Examination or other 
communication. In certain cases, FCA will use its enforcement powers to 
effect changes in the institution's policies and practices to correct 
unsafe or unsound conditions or violations of law or regulations.
    We evaluate each institution's risk profile on a regular basis. The 
Financial Institution Rating System (FIRS) is the primary risk 
categorization and rating tool used by examiners to indicate the safety 
and soundness of an institution. FIRS ratings range from one for a 
sound institution to five for an institution that is likely to fail. As 
of December 31, 2009, FIRS ratings as a whole continued to reflect the 
sound financial condition of the FCS, although some individual 
institutions are showing stress from conditions in agriculture and the 
general economy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As shown in the preceding chart, FIRS ratings were downgraded in 
several institutions in 2009, continuing a declining trend over recent 
years. In addition, at December 31, 2009, two FCS institutions were 
under a formal enforcement action and two others were placed under 
enforcement actions shortly after the first of the year. There are no 
FCS institutions in conservatorship or receivership. As a result of 
declining ratings, we have increased supervisory oversight at a number 
of institutions and dedicated additional resources in particular to 
those 17 institutions rated 3 or worse. Although these 17 institutions 
represent only 4 percent of System assets and do not threaten the 
System's consolidated performance, they require significantly greater 
Agency resources to oversee. Overall the System remains financially 
strong and adequately capitalized. Additionally, the FCS does not pose 
material risk to investors in FCS debt, to the Farm Credit System 
Insurance Corporation, or to FCS institution stockholders.

                  REGULATORY AND CORPORATE ACTIVITIES

    Regulatory Activities.--Congress has given the FCA Board statutory 
authority to establish policy, prescribe regulations, and issue other 
guidance to ensure that FCS institutions comply with the law and 
operate in a safe and sound manner. The Agency's regulatory philosophy 
focuses our efforts on developing balanced, flexible, and legally sound 
regulations. Some of the Agency's current regulatory and policy 
projects include the following:
  --Enhancing our risk-based capital adequacy framework for the FCS to 
        more closely align it with that of the Federal banking agencies 
        and the Basel II standardized approach.
  --Revising lending and leasing-limit regulations to ensure that FCS 
        institutions maintain effective policies to measure and manage 
        exposure to single counterparties, industries, and market 
        segments, and to large complex loans.
  --Reviewing regulations and policies on loan pricing, terms, and 
        conditions to ensure that System practices and procedures are 
        safe and sound and reflect sensitivity to market conditions.
  --Developing regulations with the Federal banking agencies to 
        implement the Secure and Fair Enforcement for Mortgage 
        Licensing Act of 2008.
  --Revising regulations to enhance System disclosures of senior 
        officer compensation and supplemental benefit programs and 
        issuing guidance for System compensation policies and best 
        practices.
  --Strengthening investment-management and liquidity regulations to 
        ensure prudent practices are in place for the safe and sound 
        management of FCS investment portfolios.
    Corporate Activities.--While FCS institutions have declined in 
number over the years, their complexity has increased, which has 
resulted in greater demands on both examination staff resources and 
expertise. Generally, these mergers have resulted in larger, more cost-
efficient, and better capitalized institutions with a broad, 
diversified asset base, both by geography and commodity. As of January 
1, 2010, the System had 88 direct-lender associations, five banks, five 
service corporations, and two special-purpose entities. Thus far in 
fiscal year 2010, we have received and approved six restructuring 
applications.

                          CONDITION OF THE FCS

    Agricultural economic conditions and the System's operating 
environment continue to be unsettled. In February 2010, USDA forecast a 
7.8 percent increase in net cash farm income for 2010 largely because 
of an approximate 10 percent increase in cash receipts from livestock 
and related products. Improved demand for livestock and dairy products, 
combined with lower production, has improved prices and profitability 
in these sectors. However, many of these producers remain financially 
vulnerable because of a substantial reduction in equity over the past 
couple years. Also, the USDA report forecast weakening in other 
sectors. Profit margins for some crop producers could be lower in 2010 
since commodity prices are generally lower than a year ago and input 
prices are higher. Crop cash receipts are expected to decline about 4 
percent. Profitability in the ethanol industry improved in the fall of 
last year although ample ethanol supplies pressured margins in early 
2010. Uncertainty has increased in the global economy in part because 
of fiscal difficulties in several European countries and elevated 
unemployment rates in the United States. This uncertainty will likely 
lead to a somewhat tepid economic recovery and to a challenging 
operating environment for the FCS in 2010.
    Despite a very challenging year affecting the credit markets, the 
System's overall condition and performance remained sound in 2009. The 
System is well positioned to withstand the continuing challenges coming 
from the general economy and stress in some sectors of the agricultural 
economy. Total capital increased to $30.0 billion at December 31, 2009, 
up from $27.1 billion a year earlier. Also, more than 82 percent of 
total capital is in the form of earned surplus, the most stable form of 
capital. The ratio of total capital to total assets increased to 13.9 
percent at year-end 2009, compared with 12.7 percent the year before as 
asset growth slowed considerably and the System continued to grow its 
capital base.
    Gross loans grew by a modest 2.1 percent in 2009, compared with 
double-digit growth for several years. System borrowers were negatively 
impacted by the overall stress in the general economy and certain 
sectors of the agricultural economy. Credit quality declined but 
remained satisfactory overall. Nonperforming loans increased by $1.1 
billion to $3.5 billion as of December 31, 2009, and represented 11.8 
percent of total capital at the end of 2009, up from 8.9 percent at the 
end of 2008.
    In 2009, the System earned $2.9 billion, a 2.2 percent decrease 
from 2008. The return on assets remained at the very favorable level of 
1.33 percent. The System's liquidity position equaled 178 days at 
December 31, 2009, essentially unchanged from a year earlier and well 
in excess of the 90-day regulatory minimum.
    Further strengthening the System's financial condition is the Farm 
Credit Insurance Fund (Insurance Fund), which has grown to more than 
$3.2 billion. The Insurance Fund protects investors in Systemwide 
consolidated debt obligations. The Farm Credit System Insurance 
Corporation administers the Insurance Fund.
    The economic and financial market turmoil in 2008 dissipated 
somewhat in 2009, and certain sectors of the capital markets began to 
function more normally. This helped the System to maintain its overall 
financial strength, serve its mission, and build the Insurance Fund in 
2009. Even though the System is a Government-sponsored enterprise (GSE) 
with solid financial performance, not all of the liquidity has returned 
to the financial markets. Investor demand for longer-term Systemwide 
debt securities, particularly those with maturities over 5 years, 
remained moderate, and long-term funding costs, while declining, 
remained volatile. Government actions to stabilize the financial 
markets and funding for other GSEs have provided some ancillary benefit 
to System funding, which helped support solid System earnings 
performance in 2009. Also, the System has enhanced its domestic 
marketing and internal liquidity reserve requirements. For 2010, the 
System expects debt markets to remain accessible.

               FEDERAL AGRICULTURAL MORTGAGE CORPORATION

    Congress established Farmer Mac in 1988 to provide secondary market 
arrangements for agricultural mortgage and rural home loans. Farmer Mac 
creates and guarantees securities and other secondary market products 
that are backed by mortgages on farms and rural homes. The 2008 Farm 
Bill expanded Farmer Mac's program authorities by allowing it to 
purchase and guarantee securities backed by eligible rural utility 
loans made by cooperative lenders. Through a separate office required 
by statute (Office of Secondary Market Oversight), the Agency examines, 
regulates, and monitors Farmer Mac's operations.
    Like the FCS, Farmer Mac is a GSE devoted to agriculture and rural 
America. Farmer Mac is not subject to any intra-System agreements or 
the joint and several liability of the FCS banks. Also, the Insurance 
Fund does not back Farmer Mac's securities. However, by statute, in 
extreme circumstances Farmer Mac may issue obligations to the U.S. 
Treasury Department, not to exceed $1.5 billion, to fulfill the 
guarantee obligations of Farmer Mac Guaranteed Securities.
    Farmer Mac made significant financial progress during 2009 compared 
with 2008. Net income for the year ending December 31, 2009, was $82.3 
million, compared with a net loss to common stockholders of $154.1 
million in 2008. At year-end 2009, capital surplus had grown to $120.2 
million, up significantly from $13 million as of December 31, 2008. The 
total portfolio of loans, guarantees, and commitments grew to $10.7 
billion. Farmer Mac continues to have access to the debt markets to 
fund its program assets.
    In January of 2010, Farmer Mac raised $250 million in capital from 
a private offering of shares of noncumulative perpetual preferred stock 
of Farmer Mac II LLC, a recently formed operating subsidiary in which 
Farmer Mac owns all of the common equity. Farmer Mac used the proceeds 
to repurchase and retire $150 million of Farmer Mac's outstanding 
Series B preferred stock, with additional proceeds available for other 
corporate purposes. The new preferred stock has a lower net effective 
cost than the recently retired capital and will improve Farmer Mac's 
ability to generate new capital through earnings.
    Farmer Mac's program loan portfolio shows stress in certain 
subsectors such as ethanol; however, risk in the portfolio remains 
manageable. Improvements related to the ethanol industry reduced the 
nonperforming loan rate to 1.41 percent at December 31, 2009, compared 
with 1.61 percent at December 31, 2008. Loans more than 90 days 
delinquent decreased from 1.35 percent at December 31, 2008, to 1.13 
percent at December 31, 2009.
    Regulatory activity for 2010 includes plans to issue an Advance 
Notice of Proposed Rulemaking to consider modifying regulations 
governing nonprogram investments and liquidity at Farmer Mac. 
Additionally, FCA plans to finalize a rule this year governing the 
Risk-Based Capital Stress Test that would update the model to address 
Farmer Mac's new rural utility financing authority and certain other 
technical changes in parts of the stress test.

                               CONCLUSION

    We at FCA remain vigilant in our efforts to ensure that the Farm 
Credit System and Farmer Mac remain financially sound and focused on 
serving agriculture and rural America. It is our intent to stay within 
the constraints of our fiscal year 2011 budget as presented, and we 
continue our efforts to be good stewards of the resources entrusted to 
us. While we are proud of our record and accomplishments, I assure you 
that the Agency will continue its commitment to excellence, 
effectiveness, and cost efficiency and will remain focused on our 
mission of ensuring a safe, sound, and dependable source of credit for 
agriculture and rural America. This concludes my statement. On behalf 
of my colleagues on the FCA Board and at the Agency, I thank you for 
the opportunity to share this information.
                                 ______
                                 

 Prepared Statement of FasterCures/The Center for Accelerating Medical 
                               Solutions

    Chairman Kohl, Senator Brownback, and members of the subcommittee, 
on behalf of FasterCures I am writing to thank you for your continued 
support of the U.S. Food and Drug Administration (FDA) over the past 
several appropriation cycles and to urge you to once again authorize an 
increase in the fiscal year 2011 budget for this critical agency. 
FasterCures is a nonprofit think tank and center of the Milken 
Institute that works across sectors and diseases to improve the 
effectiveness and efficiency of the medical research enterprise, and we 
view improvements at FDA as key to accelerating progress in disease 
research.
    Together with the Alliance for a Stronger FDA, of which we are a 
member, FasterCures requests that the budget authority appropriation 
for the FDA in fiscal year 2011 be increased to $2.857 billion. This 
request is exclusive of user fees. It represents a $495 million 
increase over the fiscal year 2010 budget and a $341 million increase 
over the President's request for fiscal year 2011. This increase would 
ensure that the FDA could not only adequately sustain its existing 
activities at their current levels, but also continue to meet its 
increasingly robust set of public health and safety responsibilities 
without compromising its scientific base.
    Regulatory science is the backbone that supports all other FDA 
activities. It must be strengthened to provide better tools, standards 
and pathways to evaluate products under development and help patients 
benefit from biomedical advances.
  --In recent years, U.S. investments in research have generated a 
        tremendous amount of knowledge about the relationship between 
        molecular information and human health. Yet the development of 
        new therapies has declined, and the cost to develop them has 
        increased.
  --We need 21st century science to support the evaluation of 21st 
        century medical products.
  --Improvements in regulatory science will support better assessment 
        of drug and device safety, and create efficiencies in the 
        development process.
    Deficiencies in capital--human, scientific and financial--are 
creating a widening gap between the microscope and the marketplace, and 
hindering the FDA's ability to achieve its mission.
  --Staffing levels from the 2010 appropriation have only just been 
        restored to the previous high level achieved in 1994.
  --Increasing internationalization, scientific complexity and drug 
        development costs add mounting pressure on the Agency.
    --It takes about 15 years, on average, to take a promising 
            scientific discovery from the research lab through the 
            development, testing and regulatory review approval 
            process, and get it into the hands of patients.
    --For the more than 100 million Americans who suffer from cancer, 
            Alzheimer's disease, diabetes, Parkinson's disease, heart 
            disease and others for which there are no cures--and in 
            many cases, few meaningful treatment options--this is 
            simply too long to wait.
    Challenges are growing, while capacity is shrinking.
  --While new responsibilities continue to be added, the FDA's base is 
        eroding.
  --CDRH staff, including its field force, has decreased in recent 
        years, while scientific discovery continues to move at a rapid 
        pace.
  --Generic drug submissions outpace the capacity to review them.
    A consistent multi-year funding approach is essential.
  --The Institute of Medicine, U.S. Government Accountability Office, 
        and FDA Science Board have highlighted deficiencies in the 
        FDA's ability to carry out its responsibilities, noting 
        resource limitations.
  --The Science Board report (December 2007) is particularly clear that 
        a fundamental source of problems is chronic under-funding.
  --No systemic improvement is likely without resources to increase 
        food science and inspection capacity, further fund drug and 
        device approvals and safety monitoring, and upgrade mission-
        critical information technology systems.
    Compared with other public health agencies, the FDA's budget is 
still relatively small, and out of alignment with its growing 
responsibilities.
  --The FDA is responsible for regulating products that represent one-
        quarter of all consumer spending.
  --Twenty-five years ago, the FDA and the Centers for Disease Control 
        and Prevention (CDC) were roughly the same size, but since that 
        time, the CDC's compound annual growth rate has grown to nearly 
        double that of FDA.
  --With over 80 percent of its budget going to staff and operational 
        costs--including salary and benefits for approximately 10,000 
        employees as well as rent, supplies, telecommunications, etc.--
        at the current rate of growth, the Agency will not be able to 
        sustain, much less grow, its current scope.
  --FDA needs excellent staff with cutting edge scientific expertise, 
        but it also needs strong, selective scientific research 
        programs that are appropriately mission-driven in all of the 
        areas of FDA responsibility (e.g. generic biologic review, 
        adverse event tracking, drug import field exams, foreign 
        manufacturing facility review, etc.)
    Increasing the FDA's budget in fiscal year 2011 will strengthen its 
ability to operate a modern, scientifically based regulatory program.
  --The FDA must be strong enough to accept the baton of innovation 
        from the research community in order to ensure that patients 
        are able to benefit from advances in biomedical and laboratory 
        science.
    We commend Dr. Hamburg and the Agency for their commitment to 
excellence and for recognizing the valuable role of regulatory science 
in creating new pathways and standards for product development and 
approval.
    Attached is a chart that breaks down our budget request by 
function, comparing it to both the President's request and previous 
year's budgets.
    Thank you very much for your consideration and for the opportunity 
to submit this testimony. I would be happy to answer any questions you 
may have.

 PRESIDENT OBAMA'S FISCAL YEAR 2011 REQUEST FOR THE FDA COMPARED TO THE ALLIANCE FOR A STRONGER FDA'S FISCAL YEAR 2011 REQUEST (WITH FURTHER COMPARISON
                                                          TO FISCAL YEARS 2008, 2009 AND 2010)
                                              [Budget Authority Appropriations, does not include user fees]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Fiscal year 2008  Fiscal year 2009  Fiscal year 2010  Fiscal year 2011  Fiscal year 2011
       Function  Note: budget authority only, by center         actual (December    final (March     final (October        alliance        President's
                                                                      2007)             2009)             2009)            request           request
--------------------------------------------------------------------------------------------------------------------------------------------------------
Food..........................................................      $510 million      $649 million      $784 million      $955 million      $856 million
Human Drugs...................................................       353 million       413 million       465 million       580 million       484 million
Biologics.....................................................       155 million       183 million       206 million       255 million       215 million
Animal Drugs/Feed.............................................        97 million       116 million       135 million       165 million       141 million
Devices & Radiological Health.................................       238 million       280 million       315 million       385 million       326 million
Natl. Ctr. for Toxicological Research.........................        44 million        52 million        59 million        72 million        61 million
HQ, Office of Commissioner and Other..........................        97 million       121 million       144 million       183 million       162 million
Rent & Facilities Cost........................................       220 million       223 million       237 million       250 million       259 million
                                                               -----------------------------------------------------------------------------------------
      SUBTOTAL, Salaries and Expenses.........................     1.714 billion     2.039 billion     2.346 billion     2.845 billion     2.504 billion
                                                                  (+$145 million    (+$325 million    (+$307 million
                                                                over fiscal year  over fiscal year  over fiscal year
                                                                           2007)             2008)             2009)
                                                               -----------------------------------------------------------------------------------------
Building and Facilities Repair................................         8 million        16 million        16 million        12 million        12 million
                                                               -----------------------------------------------------------------------------------------
      TOTAL, ALL Budget Authority Appropriations (no user          1.722 billion     2.055 billion     2.362 billion     2.857 billion     2.516 billion
       fees)..................................................                                                         (Proposes +$495    (Proposes $154
                                                                                                                          million over      million over
                                                                                                                           fiscal year       fiscal year
                                                                                                                                 2010)             2010)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Because OMB includes new and proposed user fees in their totals, these numbers vary considerably from those being discussed by the Administration and
  reported by many sources.
Subsequently, the Administration amended its request to ask for an additional $8 million for earmarks within the food program. This is reflected in the
  chart, but may not be in all budget descriptions.

                                 ______
                                 

                 Prepared Statement of Feeding America

    Thank you Mr. Chairman and members of the subcommittee for the 
opportunity to submit written testimony on the President's fiscal year 
2011 budget for the U.S. Department of Agriculture (USDA). As president 
and CEO of Feeding America, I am pleased to be able to share with you 
the needs and interests of the more than 37 million people served by 
our network of 200 food banks and more than 62,000 local feeding 
agencies. I also want to thank you and your colleagues for the 
continuing and generous support this subcommittee has always provided 
for nutrition programs and for your leadership in the fight to end 
hunger in this Nation.
    As you know, our network and those we serve are heavily reliant on 
the programs administered by the Food and Nutrition Service of USDA. We 
greatly appreciate the difficult challenges this agency takes on in 
administering our Nation's domestic nutrition assistance programs. Over 
the years we have formed a successful partnership with FNS and its 
regional offices. Federal commodity donation programs like The 
Emergency Food Assistance Program (TEFAP) and the Commodity 
Supplemental Food Program (CSFP) make it possible for our network to 
distribute millions of pounds of nutritious foods to the food pantries, 
shelters, soup kitchens, and after school programs (like Kids Cafes) 
that we operate throughout the country. This partnership and our close 
working relationship with FNS also has helped our network engage in 
promoting and helping hungry people access other nutrition programs, 
like SNAP, Child Nutrition, and WIC.
    If we are ever going to end hunger in this country we all must 
continue to work together so that the 49 million people in our Nation 
who are defined by USDA as ``Food Insecure'' are able to fully access 
the critically important tools provided by Federal nutrition programs.

               TEFAP AND COMMODITY DISTRIBUTION PROGRAMS

    Feeding America food banks are the largest user of commodities 
provided through The Emergency Food Assistance Program (TEFAP). This 
program provides a consistent source of food that allows many feeding 
agencies to keep their doors open, and as noted below, helps us 
leverage private, charitable donations to significantly expand the 
amount of food and resources we distribute through our food bank 
network
    The Feeding America food bank network depends on USDA commodities 
to ensure a guaranteed supply of foods to distribute to our pantries, 
shelters, soup kitchens and community feeding programs. In fiscal year 
2009, a total of $2.2 billion worth of food was distributed through our 
food banks and local agencies. The value of TEFAP and CSFP commodities 
accounted for $436 million of this amount.
    TEFAP Commodities.--With the generous support of this Congress in 
enacting the American Recovery and Reinvestment Act (ARRA), funding for 
TEFAP commodities was increased by $150 million for fiscal year 2009 
and fiscal year 2010. Of this amount States could use $50 million for 
distribution grants. Unfortunately, the additional commodities bought 
with the ARRA funding will run out by the end of March, 2010. This is 
happening at a time when the numbers of people coming to our agencies 
for food assistance (already at record levels) continues to grow, and 
unemployment remains high. The rising demand, together with a 
significant decline in available bonus commodities for the program and 
the end of ARRA commodities, is seriously depleting our food 
inventories, and many of our feeding agencies soon may be facing empty 
shelves. We estimate that an additional $200 million in TEFAP commodity 
assistance is needed to continue serving the growing numbers of people 
who are seeking food assistance through emergency feeding agencies.
    Feeding America recommends that an additional $200 million be added 
in emergency funding for TEFAP commodities to ensure that emergency 
feeding programs can continue to serve the growing numbers of hungry 
Americans coming to them for help.
    Safe Storage and Distribution of Commodities.--As in past years, 
the Administration budget proposal for TEFAP commodity distribution 
grants requests the same amount ($50 million) to help State and local 
agencies with the costs of storing, transporting and distributing TEFAP 
commodities. Funding to protect the food commodities and transport and 
distribute them is critically important, especially now that many 
States are facing budget crises that are challenging their ability to 
fund this essential work. It has been very difficult to cover these 
costs as demand has increased, and we are hopeful that the subcommittee 
will find more funding to help make sure the food we have can be safely 
stored, transported and distributed.
    Feeding America recommends that the Committee fully fund the TEFAP 
grant program for commodity distribution at the fully authorized level 
of $100 million.
    TEFAP Infrastructure Grants.--The Administration budget request 
proposes to zero out the $6 million in funding for TEFAP infrastructure 
grants that was approved by this Committee for fiscal year 2010. These 
grants, yet to be awarded by the Administration for fiscal year 2010, 
are critically important to help food banks with the costs of 
maintaining and improving their facilities and equipment and ensuring 
safe food storage and handling. Many of our food banks, particularly 
those located in rural areas are struggling to update their facilities 
and equipment. Efforts to improve the amount of fresh fruits and 
vegetables distributed also are hindered by outdated refrigeration and 
storage units. Moreover, the poor economy in many regions is 
handicapping efforts to raise sufficient private funding for capitol 
improvement projects.
    We recommend that the USDA release the Infrastructure grant funding 
appropriated by the Committee for fiscal year 2010 as quickly as 
possible, and that the Committee continue to fund this extremely 
important program to our network.
    Commodity Supplemental Food Program.--The Administration budget 
request recommends $176.8 million for the Commodity Supplemental Food 
Program. More than one-third of our food banks operate CSFPs in States 
approved for this program. We are pleased that your Committee has long-
supported the CSFP, which is critically important to so many needy 
elderly and young mothers and children. The addition of new States to 
this program last year has opened the way for many more hungry people 
to receive the nourishment they need. It is our hope that caseloads in 
States with programs can be increased and that over time more States 
and localities will be able to offer CSFPs. The decline in bonus 
commodities available to this and other nutrition programs is 
worrisome, and we hope that this does not impede progress in reaching 
the many people, especially seniors, who require the nutritious 
supplemental food packages provided by the CSFP.
    We support the Administration proposal for CSFP funding for fiscal 
year 2011 and the position of our colleagues in the national CSFP 
Association.

                            CHILD NUTRITION

    Recognizing the many gaps in our child nutrition programs, our food 
banks are heavily engaged in promoting and feeding children through 
innovative child nutrition programs. Along with offering nutritious 
foods to over 14 million children through our food pantries, shelters 
and soup kitchens, our food banks operate more than 1,600 Kids Cafes 
serving more than 115,000 children each year. These after school 
programs are able to operate with support from the Child and Adult Care 
Food program and private donations. They are run in a wide variety of 
local settings like Boys and Girls clubs, churches, community centers, 
and schools. Kids Cafe programs had their origin in Savannah, Georgia, 
where in 1989 two young brothers were found late one night searching 
for something to eat in a housing project community kitchen.
    More recently, our food banks have taken on the issue of gaps in 
our child nutrition programs by initiating weekend feeding programs for 
low income children. These programs, commonly known as BackPack 
programs, operate in partnership with local schools and community 
agencies and provide child-friendly, non-perishable, nutritious foods 
for children to take home on the last day before a weekend or school 
holiday. BackPack programs originated in Little Rock, Arkansas after a 
school nurse contacted the local food bank to ask for help when she 
noticed that many children were coming to her on Mondays complaining of 
stomach aches and dizziness. There now are more than 140 Feeding 
America members and partner organizations operating 3,600 BackPack 
programs that serve more than 190,000 children.
    The Administration fiscal year 2011 budget for Child Nutrition 
Programs would maintain current services for all of the current 
programs. More importantly it proposes to increase funding for child 
nutrition programs by $1 billion annually (or $10 billion over 10 
years) to make the needed changes to these programs to help achieve the 
President's goal of ending childhood hunger by 2015. Feeding America 
fully supports the President's ambitious and achievable goal and budget 
proposal.
    Child Nutrition programs are the foundation upon which to build a 
Nation where all of our children have access to the nutritious foods 
essential to help them learn and thrive and lead healthy and productive 
lives. It is critically important that comprehensive child nutrition 
reauthorization legislation be enacted this year, and that enough 
funding be provided to make this happen.
    Too many low-income children in this country are unable to access 
child nutrition programs when they need them. For example, only 2.2 
million children participate in the Summer Food Service Program, which 
is targeted to children living in low-income areas. This compares to 
some 19 million low-income children receiving free and reduced price 
school lunches during the school year. Summer food and child care 
feeding programs are handicapped by excessive sponsor requirements, 
proscriptive eligibility rules and administrative and paperwork burdens 
that limit access to these programs and reduce cost efficiencies. At a 
time when State and local governments are struggling with budget 
cutbacks, these administrative barriers hinder sponsorship of Federal 
nutrition programs that could help millions of children without adding 
fiscal burdens to States and communities.
    Feeding America recommends that changes to child nutrition programs 
be accomplished this year to expand their quality and reach to all 
children, and that these changes fill the gaps in current services. Our 
priorities call for (1) expanding the reach and quality of foods for 
hungry children in schools, child care, After school and summer sites; 
(2) providing start-up funding and outreach to increase the number of 
Summer Food Service programs in unserved and underserved areas; (3) 
funding innovative programs, like the BackPack Program, to help hungry 
children when they do not have access to nutrition programs, and (4) 
better coordinating programs and streamlining and simplifying rules 
that prevent or hinder the operation of child nutrition programs. [See 
attachment at the end for a more detailed list of Feeding America 
priorities.]

                SNAP OUTREACH AND APPLICATION ASSISTANCE

    Our food banks are working closely with FNS staff at the Federal, 
State and local level to conduct SNAP outreach. As you know, too many 
people who are eligible for SNAP benefits are not receiving them. Data 
shows that about one-third of those who are eligible for SNAP do not 
participate in this program. There are many reasons for this, and high 
among them are long and complicated application forms and processes. 
Our food banks are committed to addressing this problem by working with 
local Federal, State and local SNAP agencies to offer on-site 
application assistance to clients wading through the difficult and 
time-consuming process of qualifying for these critically important 
benefits.
    While this is not part of a specific Administration budget request 
we hope that this partnership will continue and be expanded through 
waivers and other methods to help ensure that all of those who are 
eligible for SNAP can qualify and receive these vitally important 
benefits.

                           CONCLUDING REMARKS

    Feeding America is profoundly aware of the current economic crisis 
and the challenges this presents to our legislators and those they 
represent. Our Nation's nutrition programs provide the foundation upon 
which to build a future where all of Americans have access to 
nutritious foods that will help them live healthy and productive lives. 
As they have so often in the past when our Nation faced war, a Great 
Depression, and social and economic upheavals, Federal nutrition 
programs offer the way to effectively respond to our current economic 
crisis and to the needs of those struggling to nourish themselves and 
their families.
    Millions in this country are struggling to keep their jobs, homes, 
and food on the table. Food Banks and local feeding agencies often are 
the first to see the devastated faces of those who never imagined that 
they would be seeking help at a food pantry, shelter, or soup kitchen. 
The charitable sector has truly stepped up to try and serve the growing 
numbers of those in this Nation who are hungry. But, as we learned in 
the Great Depression and are reminded of in the current Great 
Recession, charity alone cannot meet the need.
    The government and charitable sector must work together and Federal 
nutrition programs must be the solid foundation upon which to build the 
structure that finally succeeds in ending the scourge of hunger in this 
Nation. No one in this country should have to wonder where their next 
meal will come from, or how they will afford to buy nutritious foods 
for their families.
    Thank you so much for allowing me to present this written 
testimony. I hope you will not hesitate to contact me or my colleagues 
in our Washington office if we can be of assistance in helping you and 
the President finally put an end to hunger among children and for all 
of those living in out great Nation.

                               Attachment

                       CHILD NUTRITION PRIORITIES

    Feeding America food banks play a critical role in directly 
supporting and advocating for child nutrition. In 2009, our food bank 
network provided food to 13.9 million children, or one out of every 
five of all children in the United States. As the Congress prepares to 
reauthorize and strengthen these child nutrition programs, our food 
banks are actively engaged in developing and promoting legislative 
changes that will move the Nation forward in the crusade to end 
childhood hunger in America. President Obama's commitment to achieving 
this goal by the year 2015 is running behind schedule. The Congress 
must move quickly to complete action on a child nutrition bill that 
makes a substantial investment of no less than the Administration 
request to ensure that all of our children have access to a safe, 
nutritious, and healthy diet.
    Our child nutrition legislative priorities will: (1) strengthen the 
quality and efficiency of all child nutrition programs; (2) fill the 
gaps in food service for millions of low-income children, and (3) offer 
creative ideas for new and innovative approaches to ending childhood 
hunger.
    High on our priority list are proposals to reach more needy 
children through the Summer Food Service and Child and Adult Care Food 
Programs (SFSP & CACFP). Too many low-income children receiving free or 
reduced-price school lunches during the school year (some 19 million) 
do not have access to the SFSP, which reaches only 2.2 million 
children. Similarly, because of the limited number of after-school 
programs currently being operated through CACFP, too many low-income 
children find themselves without access to nourishing food after the 
school day ends. Moreover, as the economy worsens, many low-income 
children are going hungry during weekends and school holidays. The 
Feeding America food banks operating summer food and afterschool 
programs, the Kids Cafe program, and weekend food box (or BackPack) 
programs strongly urge the Congress to make the following program 
improvements.
Afterschool and Child Care Nutrition (Child and Adult Care Food 
        Program)
    Expand supper funding for At-Risk After-School Programs beyond the 
current 14 States and localities (CT, DC, DE, IL, MD, MI, MO, NV, NY, 
OR, PA, VT, WI, and WV) to all 50 States.
    Reduce the area eligibility threshold for At-Risk After-School 
Programs from 50 percent of children eligible for free or reduced-price 
school meals down to 40 percent.
    Provide child care centers and home day cares with the option of 
providing a third meal.
    Provide funding for outreach to recruit new sponsors to participate 
in CACFP.
    Increase funding for CACFP expansion grants.
    Require the publication of a CACFP manual to help applicants and 
program sponsors.
Weekend Nutrition (The BackPack Program)
    Create a Pilot Program to fund a series of projects to explore 
various methods for providing food to low-income children on weekends 
and extended school holidays. Require that BackPack Programs be 
included as a model for one or more of the pilots and include funding 
for a USDA evaluation.
    Provide authority for schools to designate Fruit and Vegetable 
Program purchases for distribution through Weekend box or BackPack 
Programs.
Summer Nutrition (The Summer Food Service Program; Rural Summer 
        Initiatives)
    Reduce the area eligibility threshold for SFSP from areas where 50 
percent of children are eligible for free or reduced-price school meals 
to areas where 40 percent are eligible.
    Expand the California SFSP pilot, which authorized use of the SFSP 
program year round, to more or all States, with the provision that 
meals may be served afterschool year round to reduce need for separate 
program applications and criteria for summer and CACFP afterschool 
programs.
    Increase the percentage of second meals that sponsors may be 
reimbursed for to recognize the variable nature of attendance in the 
summer and the need to reduce food waste.
    Provide outreach funding to get new sponsors/sites/participants 
into the SFSP program by, among other things, providing funding for 
USDA and/or States to develop and implement aggressive outreach 
programs to get more children into summer food programs, and offering 
Start-up grants for new SFSP sponsors to encourage them to begin new 
programs
    Eliminate the restrictions on non-profit sponsors on the number of 
operating sites and participants they may serve.
    Create a series of pilot programs to explore innovative methods of 
reaching more children through the SFSP in underserved areas. [NOTE: 
Fiscal year 2010 appropriations provided $85 million for USDA to test 
innovative methods for reaching children in the summer.] Ideas we 
recommend include:
  --Funding for mobile meal programs.
  --Creation of a commodity box program pilot, targeted to children in 
        rural areas that are not served through traditional congregate 
        meal programs. Operated through schools, government, or non-
        profit agencies using school meals data to identify need, with 
        option of picking up a box of items containing the equivalent 
        to meals received through the SFSP.
In-School Nutrition (National School Lunch Program and School Breakfast 
        Program)
    Expand the School Breakfast Program to more schools and more 
children by increasing school options and incentives for providing 
breakfasts at schools; including in-classroom breakfast options and 
allowing universal school breakfasts in targeted schools with high 
percentages of low-income students.
    Expand the ``free'' meal category for school meals from 130 percent 
to 185 percent of poverty, resulting in the elimination of the 
``reduced price'' meal category.
    Improve the nutritional quality of meals served in schools and of 
foods available on the school campus.
Special Supplemental Nutrition Program for Women, Infants and Children 
        (WIC)
    Ensure adequate funding to serve the growing caseload of women, 
infants, and children receiving WIC food packages and participating in 
the accompanying nutrition services.
Cross-Program Child Nutrition Initiatives
    Increase base reimbursement rates for all child nutrition programs 
(school meals, CACFP, SFSP, etc.) to cover the higher meal costs due to 
inflation and improved nutritional quality.
    Provide for more frequent indexing of reimbursement rates for all 
child nutrition programs. For example, provide semi-annual indexing and 
round up rates (currently rounded down).
                                 ______
                                 

          Prepared Statement of Florida State University (FSU)

    Florida State University is requesting $5,000,000 in fiscal year 
2011 for the Risk Reduction for Agricultural Crops Program from the 
National Institute of Food and Agriculture (NIFA).
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every State in the 
Nation and more than 100 foreign countries. The university is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the Nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, I bring two items of interest to you today. The first 
is a project vital to many of our Nation's farmers and the second is 
our strong support for the President's fiscal year 2011 budget requests 
for two programs within the USDA--the Agriculture and Food Initiative 
and the Expanded Food and Nutrition Education Program. First, let me 
tell you about our project.
    Droughts in the southeastern U.S. have had significant impacts on 
the water resources. The Federal Government can reduce these risks by 
using modern technologies such as climate models, to predict future 
climate, and decision-support tools to help mitigate some uncertainties 
and provide adaptation strategies for the agricultural and 
environmental sectors. The Southeast Climate Consortium (SECC), which 
includes three Florida universities: Florida State University, 
University of Florida, University of Miami. The SECC has been at the 
forefront of research and extension for the application of climate 
predictions to risk reduction for agriculture and natural resources. 
With support from USDA and NOAA, the SECC has developed new methods to 
predict the consequences of climate variability and climate change for 
agricultural crops, forests, and water resources in the southeastern 
USA.
    The SECC is a model for employing regional climate forecasts for 
agricultural purposes; because of its success, USDA has considered 
establishing other such regional activities throughout the United 
States to coordinate regional research efforts. Examples of coordinated 
research efforts have FSU leading efforts to provide climate forecasts 
and risk reduction methodology. UF will translate this climate 
information into risks and environmental impacts on agriculture and 
will work with Extension to provide information to the agricultural 
community. UM will provide economic modeling capacities. Research 
efforts with other regional players in GA, AL, SC, and NC are 
coordinated to provide an overall regional climate strategy. Together, 
all university partners are developing new tools to manage climate 
risks to water quality. These tools and applications have strong 
support of extension in all these SE States.
    The new tasks are to develop improved methods to forecast droughts 
and other extreme climate events. These forecasts will be incorporated 
into decision support systems to help agricultural, forest, and natural 
resource managers to reduce risks of losses. We will develop new 
partnerships and methods for incorporating climate forecasts into 
agricultural and water policy decisions and continue the development of 
a decision support system to provide seasonal and multi-year 
projections for agricultural water use. Lastly, we will initiate 
research to determine risks and appropriate agricultural responses to 
longer term trends in climate.
    Florida State University, on behalf of the Southeast Climate 
Consortium, seeks $5.0 million in fiscal year 2011 for this project.
    Mr. Chairman, I would also like to express strong support for the 
President's fiscal year 2011 budget requests for two programs within 
the USDA.
    The Agriculture and Food Initiative (AFRI) is seeking $428.845 
million to enhance funding levels for several areas critical to our 
Nation's continued progress. These areas include bioenergy, global 
climate change, global food security, nutrition and health, and the 
agricultural workforce. Two areas within AFRI that we feel strongly 
about are providing avenues to address changes in our climate related 
to agriculture and programs related to nutrition and nutrition 
education. A second programmatic area within USDA is the Expanded Food 
and Nutrition Education Program (EFNEP). The President has requested 
$68.070 million for fiscal year 2011, the same level appropriated in 
fiscal year 2010. We understand the difficult choices that the 
President and your Committee must make in this difficult budget climate 
and, for that reason, we support level funding for this important 
program for fiscal year 2011. Our faculty members at FSU are very 
involved in both these important areas, and we respectfully request 
that the Committee endeavor to find funding to help move these 
important endeavors forward in fiscal year 2011.
    Mr. Chairman, I appreciate your consideration of our project 
request as well as the President's budget request for AFRI and EFNEP. 
Thank you.
                                 ______
                                 

  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                              Inc. (FAR-B)

    Mr. Chairman, and members of the subcommittee, thank you for this 
opportunity to present our statement regarding funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency's flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville promotes 
the Center's current and long-term agricultural research, outreach, and 
educational missions. In this request, we support $13 million of 
increases proposed in the President's budget for the Beltsville 
Agricultural Research Center. Also, we ask restoration of $111,000 of 
decreases proposed for the U.S. National Arboretum, Washington, DC, and 
$2,918,000 of decreases proposed for the Beltsville Agricultural 
Research Center. These actions, if approved, would restore the 
increases for the Beltsville Agricultural Research Center to $13 
million.
    Before turning to explanatory specifics, please allow us to note 
for the record that during this calendar year the Beltsville 
Agricultural Research Center will mark a great historical milestone, a 
milestone to celebrate the many great and small accomplishments that 
BARC research has contributed to the Nation's agricultural bounty and 
to the overall march of scientific progress. A century has passed since 
1910, the year research at Beltsville began with the assembly of a 
dairy cattle herd for research purposes. The ensuing BARC story is by 
all rights a great national story--a story of world-class 
accomplishment. BARC Director Joseph Spence and his staff are planning 
worthy events to commemorate the centennial year.
    The Friends of Agricultural Research--Beltsville (FAR-B) is honored 
to be both a participant in the centennial planning process and a 
contributor to coming events. We would be pleased, Mr. Chairman, to 
answer any questions, to collect any information or documents the 
subcommittee might wish regarding the centennial.
    We now turn to the specifics of our testimony for fiscal year 2011. 
Most fiscal year 2011 increases in the President's budget for BARC 
appeared (sometimes under slightly different headings) in our testimony 
for fiscal years 2009 or 2010. We strongly support all the proposed 
increases.
    Animal Breeding and Protection, $1,500,000.--The promise of 
understanding the genome of plants and animals is being fully exploited 
at Beltsville. In groundbreaking research conducted here, scientists 
have been able to quickly and accurately identify dairy bulls that will 
produce daughters that are the most efficient milk producers. Now a 
simple test at birth can predict at twice the former accuracy and at a 
cost of about $250 the potential of a bull to sire high producing cows. 
Traditionally, bull prediction methods have required farmers to 
maintain and study cows for several years, at a cost up to $50,000 per 
bull. The potential for developing and expanding this breakout 
technology is huge and at great savings to farmer and consumer alike.
    Colony Collapse of Honey Bees, $500,000.--The loss of honey bees 
has and will continue to have a major effect on American agriculture. 
Crops such as almonds are entirely dependent on the honey bee for 
pollination. Research conducted at Beltsville is regarded as the most 
significant and effective at addressing the issue of colony collapse 
disorder and the funds will make use of the recently reported DNA 
sequence of nosema, a pathogen that is associated with colony collapse 
disorder. BARC scientists determined the DNA sequence for nosema.
    Crop Breeding and Protection, $1,250,000.--A number of crops of 
great agronomic importance to the United States are at risk from 
emerging diseases that can devastate crop yield. Research to identify 
germplasm that is resistant to these emerging diseases is being 
conducted at BARC. The research combines BARC's unique germplasm 
resources with outstanding breeding research ability to develop 
improved crop varieties with resistance to emerging diseases.
    Food Safety, $1,500,000.--The Beltsville Area has established the 
largest single food safety unit in ARS. This research unit will focus 
on a number of issues, including safety of fruits and vegetables and 
food safety issues related to organic agriculture. The ability exists 
at BARC to raise crops and animals under farm conditions, and then to 
process, store, and package the resulting products. The ability to 
propose and test interventions that greatly reduce pathogen exposure in 
foods, and ultimately in people, is a unique feature of the food safety 
research program at BARC.
    Global Climate Change, $800,000.--BARC has unique growth chambers 
that can measure and observe plant growth at every stage or part from 
root to stem, and under every conceivable atmospheric condition. BARC 
is using these chambers to measure the effects of increasing 
atmospheric CO<INF>2</INF> and changes in environmental temperatures. 
Studies are underway not only on agronomically important crops, but 
also on invasive weeds. BARC research shows that environmental changes 
may enhance the rapid growth of invasive plants, thus threatening to 
exacerbate already costly problems for American agriculture.
    Human Nutrition, $5,400,000.--Obesity negatively impacts the health 
and productivity of the American public. Moreover, obesity comes with 
greatly increased risk of chronic diseases that dramatically add to the 
economic costs of healthcare. The Beltsville Human Nutrition Research 
Center (BHNRC) is researching barriers and facilitators that may 
discourage or encourage Americans from following recommended Dietary 
Guidelines; that is, why adults and children from major U.S. racial/
ethnic groups may or may not follow dietary guidelines. A major 
research emphasis is to prevent obesity through a better understanding 
of why people make the food choices they do. This research also will 
help USDA design and implement more effective food assistance programs. 
Furthermore, this research will help to define the progress of efforts 
to prevent obesity in children because it takes advantage of the unique 
national food consumption survey ``What We Eat in America'', conducted 
by BHNRC and is the Nation's nutrition monitoring effort.
    Local Food Systems, $500,000.--BARC scientists are working with 
farmers on Maryland's Eastern Shore to learn how to improve on-farm 
conservation practices that will improve water quality in the 
Chesapeake Bay. The research goals--targeting the entire range of 
Eastern Shore farming practices--include reducing fertilizer and 
pesticide usage. A central goal is to create agronomic and animal waste 
management practices that will reduce fertilizer usage and control 
pollution runoff. Biocontrol studies are searching out ways to minimize 
the need for pesticides. Scientists also are using advanced remote 
sensing and hydrological technologies to protect the health of the 
Chesapeake watershed. Because BARC is a working farm and has 
established collaborations with producers on the Eastern Shore, BARC is 
an ideal place to study the utilization of farm-generated waste 
products. Farm-generated waste products can be environmentally harmful, 
have little or no value to the farmer, and be costly to dispose of. 
Work at Beltsville has led to the effective development of technologies 
and products that take waste by-products and convert them to valuable 
new products. Examples include biofuels and plastics made without 
petroleum.
    Plant, Animal, and Microbial Collections, $1,250,000.--BARC 
maintains and expands the Federal government's unique collections of 
biological materials and organisms that are of utmost importance in 
identifying pests and parasites in the United States and are critical 
for preventing unwanted pests from entering the United States through 
imports or by international travelers, as well as demonstrating that 
our exports are safe. These unique, irreplaceable collections include 
the invaluable reference collections of insects, nematodes, parasites, 
and fungi, and the national Germplasm Resource Information Network. 
These world-class collections and information systems attract leading 
experts from around the world in efforts to globally control diseases 
and pests. The continued availability of research in this general area 
of systematics is essential for trade, for homeland security, and for 
the protection of American agriculture.
    Reduce World Hunger, $300,000.--This research will collect 
phenotypic data and use genome sequence derived markers to characterize 
germplasm for traits of importance in food animals. Of most 
significance, this work will utilize BARC's Animal Improvements 
Laboratory, which is a truly unique research operation that builds on 
100 years of expertise at BARC.
    Now we turn to proposed decreases, all listed as earmarks in the 
President's budget. We recommend restoration of these funds.
    Medicinal and Bioactive Crops, $111,000.--This funding is critical 
to continue research on the beneficial bioactive components in plants 
and herbs. These components have been shown at BARC to enhance human 
health.
    Biomedical Materials in Plants, $1,700,000.--Plants can be used as 
factories to manufacture vaccines and other pharmaceuticals for animals 
and humans. This research focuses on development of alternative crops 
to produce these biomedical products.
    Bioremediation Research, $111,000.--Munitions storage sites and 
bombing ranges in parts of the United States have left huge tracts of 
soils and lands contaminated by highly toxic residues from such 
explosives as TNT. Those soils and lands now are limited 
environmentally for commercial or agricultural purposes. These funds 
support ongoing research to determine if forage plants can remove TNT 
and its metabolites from contaminated sites. Beltsville is a world 
recognized leader in the field of bioremediation. This work is not done 
anywhere else in ARS.
    Foundry Sand By-Products Utilization, $638,000.--Waste sands from 
the metal casting industry currently are dumped in landfills. This 
project is working with industry on guidelines for beneficial uses of 
these sands.
    Potato Diseases, $61,000.--These funds are used for research 
activities on genetic improvement of potato and reducing diseases of 
potato. While a small amount of money, these funds are used to 
supplement ongoing efforts in this important area.
    Poultry Diseases, $408,000.--Coccidiosis, a parasitic poultry 
disease, costs the industry almost $1 billion per year. This research 
focuses on understanding the genetics of both the parasite and the host 
chicken to identify targets that will allow better disease prevention 
and control.
    Mr. Chairman, that concludes our statement. We again thank you for 
the opportunity to present our testimony and for your interest and 
support.
                                 ______
                                 

Prepared Statement of the Infectious Diseases Society of America (IDSA)

    The Infectious Diseases Society of America (IDSA) appreciates this 
opportunity to speak in support of Federal efforts to prevent, detect 
and respond to infectious diseases in the United States and abroad as 
part of the fiscal year 2011 funding cycle. IDSA supports an overall 
increase of $495 million for the Food and Drug Administration (FDA) for 
fiscal year 2011. Within this overall increase, we support an 
additional $20 million for FDA's antimicrobial resistance and 
antibacterial drug review programs, which will allow FDA to more 
aggressively address staffing problems within the Agency's division 
with oversight over antibacterial human drug reviews to enable that 
division to quicken its pace in developing critical guidance for 
industry on antibacterial drug clinical trial designs; fund Critical 
Path initiatives specific to antibacterial drug development; update 
antibacterial drug and antimicrobial susceptibility testing (AST) 
device susceptibility breakpoints for inclusion in product labeling; 
and review the safety of antibacterial drug use in food animals. We 
also support an increase of $13.25 million for FDA's new regulatory 
science initiative and an increase of $3 million for the National 
Antimicrobial Resistance Monitoring System (NARMS).
    IDSA represents more than 9,000 infectious diseases physicians and 
scientists devoted to patient care, prevention, public health, 
education and research. Our members care for patients of all ages with 
serious infections, including meningitis, pneumonia, tuberculosis (TB), 
resistant infections caused by methicillin-resistant Staphylococcus 
aureus (MRSA), Escherichia coli (E. coli) and Salmonella, and cancer 
and transplant patients who have life-threatening infections caused by 
unusual microorganisms, food poisoning, and HIV/AIDS, as well as 
emerging infections like the 2009 H1N1 virus and severe acute 
respiratory syndrome (SARS).

                   OVERALL FDA FUNDING RECOMMENDATION

    The increases in FDA's appropriations over the past few years have 
been critical to strengthening the Agency. Nonetheless, there remains 
an extraordinarily large gap between FDA's responsibilities and its 
resources. Every year, the Agency's job becomes more complex 
scientifically and more difficult to perform. Moreover, new laws 
affecting FDA recently have been enacted, further straining the FDA's 
ability to meet the expectations of the Congress and the American 
people. It is also important to note that FDA's appropriation is quite 
small, especially when matched against its jurisdiction over one-
quarter of consumer spending, 80 percent of the food supply and all of 
the drugs, biologics, medical devices, animal drugs, cosmetics and 
dietary supplements used anywhere in the United States. FDA must also 
deal with the food and medical products that are sourced from overseas. 
IDSA is recommending a $495 million increase for FDA in fiscal year 
2011. This is the amount we believe is needed to enable FDA to make 
further progress in carrying out its existing responsibilities.

                    SPECIFIC FUNDING RECOMMENDATIONS

    Within this increased funding, IDSA supports a strengthening of 
efforts which will support FDA's antimicrobial resistance programs and 
antibacterial drug review efforts. Specifically, we support at least a 
$20 million increase for FDA's activities in these areas in fiscal year 
2011. We also support an increase in FDA funding for the new regulatory 
science initiative and an increase for the National Antimicrobial 
Resistance Monitoring System (NARMS).

            THE ANTIBIOTIC PIPELINE: PROBLEMS AND SOLUTIONS

    Since antibiotics were first discovered and used in the 1940s to 
save American soldiers during World War II, they have saved millions of 
lives and eased patients' suffering. In fact, antibiotics often have 
been referred to as ``miracle drugs,'' since patients only need to take 
them for a few days to completely resolve most infections.
    However, antibiotics also are unique among all medicines in two 
very unfortunate ways. First, over time, these drugs lose their ability 
to treat the diseases for which they were approved--due to antibiotic 
resistance. And, second, the phenomenon of antibiotic resistance has 
required that newly approved antibiotics be used sparingly so that we 
can prolong their effectiveness against life-threatening infections. 
These two issues, resistance and the resulting need for protective 
antibiotic stewardship measures, have created very real clinical 
challenges in physicians' ability to treat infectious diseases. 
Unfortunately, they also have resulted in a market failure that has 
caused most pharmaceutical companies to withdraw from antibiotic 
research and development (R&D). The sad result--the antibiotic pipeline 
is drying up, placing Americans and other people around the world at 
serious risk.
    A January 2009 IDSA report published in the journal Clinical 
Infectious Diseases (CID) analyzes antibiotics in development and shows 
the pipeline is bare, particularly for infections caused by a group of 
bacteria known as the ESKAPE Pathogens (Enterococcus faecium, 
Staphylococcus aureus, Klebsiella pneumoniae, Acinetobacter baumannii, 
Pseudomonas aeruginosa, and Enterobacter species), so-called because 
they effectively escape the effects of approved antibiotic drugs. Of 
significance, these ESKAPE pathogens cause the majority of U.S. 
healthcare-associated infections. A report released by the European 
Centre for Disease Prevention and Control (ECDC) and the European 
Medicines Agency (EMA) in September 2009 confirms IDSA's assessment 
finding only 15 antibacterial drugs in development with the potential 
to offer a benefit over existing antibacterial drugs. Only five of 
these antibiotics had progressed to clinical trials to confirm clinical 
efficacy (Phase III or later).
    The lack of new antibacterial drugs in development is deeply 
troubling to health experts and has the potential to change the 
practice of medicine as we know it. A number of advanced interventions 
that we currently take for granted, e.g. surgery, cancer treatment, 
transplantation and care of premature babies, may be impossible to 
perform if we get to the point where effective antibacterial drugs are 
no longer available. Our ability to care for patients with serious and 
life-threatening infections already has been significantly diminished--
morbidity and mortality are on the rise.
    In addition to market failure due to antibacterial resistance, 
pharmaceutical companies often report that uncertainty caused by a lack 
of clear FDA guidance on appropriate clinical trial designs is a 
significant impediment to antibacterial R&D efforts. IDSA requests that 
FDA funding be sufficiently increased to allow the Agency to quickly 
provide regulatory certainty and to explore other incentives needed to 
motivate major drug companies to become engaged again in antibacterial 
R&D.
    FDA has made some progress over the past several years in 
publishing new clinical trial guidelines. However, clear clinical trial 
design guidance is still urgently needed, including guidances for 
community-acquired bacterial pneumonia, hospital-acquired bacterial 
pneumonia, ventilator-associated bacterial pneumonia, complicated skin 
and skin structure infections and other serious infections. FDA must 
have adequate funding to hire additional staff quickly to finalize 
these guidances. Otherwise, more companies will leave this area of drug 
development.
    Moreover, IDSA strongly urges FDA to commission a study through the 
Tufts Center (or some other similar entity) seeking a report on 
strengths and weaknesses in the antibacterial and related diagnostics 
R&D pipelines with a particular emphasis on products needed to treat, 
detect, and prevent serious and life-threatening infections caused by 
ESKAPE pathogens. The study also should provide recommendations as to 
what combination of incentives, considering each phase of product 
development, will work to spur greater R&D of such products among the 
biotechnology, pharmaceutical, and diagnostics industries as well as 
within academic settings.

                     SUPPORT FOR REGULATORY SCIENCE

    IDSA is encouraged by the recent announcement of the initiative 
between FDA and the National Institutes of Health designed to 
accelerate the process from scientific breakthrough to the availability 
of new, innovative medical therapies for patients. The initiative 
involves two interrelated scientific disciplines: translational 
science, the shaping of basic scientific discoveries into treatments; 
and regulatory science, the development and use of new tools, standards 
and approaches to more efficiently develop products and to more 
effectively evaluate product safety, efficacy and quality.
    In order to improve the regulatory science, the two agencies will 
jointly make $6.75 million available over 3 years for work in this 
area. The research supported through this initiative will add to the 
scientific knowledge base by providing new methods, models or 
technologies to inform the scientific and regulatory community about 
better approaches to evaluating safety and efficacy in medical product 
development. IDSA is concerned, however, that this amount of funding 
will be insufficient to lead to the types of breakthroughs needed to 
bring new antibacterial drug products to the market in a more timely 
fashion. We support an increase of $13.25 million in this funding, to a 
total of $20 million, to support science around antibacterial drug 
development.

                       ANTIBACTERIAL BREAKPOINTS

    Physicians need accurate information on susceptibility 
interpretative criteria (``breakpoints'') to use antibacterial drugs 
wisely. Breakpoints are the science behind standard laboratory policy 
and are the basis upon which antibacterial drug selection 
determinations are made. The real-life impact of relying upon 
inaccurate (including out-of-date) breakpoints are thousands of wrong 
treatment decisions being made every day in this country. Without 
accurate breakpoint information, patients' safety and lives are at 
risk. That is why updating antibacterial drug product labeling and AST 
instruments/systems in a timely manner are so critically important. 
Again, FDA must have the funding necessary to allow for additional 
staff to be able to update these breakpoints on a timely and consistent 
basis.

             ANTIBACTERIAL USE AND RESISTANCE ON U.S. FARMS

    Another area of serious concern is the inappropriate use of 
antibacterial drugs in food animal production. An additional $5 million 
should be allocated to allow FDA to complete, update and publish 
reviews on the safety of antimicrobials important in human medicine 
currently used for non-therapeutic purposes in food-producing animals 
for their role in the selection and dissemination of antibiotic 
resistant food-borne pathogens, these reviews. Since 2003, FDA's Center 
for Veterinary Medicine (CVM) has required that the pre-approval safety 
review for all new antibiotic veterinary drugs include an evaluation of 
the likelihood that the proposed drug use in animals will lead to 
resistant infections in humans. Because almost all antibacterial drugs 
being used for growth promotion and other non-therapeutic purposes in 
livestock production were approved by the FDA before 2003, most have 
either not undergone reviews with respect to antibacterial resistance 
or have undergone reviews that are inconsistent with current standards. 
In order to ensure that these drugs meet current safety standards, it 
is important to do post-market safety reviews of those classes of 
antibiotics important to human medicine that are also being used for 
routine non-therapeutic purposes in animal agriculture. These would 
include penicillins, tetracyclines, macrolides, lincosamides, 
streptogramins, aminoglycosides, and sulfonamides. By providing an 
additional $5 million, the subcommittee can ensure that FDA completes 
and publishes these critical reviews.
    Finally, an additional $3 million should be provided to the 
National Antimicrobial Resistance Monitoring System (NARMS). Jointly 
operated by FDA, the Department of Agriculture (USDA) and the Centers 
for Disease Control and Prevention (CDC), NARMS is a national public 
health surveillance system that tracks changes in the susceptibility of 
certain enteric bacteria to antimicrobial agents of human and 
veterinary medical importance. Systematic collection and analyses of 
data is essential to address the growing problem of antibacterial 
resistant infections.
    NARMS has been level-funded at about $7 million for the last 
several years; however, at that level it has been unable to keep up 
with life-threatening pathogens, such as MRSA, E. coli and Salmonella. 
Additional funding will enable increased surveillance, to include 
additional bacterial species and numbers and/or types of samples as 
well as allow researchers to utilize more sensitive methods. The 
additional funding will also allow NARMS to initiate farm-level 
surveillance of antibiotic-resistant bacteria.
    Today's investment in infectious diseases research, surveillance, 
prevention, and treatments will pay significant dividends in the future 
by dramatically reducing healthcare costs and improving the quality of 
life of millions of Americans and others. In addition, U.S. leadership 
in infectious diseases research and prevention will translate into 
worldwide health benefits. We urge the subcommittee to continue to 
demonstrate leadership and foresight in this area by appropriating the 
much-needed resources outlined above in recognition of the lives and 
dollars that ultimately will be saved.
                                 ______
                                 

   Prepared Statement of the International Walking Horse Association 
                                 (IWHA)

    IWHA submits the following testimony seeking an increase in funding 
for the USDA/APHIS Horse Protection Program to $900,000, as requested 
in the President's budget for fiscal year 2011. This funding is 
urgently needed to by APHIS in order to fulfill the intent of the Horse 
Protection Act, which is to abolish the cruel practice of soring horses 
for show ring competition--by increasing the USDA's oversight and 
enforcement of the Horse Protection Act (HPA).
    In 1970, Congress passed the HPA with the clear intent to end 
soring, the intentional infliction of pain to the limbs horses to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry. The practice creates an unfair advantage 
in the show ring for those who engage in it, and has significant 
negative impacts to both the breed itself and to commerce in and 
related to the breed.
    Soring often involves the use of various chemicals which are 
painted on the lower front legs of a horse, then the legs are wrapped 
for days in plastic wrap and bandages to ``cook'' the chemicals deep 
into the horse's flesh, but it may also involve various means of 
physical abuse. The desired result is that horse's legs and or feet 
become extremely painful and sensitive. Then when the horse is ridden, 
by attempting to relieve its front feet and legs of pain, it most often 
performs an exaggerated gait which is highly rewarded in the show ring. 
Some of the physical methods mentioned include inserting foreign 
objects such as metal screws or hard acrylic between the shoes and the 
horse's hoof, and/or cutting a horse's hoof down to the sensitive live 
tissue to cause extreme pain every time the horse bears weight on the 
hoof; a practice known as pressure shoeing. Other cruel secondary 
practices involve such practices as applying painful chemicals such as 
salicylic acid to slough off scarred tissue, in an attempt to remove 
evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses and Racking Horses--in transport to and at shows, 
exhibits, auctions and sales--for signs of soring, and to impose 
penalties against violators. Unfortunately, in recent years the 
enforcement of the Act has been plagued by underfunding. As a result, 
the USDA has not been able to adequately enforce the Act, allowing this 
extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to meet the goals of the Act is for USDA 
officials to be present at more Tennessee Walking Horse shows. However, 
the current funding provision allows USDA attendance at only about 6 
percent of shows. Although the USDA set up and has oversight of an 
industry-run system of certified Horse Industry Organization (HIO) 
inspection programs, which are charged with inspecting horses for signs 
of soring at the majority of shows These HIOs have often hired industry 
insiders who have an obvious stake in preserving the status quo. In the 
absence of strict USDA oversight, these programs often fail to 
accomplish the intent of the Act, and in some cases even take advantage 
of the lack of USDA oversight in order to thwart the intent of the Act. 
Statistics clearly show that when USDA inspectors are in attendance to 
oversee shows, the numbers of noted violations for some of the HIOs are 
many times higher than at shows where industry inspectors alone are 
conducting the inspections. By all measures, the overall DQP program 
has been a failure--the only remedy is to abolish it or greatly reduce 
dependence on this conflicted industry-run program of self-regulation 
and give USDA the resources it needs to adequately enforce the Act.
    USDA appears to have recently attempted to step up its enforcement 
efforts, as evidenced in 2009 by a more than twofold increase over the 
previous year in the number of violations cited at the industry's 
largest show (the Tennessee Walking Horse National Celebration). 
However, the top three prize winning horses at that show were all found 
after their wins to have been in violation of the HPA, yet their owners 
and trainers were allowed to keep the titles and prizes awarded. Horses 
identified as sored at shows also continue to be shown in subsequent 
events, and their owners continue to win lucrative prizes and 
accolades. USDA needs enhanced resources to carry out its 
responsibilities as Congress intended, and the public expects.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse events has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has ruined the reputation of the 
Tennessee Walking Horse, both as a breed and show industry. The 
continued allowance of soring creates an unfair advantage for those who 
are willing to break the law in order to win in the show ring. Besides 
the cruelty to the horses, the continued acceptance of sored horses in 
the show ring unfairly disadvantages those with sound horses from 
competing fairly for prizes, breeding fees, and the value of their 
horses. Meanwhile, other owners whose horses are in training with 
unscrupulous trainers are often unwittingly suffering property damage 
and being duped into believing that their now abused, often permanently 
scarred horses are naturally superior.
    Currently, when USDA inspectors arrive at shows, many exhibitors 
load up and leave to avoid being caught with sored horses. While USDA 
could stop these trailers on the way out, Agency officials have stated 
that inspectors are wary of going outside of their designated 
inspection area, for fear of harassment and physical violence from 
exhibitors. Recently, armed security has been utilized to allow such 
inspections, at additional expense to this program. The fact that 
exhibitors feel they can intimidate government officials without 
penalty is a testament to the inherent shortcomings of the current 
system.
    Further, in years past, inspections were limited to physical 
observation and palpation by the inspector. More recently, new 
technologies, such as thermography and ``sniffer'' devices (gas 
chromatography/mass spectrometry machines), have been developed, which 
can help inspectors identify soring more effectively. However, USDA has 
been unable to purchase and put enough of this equipment in use in the 
field, allowing for industry insiders to continually evade detection. 
With increased funding, the USDA could purchase this equipment and 
train more inspectors to use it properly, greatly increasing its 
ability to enforce the HPA.
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for equine 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse and the impact it has on the breed and overall 
commerce in it. It is time for Congress to give our public servants 
charged with enforcing this Act the support and resources they need to 
fulfill their duty to effectively protect these horses, those who 
compete fairly in showing them, and the public's interest in an 
industry that should be realizing its full potential as a positive 
source of commerce rather than being thwarted by illegal activity.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
                                 ______
                                 

                  Letter From the Lacey Act Coalition

                                                    March 17, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Ranking Member Brownback: We write to 
request your leadership and support to fund the Animal and Plant Health 
Inspection Service (APHIS) at the Department of Agriculture to 
implement its ongoing responsibilities under the Lacey Act plant 
provisions (Section 8204 of the Food, Conservation, and Energy Act of 
2008, Public Law 110-246).
    The Lacey Act amendments, passed in 2008 with overwhelming support 
from Congress, industry, labor and environmental organizations, make it 
unlawful to trade wood products or other plants taken in violation of 
the laws of either a U.S. State or a foreign country. This ground-
breaking legislation is already beginning to influence the way 
companies are making sourcing decisions and monitoring their supply 
chains. Full and effective implementation and enforcement of the Lacey 
Act will enable American forest product companies to compete fairly in 
the global marketplace, help keep jobs in the United States, deter the 
destructive impacts of illegal logging on forests and forest-dependent 
communities in developing countries, and reinforce initiatives to 
mitigate climate change.
    The law requires U.S. importers of wood products to file a 
declaration identifying the species name and country of harvest--a 
critical measure intended by the law's sponsors to increase supply 
chain transparency and assist U.S. agencies in fair and strong 
enforcement. The prohibition and the declaration requirement affect a 
wide array of American industry, so it is critical that the declaration 
process generates data in a streamlined, cost-effective manner without 
unduly burdening legitimate trade. To that end, APHIS, which is 
responsible for implementing the declaration provision, needs $5.5 
million in funding to establish an electronic declarations database and 
to add internal capacity to perform data analysis needed for monitoring 
and enforcement purposes.
    We recognize that this is a tight budget year; however, support for 
the Lacey Act amendments is critical as they herald U.S. leadership on 
a complex global environmental and business issue. Other key allies are 
watching the United States and looking to emulate this example. Thus we 
urge you to allocate adequate funds to APHIS in the fiscal year 2011 
Agriculture, FDA and Related Agencies Appropriations Act for effective 
implementation of its new responsibilities under the amended Lacey Act, 
to help curb the importation of illegally sourced wood products into 
the United States.
            Sincerely,

Amazon Watch
American Forest and Paper Association
Conservation International
Defenders of Wildlife
Dogwood Alliance
Double Helix Tracking Technologies
Environmental Investigation Agency
Friends of the Earth
Global Witness
Hardwood Federation
Humane Society International
The Humane Society of the United States
National Wildlife Federation
Natural Resources Defense Council
Rainforest Action Network
Rainforest Alliance
Rainforest Relief
Sierra Club
Sustainable Furnishings Council
The Forest Trust
The Nature Conservancy
TRAFFIC
United Steelworkers
Wildlife Conservation Society
World Wildlife Fund
                                 ______
                                 

   Letter From the Metropolitan Water District of Southern California

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, and Related 
        Agencies, Washington, DC.

Re: Support for fiscal year 2011 Federal funding of 2.5 percent of the 
        U.S. Department of Agriculture's Environmental Quality 
        Incentives Program (at least $20 million annually) for the 
        Colorado River Basin Salinity Control Program
    Dear Senator Kohl: The Metropolitan Water District of Southern 
California (Metropolitan) has adopted a position supporting funding for 
the Department of Agriculture's Colorado River Basin Salinity Control 
Title II program.
    For 70 years, Metropolitan has provided imported water to the 
Southern California region from the Colorado River and the State Water 
Project originating in Northern California. Our mission is to provide 
high quality, reliable drinking water supplies primarily for municipal 
and industrial use. Metropolitan is the Nation's largest provider of 
imported water to an urban area. The population today in our service 
area is 19 million and it is projected to rise to 25 million within the 
next 25 years. Metropolitan is comprised of 26-member public agencies 
that serve an area spanning 5,200 square miles and six southern 
California counties.
    Water imported via the Colorado River Aqueduct (CRA) has the 
highest salinity of Metropolitan's imported sources of supply, 
averaging around 630 milligrams per liter since 1976 and causing 
economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the cost of water treatment and sewer fees in the 
        industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased use of imported water for leaching; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President approved the Colorado River Basin 
Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation on this issue and coordinate the Colorado River 
Basin States' efforts on salinity control, the seven Basin States 
formed the Colorado River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system.
    The Colorado River Basin Salinity Control Program reduces salinity 
by preventing salts from dissolving and mixing with the River's flow. 
Irrigation improvements (sprinklers, gated pipe, lined ditches) and 
vegetation management reduce the amount of salt transported to the 
Colorado River. Point sources such as saline springs are also 
controlled. The Federal Government, Basin States, and contract 
participants spend close to $50 million annually on salinity control 
programs.
    The Program, as set forth in the Act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    By some estimates, concentrations of salts in the Colorado River 
cause approximately $350 million in quantified damages in the lower 
Colorado River Basin States each year and significantly more in 
unquantified damages. Salinity control projects have reduced salinity 
concentrations of Colorado River water on average by over 100 
milligrams per liter with an economic benefit of $264 million per year 
(2005 dollars) in avoided damages.
    Metropolitan urges this subcommittee to support funding for the 
Colorado River Basin Salinity Control Program for fiscal year 2011 of 
2.5 percent of the U.S. Department of Agriculture's Environmental 
Quality Incentives Program (at least $20 million annually) for the 
Colorado River Basin Salinity Control Program.
    These Federal dollars will be augmented by the State cost sharing 
of 30 percent with an additional 25 percent provided by the 
agricultural producers with whom USDA contracts for implementation of 
salinity control measures. Over the past years, the Colorado River 
Basin Salinity Control program has proven to be a very cost effective 
approach to help mitigate the impacts of increased salinity in the 
Colorado River. Continued Federal funding of this important basin-wide 
program is essential.
    I would appreciate it if you make this statement a part of the 
formal hearing record concerning fiscal year 2011 appropriations for 
the Department of Agriculture. I thank you for your subcommittee's 
support of this program in years past and hope that you will again 
support funding to continue this valuable program.
            With best regards,
                                       Jeffrey Kightlinger,
                                                   General Manager.
                                 ______
                                 

    Prepared Statement of the National Association of State Energy 
                           Officials (NASEO)

    Chairman Kohl and members of the subcommittee, I am Phil Giudice, 
Chairman of the National Association of State Energy Officials (NASEO). 
NASEO is submitting this testimony in support of funding of at least 
$39 million in discretionary appropriations for the Rural Energy for 
America (REAP) (section 9007 of the 2008 Farm Bill) in addition to the 
$70 million in mandatory funding. The REAP program was created as part 
of the 2002 Farm Bill and it has been a huge success. Over 3,500 clean 
energy projects have been implemented in every State since 2003. These 
activities have included energy efficiency projects, as well as wind, 
solar, biomass, anaerobic digesters, biodiesel, and geothermal. 
Technical assistance has also been a big factor in this program. 
Funding requests are generally three times the amount of available 
funds. NASEO has worked with farmers, our State agricultural agencies 
and rural interests to promote this successful program. As we face 
dramatically increasing energy bills for all sectors of the economy 
(and increased volatility in energy prices), it is critical that we do 
more to address the energy problems of rural America.
    Greater energy efficiency and renewable energy use in the farm 
sector will help create jobs, reduce climate change, increase 
agricultural productivity and improve the environment. If significantly 
increased energy funding can be provided for the energy title of the 
Farm Bill, then this could effectively combine with efforts through the 
Energy and Water Development Appropriations Bill, such as the State 
Energy Program, biorefineries, expanded alternative fuels programs, 
alternative fuels infrastructure, etc.
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                          Association (NCSFPA)

    The Honorable Herb Kohl, Mr. Chairman, and subcommittee members: 
Thank you for this opportunity to present information regarding the 
USDA/FNS Commodity Supplemental Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2011 at $176.788 million, as requested by the 
U.S. Department of Agriculture, and include language directing the 
Department to utilize all available resources to supplement the CSFP 
food package and meet the rising demand for nutritional assistance 
among our vulnerable senior population.
    This first effort at national food assistance began in 1969 with 
monthly packages designed to supplement protein, calcium, iron, 
vitamins A and C for low-income mothers and children (preceding WIC); 
nutrients shown to be lacking in the diets of low-income households. 
Low-income seniors added in 1983 now comprise 96 percent of all CSFP 
participants.
    CSFP is a unique program that brings together Federal and State 
agencies, along with public and private entities, The USDA purchases 
specific nutrient-rich foods at wholesale prices. State agencies 
provide oversight, contract with community and faith based 
organizations to warehouse and distribute food, certify eligibility and 
educate participants. The local organizations build broad collaboration 
among non-profits, health units, and area agencies on aging for simple, 
fast access to the supplemental foods (canned fruits and vegetables, 
juices, meats, fish, peanut butter, cereals, grain products, cheese and 
dairy products from American farmers) and nutrition education to 
improve participants health and quality of life. This partnership 
reaches even homebound seniors in both rural and urban settings with 
vital nutrition and remains an important ``market'' for commodities 
supported under various farm programs.
    In fiscal year 2009, the CSFP provided services through 150 non-
profit community and faith-based organizations at 1,800 sites located 
in 32 States, the District of Columbia, and two Indian Tribal 
Organizations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our 
gratitude for the increased fiscal year 2010 funding. We are most 
appreciative for the funding increase that has allowed CSFP to begin in 
seven new States, Arkansas, Delaware, Georgia, Maine, New Jersey, 
Oklahoma, and Utah, and has also resulted in a significant increase in 
the number of individuals who are now able to participate in the 
program in the other CSFP States.
    CSFP's 41 years of service is a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry 
and government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: young children and low-income seniors--
        many of whom will not qualify for other nutrition assistance 
        programs.
  --The CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. Eligible participants are 
        guaranteed [by law] a certain level of nutritional assistance, 
        nutrition education, and food preparation guidance each month. 
        The nutritional content of the food provided has improved with 
        the introduction of low-fat cheese, canned fruits packed in 
        fruit juice, and low-salt canned vegetables.
  --The CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average food package cost is estimated at 
        $19.82 and the retail value is $50.00-$60.00.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and most importantly 
        time and effort to deliver food to needy and homebound seniors. 
        These volunteers not only bring food but companionship and 
        other assistance to seniors who might have limited support 
        systems. (See Attachment 1.)
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. One-half of respondents 
from two-person households reported an income under $1,000 per month. 
Twenty-five percent were enrolled in the Supplemental Nutrition 
Assistance Program (SNAP) and 50 percent said they ran out of food 
during the month. Seventy percent of senior respondents said they 
choose between medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. Congress provided funding to meet the 
rising need among the elderly in the fiscal year 2010 appropriation. 
USDA's budget request will provide adequate resources for our monthly 
caseload of 604,931 mothers, children and seniors, and we urge the 
subcommittee to accept it. We also want to be sure that you are aware 
that four additional States are either considering or preparing to 
submit applications to USDA for approval. Should USDA's approval be 
granted, it may be necessary to reconsider if funds beyond those 
requested will be required to allow newly approved States to begin 
operations in fiscal year 2011.
    CSFP and other nutrition programs such as SNAP, are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net''.

``The Managers fully support continued operation of this program and 
recognize the need for a substantial expansion of CSFP . . . the 
Managers encourage the Secretary to approve all remaining States for 
expansion and to expand caseload in all participating States.''--Joint 
Statement of Managers, H.R. 2419, the Food, Conservation and Energy Act 
of 2008.

``CSFP has charms worth considering in designing human service programs 
. . . the program's trademarks were its simplicity and accessibility . 
. . CSFP in particular represents a guaranteed source of high quality 
food, delivered in a balanced package.''--The Role of CSFP in 
Nutritional Assistance to Mothers, Infants, Children and Seniors. The 
Urban Institute, August 2008.


------------------------------------------------------------------------
                                                            Amount in
                                                             millions
------------------------------------------------------------------------
The National Commodity Supplemental Food Program
 Association requests the following:
    To continue serving our monthly caseload of 604,931         $175.888
     needy seniors (96 percent of participants), women,
     infants and children (4 percent of participants)..
    To meet USDA's commodity procurement expenses......            0.9
                                                        ----------------
      Total fiscal year 2011 request...................          176.788
------------------------------------------------------------------------

    A 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--Elder 
Insecurities: Poverty, Hunger, and Malnutrition indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100 percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay and saves healthcare dollars. America is aging. CSFP must be an 
integral part of Senior Nutrition Policy and plans to support the 
productivity, health, independence and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    The CSFP is committed grassroots operators and dedicated volunteers 
with a mission to provide quality nutrition assistance economically, 
efficiently, and responsibly always keeping the needs and dignity of 
our participants first. We commend the Food Distribution Division of 
Food and Nutrition Service of the Department of Agriculture for their 
continued innovations to strengthen the quality of the food package and 
streamline administration.

                                                         FISCAL YEAR 2008 NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE/VALUE SURVEY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                     Goods and                                                      Extra goods
                                                                       USDA       Not reimbursed       CSFP          services        Volunteer     Annual total    Percent paid     donated to
                            Programs                                reimbursed     by USDA cash    expenditures     donated to      labor hours    program value      by USDA          CSFP
                                                                       cash                            cash        agency value        value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $461,361  ..............        $461,361  ..............         $61,121        $522,482              88         $16,097
New York........................................................       1,947,032      $2,500,000       4,447,032         $20,700           3,984       4,471,716              44           6,500
Vermont FB......................................................         233,132  ..............         233,132  ..............  ..............         233,132             100  ..............
Washington, DC..................................................         434,945       1,600,000       2,034,945         800,000         173,632       3,008,577              14  ..............
Pennsylvania....................................................         912,209          18,637         930,846          32,169          48,259       1,011,274              90         100,000
Kentucky........................................................         980,911          64,645       1,045,556  ..............          24,577       1,070,133              92         624,093
Mississippi.....................................................         437,969  ..............         437,969          30,520         199,906         668,395              66           7,104
North Carolina..................................................          75,126  ..............          75,126  ..............  ..............          75,126             100  ..............
South Carolina..................................................         232,192  ..............         232,192  ..............           1,342         233,534              99          22,500
Tennessee \1\...................................................         840,812  ..............         840,812  ..............  ..............         840,812             100  ..............
Illinois........................................................         869,405  ..............         869,405  ..............          25,643         895,048              97  ..............
Indiana.........................................................         269,732          25,000         294,732          25,000          68,502         388,234              69          32,189
Michigan........................................................       4,861,625         314,317       5,175,942         310,168       1,722,543       7,208,653              67       4,637,316
Minnesota.......................................................         881,829         319,848       1,201,677           2,213         449,733       1,653,623              53         864,844
Red Lake, MN \1\................................................           6,204  ..............           6,204  ..............  ..............           6,204             100  ..............
Ohio............................................................         978,890         198,896       1,177,786          65,770         328,264       1,571,820              62          85,774
Wisconsin.......................................................         316,547          50,000         366,547  ..............         275,406         641,953              49          54,610
Louisiana.......................................................       4,089,578  ..............       4,089,578         330,000       1,104,420       5,523,998              74  ..............
New Mexico......................................................       1,032,128         129,911       1,162,039         248,791         233,955       1,644,785              63         479,843
Texas...........................................................         997,895         157,200       1,155,095  ..............         297,774       1,452,869              69  ..............
Colorado........................................................       1,104,198          67,533       1,171,731          57,449         119,319       1,348,499              82       1,343,961
Iowa............................................................         216,086         353,367         569,453  ..............          13,463         582,916              37  ..............
Kansas..........................................................         328,548           7,200         335,748          10,000          83,642         429,390              77          89,519
Missouri........................................................         583,040  ..............         583,040  ..............          16,608         599,648              97  ..............
Montana \1\.....................................................         425,091  ..............         425,091  ..............  ..............         425,091             100  ..............
Nebraska........................................................         820,898          75,529         896,427          40,470         301,447       1,238,344              66          70,479
North Dakota \1\................................................         175,413  ..............         175,413  ..............  ..............         175,413             100  ..............
South Dakota....................................................         176,228           8,416         184,644  ..............          26,464         211,108              83  ..............
Ogala Sioux, SD \1\.............................................          40,360  ..............          40,360  ..............  ..............          40,360             100  ..............
Alaska..........................................................         134,803          63,000         197,803       1,015,000         104,235       1,317,038              10  ..............
Arizona.........................................................         940,739         252,000       1,192,739           2,000         184,312       1,379,051              68       2,000,000
California......................................................       3,373,339         580,027       3,953,366          35,400       1,248,232       5,236,998              64         379,140
Nevada..........................................................         371,461         174,278         545,739  ..............          24,960         570,699              65         179,400
Oregon..........................................................          84,166          96,573         180,739           4,436          44,317         229,492              37           5,200
Washington......................................................         228,871           7,500         236,371         208,000          90,076         534,447              43  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Grand Total...............................................      29,862,763       7,063,877      36,926,640       3,238,086       7,276,137      47,440,863              63     11,306,319
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No information provided. Feb. 24, 2009. Client Extras incl.: flu shots, fresh produce, clothing, books, toys, health screenings, personal care items, energy efficient items, dairy, baked
  goods, eye exams, etc.

                                 ______
                                 

   Prepared Statement of the National Council of Farmer Cooperatives 
                                 (NCFC)

    Mr. Chairman, members of the subcommittee, we would like to thank 
you for your continued leadership and support for U.S. agriculture. The 
National Council of Farmer Cooperatives (NCFC) appreciates this 
opportunity to submit its views regarding the fiscal year 2011 
agriculture appropriations bill, and respectfully requests this 
statement be made part of the official hearing record.
    NCFC represents the interests of America's farmer cooperatives. 
There are nearly 3,000 farmer cooperatives across the United States 
whose members include a majority of our Nation's 2 million farmers.
    We believe that our farmer cooperative members offer the best 
opportunity for America to realize the farmer-focused ideal of American 
agricultural policy. These farmer cooperatives allow individual farmers 
the ability to own and lead organizations that are essential for 
continued competitiveness in both the domestic and international 
markets.
    America's farmer-owned cooperatives provide a comprehensive array 
of services for their members. These diverse organizations handle, 
process and market virtually every type of agricultural commodity 
produced. They also provide farmers with access to infrastructure 
necessary to manufacture, distribute and sell a variety of farm inputs. 
Additionally, they provide credit and related financial services, 
including export financing.
    In all cases farmers are empowered, as elected board members, to 
make decisions affecting the current and future activities of their 
cooperative. Earnings derived from these activities are returned by 
cooperatives to their farmer-members on a patronage basis thereby 
enhancing their overall farm income.
    America's farmer cooperatives also generate benefits that 
strengthen our national economy. They provide jobs for nearly 250,000 
Americans with a combined payroll over $8 billion. Many of these jobs 
are in rural areas where employment opportunities are often limited.
    Congress faces many challenges in the current budget environment 
and we appreciate the difficulty of your task. However, we want to 
emphasize the continued importance of policies under the current Farm 
Bill that promote an economically healthy and competitive U.S. 
agricultural sector.
    These programs serve a variety of purposes including: meeting the 
food, fuel and fiber needs of consumers worldwide, strengthening farm 
income, improving our balance of trade, promoting rural development, 
and creating needed jobs.
    There is a long history of congressional support for farmer 
cooperatives, recognizing that they serve a variety of essential 
functions for American agriculture. Some of these functions include: 
enhancing producers' overall income, managing their risk, capitalizing 
on new market opportunities, and helping individual farmers work 
together to compete more effectively in a global economy.
    Given these vital tasks that farmer cooperatives perform on behalf 
of their members, it is extremely important that they retain the 
flexibility to modernize and adapt to the current and future 
marketplace confronting U.S. agriculture. Accordingly, in addition to 
supporting basic farm and commodity programs under the current Farm 
Bill, we recommend the following:

                          USDA EXPORT PROGRAMS

    We continue to strongly support USDA's export programs, which are 
vital to maintaining and expanding U.S. agricultural exports, counter 
subsidized foreign competition, meet humanitarian needs, protect 
American jobs, and strengthen farm income.
    NCFC is a longstanding member of the Coalition to Promote U.S. 
Agricultural Exports. The Coalition supports the Administration's 
proposed funding increases to several export promotion activities, but 
Coalition members are very concerned with the Administration's proposed 
20 percent reduction to the Market Access Program (MAP). MAP has been 
very successful in helping develop, maintain, and expand long-term 
export markets for U.S. agricultural products. U.S. agriculture is 
reliant on exports, which account for about one-third of farm cash 
receipts. And, given that over 95 percent of the world's consumers live 
outside the United States, foreign markets are critical for U.S. 
agriculture to expand sales and boost incomes. In addition, the ability 
of cooperatives to use MAP funding helps give individual farmers the 
ability to market their products overseas, which they otherwise would 
not be able to do on their own. As part of the 2008 Farm Bill, Congress 
authorized $200 million for MAP and we urge the subcommittee to support 
funding at the authorized level.
    NCFC also supports full funding of the Foreign Market Development 
program, the Export Credit Guarantee Programs, the Dairy Export 
Incentive Program, and Technical Assistance for Specialty Crops.

                FOOD AID AND FOREIGN ASSISTANCE PROGRAMS

    NCFC strongly supports maintaining funding for America's food aid 
programs to meet humanitarian needs, enhance the potential growth in 
recipient countries, and stimulate the economy in the United States. 
Given the ongoing food crisis for many nations, the amount and 
dependability of U.S.-produced food aid from USDA's Food for Peace 
program (Public Law 480) is crucial to our humanitarian assistance 
efforts. Specifically we recommend full funding of Public Law 480 title 
II for emergency and non-emergency food assistance programs at the $2.5 
billion authorized under the 2008 Farm Bill. We also urge the 
subcommittee to reject any proposals to divert funds from the Public 
Law 480 title II program to Local and Regional Purchase programs.
    NCFC also supports the goals and objectives and full funding of 
USDA's Food for Progress and McGovern-Dole International Food for 
Education and Child Nutrition Program.

                      FOREIGN AGRICULTURAL SERVICE

    Additionally, we want to take this opportunity to urge support for 
needed funding and resources for USDA's Foreign Agricultural Service. 
This funding is crucial if we are to continue to effectively carry out 
trade and assistance programs, and to provide the technical assistance 
and support needed to help maintain and expand U.S. agricultural 
exports.

           USDA'S RURAL BUSINESS--COOPERATIVE SERVICE (RB-CS)

    Several years ago, the Cooperative Service was eliminated as a 
separate agency within USDA. Since that time, the focus of research, 
education and technical assistance for farmer cooperatives has eroded. 
Funding for such purposes has generally been provided through the 
salary and expense budget relating to rural development. For fiscal 
year 2011, the Administration's budget proposal provides $730 million 
in both budget authority and program level for salaries and expenses 
for the rural development mission area, compared to $715 million for 
fiscal year 2010.
    In addition to ensuring that RB-CS has the funding for resources to 
assist in enhancing the competitiveness of farmer-owned cooperatives, 
we suggest the committee include report language directing RB-CS to 
improve the usability and scope of its statistics and data. In 
particular, the data should include information regarding farmer 
cooperatives' positive impact on competition in the market place and on 
rural communities.

                                 ENERGY

    Cooperatives play a significant role in the development and 
marketing of renewable fuels, both ethanol and biodiesel. Many 
cooperatives are also investigating opportunities for renewable energy 
from biomass such as dairy manure. In addition, USDA programs are being 
used more and more by cooperatives to improve energy efficiency in 
their facilities. We strongly support funding for important grant, loan 
and related programs which research and promote the development and 
advancement of biofuels and opportunities for biomass, as well as such 
programs that assist in reaching energy efficiency goals.

                      VALUE-ADDED PRODUCER GRANTS

    USDA's Value-Added Producer Grants (VAPG) Program encourages and 
enhances farmer and farmer cooperative participation in value-added 
businesses. These new ventures are intended to help producers capture a 
larger share of the value of their production and improve their overall 
income from the marketplace. These activities also promote economic 
development and create needed jobs in rural areas.
    The program is administered on a matching-fund basis, thereby 
doubling the impact of such grants and helping encourage investment in 
rural America. As a cost-share program, it is as an excellent example 
of an effective public-private partnership bringing a number of self-
sustaining products to market.
    Since the program's inception, NCFC has strongly support the VAPG. 
However, the program is not useful to cooperatives if they cannot meet 
the application and eligibility requirements. This was the case for the 
2009 program when USDA imposed requirements that were too burdensome, 
and in some cases impossible, for many cooperatives meet. We are 
hopeful that the subcommittee will look favorably upon funding the 
program up to the $40 million as authorized under the Farm Bill in the 
hopes that USDA does not again impose unnecessary and overly stringent 
requirements on cooperatives and thus limit their participation.

           B&I LOAN GUARANTEE PROGRAM AND FARMER COOPERATIVES

    Access to equity capital is one of the major challenges facing 
farmer cooperatives. A successful resolution of this challenge is 
essential in helping farmers capture more of the value of what they 
produce beyond the farm gate.
    For fiscal year 2011, the Administration's budget proposal provides 
an overall program level of $942 million, which represents a decrease 
from the $993 million in loans estimated to be guaranteed in fiscal 
year 2010. Accordingly, we recommend that resources be increased to at 
least the fiscal year 2010 estimated level.

                    RURAL BUSINESS ENTERPRISE GRANTS

    The Rural Business Enterprise Grants was reauthorized under the 
current Farm Bill to help foster rural economic development by 
encouraging and facilitating equity investments in rural business 
enterprises, including farmer cooperatives. Again, providing improved 
access to equity capital is essential to allowing farmers to capitalize 
on value-added business opportunities through farmer cooperatives. For 
these reasons, we urge that the program be fully funded as authorized 
and implemented as Congress intended.

                                RESEARCH

    Another important area of emphasis when it comes to enhancing the 
global competitiveness of farmer cooperatives and American agriculture 
is research. NCFC is a member of the National Coalition for Food and 
Agriculture Research, and supports their goals of increasing Federal 
food and agriculture research. We also joined with over 50 other 
agriculture groups in supporting funding for the Agriculture and Food 
Research Initiative, which was authorized in the 2008 Farm Bill.

                              CONSERVATION

    We also want to express our strong support for important 
conservation and related programs administered by USDA's Natural 
Resources Conservation Service (NRCS). Programs like the Environmental 
Quality Incentives Program (EQIP) provide needed financial and 
technical assistance to help farmers and others who are eligible to 
develop and carry out conservation and related activities to achieve 
important environmental goals. We support continued funding as 
prescribed in the Farm Bill for these important working lands 
conservation programs.

                      COMMODITY PURCHASE PROGRAMS

    USDA annually purchases a variety of commodities for use in 
domestic and international feeding programs, including the school lunch 
program. NCFC strongly supports such programs to: (1) meet the food and 
nutrition needs of eligible consumers and (2) help strengthen farm 
income by encouraging orderly marketing and providing farmers with an 
important market outlet, especially during periods of surplus 
production.
    As you are well aware, decades of public policy has reinforced the 
fact that the cooperative stands in the shoes of its farmer-owners, as 
they act for their mutual benefit. This is consistent with USDA's 
historic support of cooperative efforts and essential to ensure the 
continued availability of high quality products on a competitive basis. 
Therefore, it is important to ensure that farmers and their 
cooperatives remain fully eligible to participate in these programs.
                               conclusion
    Thank you again, Mr. Chairman and members of the subcommittee, for 
the opportunity to share our views. We look forward to working with the 
committee to ensure continued benefits for rural communities, 
consumers, American agriculture and our Nation as a whole.
                                 ______
                                 

Prepared Statement of the National Environmental Services Center (NESC)

    Chairman Kohl, Ranking Member Brownback and members of the 
subcommittee: Thank you for the opportunity to offer testimony to the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration and Related Agencies. We request $3.5 million for the 
National Drinking Water Clearinghouse (NDWC), a program that provides 
water infrastructure services for small communities and rural areas 
nationwide.

                              INTRODUCTION

    My name is Gerald Iwan, and I represent the National Environmental 
Services Center (NESC), located at West Virginia University in 
Morgantown, West Virginia. Previously, I was for 20 years the drinking 
water administrator for the State of Connecticut Department of Public 
Health, during which time I oversaw the implementation of all 
regulatory aspects of the Safe Drinking Water Act. In my current 
assignment with NESC, I manage a unique program with nationally 
recognized expertise in drinking water, wastewater, and small community 
infrastructure security and emergency preparedness. NESC provides 
access to an in-depth repository of information and specialized 
technical assistance and training services.

             WATER AND WASTEWATER INFRASTRUCTURE CHALLENGES

    More than 41,000 small community water systems in the United States 
provide drinking water to communities of 3,300 people or less (EPA, 
2009). These systems are mandated to comply with the Safe Drinking 
Water Act (SDWA) in providing reliable and safe water services to their 
citizens. Small water systems perform with limited financial, human and 
equipment resources and account for the majority of SDWA violations. 
The U.S. Department of Agriculture's (USDA) Water and Wastewater Grants 
and Loans program may be the only option small systems have to obtain 
funding to address necessary system improvements. However, reliable 
technical assistance provided by organizations such as NESC is also 
necessary to help them overcome the many challenges they and their 
operators face in complying with local, State and Federal regulations.
    Recognizing these challenges, the USDA funds ``Rural Water and 
Wastewater Technical Assistance and Training (RWTA) Programs'' through 
authorization in the Consolidated Farm and Rural Development Act (the 
Farm Bill). NESC's National Drinking Water Clearinghouse is one RWTA 
program. We have been funded by USDA for 19 years to help communities 
and rural areas identify and evaluate solutions to water or wastewater 
problems, improve facility operation and maintenance, and prepare 
funding applications for water or wastewater treatment facility 
construction projects.

                   DELIVERABLES PROVIDED BY THE NDWC

    The NDWC serves local officials, utility managers, system operators 
and RWTA professionals in small and rural communities. Telephone 
callers obtain toll-free drinking water technical assistance from our 
staff of certified operators, engineers, and scientists. Our quarterly 
publication On Tap, a magazine for small drinking water systems, 
provides information about water treatment, financing, and management 
options and has 27,000 subscribers. A comprehensive Web site 
www.nesc.wvu.edu and searchable online databases featuring water, 
wastewater, security, and emergency preparedness resources for 
communities of 10,000 or fewer residents provides round-the-clock 
access to contemporary information for small water systems. Annually, 
visitors to our Web site view more than 3.5 million pages and download 
over 1.6 million documents. Training sessions customized for small and 
rural areas, teleconferences, and more than 700 free and low-cost 
educational products give people the instruction and tools they need to 
address their most pressing drinking water issues.
    We anticipate an even greater need for NDWC services in 2011 due to 
the current recession, the severe winter conditions that have produced 
flood devastation, and the Federal effort to stimulate the economy 
through infrastructure projects. Stimulus funding in the water sector 
has been directed to construction, with only a fraction directed to 
support water and wastewater facility operation and maintenance. Small 
and rural communities will need increased support from RWTA providers 
to plan for and protect their current and future utility assets. The 
NDWC has accordingly expanded its scope of deliverables for fiscal year 
2011 to provide additional services. It is imperative that the NDWC 
continues to receive funding from the Technical Assistance and Training 
Grants (TAT) account to assist small community drinking water systems.

                                REQUEST

    We request a congressionally directed appropriation of $3.5 million 
to continue and increase the NDWC program services through the 
Technical Assistance and Training (TAT) Grants program. Thank you for 
considering our request.
                                 ______
                                 

       Prepared Statement of the National Organic Coalition (NOC)

    Chairman Kohl, Ranking Member Brownback, and members of the 
subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the National Organic Coalition (NOC) to detail our fiscal 
year 2011 funding requests for USDA programs of importance to organic 
agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers, cooperative retailers and others involved 
in organic agriculture. The current members of NOC are the Beyond 
Pesticides; Center for Food Safety; Equal Exchange; Food and Water 
Watch; Maine Organic Farmers and Gardeners Association; Midwest Organic 
and Sustainable Education Service; National Cooperative Grocers 
Association; Northeast Organic Dairy Producers Alliance; Northeast 
Organic Farming Association-Interstate Policy Council; Organically 
Grown Company; Rural Advancement Foundation International-USA; and the 
Union of Concerned Scientists.
               usda/agricultural marketing service (ams)
National Organic Program
            Request: $10.08 million
    Sales of organic food and beverages had experienced a rapid growth 
over the last decade, averaging nearly 20 percent per year. Even 
despite the recession, organic sales grew at a rate of 5 percent in 
2009. The National Organic Program (NOP) is the Agency charged with 
regulating and enforcing the USDA organic label. For years, the 
exponential growth of the organic industry has far outpaced the 
resources provided to the NOP, which has greatly limited the ability of 
NOP to fulfill its regulatory and enforcement role credibly.
    Fortunately, both Congress and the Administration have heard this 
concern, and have responded with a steady increase in funding in the 
last 2 years to meet these needs. In addition, over the last year, the 
new leadership at USDA and NOP has taken significant steps to bolster 
the integrity of the program and public confidence in the organic label 
though issuance of long overdue regulations (e.g. pasture rule for 
organic ruminants) and through efforts to seek independent oversight of 
its accreditation procedures to assure compliance with international 
standards of quality management. In addition, NOP leadership has made 
its budget and its plans fully transparent to the public. These changes 
have met with widespread praise from the full spectrum of stakeholders 
in the organic sector, from consumers to farmers to handlers.
    We are strongly supporting the Administration's fiscal year 2011 
request for $10.08 million for the National Organic Program (NOP), 
representing an increase of $3.11 million over last year's level. $2.11 
million of this request is for regulatory review, enforcement and 
equivalency agreements; with an additional one-time amount of $1 
million for assisting certifying agents in achieving compliance with 
international certification standards.
    In addition, we are requesting inclusion of report language 
praising the Agency for the significant improvements that have been 
made over the past year. In previous years, Congress has included 
report language urging improvements in the program. Now that many of 
these improvements are being made, it seems fitting for Congress to 
recognize the progress. We request inclusion of the following report 
language:
    The Committee notes the significant improvements made in the 
administration of the National Organic Program over the last year, in 
keeping with the requests of this Committee in previous years. The 
Committee applauds the Agency for the long-overdue publication of the 
final pasture rule for organic livestock, the decision to seek 
independent oversight and recognition of its accreditation procedures 
by NIST within the Department of Commerce, and for its actions to make 
the NOP budget and planning process transparent to the public. These 
actions bolster the integrity of the USDA organic seal and enhance 
public confidence in that label.

                         USDA (AMS, ERS, NASS)

Organic Data Initiative
            Request: $5 million
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative states that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' 
Section 10302 of the Farm, Conservation, and Energy Act of 2008 amends 
the provision further to provide mandatory funding, and to authorize $5 
million annually in discretionary funding.
    As the organic industry matures and grows at a rapid rate, the lack 
of national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
The organic data collection and analysis effort at USDA has made 
significant strides in recent years, but remains in its infancy. 
Because of the multi-agency nature of data collection within USDA, 
organic data collection and analysis must also be undertaken by several 
different agencies within the Department: The Administration's fiscal 
year 2011 budget requests $300,000 for AMS and $500,000 for NASS 
organic data collection. We are requesting the full $5 million to be 
appropriated for this initiative, to be divided between the three main 
data collection sub-agencies as follows:
  --Economic Research Service (ERS)
    --Request: $1.5 million
  --Agricultural Marketing Service (AMS)
    --Request: $3 million
  --National Agricultural Statistic Service (NASS)
    --Request: $500,000
         usda/national institute of food and agriculture (nifa)
Organic Transitions Program
            Request: $5 million
    The Organic Transition Program, authorized by Section 406 of the 
Agricultural Research, Education and Extension Reform Act (AREERA) for 
Integrated Research Programs, is a research grant program that helps 
farmers surmount some of the challenges of organic production and 
marketing. As the organic industry grows, the demand for research on 
organic agriculture is experiencing significant growth as well. The 
benefits of this research are far-reaching, with broad applications to 
all sectors of agriculture, even beyond the organic sector. Yet funding 
for organic research is minuscule in relation to the relative economic 
importance of organic agriculture and marketing in this Nation. 
Starting in fiscal year 2009, the program has been administered in 
combination with the NIFA Water Quality integrated research program, to 
study the watershed impacts of organic systems.
    The Organic Transition Program was funded at levels ranging between 
$2.1 and $1.8 million during the period of fiscal year 2003 through 
fiscal year 2009, and then received a significant increase to $5 
million in fiscal year 2010. The Administration's budget proposes to 
eliminate funding for the Organic Transition Program, as well as the 
other section 406 ``integrated'' programs within the NIFA budget, based 
on vague assertions that the needs will be met through other 
competitive grants research programs. The past Administration made 
similar recommendations regarding the 406 programs, which have been 
consistently rejected by Congress. We urge the Committee to continue to 
reject this proposal to defund the Organic Transition Program, and to 
provide fiscal year 2011 funding at last year's level of $5 million.
Organic Research and Extension Initiative (OREI)
            Request: $10 million
    OREI is USDA's flagship competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture. The program is consistently oversubscribed and in fiscal 
year 2009 could only fund 17 percent of the funds requested. The 2008 
Farm Bill authorized $25 million annually in discretionary funds, in 
addition to mandatory funds authorized. We request that $10 million be 
appropriated for OREI for fiscal year 2011.
Agriculture and Food Research Initiative (AFRI)
            Request: Report language on Conventional/Classical Plant 
                    and Animal Breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. This problem has been particularly acute for organic and 
sustainable farmers, who seek access to germplasm well suited to their 
unique cropping systems and their local environment.
    Since fiscal year 2005, the Senate Agriculture Appropriations 
Subcommittee has included report language raising concerns about this 
problem, and urging CSREES (now NIFA) to give greater consideration to 
research needs related to classical plant and animal breeding when 
setting priorities within the National Research Initiative/AFRI. 
Despite this report language, research proposals for classical plant 
and animal breeding that have sought AFRI funding in recent years have 
been consistently denied.
    In Section 7406 of the Food, Conservation, and Energy Act of 2008, 
the National Research Initiative was merged with the Initiative for 
Future Agriculture and Food Systems to become the Agriculture and Food 
Research Initiative (AFRI). Congress included language within AFRI to 
make ``conventional'' plant and animal breeding a priority for AFRI 
research grants, consistent with the concerns expressed by the 
Appropriations Committee in preceding appropriations cycles.
    When CSREES released its AFRI Program Announcement for fiscal year 
2009, it invited research proposals on conventional/classical plant and 
animal breeding. However, when researchers submitted their initial 
letters of intent spelling out their research topics in the arena, they 
were nearly all rejected in the pre-proposal stage.
    We are awaiting the fiscal year 2010 AFRI Request for Applications. 
After numerous meetings with NIFA leadership and letters urging the 
full inclusion of the classical breeding into the fiscal year 2010 
funding priorities, we are anxious to see how the Agency responds to 
this need, and the strong expressions of both the Congressional 
appropriators and authorizers on this matter.
    We are requesting report language from the subcommittee to 
reiterate that the funding for classical plant and animal breeding 
should be a priority area within the AFRI process.
Sustainable Agriculture Research and Education (SARE)
            Request: $30 million ($25 million for research and 
                    education grants; and $5 million for professional 
                    development grants)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. The President's budget requests $30 million for SARE program 
for fiscal year 2011, including $10 million to start the Federal-State 
Matching Grant program. Consistent with the President's request, we are 
requesting $25 million for research and education grants (including $10 
million for the Federal-State Matching Grant program) and $5 million 
for professional development grants.
                usda/rural business cooperative service
Appropriate Technology Transfer for Rural Areas (ATTRA)
            Request: $3 million
    ATTRA, authorized by Section 6016 on the Food, Conservation, and 
Energy Act of 2008, is a national sustainable agriculture information 
service, which provides practical information and technical assistance 
to farmers, ranchers, Extension agents, educators and others interested 
and active in sustainable agriculture. ATTRA interacts with the public, 
not only through its call-in service and Web site, but also provides 
numerous excellent publications written to help address some of the 
most frequently asked questions of farmers and educators. Much of the 
real-world information provided by ATTRA is extremely helpful to both 
the conventional and organic communities, and is available nowhere 
else. As a result, the growth in demand for ATTRA services has 
increased significantly, both through the Web site-based information 
services and through the growing requests for workshops. We are 
requesting $3 million for ATTRA for fiscal year 2011.
                usda/agriculture research service (ars)
Classical Plant and Animal Breeding Activities
            Request: $9.03 million
    As noted above in the AFRI section of this request, public 
resources for classical plant and animal breeding have dwindled in 
recent decades, and as a result, our capacity for public breeding in at 
critical point. While USDA's statutory obligation to address this 
problem through the AFRI competitive grant program remains strong, 
USDA's ARS also has an obligation in this regard. Although ARS has the 
resources and expertise to help reverse this dangerous trend, the 
Agency has not made a concerted effort in this regard, until now. The 
Administration's fiscal year 2011 budget requests an increase of $4.289 
million for ``crop breeding to enhance food and production security'' 
and other $4.75 million for ``crop protection to enhance food and 
production security,'' with a clear focus on classical plant and animal 
breeding activities.
    As described on pages 16-19 and 16-29 of the USDA Budget 
Justifications document:

    ``Sustainability of our Nation's food supply depends on a 
continuous supply of improved plant varieties with protection from 
emerging diseases, insects, and damaging environmental conditions. 
While there has been major investment in the public and private sector 
in new genomic and biotechnology strategies for crop improvement, 
classical plant breeding research and expertise continues to be a major 
but unmet need. Developing improved seeds and new varieties requires 
effective methods and expertise in selecting desired traits 
(`phenotyping') and field evaluation. There is an urgent national and 
international need for more research and expertise in classical, 
conventional plant breeding. New emerging diseases such as citrus 
greening and cereal rusts are threatening the future supply of food 
crops. Temperature extremes and reduced water supplies provide new 
challenges for crop production.
    ``Breeding research is particularly needed to improve complex 
traits that require long-term research and challenging methods such as 
developing perennial grains with high seed yields, as well as 
integrating disease resistance and weather stress tolerance genes from 
wild and weedy relatives of crop plants. Perennial grain production 
systems offer benefits in soil and water conservation, and decreased 
dependence on fertilizer and fuel inputs. The Land Institute, Salinas, 
Kansas, has led in developing perennial grain varieties and production 
systems. More breeding and disease protection research is needed to 
increase the production capacity of perennial grains and to optimize 
perennial grain production systems.
    ``The need for classical breeding research and expertise is 
growing, but the supply of trained classical plant breeders is 
diminishing worldwide. The entire plant breeding industry faces a 
shortage of trained plant breeders as a result of industry expansion. 
Also, traditional partner disciplines for plant breeding, such as 
statistics, plant pathology, physiology, and entomology have often 
shifted away from field-based, practical plant breeding applications. 
ARS has a force of more than 125 plant breeders, working in teams with 
plant pathologists, biologists, entomologists and other skilled crop 
scientists. Clearly, ARS has an obligation to increase training, and 
mentor more new plant breeders to meet this urgent need.''

    We strongly agree with the above statement and fully support the 
request for $9.03 million to meet this need. In addition, we request 
report language calling on ARS to report to the Committee about its 
activities in the area of classical breeding.
                    usda/food and nutrition service
WIC Program
            Report Language: Removing Barriers of Access to Organic 
                    Foods for WIC recipients
    Despite the growing body of peer-reviewed research demonstrating 
the human health benefits of organic food, particularly for pregnant 
mothers and small children, many States have greatly limited or 
prohibited access to organic foods as part of the WIC program. Some of 
the barriers are explicit, whereby WIC recipient are expressly 
prohibited in some States from using their WIC certificates or vouchers 
for organic versions of WIC foods. Others barriers are indirect, such 
as rules that make it difficult for retail stores that carry organic 
foods from participating in the program. Therefore, we are requesting 
that report language be included in the Food and Nutrition Service 
section of the fiscal year 2011 Appropriations report, such as:

    ``The Committee is concerned about the number of States the have 
set up barriers within the WIC program to hinder or prohibit WIC 
recipients from purchasing organic food. The Committee strongly urges 
FNS to actively encourage States to remove barriers to the purchase of 
organic foods as part of the basic food instrument, and to understand 
the nutritional and health benefits of organic foods for the vulnerable 
populations served by this program.''
                                 ______
                                 

  Prepared Statement of the National Sustainable Agriculture Coalition

    Thank you for the opportunity to present our funding requests for 
the fiscal year 2011 Agriculture, Rural Development, FDA and Related 
Agencies appropriations bill. The National Sustainable Agriculture 
Coalition is an alliance of national, regional and local grassroots 
farm, rural and conservation organizations that together advocate for 
public policies that support the long-term economic, social and 
environmental sustainability of agriculture, natural resources and 
rural communities.
    Below is a summary of our requests, followed by a brief description 
and rationale for each item.

               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

Sustainable Agriculture Research and Education Program
    Fiscal year 2010 actual: $14.5 million (research & education) + 
$4.7 million (extension) = $19.2 million total.
    USDA 2011 request: $15.0 million + $5.0 million + $10.0 million 
(Federal-State Matching Grants) = $30.0 million total.
    NSAC 2011 request: $18.0 million + $5.0 million + $7.0 million = 
$30 million total.
Organic Transitions Program
    Fiscal year 2010 actual: $5.0 million.
    USDA 2011 request: $0.
    NSAC 2011 request: $5.0 million.
Research and Education Grants for the Study of Antibiotic Resistant 
        Bacteria
    Fiscal year 2010 actual: $0.
    USDA 2011 request: $0.
    NSAC 2011 request: $3.0 million.

                          FARM SERVICE AGENCY

Beginning Farmer Individual Development Account (IDA) Pilot Program
    Fiscal year 2010 actual: $0.
    USDA 2011 request: $0.
    NSAC 2011 request: $5.0 million.
Direct Farm Ownership and Operating Loans--Program Levels
    Fiscal year 2010 actual: $650.0 million + $1,000.0 million.
    USDA 2011 request: $475.0 million + $900.0 million.
    NSAC 2011 request: $650.0 million + $1,000.0 million.

                 NATURAL RESOURCES CONSERVATION SERVICE

Conservation Technical Assistance
    Fiscal year 2010 actual: $887.6 million.
    USDA 2011 request: $923.7 million.
    NSAC 2011 request: $923.7 million.

                 RURAL BUSINESS AND COOPERATIVE SERVICE

Value-Added Producer Grants
    Fiscal year 2010 actual: $20.4 million.
    USDA 2011 request: $20.4 million.
    NSAC 2011 request: $30.0 million.
Rural Microentrepreneur Assistance Program
    Fiscal year 2010 actual: $9.0 million (no limitation on $4 million 
in Farm Bill direct funding + $5 million discretionary).
    USDA 2011 request: $11.7 million (no limitation on Farm Bill $4 
million mandatory + $7.7 million discretionary).
    NSAC 2011 request: $11.7 million (no limitation on Farm Bill $4 
million mandatory + $7.7 million discretionary).

          GENERAL PROVISIONS--MANDATORY CONSERVATION PROGRAMS

Conservation Stewardship Program
    Fiscal year 2010 actual: no limitation on mandatory farm bill 
direct funding.
    USDA 2011 request: permanent cut of 770,000 acres.
    NSAC 2011 request: no limitation on farm bill direct funding.
Wetlands Reserve Program
    Fiscal year 2010 actual: no limitation on mandatory farm bill 
funding.
    USDA 2011 request: permanent cut of 57,018 acres, including new 
15,224 acre cut.
    NSAC 2011 request: no limitation on direct farm bill funding.
    We also oppose changes in mandatory funding for the other Farm Bill 
mandatory conservation programs.

     GENERAL PROVISIONS--MARKETING, RURAL DEVELOPMENT, AND RESEARCH

    We support mandatory farm bill spending at their Farm Bill levels 
for the Organic Agriculture Research and Extension Initiative, 
Beginning Farmer and Rancher Development Program, Outreach and 
Assistance to Socially Disadvantaged Farmers and Ranchers, Farmers' 
Market Promotion Program, and Community Food Grants.
    We support the general provision for the Regional Innovation 
Initiative. This initiative proposes a set aside of up to 5 percent 
from 20 existing programs for a total of $135 million and allocate 
these funds competitively among regional pilot projects tailored to 
local needs and opportunities.

                             JUSTIFICATIONS
               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    Sustainable Agriculture Research and Education Program (SARE). We 
urge you to support the President's fiscal year 2011 request for $30 
million for SARE, divided among research and education grants ($25 
million) and extension and professional development grants ($5 
million). We propose the Federal-State Matching Grants program be 
included in the total for research and education grants (as it is in 
the SARE authorizing law) and funded at $7 million, or slightly less 
than the President' request.
    SARE has funded farmer-driven research, education and extension 
initiatives into profitable, environmentally and socially sound 
practices for over 20 years. Funding SARE at $30 million would finally 
jumpstart the Federal-State Matching Grant program as well as the 
already-approved emphasis on farming systems research, while allowing 
the existing award-winning research program to continue, including the 
popular farmer research grant initiative.
    By funding the matching grants program as envisioned by Congress, 
competitive grants could be awarded to State sustainable agriculture 
centers and institutes to develop innovative sustainable agriculture 
programs that address high-priority problems and opportunities; embed 
sustainable agriculture in university and statewide research, 
education, and extension; and leverage greater on-farm change. The huge 
demand for SARE grants has unfortunately limited the amount of funding 
into larger farming systems work. The proposed increase in research 
grant funding could begin to remedy this shortfall, and the SARE 
councils have already approved this shift, pending appropriations.
    We strongly urge an increased commitment to SARE through an 
appropriation of $30 million in fiscal year 2011 that is consistent 
with sustainable agriculture's expanding role within our food and 
farming system and with the program's award-winning and cost-effective 
delivery of services.
    Organic Transitions Research Program.--We request $5 million for 
fiscal year 2011 to maintain the funding level established in fiscal 
year 2010. Beginning in fiscal year 2009, this program was combined 
with the Water Quality integrated program to fund multi-year projects 
examining the effects of organic systems on water quality. The combined 
funding will focus resources on one of the most effective solutions to 
critical water quality problems. Maintaining the funding level 
established in fiscal year 2010 will allow the organic program to 
cooperate with other priority natural resource programs to provide 
environmental solutions in an integrated program with strong farmer 
delivery mechanisms built in. Without at least level funding, organic 
research and extension will fall even further behind in its overall 
share of the research budget, a share which continues to lag behind 
trends in agriculture.
    Research and Education Grants for the Study of Antibiotic Resistant 
Bacteria.--We request that you support $3 million to fund Research and 
Education Grants for the Study of Antibiotic Resistant Bacteria 
(Section 7521 of the 2008 Food, Conservation, and Energy Act). 
Antibiotic-resistant disease has been identified by the Centers for 
Disease Control and Prevention as the number one public health 
challenge in the United States. The 2008 Farm Bill addressed the need 
to create a program to conduct research to develop animal production 
systems less dependent on antibiotics. This program has not yet been 
launched, and we ask the subcommittee to appropriate $3 million to 
launch the program.

                          FARM SERVICE AGENCY

    Beginning Farmer and Rancher Individual Development Account (IDA) 
Pilot Program.--We urge you to invest in the future of a diverse U.S. 
agriculture by supporting the full $5 million amount authorized and 
requested for this exciting new program. This competitive grants 
program authorized by the 2008 Farm Bill enables beginning farmers and 
ranchers to open an Individual Development Account (matched savings 
account) in order to save for a farming-related asset, including 
farmland, farming equipment, breeding stock, trees or similar 
expenditures. A 50 percent local match is needed to obtain the Federal 
grant. This program creates the technical infrastructure as well as the 
incentives to assist individuals who might not historically be able to 
save to make asset-building purchases to get started in farming. It 
would operate in 15 States initially.
    Direct Farm Ownership and Operating Loans.--We are grateful that 
Congress has provided more money in the last 2 years for these loans. 
However, even with the increased funding, the Farm Service Agency has 
already indicated that it is likely to run out of money before the 
current fiscal year ends and would require a supplemental to meet 
demand. In light of this and in light of the continuing financial 
crisis, it does not make sense to decrease the credit budget as the 
Administration proposes. The budget should be at least level with 
fiscal year 2010 in order to meet increased demand. Lending from FSA is 
critical for family farms in general and particularly for beginning and 
socially disadvantaged farmers and ranchers.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Conservation Technical Assistance.--Conservation Technical 
Assistance (CTA) is a critical addition to the mandatory conservation 
technical assistance provided to farmers enrolled in the farm bill 
conservation programs. Technical assistance is provided to agricultural 
producers enrolling in financial assistance programs as well as to help 
farmers with conservation planning and implementation without financial 
assistance, including conservation compliance plans. CTA also funds 
assessment of conservation practices and systems that underpin the 
conservation programs, as well as NRCS collection, analysis, 
interpretation and dissemination of information on the status and 
condition of the Nation's soil, water and other resources.
    NSAC supports the CTA funding level of $923.7 million in the 
President's fiscal year 2011 budget request. We would also support a 
modest increase in the percentage of Farm Bill mandatory funding that 
may be used for technical assistance.

                 RURAL BUSINESS AND COOPERATIVE SERVICE

    Value-Added Producer Grants.--VAPG offers grants to farmers and 
ranchers developing new farm and food-related businesses that boost 
farm income, create jobs and increase rural economic opportunity. As 
farmers and rural communities face tough economic times, VAPG grants 
encourage the kind of entrepreneurship and innovation in agriculture 
that enable farms and communities to survive economically. Furthermore, 
strong interest in farm-to-school and farm-to-hospital programs is 
generating significantly increased demand for mid-tier value chains and 
local food enterprises to aggregate local production and make it 
available in a form usable by cafeterias, exactly the kind of rural 
development strategy VAPG is designed to support. VAPG is an excellent 
investment in rural economic recovery. We request VAPG funding of $30 
million in fiscal year 2011.
    Rural Microentrepreneur Assistance Program.--RMAP provides business 
training, technical assistance and loans to owner-operated businesses 
with up to 10 employees. Small businesses make up 90 percent of all 
rural businesses, and micro-businesses are the fastest growing segment 
in many rural areas. With nearly one-quarter of rural jobs attributable 
to micro-enterprises, small business development provides a major 
economic stimulus opportunity for rural communities. This program is 
critical to preventing a credit freeze to an essential part of the 
rural economy. It will help create jobs, attract young people, build 
assets, create local markets and alleviate poverty. NSAC supports the 
USDA request that RMAP be funded at $11.7 million, inclusive of $4 
million of mandatory farm bill funding.

          GENERAL PROVISIONS--MANDATORY CONSERVATION PROGRAMS

    The cuts proposed in the President's fiscal year 2011 budget to the 
Conservation Stewardship Program, the Environmental Quality Incentives 
Program, and other mandatory conservation programs would rob nearly $1 
billion from the conservation baseline, or roughly a quarter of the 
conservation increases gained in the 2008 Farm Bill. These programs 
lead to critical public benefits and environmental services such as 
cleaner water, erosion reduction, carbon sinks, energy conservation, 
improved wildlife habitat and restored wetlands. Farmer demand for 
these programs exceeds available dollars, a fact the carefully 
negotiated farm bill funding package took into account. That deal 
should not be reversed through backdoor limitations. We note in 
particular that the proposed cut to the Conservation Stewardship 
Program would wipe out over 6 percent of the program, yet yield just $2 
million in fiscal year 2011 savings, making it the worst possible 
candidate for a change in mandatory spending. We recognize that an 
annual cut in EQIP funding has been assumed since before the passage of 
the last Farm Bill, but beyond this designated amount, we strongly 
oppose the proposed 1-year and permanent cuts to these critical 
programs.

     GENERAL PROVISIONS--MARKETING, RURAL DEVELOPMENT, AND RESEARCH

    We strongly support full funding (no changes in mandatory funding) 
for the Organic Agriculture Research and Extension Initiative, 
Beginning Farmer and Rancher Development Program, Outreach and 
Assistance to Socially Disadvantaged Farmers and Ranchers, Farmers' 
Market Promotion Program, and Community Food Grants.
    We encourage you to support the Regional Innovation Initiative. The 
initiative proposes to set aside up to 5 percent from 20 existing 
programs for a total of $135 million in budget authority and to 
allocate these funds competitively among regional pilot projects 
tailored to local needs and opportunities. These projects would aim to 
foster regional strategies for activities--such as sustainable 
renewable energy or local and regional food system development--which 
can benefit from planning and innovation beyond the normal separate, 
isolated project-by-project approach. This more coordinated approach is 
well worth testing.
                                 ______
                                 

  Prepared Statement of the National Walking Horse Association (NWHA)

    The National Walking Horse Association (NWHA) is a nonprofit 
organization founded in 1998 and dedicated to the promotion of sound, 
naturally gaited Walking Horses. We are a Horse Industry Organization 
(HIO) certified by the USDA to provide inspection services as required 
in the Horse Protection Act (HPA) of 1970. Despite our DQP program's 
excellent record for compliance with the HPA--the strongest in the 
Walking Horse industry--we nevertheless urge the Committee to increase 
funding for the USDA/APHIS Horse Protection Program to $900,000, as 
requested in the President's budget for fiscal year 2011.
    This funding is urgently needed to fulfill the intent of the Horse 
Protection Act--to eliminate the cruel practice of soring which 
continues to be used on many horses at many horse shows and sales even 
all these years after the passage of the HPA. The additional funding 
will allow the USDA to strengthen its enforcement of this law.
    NWHA's Designated Qualified Persons (DQPs) inspected over 13,000 
horses in 2009 and had a .02 percent violation rate. Our DQPs go 
through a vigorous training program and do an excellent job of 
enforcing NWHA's zero tolerance policy for sore horses which goes above 
and beyond the HPA in some areas. While we are very proud of our 
record, we recognize that some HIOs have a much lower compliance rate. 
We also recognize the critical role that USDA plays by attending the 
many horse shows each weekend during the show season where compliance 
is typically low.
    NWHA appreciates the support of the USDA when its staff attends our 
shows, but even more important is the USDA presence at horse shows 
where horses STILL enter the show ring in pain! Our organization and 
others that are committed to enforcing the HPA cannot do it alone. We 
need your support for the USDA so that we can work together to make a 
significant impact in eliminating the practice of soring horses. It is 
long past time for Congress to make a serious commitment to end this 
shameful era in the history of our Nation. Thank you.
                                 ______
                                 

                Letter From the National WIC Association

                                                     March 5, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration and Related Agencies, Washington, DC.
    Dear Chairman Kohl and Ranking Member Brownback: We are writing in 
support the President's fiscal year 2011 budget request to fund WIC--
the Special Supplemental Nutrition Program for Women, Infants, and 
Children--at $7.603 billion. This funding level should be adequate to 
serve 10.1 million mothers and young children. However, we urge 
Congress and the Administration to carefully monitor WIC participation 
and food cost inflation to assure that the budget request responds to 
economic conditions.
    For more than 35 years, WIC has contributed to healthier 
pregnancies and birth outcomes, improving children's health, growth and 
development. WIC children enter school Ready to Learn and show better 
cognitive performance. As the Nation's premier public health nutrition 
program, WIC is a cost-effective, sound investment--insuring the health 
of our children.
    This year is no different. WIC currently serves over 9.2 million 
mothers, infants and children--over half of all America's infants and 
one-quarter of its children 1-5 years of age. Families turning to WIC 
for nutrition assistance are vulnerable and at risk. Economic crises 
compounded their vulnerability. WIC food packages and the nutrition 
services that accompany them ensure that WIC mothers and your children 
stay healthy.
    We understand that Congress is in the process of developing an 
Agriculture appropriations bill. It will be important for Congress to 
provide $7.603 billion for WIC in the bill including:
  --$125 million for contingency funding;
  --We urge Congress to direct USDA to eliminate restrictions on the 
        use of contingency funds for the purchase of breastpumps needed 
        to serve participants;
  --$60 million for management information systems;
  --$14 million for infrastructure funding;
  --$83 million for breastfeeding peer counselors and other related 
        activities;
  --To compliment peer counseling activities, we urge Congress to 
        direct USDA to provide State and local WIC agencies flexibility 
        to implement other evidence-based diversified breastfeeding 
        related activities;
  --$10 million for breastfeeding performance bonuses;
  --We urge Congress to direct USDA to work closely with State and 
        local WIC agencies to develop appropriate selection criteria 
        for these bonuses:
  --$15 million for evaluating program performance;
  --$10 million for Federal Administrative Oversight to improve the 
        application process; and
  --$5 million for coordination with other programs and modernization 
        of Federal information.

                       TECHNOLOGY INFRASTRUCTURE

    We urge you to join in supporting the President's fiscal year 2011 
budget request for WIC and the vulnerable mothers and young children 
who turn to WIC for nutritious foods, nutrition education, 
breastfeeding support and promotion, healthcare referrals and other 
essential social service referrals in times of economic uncertainty.
            Sincerely,
                                 Patti Hauser, RD, CD, MPA,
               Chair, Board of Directors, National WIC Association.

                                The Rev. Douglas Greenaway,
                       President and CEO, National WIC Association.
                                 ______
                                 

           Prepared Statement of the National WIC Association

                  WIC FISCAL YEAR 2011 FUNDING AGENDA

WIC for a Healthier, Stronger America
    The Special Supplemental Nutrition Program for Women, Infants, and 
Children--WIC--has improved at-risk children's health, growth and 
development, and prevented health problems for 35 years. WIC children 
enter school Ready to Learn, showing better cognitive performance.
    WIC serves over 9.2 million mothers and young children, over half 
of all America's infants and one-quarter of its children 1-5 years of 
age. Still, the National Academy of Sciences has found that there is 
significant unmet need and many WIC eligibles are unable to receive 
services due to funding constraints and infrastructure limitations.
Families Turn to WIC in Economic Crises
    Families turning to WIC for nutrition assistance are vulnerable and 
at-risk. Economic crises compound their vulnerability. WIC food 
packages and the nutrition services that accompany them ensure that WIC 
mothers and young children stay healthy. WIC caseload has grown from 
serving 7.9 million mothers and young children in fiscal year 2004 to 
over 9.2 million in fiscal year 2009.
Quality Nutrition Services--at WIC's Heart
    Quality nutrition services are the centerpiece of WIC: nutrition 
and breastfeeding education, nutritious foods, and improved healthcare 
access for low and moderate income women and children with, or at risk 
of developing, nutrition-related health problems, including overweight, 
obesity, and type-2 diabetes. WIC's committed, results oriented, 
entrepreneurial staff stretch resources to serve the maximum numbers of 
women, infants, and children and ensure program effectiveness and 
integrity.
    As the Nation's premier public health nutrition program, WIC is a 
cost-effective, sound investment--ensuring the health of our children.
    NWA's mission: providing leadership to promote quality nutrition 
services; advocating for services for all eligible women, infants, and 
children; and assuring the sound and responsive management of WIC.

                      NWA FUNDING RECOMMENDATIONS

Fiscal Year 2011 Appropriation
    NWA supports the President's fiscal year 2011 budget commitment to 
fully fund the WIC Program at $7.603 billion to serve 10.1 million 
mothers and young children, of which $125 million will be placed in a 
Contingency Fund. Full funding must be adequate to:
  --maintain current and anticipated WIC participation levels;
  --assure adequate nutrition services and administration (NSA) 
        funding;
  --respond to food cost inflation; and
  --provide funds for nutrition services to maintain clinic staffing 
        and pay competitive salaries.
    NWA urges Congress and the Administration to carefully monitor WIC 
participation and food cost inflation to assure that the budget request 
responds to economic conditions. Should the economic recovery take 
longer than anticipated, more families will turn to WIC for nutrition 
assistance and WIC may require additional funding.
    NWA Strongly Urges Congress To Support Replenishment of the WIC 
Contingency Fund.--The Fund is essential to meet the demand for WIC 
services in situations of unpredictable caseload or food cost spikes. 
In fiscal years 2006-2009, unforeseen economic circumstances forced WIC 
to utilize contingency funds to assure that mothers and young children 
were not turned away.
Improving WIC Infrastructure
    WIC Infrastructure Funding Has Remained Static at Roughly $14 
Million Since 1999.--Despite a 25 percent growth in participation since 
1999, WIC has responded entrepreneurially to limit clinic challenges by 
shifting from 1-month to 3-month food benefit issuance and where 
possible, extending clinic hours. WIC needs to build capacity to 
respond to growth and reduce the risks of systemic problems. The 
current infrastructure funds level is inadequate to meet other 
essential program infrastructure needs. This has caused U.S. Department 
of Agriculture (USDA) to sacrifice the resource base on a single 
priority to the disadvantage of other infrastructure program needs 
including special project grants that help WIC State agencies 
demonstrate effective ways of doing business. NWA recommends: that 
infrastructure funding be unencumbered and increased from $14 million 
to $40 million.
Enhancing Service Delivery Through Information Technology
    Improving the Use of Information Technology To Enhance Service 
Delivery and Building Management Information Systems (MIS).--Technology 
provides a critical foundation for quality WIC services and Program 
Integrity. Funding WIC technology from existing resources compromises 
WIC's ability to deliver services and develop responsive MIS systems. 
To develop and maintain MIS and electronic service delivery systems 
(EBT)--NWA recommends: Congress provide an additional $60 million 
annually in unencumbered funds outside the regular NSA grant to 
implement MIS core functions, upgrade WIC technology systems, maintain 
MIS and electronic services, render MIS systems EBT ready, and expedite 
WIC's transition to EBT.
Promoting and Supporting Breastfeeding in WIC
    Breastfeeding Is the Normal and Most Healthful Way To Feed 
Infants.--The benefits to infants and mothers are numerous. For 
children, science shows that human milk: may lower the risk of obesity 
in childhood and adolescence; promotes and supports development; 
protects against illness symptoms and duration; improves IQ and visual 
acuity scores; lowers cancer rates; decreases cavities; improves 
premature infants' health; and significantly reduces healthcare costs. 
For mothers: decreases the likelihood of ovarian and breast cancers; 
reduces the risk of osteoporosis and long-term obesity; increases 
bonding between mother and child; and significantly reduces the 
incidence of child neglect. NWA recommends: increasing resources to 
assure more breastfeeding mothers access to critical breastfeeding 
support to $83 million.
    Maintaining the Enhanced Value of the Breastfeeding Food Package.--
In 2005, the Institute of Medicine (IOM) recommended an enhanced 
breastfeeding food package to encourage and support mothers who choose 
to fully breast feed. USDA Food and Nutrition Service (FNS), in 
publishing its Interim Final Rule on the WIC Food Packages, correctly 
emphasized the distinction between the fully breastfeeding food package 
and other food packages for women when it set the fruit and vegetable 
cash value vouchers for this food package at $2 above the value for 
other food packages for women. The fiscal year 2010 Agriculture 
Appropriations Act directed FNS to increase the fruit and vegetable 
cash value voucher for women to $10, eliminating that important 
distinction. NWA recommends: To maintain the enhanced value of the 
fully breastfeeding food package, as recommended by the IOM and as 
proposed by FNS in the Interim Final Rule, the monthly cash value 
voucher benefit for fully breastfeeding women be increased by $2 and 
that at least $8 million be provided to make this critical public 
health nutrition change possible.
    Promoting WIC Breastfeeding Success.--Breastfeeding rates among WIC 
women are on the rise. According to the most recent WIC Participant 
Characteristics Report, breastfeeding rates are at record highs--59 
percent initiation and 30 percent at 6 months. Despite the continued 
rise in breastfeeding rates overall, they are lower than the Healthy 
People 2010 goal of 75 percent breastfeeding initiation and 50 percent 
at 6 months. NWA recommends: Congress provide $10 million in 
performance bonus payments (to be treated as program income) to State 
agencies that demonstrate the highest proportion of breast fed infants, 
as compared to other State agencies participating in the program; or 
the greatest improvement in proportion of breast fed infants, as 
compared to other State agencies participating in the program. When 
providing performance bonus payments to State agencies, FNS should 
consider a State agency's proportion of participating fully breast fed 
infants.
Assuring Science Based WIC Food Packages
    Meeting the IOM Recommendations for Children.--The IOM recommended 
to USDA that the WIC food package for children provide a monthly fruit 
and vegetable cash value voucher benefit of $8. The IOM sought to 
provide a reasonable benefit of fruits and vegetables to promote 
healthier eating choices that would help to stem the incidence of 
overweight, obesity, and diet related chronic diseases. The current 
funding level only allows for a monthly value of $6. NWA recommends: 
that the monthly cash value voucher benefit for children be increased 
to $8 to meet the science recommended by the IOM and that at least $104 
million be provided to make this important public health nutrition 
change possible.
    Meeting the IOM Recommendations for Culturally Appropriate Foods.--
The IOM recommended to USDA that the WIC food packages provide a wide 
variety of culturally appropriate foods to appeal to the diverse 
populations that WIC serves. Included among the specific recommendation 
were a wide variety of whole grains, varieties of canned fish, and soy 
beverage, calcium-rich tofu, and yogurt as appropriate milk 
substitutes. NWA recommends: that Congress make available $89 million 
to allow WIC to provide yogurt in the WIC food packages to fund this 
public health nutrition recommendation.
Assessing the Effects of Nutrition Services
    NWA urges Congress to provide $15 million to update rigorous health 
outcomes research and evaluation documenting WIC's continued success.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program 
(Program). The Program is funded through EQIP, the U.S. Bureau of 
Reclamation's Basinwide Program, and cost-sharing provided by the Basin 
States. With the enactment of the Farm Security and Rural Investment 
Act (FSRIA) in 2002, there have been opportunities to adequately fund 
the EQIP portion of the Program. I request that the subcommittee 
designate 2.5 percent, but no less than $20 million, of the EQIP funds 
for the Colorado River Basin Salinity Control Program. I request that 
adequate funds be appropriated for technical assistance and education 
activities directed to salinity control program participants.

                               STATEMENT

    Congress authorized the Colorado River Basin Salinity Control 
Program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the Act in 1984 to give new responsibilities to the 
U.S. Department of Agriculture (USDA). While retaining the Department 
of the Interior as the lead coordinator for the Program, the amended 
Act recognized the importance of USDA efforts in meeting the objectives 
of the Program. Many of the most cost-effective salinity control 
projects to date have occurred since implementation of the USDA's 
authorization for the Program.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to United States water users are about $350,000,000 per 
year. Unquantified damages are significantly greater. Damages are 
estimated at $75,000,000 per year for every additional increase of 30 
milligrams per liter in salinity of the Colorado River. It is essential 
to the cost-effectiveness of the salinity control program that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
Lower Basin States and Mexico.
    Congress directed, with the enactment the Federal Agricultural 
Improvement and Reform Act of 1996 (FAIRA), that the program should 
continue to be implemented as a component of EQIP. However, until 2004, 
the program was not funded at an adequate level to protect the Basin 
State-adopted and Environmental Protection Agency approved water 
quality standards for salinity in the Colorado River. Appropriations 
for EQIP prior to 2004 were insufficient to adequately control salinity 
impacts from water delivered to the downstream States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
targeted small watershed improvements and did not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding were ranked in the 
States of Utah, Wyoming, and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-State, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the Program. The NRCS 
concluded that the salinity control program is different from the small 
watershed approach of EQIP. The watershed for the Program stretches 
almost 1,200 miles from the headwaters of the river through the salt-
laden soils of the Upper Basin to the river's termination at the Gulf 
of California in Mexico. NRCS is to be commended for its efforts to 
comply with the USDA's responsibilities under the Colorado River Basin 
Salinity Control Act, as amended. Irrigated agriculture in the Upper 
Basin realizes significant local benefits of improved irrigation 
practices, and agricultural producers have succeeded in submitting 
cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the need to accelerate 
the salinity control program in order to maintain the criteria of the 
Colorado River Water Quality Standards for Salinity. Since the 
enactment of FSRIA in 2002, an opportunity to adequately fund the 
salinity control program now exists. The requested funding of 2.5 
percent, but no less than $20 million, of the EQIP funding will 
continue to be needed each year for at least the next few fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. In fiscal year 2011, it is anticipated that the 
States will cost-share about $8 million and local agricultural 
producers will add more than $7 million, resulting in contributions for 
over 40 percent of the total program costs.
    USDA salinity control projects have proven to be a cost-effective 
component of the salinity control program. USDA has indicated that a 
more adequately funded EQIP program would result in more funds being 
allocated to the salinity program. The Basin States have cost-sharing 
dollars available to participate in on-farm salinity control efforts. 
The agricultural producers in the Upper Basin are willing to cost-share 
their portion and are awaiting funding for their applications to be 
considered.
    The Basin States expend 40 percent of the State funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be an impediment to accomplishing 
successful implementation of the salinity control program. Recent 
acknowledgement by the Administration that technical assistance and 
education activities must be better funded has encouraged the Basin 
States and local producers that cost-share with the EQIP. I request 
that adequate funds be appropriated to NRCS technical assistance and 
education activities directed to the salinity control program 
participants (producers).
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2011 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin Salinity Control Program.
                                 ______
                                 

  Prepared Statement of the Organic Farming Research Foundation (OFRF)

    The Organic Farming Research Foundation (OFRF) is a national 
farmer-directed, non-profit organization fostering the improvement and 
widespread adoption of organic farming systems. The multiple benefits 
of organic production and market systems make organic agriculture a 
highly cost-effective investment for achieving national economic and 
environmental goals.
    OFRF's funding requests for fiscal year 2011 Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations Bill emphasize research, data collection, and 
information dissemination. These are all significant limiting factors 
for the growth and improvement of organic agriculture. Our requests 
represent continued progress towards achieving the ``fair-share'' 
benchmark for organic agriculture within the USDA-REE mission area. The 
fair-share benchmark compares the U.S. retail market share of organic 
products to the percentage of USDA-REE spending on activities 
explicitly directed towards organic agriculture. Organic represents 3.5 
percent of the U.S. retail market share, but, according to OFRF 
estimates,\1\ explicit organic research represents only 1.8 percent of 
the USDA-REE mission area budget. We present below a summary of our 
requests followed by more justifications.
---------------------------------------------------------------------------
    \1\ OFRF estimates total fiscal year 2010 organic REE spending at 
approximately $51 million out of approximately $2.9 billion for the REE 
mission area. This includes: OREI ($20 million), ORG ($5 million), ARS 
direct organic ($17 million), ODI ($1 million), and other NIFA grants 
($8 million).
---------------------------------------------------------------------------
  --USDA--National Institute of Food and Agriculture
      --Organic Agriculture Research and Extension Initiative
        Fiscal year 2010 actual: no limit on mandatory funding
        USDA fiscal year 2011 request: no limit on mandatory funding
        OFRF fiscal year 2011 request: no limit on mandatory funding 
            plus $10 million in discretionary funds
      --Organic Transitions Integrated Research Program
        Fiscal year 2010 actual: $5.0 million
        USDA fiscal year 2011 request: $0
        OFRF fiscal year 2011 request: $5.0 million
      --Sustainable Agriculture Research and Education Program
        Fiscal year 2010 actual: $14.5 million (research and education) 
            + $4.7 million (extension) = $19.2 million
        USDA fiscal year 2011 request: $15.0 million + $5.0 million + 
            $10.0 million (State matching grants) = $30.0 million
        OFRF fiscal year 2011 request: $15.0 million + $5.0 million + 
            $10.0 million = $30.0 million
  --USDA--Agricultural Research Service
      --Direct Organic Projects (allocation within agency baseline)
        Fiscal year 2010 actual: $17.2 million
        USDA fiscal year 2011 request: N/A
        OFRF fiscal year 2011 request: $42 million (approximate result 
            of requested ``fair-share'' language)
      --Classical Plant and Animal Breeding Activities
        Fiscal year 2010 actual: N/A
        USDA fiscal year 2011 request: $9.0 million
        OFRF fiscal year 2011 request: $9.0 million
      --National Agricultural Library
        Fiscal year 2010 actual: N/A
        USDA fiscal year 2011 request: Increase of $1.5 million for 
            sustainability information framework
        OFRF fiscal year 2011 request: Increase of $1.5 million for 
            sustainability information framework
  --USDA--AMS/ERS/NASS
      --Organic Market and Production Data Initiatives
        Fiscal year 2010 actual: $0.75 million ($0.5 million for ERS, 
            $0.250 million for NASS)
        USDA fiscal year 2011 request: $0.8 million ($0.3 million for 
            AMS, $0.5 million for NASS)
        OFRF fiscal year 2011 request: $5.0 million ($3.0 million for 
            AMS, $1.5 million for ERS, $0.5 million for NASS).
  --USDA--Agricultural Marketing Service
      --National Organic Program
        Fiscal year 2010 actual: $7.0 million
        USDA fiscal year 2011 request: $10.1 million
        OFRF fiscal year 2011 request: $10.1 million
  --USDA--Natural Resources Conservation Service
      --Mandatory Conservation Programs
        Fiscal year 2010 actual: $270 million cut to Environmental 
            Quality Incentives Program
        USDA fiscal year 2011 request: Cuts to several mandatory 
            conservation programs
        OFRF fiscal year 2011 request: No limit on mandatory funding
      --Conservation Technical Assistance
        Fiscal year 2010 actual: $887.6 million
        USDA fiscal year 2011 request: $923.7 million
        OFRF fiscal year 2011 request: $923.7 million

                             JUSTIFICATIONS

            USDA--NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    Organic agriculture provides multiple benefits to society, and has 
the potential to help achieve important agricultural outcomes. These 
outcomes include providing a nutritious and safe food supply, 
protecting and enhancing natural resources, building a prosperous 
agricultural economy, and adapting to climate change.
    These benefits can only be realized with a strong commitment to 
organic research. Congress created and has funded the dedicated organic 
research programs to improve organic systems and leverage their 
multiple benefits. However, Congress has also made clear that these 
programs should not be the only source for scientific improvement of 
organic agriculture. Continued growth of the dedicated funding streams 
is necessary to build a critical mass of capacity for organic research 
and extension. This increased capacity in turn will allow for organic 
research to be competitive within other grant programs. Additionally, 
the organic research programs address significant, specific research 
needs not addressed by any of the other competitive research grant 
programs at the National Institute of Food and Agriculture.
Organic Agriculture Research and Extension Initiative (OREI)
            OFRF Fiscal Year 2011 Request: No Limit on Mandatory 
                    Funding Plus $10 Million in Discretionary Funds
    OREI is USDA's flagship competitive research and education grant 
program specifically dedicated to the investigation of organic 
agriculture and the delivery of its outcomes. The program is 
consistently oversubscribed and in fiscal year 2009 could only fund 17 
percent of the funds requested. The 2008 Farm Bill authorized $25 
million annually in discretionary funds. In addition to the $20 million 
in mandatory funding available in fiscal year 2011, OFRF requests $10 
million of the $25 million in discretionary authority in fiscal year 
2011. Protecting and growing the funding for this program would 
continue to make progress towards the fair-share benchmark for USDA 
funding for organic research and extension, would help respond to the 
strong demand for the program, and would increase the capacities of 
University organic programs to utilize other competitive research 
funds.
Organic Transitions Integrated Research Program (ORG)
            OFRF Fiscal Year 2011 Request: $5.0 Million
    ORG is the smaller and older of the two USDA competitive grant 
programs dedicated to organic research and education. From 2003 to 
2008, it was administered together with OREI. Starting in fiscal year 
2009, NIFA has been combining the program with 406 Integrated Water 
Quality research program. The newly combined program funds multi-year 
projects that examine the effects of organic production systems on 
water quality. This approach provides a ``specialized'' complement to 
the general purposes of OREI, and OFRF supports this move by the 
Agency. Additionally, ORG supports formal educational activities (e.g., 
curriculum development for colleges), which OREI does not fund.
    The President's fiscal year 2011 budget eliminates funding for ORG 
along with funding for all of the other Section 406 integrated 
programs, and justifies the cuts by saying that those research 
objectives will be met through other competitive research grants 
programs such as the Agriculture and Food Research Initiative. Given 
the type of research that AFRI/NRI has funded in the past and the 
limited opportunities that appear in the newly issued 2010 Request for 
Applications, we doubt that AFRI will sufficiently support integrated 
activities for organic systems similar to those currently funded 
through ORG. The past Administration made similar recommendations on 
the 406 programs, which Congress consistently rejected. We urge the 
subcommittee to again reject these cuts and keep ORG level funded at $5 
million in fiscal year 2011.
Sustainable Agriculture Research and Education Program (SARE)
            OFRF Fiscal Year 2011 Request: $15.0 Million (Research & 
                    Education) +$5.0 Million (Extension) +$10.0 Million 
                    (Federal-State Matching Grants Program) = $30.0 
                    Million
    We strongly support the President's fiscal year 2011 request of $30 
million for SARE, which includes $10 million to launch a Federal-State 
matching grants program to leverage non-Federal funds to support 
sustainable agriculture research. SARE is a farmer-driven, regionally 
led, and outcomes-oriented competitive research and extension grants 
program that complements the activities of dedicated organic research 
programs.
                  usda--agricultural research service
Direct Organic Projects
            OFRF Fiscal Year 2011 Request: Report Language Resulting in 
                    ``Fair-Share'' Expenditures (Appx. $42 Million)
    USDA's Agricultural Research Service (ARS) has an organic research 
portfolio and a work plan to guide further organic research objectives. 
The current total for direct organic projects is $17.2 million, about 
1.3 percent of the ARS budget. To strengthen the Agency's organic 
portfolio and reach the ARS fair-share benchmark, we request report 
language directing the Secretary of Agriculture to use a share of the 
ARS budget for research specific to organic food and agricultural 
systems that is at least commensurate with the organic sector's retail 
market share (currently 3.5 percent).
Classical Plant and Animal Breeding Activities
            OFRF Fiscal Year 2011 Request: $9.0 Million
    The President's fiscal year 2011 budget requests an increase of 
$4.289 million for ``crop breeding to enhance food and production 
security'' and another $4.75 million for ``crop protection to enhance 
food and production security,'' with a clear focus on classical plant 
and animal breeding activities. In recent decades, there has been a 
significant decrease in the public resources supporting classical plant 
and animal breeding, and the Nation's capacity for public breeding is 
now at a crisis point. We fully support this request for much-needed 
classical breeding activities conducted through ARS.
National Agricultural Library (NAL)
            OFRF Fiscal Year 2011 Request: Increase of $1.5 Million for 
                    Sustainability Information Framework
    We strongly support the President's fiscal year 2011 request for an 
increase of $1.5 million for NAL to develop a framework for information 
access and databases focused on sustainable agricultural practices and 
systems.

                           USDA--AMS/ERS/NASS

Organic Market and Production Data Initiatives
            OFRF Fiscal Year 2011 Request: $5.0 Million ($3.0 Million 
                    for AMS, $1.5 Million for ERS, $0.5 Million for 
                    NASS)
    Data on prices, yields, and markets are vital to farmers for 
production planning, market development, risk management, and obtaining 
financial credit. The organic sector is still without vital 
comprehensive data on par with what USDA provides for conventional 
agriculture, putting organic farmers at a significant disadvantage. The 
absence of marketing and production data specific to organic 
agriculture inhibits organic producers and handlers, and limits the 
effectiveness of policies enacted to facilitate the public benefits of 
organic agriculture.
    Activities of AMS, ERS, and NASS require continued full support to 
build upon the previous investments. AMS has planned further 
enhancement of organic reporting and the development of additional 
organic market information tools. NASS released its first-ever organic 
agriculture production survey in February, and will need funds to 
develop cross tabs and conduct further analysis. ERS will need 
additional targeted funds to continue expanding the Agency's overall 
program of research and analysis of organic agriculture, and will work 
jointly with NASS to analyze the data from the organic production 
survey.
    The 2008 Farm Bill provided $5 million in mandatory funds for ODI 
and additional authority up to $5 million annually for ODI. Those 
mandatory funds have been applied to important projects, but there is 
still an increasing backlog of information needs. We are asking the 
subcommittee to exercise its full authority and allocate $5 million for 
fiscal year 2011 to organic data collection, distributed among the 
three agencies leading this initiative.

                  USDA--AGRICULTURAL MARKETING SERVICE

National Organic Program
            OFRF Fiscal Year 2011 Request: $10.1 Million
    We support the President's fiscal year 2011 request of $10.1 
million for NOP. This budget request will help protect the integrity of 
the organic label, allow for proper enforcement of the national organic 
standards, and restore consumer confidence in the organic label.
              usda--natural resources conservation service
Mandatory Conservation Programs
            OFRF Fiscal Year 2011 Request: No Limit on Mandatory 
                    Funding
    The cuts proposed in the President's fiscal year 2011 budget to the 
Environmental Quality Incentives Program, Conservation Stewardship 
Program, and other conservation programs would rob over $1 billion from 
the conservation baseline, or nearly a quarter of the conservation 
increases in the 2008 Farm Bill. These programs lead to cleaner water, 
erosion reduction, carbon sinks, improved wildlife habitat, and other 
essential environmental services.
Conservation Technical Assistance (CTA)
            OFRF Fiscal Year 2011 Request: $923.7 Million
    We strongly support the President's full request for CTA, which is 
funded through yearly appropriations for NRCS to provide conservation 
technical assistance to farmers and ranchers. CTA also funds assessment 
of conservation practices and systems that underpin the conservation 
programs, as well as NRCS collection, analysis, interpretation and 
dissemination of information on the status and condition of the 
Nation's soil, water and other resources. This information is used by 
farmers and by Federal, State and private natural resource managers who 
are charged with managing and protecting natural resources.
    Disclosure: Organic Farming Research Foundation was a subcontractor 
for a grant awarded by the USDA-CSREES Integrated Organic Program. 
Grant# 2207-01384. ``Midwest Organic Research Symposium.'' Application 
submitted to OREI fiscal year 2010 round and currently under 
consideration.
                                 ______
                                 

       Prepared Statement of the Organic Trade Association (OTA)

    Chairman Kohl, Ranking Member, and members of the subcommittee, I 
am Christine Bushway, executive director of the Organic Trade 
Association (OTA). The organic agricultural economy continues to be one 
of the fastest-growing sectors of American agriculture, with retail 
sales increasing by approximately 14 to 20 percent each year since 
1990. U.S. organic product sales totaled $26 billion in 2009, with 
organic food sales reaching $24.2 billion to represent 3 percent of the 
domestic food market. In addition, exports of U.S. organic products 
were over $1 billion in 2009. To help continue this growth, we 
respectfully request the following funding levels for programs 
pertinent to the organic industry: USDA--National Organic Program--
$10.1 million; USDA--Organic Data Initiative--$5 million; USDA--Organic 
Agriculture Research and Extension Initiative--$35 million; USDA--
Organic Transitions Integrated Research Program--$5 million; USDA--
Agricultural Research Service--$9.03 million; and National Center for 
Appropriate Technology--Appropriate Technology Transfer for Rural 
Areas--$3 million.
    The Organic Trade Association is the membership-based business 
association for organic agriculture and products in North America. Its 
members include growers, shippers, processors, certifiers, farmers' 
associations, distributors, importers, exporters, consultants, 
retailers and others. OTA's Board of Directors is democratically 
elected by its members. OTA's mission is to promote and protect the 
growth of organic trade to benefit the environment, farmers, the public 
and the economy.

                        NATIONAL ORGANIC PROGRAM

    OTA supports the President's request of $10.1 million for the 
National Organic Program (NOP). This supports Congress's intent to 
enhance NOP as expressed through the 2008 Farm Bill, as well as 
supporting current NOP projections. USDA's 2007 Census of Agriculture: 
Organic Production Survey reported more than 14,540 farms engaged in 
organic agriculture productions. OTA's 2010 Organic Industry Survey 
shows organic food sales have grown from $3.6 billion in 1997 to $24.2 
billion in 2009, with a 2009 growth rate of over 5 percent despite the 
recession.
    NOP performs regulatory oversight over organic agriculture. 
Recognizing continued growth of the industry, the President's budget 
asks for $0.6 million more than the 2008 Farm Bill authorized for 
fiscal year 2011 ($9.5 million). OTA strongly supports this additional 
request.
    The $3.1 million increase over fiscal year 2010 provides $2.1 
million for regulatory review, enforcement, and development of 
equivalency agreements. Another $1 million is included to assist 
accredited certifying agents with training costs to enhance compliance 
with program regulations. Each of these areas is critical to the 
integrity of the program.
    Provisions for organic agriculture in the 2008 Farm Bill have 
already resulted in better compliance with and enforcement of NOP 
standards, an improved appeals process, a final pasture rule and an 
organic equivalency agreement between the United States and Canada. 
These milestones would not have been possible without support from 
Congress to expand NOP staff from 14 in fiscal year 2008 to 31 in 
fiscal year 2010, with a total staff of 40 expected in fiscal year 
2011.
    USDA recently proclaimed that the organic industry has entered an 
``Age of Enforcement'' of organic standards. OTA supports this call to 
action, and asks Congress to provide the necessary resources for NOP 
staff to continue work on the following priorities:
    Compliance and enforcement is fundamental to the integrity of the 
organic seal, and long-term health of the industry. The additional 
funds allow for full implementation of appeals decisions, including 
monitoring of final actions through having at least one audit over the 
following year, or 6 months for cease-and-desist, suspension or 
revocation adverse actions, reducing the backlog from previous years, 
and improving compliance resolution time, which averages 75 days.
    Accreditation and training of certifying agents is necessary for 
consistent application of the standards in the field, and is a critical 
precursor to compliance and enforcement. The additional funds allow for 
improved qualifications and training of inspectors and auditors and 
create an up-to-date database of certified operations.
    Development of equivalence agreements reduces and eliminates trade 
barriers for American organic producers who want to develop export 
markets. Over 70 percent \1\ of organic companies surveyed currently 
export, or plan to export, good in the next few years. Currently 
organic exports are estimated to total $1 to $1.5 billion annually, 
creating between 6,000 and 9,000 jobs.\2\ Requested funds allow for 
negotiations with the European Union on organic equivalence. Success in 
this negotiation would open up the world's largest market to U.S. 
organic exports.
---------------------------------------------------------------------------
    \1\ Organic Trade Association's 2009 Organic Industry Survey. May, 
2009. Page 19.
    \2\ ``Every $1 billion increase in exports supports more than 6,000 
additional jobs''. Remarks by President Obama at the Export-Import 
Bank's Annual Conference. March 11, 2010.
---------------------------------------------------------------------------
    Funding NOP at the requested $10.1 million will provide the 
resources needed to maintain the integrity of the organic label that 
both domestic and international consumers place their trust in and help 
to ensure the continued growth of the organic industry. It will give 
NOP the ability to deliver the improvements needed to address 
recommendations outlined in the March 18 release of USDA's Office of 
Inspector General NOP audit report (http://www.usda.gov/oig/webdocs/
01601-03-HY.pdf).

                        ORGANIC DATA INITIATIVE

    OTA supports fully funding the Organic Data Initiative (ODI) at $5 
million as authorized in the 2008 Farm Bill. ODI collects and 
disseminates data regarding organic agriculture through the 
Agricultural Marketing Service (AMS), the Economic Research Service 
(ERS) and the National Agricultural Statistics Service (NASS). This 
program has been highly successful in providing valuable information to 
Congress, government agencies and the organic industry at a low cost.
    AMS collects organic prices and disseminates the data through 
Market News Reports, which give producers and buyers knowledge of farm-
gate selling prices for several organic commodities, helping to create 
a more stable organic market. This is an excellent first step, but 
organic pricing information falls far behind what is available to 
conventional agriculture. Organic producers currently only receive 
farm-gate prices for a limited number of commodities, while 
conventional producers receive farm-gate, terminal and retail price 
information for many commodities in all regions of the country. Organic 
producers, processors and retailers need this information to maintain a 
stable organic market. We request $3 million for AMS to continue and 
expand organic price reporting services in fiscal year 2011.
    NASS provides surveys based on Census of Agriculture data. In 
February 2010, NASS released the Organic Production Survey (2008), the 
first to provide a State-by-State collection of the amount of farmland 
used for organic production and gross farm sales of organic products. 
Such information has been provided for conventional production, and 
should continue to be funded for organic production. OTA requests that 
NASS receive $0.5 million in fiscal year 2011, as requested in the 
President's budget, to continue collecting and distributing organic 
agriculture statistics.
    ERS published the consumer survey Marketing U.S. Organic Foods: 
Recent Trends from Farms to Consumers (2009), and multiple other 
reports that used data collected by AMS and NASS in addition to 
surveying Americans about their organic consumption patterns. The 
reports provided valuable information regarding the growth of and 
trends in the organic industry.
    ERS also plans to broaden its current research agenda to include 
economic analysis of international trade of organic products. In order 
to conduct sound economic research, data collected must be 
statistically reliable and of high quality. OTA hopes the International 
Trade Commission will expand the Harmonized System Codes (HS Codes) for 
organic products. With more than 70 percent of certified organic 
producers and handlers exporting or planning to export,\3\ these codes 
are needed to expand and simplify the trade of organic products. OTA 
requests that ERS be funded at $1.5 million in fiscal year 2011 for 
continued organic economic analysis and inclusion of organic trade 
data.
---------------------------------------------------------------------------
    \3\ Organic Trade Association's 2009 Organic Industry Survey. May, 
2009. Page 19.
---------------------------------------------------------------------------
    Unfortunately, the President's budget only includes $0.3 million 
for AMS organic price collection and $0.5 million for NASS to conduct 
production surveys for organic agriculture, with no provision for funds 
for ERS to study organic data. Congress expressed its intention for 
comprehensive data collection and analyses in the 2008 Farm Bill by 
mandating $5 million to start ODI the first year, then authorizing $5 
million in discretionary funds for each year following. Fully funding 
ODI at $5 million will help provide critical data necessary for any 
agricultural sector to survive, and help increase organic exports.

         ORGANIC AGRICULTURE RESEARCH AND EXTENSION INITIATIVE

    OTA requests $35 million to fund the Organic Agriculture Research 
and Extension Initiative (OREI), USDA's flagship competitive research 
and education grant program specifically dedicated to the investigation 
of organic agriculture and the delivery of its outcomes. OREI provides 
grants for a myriad of research projects that improve organic 
agriculture. The program is consistently oversubscribed and could only 
fund 17 percent of the funds requested in fiscal year 2009.
    Funds are given to land grant universities, for-profit 
organizations, individuals, private universities and State agricultural 
experiment stations to conduct organic research. Projects funded 
through OREI include improving organic farming systems and assessing 
their environmental impacts across agroeco-regions, enhancing 
productivity and soil borne disease control in intensive organic 
vegetable production, and improving weed and insect management.
    This request includes $20 million in mandatory funding plus $15 
million out of an authorized $25 million of discretionary funds in the 
2008 Farm Bill. We request $15 million in discretionary funding because 
the President's budget folds the Organic Transitions Integrated 
Research Program (below) into the Agriculture and Food Research 
Institute. If this occurs, less money will be appropriated specifically 
for organic research. If the Organic Transitions Integrated Research 
Program continues to receive funding, we will reduce OTA's request for 
OREI to $30 million.
    OREI projects have contributed to the health and sustainability of 
the environment and organic agriculture. Funding OREI at $35 million 
will support continued organic research by educational, State, and 
private institutions.

            ORGANIC TRANSITIONS INTEGRATED RESEARCH PROGRAM

    OTA requests $5 million to fund the Organic Transitions Integrated 
Research Program (ORG) in fiscal year 2011. Authorized by Section 406 
of the Agricultural Research, Extension, and Education Reform Act of 
1998, ORG provides funding for research grants that specifically study 
the relationship between organic agriculture and improving critical 
water quality problems. This program consistently receives many more 
funding requests than it can accommodate.
    The President's fiscal year 2011 budget cuts ORG as a separate 
program, and merges its responsibilities into the Agriculture and Food 
Research Initiative. We oppose merging the programs because the funds 
needed to continue this important grant program will be forced to 
compete with multiple proposals from all agriculture sectors instead of 
having dedicated resources. As organic retail sales have grown to 3.5 
percent of retail agriculture sales, research funding provided to 
organic agriculture has only reached and estimated 1.76 percent as of 
fiscal year 2009.\4\ Ending ORG as an organic specific research grant 
program will likely increase this gap.
---------------------------------------------------------------------------
    \4\ Estimate based on $2.9 billion USDA's Research, Education and 
Economics Mission fiscal year 2011 funding request and fiscal year 2010 
funding of Organic Data Initiative, Organic Agriculture Research and 
Extension Initiative, Organic Transitions Integrated Research Program, 
Agriculture Research Service and other National Institute of Food and 
Agriculture requests.
---------------------------------------------------------------------------
    ORG grants have funded several projects that have led to a better 
understanding of the link between agriculture and water quality, with 
more worthy proposals waiting for resources. The project should be 
funded at $5 million to continue and grow this important research. If 
ORG is not funded separately at $5 million, we request an increase in 
the Organic Agriculture Research and Extension Initiative (see OREI 
request) to continue supporting this research.

                      AGRICULTURE RESEARCH SERVICE

    OTA supports the ARS request for $9.03 million in additional funds 
to study classical plant and animal breeding. Public resources for 
classical plant and animal breeding have dwindled in recent decades, 
while resources have shifted toward genomics and biotechnology, with a 
focus on a limited set of major crops and breeds. This problem has been 
particularly acute for organic and sustainable farmers, who seek access 
to germplasm well suited to their unique cropping systems and their 
local environment. The Senate Agriculture Appropriations Report has 
registered the Committee's concern about this problem every year since 
fiscal year 2005, in the context of the CSREES (now the National 
Institute of Food and Agriculture) section of the Report.
    While USDA's statutory obligation to address this problem through 
the Agriculture and Food Research Initiative competitive grant program 
remains a strong need, USDA's ARS also has an obligation in this 
regard. ARS has the resources and expertise to help reverse this 
dangerous trend, but the Agency has not made a concerted effort until 
now. The Administration's fiscal year 2011 budget requests an increase 
of $4.289 million for ``crop breeding to enhance food and production 
security'' and another $4.75 million for ``crop protection to enhance 
food and production security,'' with a clear focus on classical plant 
and animal breeding activities.
    Research on breeding stocks for organic and sustainable agriculture 
has not kept pace with the rate at which the organic industry has 
grown. Providing ARS with the requested $9.03 million to study 
classical plant and animal breeding will help to overcome this lack of 
needed research.

            APPROPRIATE TECHNOLOGY TRANSFER FOR RURAL AREAS

    We request $3 million to fund Appropriate Technology Transfer for 
Rural Areas (ATTRA), as authorized in the 2008 Farm Bill. The (ATTRA) 
project of the National Center for Appropriate Technology (NCAT) is a 
very helpful resource for both beginning and advanced organic farmers. 
It has been funded by Congress for many years and continues to develop 
resources, including organic system plan templates and technical sheets 
on organic production. ATTRA reports that 30 percent of the calls 
received are in regards to organic practices.
    ATTRA helps thousands of organic and conventional farmers across 
the country. A sampling of topics that are routinely asked about are: 
reducing the use of herbicides and pesticides; employing farm practices 
that help protect air, water, and soil resources; reducing energy and 
water use; developing new marketing opportunities by focusing on local 
foods, farm-to-school, and farmers markets; and creating rural jobs by 
encouraging farming. OTA and NOP refer callers seeking technical 
information to ATTRA on a regular basis, whose toll-free number and 
bilingual capacity make it a national information resource. Funding 
ATTRA at $3 million will enable its work to provide valuable 
information to both organic and conventional farmers.

                               CONCLUSION

    Organic agriculture gives farmers more opportunities, improves and 
conserves the condition of the environment and gives consumers the 
choice to buy foods and other products that are produced to organic 
standards. Meeting these funding requests will help to insure the 
continued growth of U.S. organic agriculture by supporting the 
integrity of the organic label, providing important data and continuing 
to support research for organic agriculture.
    I thank the committee and look forward to working with you to 
advance the organic industry.
                                 ______
                                 

        Prepared Statement of Pickle Packers International, Inc.

                                SUMMARY

    Sustained and increased funding is desperately needed to maintain 
the research momentum built over recent years and to defray rising 
fixed costs at laboratory facilities. Companies in the pickled 
vegetable industry generously participate in funding and performing 
short-term research, but the expense for long-term research needed to 
insure future competitiveness is too great for individual companies to 
shoulder on their own.

                  BUDGET REQUESTS FOR FISCAL YEAR 2011
     [Funding needs for four USDA/ARS laboratories are as follows:]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Requests for Restoration of Funds Not in the                  $9,200,000
 Presidential Budget: U.S. Vegetable Laboratory,
 Charleston, South Carolina [Note: These funds are for
 the design ($700,000) and construction ($8,500,000) of
 the final phases of the planned greenhouse complex.]
                                                         ---------------
      Total Restoration Requests........................       9,200,000
                                                         ===============
Requests for Program Enhancement--Pickled Vegetables:
    Emerging Disease of Crops (HS)......................         500,000
    Quality and Utilization of Agricultural Products &           300,000
     Food Safety (HS)...................................
    Applied Crop Genomics...............................         270,400
    Specialty Crops.....................................         550,000
                                                         ---------------
      Total Program Enhancements Requested--Pickled            1,620,400
       Vegetables.......................................
------------------------------------------------------------------------

    USDA/ARS research provides:
  --Consumers with over 150 safe and healthful vegetable varieties 
        providing vitamins A, C, folate, magnesium, potassium, calcium, 
        and phytonutrients such as antioxidant carotenoids and 
        anthocyanins.
  --Genetic resistance for many major vegetable diseases, assuring 
        sustainable crop production with reduced pesticide residues--
        valued at nearly $1 billion per year in increased crop 
        production.
  --Classical plant breeding methods combined with bio-technological 
        tools, such as DNA marker-assisted selection and genome maps.
  --New vegetable products with economic opportunities amidst 
        increasing foreign competition.
  --Improved varieties suitable for machine harvesting, assuring post 
        harvest quality and marketability.
  --Fermentation and acidification processing techniques to improve the 
        efficiency of energy use while continuing to assure safety and 
        quality of our products.
  --Methods for delivering living pro-biotic microorganisms in 
        fermented or acidified vegetables.
  --New technology and systems for rapid inspection, sorting and 
        grading of pickling vegetable products.
Health and Economical Benefits
    Health agencies continue to encourage increased consumption of 
fruits and vegetables, useful in preventing heart disease, cancer, 
stroke, diabetes and obesity.
    Vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic and cabbage (sauerkraut), are considered ``specialty'' crops and 
not part of commodity programs supported by taxpayer subsidies.
    Current farm value for just cucumbers, onions and garlic is 
estimated at $2.4 billion with a processed value of $5.8 billion. These 
vegetables are grown and/or manufactured in all 50 States.
    Thank you for your consideration and expression of support for the 
USDA/ARS.

                               Attachment

CONCERN FOR SUSTAINED AND INCREASED RESEARCH FUNDING USDA/AGRICULTURAL 
                            RESEARCH SERVICE

    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer, diabetes and obesity 
supports this policy. Vitamins (particularly A, C, and folic acid), 
minerals, and a variety of antioxidant phytochemicals in plant foods 
are thought to be the basis for correlation's between high fruit and 
vegetable consumption and reduced incidence of these debilitating and 
deadly diseases. The problem is that many Americans choose not to 
consume the variety and quantities of fruits and vegetables that are 
needed for better health.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. 
Likewise, the people of this country represent an ever-broadening array 
of expectations, tastes and preferences derived from many cultural 
backgrounds. Everyone, however, faces the common dilemma that food 
costs should remain stable and preparation time continues to be 
squeezed by the other demands of life. This industry can grow by 
meeting these expectations and demands with reasonably priced products 
of good texture and flavor that are high in nutritional value, low in 
negative environmental impacts, and produced with assured safety from 
pathogenic microorganisms and from those who would use food as a 
vehicle for terror. With strong research to back us up, we believe our 
industry can make a greater contribution toward reducing product costs 
and improving human diets and health for all economic strata of U.S. 
society.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as ``minor'' crops. None of these crops is in any 
``commodity program'' and as such, do not rely upon taxpayer subsidies. 
However, current farm value for just cucumbers, onions and garlic is 
$2.4 billion with an estimated processed value of $5.8 billion. These 
crops represent important sources of income to farmers, and the 
processing operations are important employers in rural communities 
around the United States. Growers, processing plant employees and 
employees of suppliers to this industry reside in all 50 States. To 
realize its potential in the rapidly changing American economy, this 
industry will rely upon a growing stream of appropriately directed 
basic and applied research from four important research programs within 
the Agricultural Research Service. These programs contribute directly 
to top research priorities that the Research, Education, and Economics 
Mission Area (REE) of the USDA has identified in that they develop 
vegetable crop germplasm and preservation technology that contributes 
to improved profitability with reduced pesticide inputs in a safer, 
higher quality product grown by rural farm communities across the 
United States, consequently improving food security and food safety. 
Improved germplasm, crop management practices and processing 
technologies from these projects have measurably contributed to the 
profitability, improved nutritional value and increased consumption of 
affordable vegetable crops for children and adults in America and 
around the world.

        VEGETABLE CROPS RESEARCH LABORATORY, MADISON, WISCONSIN

    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions and garlic. Three scientists 
in this unit account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their past efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
virus and nematode resistance) not available in commercial varieties 
using long-term high risk research efforts. The U.S. vegetable seed 
industry develops new varieties of cucumbers, carrots, onions, and 
garlic and over 20 other vegetables used by thousands of vegetable 
growers. The U.S. vegetable seed, grower, and processing industry, 
relies upon the USDA/ARS Vegetable Crops Research Lab for unique 
genetic stocks to improve varieties in the same way the U.S. healthcare 
and pharmaceutical industries depend on fundamental research from the 
National Institutes of Health. Their innovations meet long-term needs 
and bring innovations in these crops for the U.S. and export markets, 
for which the United States has successfully competed. Past 
accomplishments by this USDA group have been cornerstones for the U.S. 
vegetable industry that have resulted in increased profitability, and 
improved product nutrition and quality.
    Both consumers and the vegetable production and processing industry 
would like to see fewer pesticides applied to food and into the 
environment in a cost-effective manner. Scientists in this unit have 
developed genetic resistance for many major vegetable diseases that are 
perhaps the most important threat to sustained production of a 
marketable crop for all vegetables. Genetic resistance assures 
sustainable crop production for growers and reduces pesticide residues 
in our food and environment. Value of this genetic resistance developed 
by the vegetable crops unit is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research in Madison has resulted in 
cucumbers with improved disease resistance, pickling quality and 
suitability for machine harvesting. New sources of genetic resistance 
to viral and fungal diseases, environmental stress resistance like heat 
and cold, and higher yield have recently been mapped on cucumber 
chromosomes to provide a ready tool for our seed industry to 
significantly accelerate the development of resistant cultivars for 
U.S. growers. Nematodes in the soil deform carrot roots to reduce yield 
from 10 percent to over 70 percent in major production areas. A new 
genetic resistance to nematode attack was found to almost completely 
protect the carrot crop from one major nematode. This group improved 
both consumer quality and processing quality of vegetables with a 
resulting increase in production efficiency and consumer appeal. Baby 
carrots were founded on germplasm developed in Madison, Wisconsin. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. Using new biotechnological methods, a system for rapidly 
and simply identifying seed production ability in onions has been 
developed that reduces the breeding process up to 6 years. A genetic 
map of onion flavor and nutrition will be used to develop onions that 
are more appealing and healthy for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets could certainly be enhanced. Genetic improvement of 
all the attributes of these valuable crops are at hand through the 
unique USDA lines and populations (i.e., germplasm) that are available 
and the new biotechnological methodologies that are being developed by 
the group. The achievement of these goals will involve the utilization 
of a wide range of biological diversity available in the germplasm 
collections for these crops. Classical plant breeding methods combined 
with bio-technological tools such as DNA marker-assisted selection and 
genome maps of cucumber, carrot and onion will be used to implement 
these genetic improvements. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for U.S. and export markets.

       U.S. FOOD FERMENTATION LABORATORY, RALEIGH, NORTH CAROLINA

    The USDA/ARS Food Fermentation Laboratory in Raleigh, NC is the 
major public laboratory that this industry looks to as a source for new 
scientific information on the safety of our products and development of 
new processing technologies related to fermented and acidified 
vegetables. Over the years, this laboratory has been a source for 
innovations which have helped this industry remain competitive in the 
current global trade environment. We expect the research done in this 
laboratory to lead to new processing and product ideas that will 
increase the economic value of this industry and provide consumers with 
safe, high quality, healthful vegetable products.
    We seek additional funding to support two new research initiatives 
for this laboratory that have substantial economic potential for our 
industry and health benefits for the American public. These are: (1) 
New approaches for pasteurization and application of microwave heat 
processing to acidified foods to achieve major improvements in the 
efficiency of energy utilization and reduction in water use while 
assuring safety and quality of products that require thermal 
processing; (2) development of techniques to deliver living pro-biotic 
microorganisms to consumers in fermented or acidified vegetable 
products.
    Nearly all pickled vegetables in the aisles of your super market 
are heated (pasteurized) so they are shelf stable at room temperature. 
Current steam and water bath pasteurizer technologies, which were 
developed in the 1940s and 1950s, have been very successful in that 
there as never been an outbreak of illness caused by commercially 
processed fermented or acidified vegetables. These older processing 
technologies are not very efficient in the use of energy or water 
resources, however. Our recent experience with soaring energy prices 
makes it clear that major improvements in the ways we heat process our 
products are required. There are three promising approaches that could 
benefit the broad range of products and sizes of companies that 
constitute the membership of PPI. First, is to develop practical ways 
to preheat and pack vegetables to reduce or even eliminate the 
residence time required in current pasteurizers. Secondly, is to adapt 
newer thermal processing technologies, particularly microwave heating, 
to our products. Thirdly, is to modify containers and product 
ingredients such that less heat and associated water use is required to 
assure killing of pathogenic bacteria and other spoilage 
microorganisms. Modifications of processes require strong scientific 
justification to assure ourselves, FDA, and the public that safety and 
quality will be maintained. In concert with any new processing 
technologies adequate process verification methods to assure process 
control and acceptance of our processes by FDA must be developed and 
validated. The objective will be to develop and transfer to the 
fermented and acidified vegetable industry new, scientifically 
validated energy efficient processing technologies that will assure the 
safety and quality of the products we make.
    Most of what we hear about bacteria in foods concerns the pathogens 
that cause disease. However, lactic acid bacteria are intentionally 
grown in fermented foods because they are needed to give foods like 
sauerkraut, yoghurt, cheeses, and fermented salami the characteristic 
flavors and textures that we desire. There is a growing body of 
research to indicate that certain living lactic acid bacteria are 
``pro-biotic'' in that they improve human health by remaining in the 
intestinal tract after they are consumed. Fermented or acidified 
vegetables may be a good way to deliver such pro-biotic bacteria to 
consumers. The objective will be to identify pro-biotic lactic acid 
bacteria that can survive in high numbers in selected vegetable 
products and investigate the potential for using vegetables as 
healthful delivery vehicles for pro-biotic organisms.

       SUGAR BEET AND BEAN RESEARCH UNIT, EAST LANSING, MICHIGAN

    New innovations and technology can help deliver high quality and 
healthy fruits and vegetables for consumers and assure secure food 
supply at home and abroad. It is critical that an effective quality 
inspection and assurance system be implemented for food crops 
throughout the handling steps between harvest and retail. While 
automated quality inspection systems are currently used in many pickle 
processing facilities, there exists considerable room for improving 
current technologies and developing new and more efficient sensors and 
automated inspection methods for pickling vegetables. Methods currently 
available for measuring and grading quality of cucumbers and other 
vegetables remain ineffective and time consuming. Labor required for 
postharvest handling and processing operations represents a significant 
portion of the total production cost. New and/or improved technologies 
are needed to assess, inspect and grade pickling cucumbers and pickles 
rapidly and accurately for internal and external quality 
characteristics so that they can be directed to, or removed from, 
appropriate processing or marketing avenues. This will minimize 
postharvest losses of food that has already been produced and ensure 
high quality, consistent final product and end-user satisfaction.
    The USDA/ARS Sugarbeet and Bean Research Unit at East Lansing, 
Michigan provides national leadership in research and development of 
innovative technologies and systems for assessing and assuring quality 
and marketability of tree fruits and pickling vegetables and enhancing 
production efficiency. It has developed a number of innovative 
engineering technologies for rapid, nondestructive measurement and 
inspection of postharvest quality of tree fruits and vegetables, 
including a novel spectral scattering technology for assessing the 
texture and flavor of fruits, a portable fruit firmness tester, and an 
optical property analyzing system for fruits and vegetables. Recently, 
an advanced hyperspectral imaging system was developed for automated 
detection of quality/defect of pickling cucumbers and pickles. Research 
at East Lansing will lead to new inspection and grading technology that 
will help the pickling industry in delivering high-quality safe 
products to the marketplace and achieving labor cost savings. 
Therefore, it is critical that additional resources be provided to 
support and expand the existing program to effectively address the 
technological needs for the pickling industry.

         U.S. VEGETABLE LABORATORY, CHARLESTON, SOUTH CAROLINA

    The research program at the USDA/ARS Vegetable Laboratory in 
Charleston, South Carolina, addresses national problems in vegetable 
crop production and protection with emphasis on the southeastern United 
States. This research program is internationally recognized for its 
accomplishments, which have resulted in development of over 150 new 
vegetable varieties and lines along with the development of many new 
and improved disease and pest management practices. This laboratory's 
program currently addresses 14 vegetable crops including those in the 
cabbage, cucumber, and pepper families, which are of major importance 
to the pickling industry. The mission of the laboratory is to (a) 
develop disease and pest resistant vegetable crops and (b) develop new, 
reliable, environmentally sound disease and pest management programs 
that do not rely on conventional pesticides.
    Continued expansion of the Charleston program is crucial. Vegetable 
growers depend heavily on synthetic pesticides to control diseases and 
pests. Cancellation and/or restrictions on the use of many effective 
pesticide compounds are having a considerable influence on the future 
of vegetable crop production. Without the use of certain pesticides, 
growers will experience crop failures unless other effective, non-
pesticide control methods are found quickly. The research on improved, 
more efficient and environmentally compatible vegetable production 
practices and genetically resistant varieties at the U.S. Vegetable 
Laboratory continues to be absolutely essential. This gives U.S. 
growers the competitive edge they must have to sustain and keep this 
important industry and allow it to expand in the face of increasing 
foreign competition. Current cucumber varieties are highly susceptible 
to a new strain of the downy mildew pathogen; this new strain has 
caused considerable damage to commercial cucumber production in some 
South Atlantic and Midwestern States during the past 5 years, and a new 
plant pathologist position needs to be established to address this 
critical situation.

                      FUNDING NEEDS FOR THE FUTURE

    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short term (6-24 months) and long term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.
U.S. Vegetable Laboratory, Charleston, South Carolina
    The newly constructed laboratory-office building at the U.S. 
Vegetable Laboratory was occupied in April 2003. Design of the 
accompanying greenhouse and head house was completed in July 2004. 
Construction of the head house was completed in 2006, and construction 
of the initial phase of the greenhouse complex was completed in early 
fall 2008. In fiscal year 2005, $2.976 million was appropriated for 
construction of greenhouses. In fiscal year 2006, an additional $1.980 
million was appropriated for construction of greenhouses, but an 
estimated $9.2 million is still needed to design and construct the 
final phases of the planned greenhouse complex. This new facility 
replaces and consolidates outmoded laboratory areas that were housed in 
1930s-era buildings and trailers. Completion of the total research 
complex will provide for the effective continuation and expansion of 
the excellent vegetable crops research program that has been conducted 
by the Agricultural Research Service at Charleston for over 70 years.
    New funds are needed to establish a plant pathology position to 
address cucumber diseases, especially the disease caused by a new 
strain of the downy mildew pathogen that has caused extensive damage to 
cucumber production in some South Atlantic and Midwestern States during 
the past 5 years. The plant pathologist is needed to characterize 
pathogen strains using molecular methodologies and to develop new 
management approaches and resistant cucumber lines. This new plant 
pathologist position will greatly contribute to the accomplishment of 
research that will provide for the effective protection of cucumbers 
from disease without the use of conventional pesticides. This position 
will require a funding level of $500,000 for its establishment.

------------------------------------------------------------------------
                                        Current status     Funds needed
------------------------------------------------------------------------
Construction:
    Greenhouse design..............  Needed.............        $700,000
    Greenhouse construction........  Needed.............       8,500,000
                                    ------------------------------------
        Design and Construction      ...................       9,200,000
         Funds Needed.
                                    ====================================
New scientific staff needed: plant   Needed.............         500,000
 pathologist (cucumber disease).
                                    ------------------------------------
        New Funds Needed...........  ...................         500,000
------------------------------------------------------------------------

Food Fermentation Laboratory, Raleigh, North Carolina
    The current funding for the laboratory is $1,264,000. To carry out 
the new research initiatives to reduce the energy and water use 
required to produce safe, high quality products and to develop systems 
to deliver pro-biotic lactic acid bacteria in acidified and fermented 
vegetable products, we request additional support for the Food 
Fermentation Laboratory of $300,000 in fiscal year 2011. This will 
provide support for Post-Doctoral or Pre-Doctoral research associates 
along with necessary equipment and supplies to develop these new areas 
of research.

------------------------------------------------------------------------
          Scientific staff              Current status     Funds needed
------------------------------------------------------------------------
Microbiologist.....................  Active.............        $316,000
Chemist............................  Active.............         316,000
Food Technologist/Biochemist.......  Active.............         316,000
Microbial Physiologist.............  Active.............         316,000
Fiscal Year 2011 Post-doctoral and   Needed.............         300,000
 Predoctoral Research Associate.
                                                         ---------------
      Total Funding Required.......  ...................       1,564,000
                                                         ---------------
Presidential Budget (Fiscal Year     ...................       1,264,000
 2011).
                                                         ---------------
New Funds Needed...................  ...................         300,000
------------------------------------------------------------------------

Vegetable Crops Research Laboratory Unit, Madison, Wisconsin
    Current base funding for three scientists is $889,600, of which 
$200,000 was added in fiscal year 2002. Emerging diseases, such as 
downy mildew of cucumber, threaten production of the crop in all 
production areas. Therefore, we request an additional $270,400 to fully 
fund the scientists and support staff in fiscal year 2011, including 
graduate students and post-doctorates for new research searching for 
genetic resistance to emerging diseases.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Geneticist.........................  Active.............        $320,000
Geneticist.........................  Active.............         320,000
Geneticist.........................  Active.............         320,000
Fiscal Year 2011 Post-doctoral or    Needed.............         200,000
 Predoctoral Research Associates.
                                                         ---------------
      Total Funding Required.......  ...................       1,160,000
                                                         ---------------
Presidential Budget (Fiscal Year     ...................         889,600
 2011).
                                                         ---------------
New Funds Needed...................  ...................         270,400
------------------------------------------------------------------------

Sugar Beet and Bean Research Unit, East Lansing, Michigan
    Current base funding for the location is $190,000, which is far 
short of the funding level needed to carry out research on inspection, 
sorting and grading of pickling cucumbers and other vegetable crops to 
assure the processing and keeping quality of pickled products. An 
increase of $550,000 in the current base funding level would be needed 
to fund the research engineer position.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Postdoctoral Research Associate....  Active.............        $190,000
Research Engineer..................  Needed.............         550,000
                                                         ---------------
      Total Funding Required.......  ...................         740,000
                                                         ---------------
Current Funding....................  ...................         190,000
                                                         ---------------
New Funds Needed...................  ...................         550,000
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the subcommittee, I am Wayne Dowd, and 
I am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin.
    The Resolutions contained herein were adopted by the Association 
during its 85th Annual Meeting in Bossier City, Louisiana on February 
18, 2010, and represent the combined concerns of the citizens of the 
Red River Basin Area as they pertain to the goals of the Association.
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (NRCS). We understand that attention and resources must be 
given to our national security and alternate energy sources; however, 
we cannot sacrifice what has been accomplished on our Nation's lands. 
NRCS programs are a model of how conservation programs should be 
administered and our testimony will address the needs of the Nation as 
well as our region.
    We want to express our appreciation for the funding levels provided 
by Congress in the fiscal year 2010 Appropriation Bill. Your plus up 
over the Administration's budget of $20.4 million in Conservation 
Operations was welcomed. More important was the funding you provided 
for Watershed & Flood Prevention Operations ($30 million) and RC&D 
($50.7 million) when the Administration `zeroed' out those programs.
    What concerns us the most is the lack of water resource planning 
funding. If we are experiencing serious water issues across our Nation 
today what will we face when our Nation's population is expected to 
double in 50 years? As urban development spreads out into our urban 
areas we will lose water resources and agricultural lands. What will we 
do for drinking water and irrigation? If we started planning for this 
scenario today we would not be prepared in 50 years. No one is planning 
or preparing for this expected growth and future demands on our water 
needs. Water and food supply are a matter of national security. It is 
inconceivable that we would consider outsourcing our water and food, 
more than we do now. We request that Congress fund the NRCS planning 
accounts and reenergize the planning process to preserve our national 
independence on our food and water resources.
    1. Conservation Operations.--This account has been in steady 
decline, in real dollars, over the past several years. Mandated 
increases in pay and benefits, continuing increases in the ``cost of 
doing business' and budget reductions greatly reduces the effective 
work that can be accomplished in this account. Allocations should be 
increased not decreased and we acknowledge and appreciate that Congress 
did increase this account in fiscal year 2010 from fiscal year 2009.
    We request a total of $950 million be appropriated for Conservation 
Operations for NRCS to meet the demands it faces today.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all ``working 
lands'' not just those fortunate few who are able to enroll in a 
Federal program. Working lands are not just crops and pasture 
(commodity staples) but includes forests, wildlife habitat and coastal 
marshes. The problem is that NRCS personnel funded from``mandatory 
programs'' can only provide technical assistance to those enrolled in 
these programs, leaving the majority of the agricultural community 
without technical assistance. We recommend that adequate funding be 
placed in ``Conservation Technical Assistance'', and allow NRCS to 
provide assistance to all who are in need of assistance.
    2. Watershed and Flood Prevention Operations (Public Law 566 and 
534).--There is no doubt that this is a Federal responsibility, in 
conjunction with a local sponsor. This program addresses all watersheds 
needs to include: flood protection, water quality, water supply and the 
ecosystem. There is no Corps of Engineer, Bureau of Reclamation or FEMA 
program to address small watershed needs, before disaster strikes. We 
recommend that Congress continue to hold oversight hearings to 
understand the importance and hear how popular this program is to our 
communities.
    Over the past 50 years these projects have developed a $15 billion 
infrastructure that is providing $1.5 billion in annual benefits to 
over 47 million people. It is not a Federal program, but a federally 
assisted program. This partnership between local communities, State 
agencies and NRCS has been successful for over 50 years. It would take 
$1.6 billion to fund the existing Federal commitment to local project 
sponsors. This cost only increases every year if adequate funding is 
not provided.
    All ongoing contracts will be terminated, if you allow this program 
to end. This will ultimately lead to lawsuits and tort claims filed by 
both sponsors and contractors, due to the Federal Government not 
fulfilling its contractual obligation.
    We are very appreciative for the funding level of $30 million 
enacted in fiscal year 2010 ($5.7 m more than fiscal year 2009). For 
every $1 spent, the Nation realizes $2 in benefits. Congress must take 
responsibility for this program.
    There are many new projects, which are awaiting funds for 
construction under this program. We strongly recommend that a funding 
level of $75 million be appropriated for Watershed Operations Programs, 
Public Law 534 ($20 million) and Public Law 566 ($55 million).
    The Red River has proven, through studies and existing irrigation, 
to be a great water source for ``supplemental'' irrigation. The two 
projects mentioned below, will use existing, natural bayous to deliver 
water for landowners to draw from. The majority of expense will be for 
the pump system to take water from the Red River to the bayous. These 
projects will provide the ability to move from ground water dependency 
to surface water, an effort encouraged throughout the Nation. Both will 
enhance the environmental quality and economic vitality of the small 
communities adjacent to the projects.
    a. Red Bayou Irrigation Project, LA.--This project has received 
funding from the 2010 `Stimulus' package. The State of Louisiana 
provided the required cost share ($1.1 million) to move forward with 
construction. It is not only a very important irrigation project for NW 
Louisiana, but will serve as a model for similar projects throughout 
the State and along the Red River in Arkansas.
    b. Walnut Bayou Irrigation Project, AR.--Plans and specifications 
have been completed and it is ready to proceed into the construction 
phase. An irrigation district has been formed and they are prepared to 
take on the responsibility to generate the income for the O&M required 
to support this project. We request that $4,000,000 be appropriated for 
these projects in fiscal year 2011.
    3. Watershed Rehabilitation.--More than 10,400 individual watershed 
structures have been installed nationally, with approximately one-third 
in the Red River Valley. They have contributed greatly to conservation, 
environmental protection and enhancement, economic development and the 
social well being of our communities. More than half of these 
structures are over 30 years old and several hundred are approaching 
their 50-year life expectancy. Today you hear a lot about the watershed 
approach to resource management. They protect more people and 
communities from flooding now than when they were first constructed. 
The benefit to cost ratio for this program has been evaluated to be 
2.2:1. What other Federal program can claim such success?
    In the next 5 years over 900 watershed structures will require over 
$570 million for rehabilitation. Each year this number increases as 
more dams reach their 50-year life. There is no questioning the value 
of this program. The cost of losing this infrastructure exceeds the 
cost to reinvest in our existing watersheds. Without repairing and 
upgrading the safety of existing structures, we miss the opportunity to 
keep our communities alive and prosperous. It would be irresponsible to 
dismantle a program that has demonstrated such great return and is 
supported by our citizens. We cannot wait for a catastrophe to occur, 
where life is lost, to decide to take on this important work.
    Past Administration budgets have neglected the safety and well 
being of our community needs and recommended minimum funding for this 
program. Appropriations have been drastically lower than the levels 
authorized in the 2002 Farm Bill, which authorized $600 million for 
rehabilitation for 2003-2007.
    We request that $65 million be appropriated to provide financial 
and technical assistance to those watershed projects where sponsors are 
prepared (35 percent cost share) to commence rehabilitation.
    4. Watershed Survey and Planning.--In fiscal year 2006, $6.1 
million was appropriated to support this extremely important community 
program. However, no funding has been provided since fiscal year 2007. 
NRCS has become a facilitator for the different community interest 
groups, State and Federal agencies. In our States such studies are 
helping identify resource needs and solutions where populations are 
encroaching into rural areas. The Administration and Congress has 
decided not to fund this program. We disagree with this and ask 
Congress to fund this program at the appropriate level.
    Proper planning and cooperative efforts can prevent problems and 
insure that water resource issues are addressed. Zeroing out the 
planning process assumes the economy will not grow and there is no need 
for future projects. We do not believe anyone supports or believes 
this. Another serious outcome is that NRCS will lose its planning 
expertise, which is invaluable.
    We request this program be funded at a level of $35 million.
    We request that the following two studies be specifically 
identified and funded in the fiscal year 2010 appropriation bill.
    a. Maniece Bayou Irrigation Project, AR.--This is a project in its 
initial stage of planning. An irrigation district is being formed to be 
the local sponsor. This project transfers water from the Red River into 
Maniece Bayou where landowners would draw water for supplemental 
irrigation. We request that $200,000 be appropriated to initiate the 
plans and specifications.
    b. Lower Cane River Irrigation Project, LA.--The transfer of water 
from the Red River to the Lower Cane River will provide opportunities 
for irrigation and economic development. Funds are needed to initiate a 
Cooperative River Basin Study. We request that $250,000 be appropriated 
for this study.
    5. Resource Conservation and Development (RC&D).--This has 
traditionally been a well-received program by the Administration, but 
not last year. The budget proposal zeroed out this important program. 
This program leverages its resources at 4 to 1, with communities, local 
sponsors and non-government organizations. The benefits are realized at 
over 14 to 1, average per project. Congress showed how important they 
believe this program is by providing $50.7 million in fiscal year 2010. 
We do not agree with the current Administration eliminating this 
program and request Congress continue its support for this program.
    We request that $51 million be appropriated for this program, at 
the same level as in fiscal year 2010.
    6. Mandatory Accounts (CCC) Technical Assistance (TA).--Request for 
assistance through the CCC programs has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Adequate funding for TA must be provided at the full 
cost for program delivery. This includes program administration, 
conservation planning and contracting with each applicant. Congress, in 
the 2002 Farm Bill, wisely increased conservation programs each year. 
This increased investment, will increase the NRCS workload. It is 
imperative that NRCS receive the TA funding levels required to 
administer these programs. If they do not receive full funding these 
programs will not realize their full capability.
    It has been mandated that a set percent of TA, from the CCC 
Program, must be used for TSPs. This is equivalent to losing 600 staff 
years from NRCS manpower. This is another unacceptable policy, which 
will reduce the effectiveness of NRCS. This mandate must be eliminated.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not be served adequately to apply conservation 
measures needed to sustain our natural resources for future 
generations. Technical Assistance cannot be contracted out to private 
companies.
    We are all aware of the issue with TMDL levels in our waterways. If 
our Nation is to seriously address this we must look at the impacts 
from our farmlands. Assistance for land treatment plans and plan 
implementation is exactly what the NRCS Watershed programs are intended 
to address. Watershed programs should be receiving an increase in 
funds, not eliminated.
    With these new clean water initiatives why do we ignore the Agency 
that has a proven record for implementing watershed conservation 
programs? Congress must decide; will NRCS continue to provide the 
leadership within our communities to build upon the partnerships 
already established? It is up to Congress to insure NRCS is properly 
funded and staffed to provide the needed assistance to our taxpayers 
for conservation programs.
    These NRCS studies and watershed projects are an example of true 
``cooperative conservation'' initiatives. There is an interface with 
communities and local sponsors at each step of the process and local 
sponsors do cost share at the levels expected of them.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
Nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process.
    Grant Disclosure: The Red River Valley Association has not received 
any Federal grant, sub-grant or contract during the current fiscal year 
or either of the two previous fiscal years.
                                 ______
                                 

     Prepared Statement of the Rocky Mountain Climate Organization

    This statement is being submitted on behalf of the following 
representatives of government agencies, water providers, and 
organizations with a stake in Colorado's water future: Nolan Doesken, 
Colorado State Climatologist; Eric Kuhn, General Manager, Colorado 
River Water Conservation District; David Little, Director of Planning, 
Denver Water; Brett Gracely, Water Resource Planning Supervisor, 
Colorado Springs Utilities; Brad Udall, Director, CU-NOAA Western Water 
Assessment; Stephen Saunders, President, Rocky Mountain Climate 
Organization; Joel Smith, Principal, Stratus Consulting; Drew Beckwith, 
Water Policy Analyst, Western Resource Advocates; and Drew Peternell, 
Director, Trout Unlimited's Colorado Water Project.
    Specifically, we respectfully request your consideration of 
inclusion of additional fiscal year 2011 funding for the following 
programs:
  --Department of Agriculture, Natural Resources Conservation Service, 
        Snowpack Telemetry Program;
    --Additional monitoring stations--$2,275,000, and for fiscal year 
            2012 and years beyond, $260,000 per year for recurring 
            annual operations and maintenance costs.
    --Soil moisture and sublimation instrumentation--$650,000, and for 
            fiscal year 2012 and years beyond, $520,000 per year for 
            recurring annual operations and maintenance costs.
  --Department of Agriculture, Colorado Agricultural Meteorological 
        Network (CoAgMet) evapotranspiration monitoring, line item to 
        be determined--$335,000 and for fiscal year 2012 and years 
        beyond, $195,000 per year for recurring annual operations and 
        maintenance costs.
    Since 2007 our organizations, and others in Colorado, have been 
collaborating on strategies to prepare for the changes that scientists 
have identified as the likely impacts of climate change on Colorado's 
most critical natural resource--the water resources that enable our 
people, commerce, and natural systems to thrive. Key to our ability in 
Colorado, and across the West, to understand and adapt to the effects 
of climate change on water supplies will be good information on what 
changes are occurring with respect to such key elements as 
temperatures, precipitation, snowpack, the timing of snowmelt, 
streamflows, and soil moisture. The data collection systems that 
currently exist to gather this information were not designed to track 
changes in climate, and so are incomplete to meet today's needs. Many 
of the programs for collecting and disseminating these data have 
deteriorated or have been diverted over the last quarter-century, with 
the result that many long-term climate and streamflow records have been 
interrupted.
    The additional climate/water monitoring needs we identify are for 
systems in Colorado and the Upper Colorado River Basin, but they are 
needed for national reasons, as well. The State of Colorado supplies 70 
to 75 percent of the water in the Colorado River. About 30 million 
Americans, or about one-tenth of all Americans, living in seven 
States--Arizona, California, Colorado, Nevada, New Mexico, Utah, and 
Wyoming--depend on Colorado River water. The largest city in each of 
those seven States depends on Colorado River water. Twenty-two of the 
32 largest cities in those seven States depend on Colorado River water. 
Fifteen percent of the Nation's crops and 13 percent of the Nation's 
livestock depend on Colorado River water. Some of the Nation's most 
spectacular natural resources, including our largest concentration of 
national parks, depend on Colorado River water.
    Yet scientists consistently tell us that a changed climate is 
likely to reduce the flow of the Colorado River. As this is already the 
most over-allocated river in the Nation, this presents a challenge of 
great national significance.
    No less important to those who depend on them are the other rivers 
that originate in Colorado, including the Rio Grande, Arkansas, and 
North and South Platte rivers, which supply additional millions of 
Americans not just in our State but in downstream States. These rivers, 
too, may be substantially affected by the hotter and drier conditions 
projected to result in the interior West from a changed climate.
    To be able to address these challenges, we have a pressing, 
critical need to know more than we now do about our water resources and 
how they may be affected over time. That is the purpose of our proposal 
for relatively modest increases in these key budget accounts:
  --Department of Agriculture, Natural Resources Conservation Service 
        (NRCS), Snow Telemetry (SNOTEL) stations
    --NRCS installs, operates, and maintains SNOTEL--an extensive, 
            automated system designed to collect snowpack and related 
            climatic data in the Western United States and Alaska. 
            There is widespread desire for more SNOTEL stations in the 
            Upper Colorado River basin, to provide a stronger basis for 
            seasonal runoff forecasts. Climate change and its effects 
            on the distribution of snow pack with elevation is also a 
            concern among water managers in the basin. The installation 
            of SNOTEL stations to provide a transect across the 
            topographic gradient is required to better understand this 
            phenomenon. While there have been some new installations 
            made recently in watersheds of the Blue, Fraser, and 
            Gunnison Rivers, an additional 65 stations are needed in 
            the Upper Colorado River Basin to augment the existing 117 
            stations.
        Our funding request: SNOTEL stations cost approximately $35,000 
            to install, and $4,000 per year thereafter to operate and 
            maintain. Our fiscal year 2011 request is for $2,275,000 to 
            fund station installation costs, and for fiscal year 2012 
            and years beyond, $260,000 per year for annual recurring 
            operations and maintenance costs.
    --There is also a widespread perception among water managers that 
            seasonal runoff volumes in recent years have not been 
            commensurate with observed snow pack accumulations. 
            Consequently, there is a desire for greater insight into 
            the physical processes governing the fate of the snow pack, 
            with particular interest in sublimation and soil moisture 
            as potential explanatory factors. Unfortunately, these 
            processes are observed to a very limited extent, leading to 
            the suggestion that SNOTEL stations be fitted with 
            additional instrumentation to measure soil moisture and 
            atmospheric variables governing sublimation (radiation, 
            wind, humidity, etc).
        Our funding request: Cost of installation of these instruments 
            runs around $10,000 per site. While O&M of soil moisture 
            instruments is not high, the atmospheric sensors do require 
            significant ongoing care. The estimated cost to maintain 
            SNOTEL stations with these additional instruments is $8,000 
            per year. Our fiscal year 2011 request is for $650,000 to 
            fund installation of instruments, and for fiscal year 2012 
            and years beyond, $520,000 per year to fund recurring 
            annual operations and maintenance costs.
  --Department of Agriculture, Colorado Agricultural Meteorological 
        Network (CoAgMet) evapotranspiration monitoring, line item to 
        be determined
        This request falls outside of the auspices of the Upper 
        Colorado River Basin, but is critical for ensuring adequate 
        climate monitoring over Colorado's agricultural lands. In 
        collaboration with several Federal, State and local 
        organizations, CoAgMet was established as a specialized 
        monitoring network 20 years ago. CoAgMet currently consists of 
        60 stations and is designed to provide meteorological and 
        climatological information most needed for agricultural 
        production, research and planning. This network is particularly 
        well suited for estimating and tracking evapotranspiration (ET) 
        from irrigated croplands. With nearly 20 years of data, the 
        network is just now getting to the point where analyses to 
        detect trends are feasible. Projected changes in Colorado 
        temperatures will likely cause changes in ET and it is critical 
        that we have the capabilities to track this over time.
        Colorado State government's ongoing budget challenges are 
        forcing it to downsize this network by as much as 50 percent by 
        the end of 2010. This is a very serious matter. Prior to the 
        economic downturn, there was an identified need for 22 
        additional observing sites in eastern Colorado plus six sites 
        in the irrigated valleys of western Colorado to better track 
        climatic conditions (wind, humidity, solar energy, soil 
        temperature, etc.) affecting agriculture. The cost of 
        purchasing and installing a new station is approximately 
        $10,000. Annual maintenance costs are $2,000-$2,500/year per 
        station depending on location. There is also an interest in 
        soil moisture monitoring over Colorado's dryland agricultural 
        areas. Instrumentation could be added to the CoAgMet stations 
        in non-irrigated environments to meet this need at a cost of 
        $2,500 per site.
        Our funding request: Our fiscal year 2011 request to complete 
        the CoAgMet network is $335,000 ($280,000 for hardware and 
        installation of new stations, plus $55,000 for soil moisture 
        instrumentation in the 22 new stations in eastern Colorado). 
        For fiscal year 2012 and years beyond, our request is for 
        $195,000 per year in recurring annual operations and 
        maintenance costs.
    We would welcome the opportunity to discuss these requests further, 
and stand ready to supply additional information as needed.
                                 ______
                                 

            Letter From the San Diego County Water Authority

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Washington, DC.

Re: Support for Fiscal Year 2011 Federal Funding of At Least $20 
        Million for the U.S. Department of Agriculture's Environmental 
        Quality Incentives Program for the Colorado River Basin 
        Salinity Control Program
    Dear Chairman Kohl: Your support is needed to secure adequate 
funding for the U.S. Department of Agriculture's Colorado River Basin 
Salinity Control Program for fiscal year 2011. This program has 
implemented important salinity control projects for the Colorado River 
since 1974, benefiting water users from seven States through more 
efficient water management and reduced salinity concentrations in 
Colorado River water. To continue this work, the Water Authority urges 
the USDA's salinity control program be funded at least $20 million for 
fiscal year 2011.
    The Colorado River is the primary source of drinking water for more 
than 3 million people in San Diego County. Excess salinity causes 
economic damages in the San Diego region worth millions of dollars 
annually. It also hinders local water agency efforts to stretch limited 
supplies by recycling and reusing water. The local impacts of excess 
salinity include:
  --reduced crop yields for farmers, who produce more than $1 billion 
        of agricultural products in the San Diego region;
  --the reduced useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers;
  --the increased household use of expensive bottled water and water 
        softeners;
  --increased water treatment facility costs;
  --difficulty meeting Federal and California wastewater discharge 
        requirements; and
  --fewer opportunities for water recycling due to excess salt in the 
        product water, which limits usefulness for commercial and 
        agricultural irrigation.
    The Colorado River Basin Salinity Control program has proven to be 
a very cost-effective approach to mitigate the impacts of increased 
salinity in the Colorado River. Continued Federal funding of this 
important program is essential. The Colorado River is the single most 
important source of water for the San Diego region, as well as the rest 
of the seven-State Colorado River Basin. Maintenance of the river's 
water quality through an effective salinity control program is an 
investment that avoids millions of dollars in economic damages caused 
by excess salinity.
    The Colorado River Basin Salinity Control Advisory Council has 
recommended that the USDA salinity control effort be funded at least 
$20.0 million annually. The Water Authority supports the Forum's 
recommendation and urges this Subcommittee to support this level of 
funding for 2011. The Water Authority would appreciate your assistance 
in securing adequate funding for this important effort.
            Sincerely,
                                      Maureen A. Stapleton,
                                                   General Manager.
                                 ______
                                 

  Prepared Statement of the Society for Women's Health Research (SWHR)

    On the behalf of the Society for Women's Health Research (SWHR) and 
the Women's Health Research Coalition (WHRC), we are pleased to submit 
testimony in support of increased funding for the Food and Drug 
Administration (FDA) to $2,857 billion for fiscal year 2011, and 
specifically support increased funding for the Office of Women's Health 
(OWH), a critical focal point on women's health within the Agency.
    Founded in 1990, SWHR brought to national attention the need for 
the appropriate inclusion of women in major medical research studies 
and the need for more information about conditions affecting women 
exclusively, disproportionately, or differently than men. SWHR 
advocates increased funding for research on women's health; encourages 
the study of sex differences that may affect the prevention, diagnosis 
and treatment of disease; promotes the inclusion of women in medical 
research studies; and informs women, providers, policy makers and media 
about contemporary women's health issues.
    In 1999, the WHRC was established by SWHR to give a voice to 
scientists and researchers from across the country that are concerned 
and committed to improving women's health research. WHRC now has more 
than 650 members, including leaders within the scientific community and 
medical researchers from many of the country's leading universities and 
medical centers, as well as leading voluntary health associations, and 
pharmaceutical and biotechnology companies.
    SWHR and WHRC are committed to advancing the health status of women 
through the discovery of new and useful scientific knowledge. 
Appropriate funding of the FDA by Congress is critical for the Agency 
to function and to assure the American public of the safety of its food 
and drugs. Good investments have been made in recent years that are 
helping to restore the FDA's resources; however, the FDA is endeavoring 
to catch up after years of flat funding to meet the needs of scientific 
growth, innovation and development, and adequate food and drug 
protection. Further, FDA is struggling to catch up to present-day needs 
in the area of information technology (IT).
    Past investments in the FDA, as well as the budget increases 
secured under Representative DeLauro's leadership, have undoubtedly 
helped the FDA continue to meet--to varying degrees--the numerous 
responsibilities assigned to it. What remain to be seen are what 
advancements in medicine and what protections to the Nation's food and 
drug supply are jeopardized by the FDA budget barely matching inflation 
year after year. With over 80 percent of FDA's budget going toward its 
scientists and staff, one must consider the impact of not investing in 
the human collateral that makes the FDA and the United States the world 
leaders in drug and food safety. Until sound investments are made in 
the FDA's scientists, training, and infrastructure, it will be forced 
to keep ``hanging on by its fingernails''--acting in a reactionary way 
against the threats to food and drug security and lacking the resources 
to foster a new culture of proactive science and research leadership.
    SWHR recognizes the need to control discretionary spending; 
however, the strength of the FDA must be a public priority. The 6 
percent increase in President Obama's budget request is a good start, 
but SWHR urges Congress to provide the FDA with an increase of $495 
million over fiscal year 2010 and $350 million more than the 
Administration's request, bringing the FDA's fiscal year 2011 budget to 
a proposed $2,857 billion. This funding increase will allow the FDA to 
continue rebuilding its infrastructure and addressing the shortage of 
resources was well as building on the catch up effort on IT systems 
that will match the needs of the industries it is regulating and 
expectations of the American public. From promoting wellness and 
meeting healthcare needs to protecting the food supply, the FDA touches 
each American each day. We risk jeopardizing the important work they do 
through underfunding.
    Further, key investment that must be taken into account at the FDA 
is the Office of Women's Health (OWH). OWH's women's health programs, 
often conducted with the Agency centers, are vital to maintaining focus 
on women's health within the FDA. They are critical to improved care 
and increased awareness of disease-specific impacts to women. For 
example, OWH ensures that sex and gender differences in the efficacy of 
drugs (such as metabolism rates), devices (sizes and functionality) and 
diagnostics are taken into consideration in reviews. To address OWH's 
growing list of priorities, the Society recommends that Congress 
support an additional $2 million budget for OWH for fiscal year 2011 
within the budget for the FDA. In addition, we further recommend that 
the current budget levels not only increase in the future, but should 
never be less than the $6 million that the office currently receives.

                   FDA INFORMATION TECHNOLOGY SYSTEMS

    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices. However, as 
was stated by the 2007 Science Board Report, requested by former 
Commissioner von Eschenbach, FDA's IT systems were inefficient and 
incapable of handling the current demands placed on the Agency, thus 
preventing the FDA from fulfilling its mission. Equipment still remains 
outdated, often unsupported by maintenance, and regularly breaks down. 
Some computer experts are being brought back out of retirement to 
service the systems now too old to be corrected by current FDA 
employees. FDA's IT system, a system which needs to function 24/7, 
simply cannot keep up with current scientific data, new technology, and 
technological advances (such as nanotechnology), as well as market 
trends. This will only continue to worsen.
    Additionally, the on-going discussion on an overhaul of the 
Nation's healthcare system again brought to light poor IT systems as a 
recurring source of medical errors and financial and personal losses. 
Comprehensive or piecemeal reform efforts are likely to include further 
advances to electronic health records and other innovations which will 
place an even greater burden on the FDA, among other agencies, to 
function within those advanced IT systems and networks.
    The antiquated nature of the current IT systems also makes the FDA 
unable to keep up appropriately in safety analyses, tracking the 
natural history and disease models for rare disorders, or accessing 
huge amounts of clinical data and emerging trends. The creation of a 
central database would provide a centralized repository for all 
relevant facts about a certain product including where, when and how 
the product was made. Such a uniform and centralized database will be 
relevant for all information stored across agencies, so as to maximize 
functionality not only of FDA's data but for any other research and 
analysis needed by the American public for safety and surveillance.
    Currently, the FDA receives large volumes of information for review 
and evaluation in applications from drug manufacturers. FDA reviewers 
must manually comb through the submitted drug trial reports and digital 
data in as many as 12 different formats when evaluating a new drug's 
safety and effectiveness. Frequently, reviewers must handpick data 
manually from stacks of paper reports and craft their own data 
comparisons. This process is time consuming, makes the review process 
less efficient, more error-prone, and ultimately delays access to 
important information. Scientific and medical advances are occurring 
rapidly and the public needs and deserves access to the most recent and 
accurate information regarding their health. It is time Congress 
enables the FDA to utilize up-to-date information technology.
    SWHR believes that the FDA and it's Office of Women's Health should 
be able to track women or men and other subpopulations in all clinical 
trials being monitored and they are currently not able to do so. The 
FDA should be able to know how many women are in studies, both by 
recruitment and retention rates. This should be an immediate goal of 
any new IT system upgrade at the FDA, in conjunction with the adoption 
of uniform data standards from which to pull the data and as part of 
the shift to a fully automated, electronic filing system.

                        OFFICE OF WOMEN'S HEALTH

    OWH at the FDA, established in 1994, plays a critical role in 
women's health, both within and outside the Agency, supporting sex- and 
gender-based research, areas in which SWHR has long been a proponent. 
OWH provides scientific and policy expertise on sex and gender 
sensitive regulatory and oversight issues; endeavors to correct sex and 
gender disparities in the areas for which the FDA is responsible--
drugs, devices, and biologics. OWH also monitors women's health 
priorities, providing both leadership and an integrated approach to 
problem solving across the FDA. Despite inadequate funding, OWH 
continues to provide women with invaluable tools for their health.
    Each year OWH, with little difficulty, exhausts its tiny budget. 
OWH's pamphlets are the most requested of any documents at the 
government printing facility in Colorado. In 2009, more than 5.2 
million pamphlets were distributed to women across the Nation, 
including target populations such as Hispanic communities, seniors and 
low-income citizens. Since its creation, OWH has awarded $21.7 million 
in research funds. Last year, two of OWH's intramural research projects 
were recognized by the Senate Excellence in Aging Research Committee 
Report as exemplary research performed by departments and agencies 
within the Federal government that seeks to advance the well-being of 
older Americans. Despite the $1 million increase the office received 
last year, additional funding is needed so OWH may continue its present 
work on current projects, but also expand and develop future projects.
    It is absolutely critical for Congress to take action now to help 
preserve the vital functions of OWH and to ensure that its small budget 
is dedicated to the resource needs of the office and to the projects, 
programs, and research it funds.
    Since its beginning, OWH has funded high quality scientific 
research to serve as the foundation for FDA activities that improve 
women's health. Since 1994, OWH has funded approximately 195 research 
projects with approximately $15.7 million in intramural grants, 
supporting projects within the FDA that address knowledge gaps or set 
new directions for sex and gender research. All contracts and grants 
are awarded through a competitive process. A large number of these 
studies are published and appear in peer reviewed journals.
    As part of its educational outreach efforts to consumers, OWH works 
closely with women's advocacy and health professional organizations to 
provide clarity on the results of the Women's Health Initiative. Due to 
OWH efforts, an informational fact sheet about menopause and hormones 
and a purse-sized questionnaire to review with the doctor were 
distributed to national and local print, radio, and Internet 
advertisers.
    Further, OWH's Web site serves as a vital tool for consumers and is 
regularly updated to include new and important health information. The 
Web site provides free, downloadable fact sheets on over 100 different 
illnesses, diseases, and health related issues for women. OWH has 
created medication charts on several chronic diseases, listing all the 
medications that are prescribed and available for each disease. This 
information is ideal for women to use in talking to their doctors, 
pharmacists, or nurses about their treatment options. They have also 
collaborated with Pharmacy Choice, Inc. to create a Web portal solely 
dedicated to FDA consumer health education materials, providing access 
to fact sheets and medication guides. In keeping with current 
technology trends, OWH has used social media networks like twitter to 
reach out to consumers.
OWH and Sex Differences Research
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain, to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that many in the scientific 
community view the sexes, with even more information forthcoming as a 
result of the sequencing of the X chromosome. The evidence is 
overwhelming, and as researchers continue to find more and more complex 
biological differences, they gain a greater understanding of the 
biological and physiological composition of both sexes.
    Much of what is known about sex differences is the result of 
observational studies, or is descriptive evidence from studies that 
were not designed to obtain a careful comparison between females and 
males. SWHR has long recognized that the inclusion of women in study 
populations by itself was insufficient to address the inequities in our 
knowledge of human biology and medicine, and that only by the careful 
study of sex differences at all levels, from genes to behavior, would 
science achieve the goal of optimal healthcare for both men and women. 
Many sex differences are already present at birth, whereas others 
develop later in life. These differences play an important role in 
disease susceptibility, prevalence, time of onset, and severity and 
have documented roles in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and other illnesses. 
Physiological differences and hormonal fluctuations may also play a 
role in the rate of drug absorption, distribution, metabolism, 
elimination as well as ultimate effectiveness of response in females as 
opposed to males. This vital research is supported and encouraged by 
the OWH, working directly with the various centers to advance the 
science in this area, collaborating on programs, projects, and 
research.
    Our country's drug development process has succeeded in delivering 
new and better targeted medications to ensure the health of both women 
and men. However, the requirement that the data acquired during 
research of a new drug's safety and effectiveness be analyzed as a 
function of sex is generally not enforced. Information about the ways 
drugs may differ in various populations (e.g., women requiring a lower 
dosage because of different rates of absorption or chemical breakdown) 
are often not explored, or female enrollment in studies is too low to 
adequately power results, and as a result this vital information 
continues to not be included in prescription drug labels and other 
patient educational and instructional materials.
    SWHR believes that the opportunity to present this information to 
consumers exists now. Sex differences data discovered from clinical 
trials can be directly relayed to the medical community and to 
consumers through appropriate education, drug labeling and packaging 
inserts, and other forms of alerts directed to key audiences. As part 
of advancing the need to analyze and report sex differences, SWHR 
encourages the FDA to continue addressing the need for accurate, sex-
specific drug labeling to better serve male and female patients, as 
well as to ensure that appropriate data analysis of post-market 
surveillance reporting for these differences is placed in the hands of 
physicians and ultimately the patient.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for the FDA and women's health, as well as 
your commitment to OWH. We recommend that you exceed the 
Administration's proposed increase, appropriating $495 million more 
than fiscal year 2010, for an overall fiscal year 2011 budget for the 
FDA of $2,857 billion, overall, so that it may dramatically improve 
upon current operations while also rebuilding its IT infrastructure. 
Secondly, we urge you to allocate $8 million for the Office of Women's 
Health for fiscal year 2011, and to ensure that future budget 
appropriations for the OWH are never below current funding levels. We 
look forward to continuing to work with you to build a stronger and 
healthier future for all Americans.
                                 ______
                                 

  Prepared Statement of The Humane Society of the United States (HSUS)

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your Subcommittee on 
fiscal year 2011 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following amounts for the following USDA 
accounts:
  --FSIS/Humane Methods of Slaughter Act Enforcement--$2 million of HAT 
        funds to hire/train mobile review team to conduct unscheduled 
        audits and undercover surveillance to assess compliance with 
        HMSA, and language calling for establishment of ombudsman to 
        help ensure that inspectors can carry out their 
        responsibilities--both food safety and humane slaughter--
        without undue interference.
  --FSIS/Horse Slaughter--language mirroring fiscal year 2010 
        provision.
  --APHIS/Horse Protection Act Enforcement--$900,000.
  --APHIS/Animal Welfare Act Enforcement--$22,333,000.
  --APHIS/Investigative and Enforcement Services--$14,213,000.
  --OIG/including Animal Fighting Enforcement--$90,000,000.
  --NIFA (formerly CSREES)/Veterinary Student Loan Forgiveness--
        $5,000,000.
  --APHIS/Emergency Management Systems/Disaster Planning for Animals--
        $1,017,000.
  --APHIS/Wildlife Services--funding limitation on use of two 
        particularly toxic poisons.
  --NAL/Animal Welfare Information Center--$1,978,400.
    We thank you for your outstanding support during recent years for 
improved enforcement of key animal welfare laws by the U.S. Department 
of Agriculture and we urge you to sustain this effort in fiscal year 
2011. Your leadership is making a difference in helping to protect the 
welfare of millions of animals across the country. As you know, better 
enforcement will also benefit people by decreasing: (1) food safety 
risks to consumers from sick animals who can transmit illness, and 
injuries to slaughterhouse workers from suffering animals; (2) 
orchestrated dogfights and cockfights that often involve illegal 
gambling, drug trafficking, and human violence, and can contribute to 
the spread of costly illnesses such as bird flu; (3) the sale of 
unhealthy pets by commercial breeders, commonly referred to as ``puppy 
mills''; (4) laboratory conditions that may impair the scientific 
integrity of animal based research; (5) risks of disease transmission 
from, and dangerous encounters with, wild animals in or during public 
exhibition; and (6) injuries and deaths of pets on commercial airline 
flights due to mishandling and exposure to adverse environmental 
conditions. In order to continue the important work made possible by 
the Committee's prior support, we request the following for fiscal year 
2011:

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                           (HMSA) ENFORCEMENT

    We request that $2,000,000 of the Humane Animal Tracking funding be 
directed to hire a mobile review team to focus on strengthening HMSA 
enforcement, and that language be included calling for the 
establishment of an ombudsman. We greatly appreciated the committee's 
inclusion of $2 million in fiscal year 2009 to address severe 
shortfalls in USDA oversight of humane handling rules for animals at 
slaughter facilities, oversight that is important not only for animal 
welfare but also for food safety. While the Agency has taken some steps 
on this front, serious problems remain. For example, video taken by a 
non-profit organization during a 2009 undercover investigation revealed 
atrocities including repeated electric shocks, kicking, cutting off a 
hoof and partial decapitation of conscious baby calves. The footage 
also revealed a USDA inspector showing callous disregard for blatant 
cruelty, as he watched a calf being skinned alive and commented that 
another inspector would shut the plant down, but he allowed the abuse 
to continue. While that inspector has since been fired, to address 
remaining weaknesses in the inspection regime, we request that $2 
million be allocated out of the $3 million in Humane Animal Tracking 
(HAT) funding for the purpose of hiring and training a mobile review 
team to conduct unscheduled audits and undercover surveillance focused 
on assessing compliance with humane handling rules of live animals as 
they arrive and are offloaded and handled in pens, chutes, and stunning 
areas.
    We also urge the committee to include language calling on the USDA 
to establish an ombudsman to provide inspectors with an avenue to take 
their concerns and grievances, and help ensure that they are able to 
carry out their responsibilities--both food safety and humane 
slaughter--without undue interference. A whistleblower, a current FSIS 
veterinarian who has served the Agency for 18 years, testified at a 
recent House Oversight subcommittee hearing that a core problem with 
HMSA enforcement involves high-level supervisors putting pressure on 
inspectors below them to not rigorously enforce humane standards--
discouraging them from reporting violations, rewriting and watering 
down their reports, second-guessing their first-hand observations, 
insisting that actions comport with humane standards even when they run 
contrary to the guidelines of leading animal science expert Dr. Temple 
Grandin (whose expertise is well-respected by industry), and 
reprimanding and punishing them for taking enforcement actions. Even 
some District Veterinary Medical Specialists--the very positions funded 
by Congress to focus on ensuring compliance with the Humane Methods of 
Slaughter Act--have engaged in this undermining of inspectors. For the 
humane slaughter law to be properly enforced, personnel at all levels--
and certainly those in the supervisory ranks--must take this mission 
seriously. Ideally, this ombudsman would be independent from FSIS, 
reporting directly to the Under Secretary for Food Safety, or 
alternatively could perhaps be in the Office of Program Evaluation, 
Enforcement & Review (OPEER) that helps ensure the effectiveness of 
FSIS.

                            HORSE SLAUGHTER

    We request inclusion of the same language barring USDA from the 
expenditure of funds for horse slaughter inspection as the Committee 
included in the fiscal year 2010 omnibus. This provision is vital to 
prevent renewed horse slaughter activity in this country.

              APHIS/HORSE PROTECTION ACT (HPA) ENFORCEMENT

    We request that you support the President's request of $900,000 for 
strengthened enforcement of the Horse Protection Act. Congress enacted 
the HPA in 1970 to make illegal the abusive practice of ``soring,'' in 
which unscrupulous trainers use a variety of methods to inflict pain on 
sensitive areas of Tennessee Walking Horses' hooves and legs to 
exaggerate their high-stepping gait and gain unfair competitive 
advantage at horse shows. For example, caustic chemicals--such as 
mustard oil, diesel fuel, and kerosene--are painted on the lower front 
legs of a horse, then the legs are wrapped for days in plastic wrap and 
tight bandages to ``cook'' the chemicals deep into the horse's flesh, 
and then heavy chains are attached to slide up and down the horse's 
sore legs. Additional tactics include inserting foreign objects such as 
metal screws or acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to disguise the sored areas. 
Though soring has been illegal for 40 years, this cruel practice 
continues unabated by the well-intentioned but seriously understaffed 
APHIS inspection program. Several horse show industry groups, animal 
protection groups, and the key organization of equine veterinarians 
have called for funding increases to enable the USDA to do a better job 
enforcing this law. To meet the goal of the HPA, Animal Care inspectors 
must be present at more shows. Exhibitors who sore their horses go to 
great lengths to avoid detection, even fleeing a show when USDA 
inspectors arrive. But with current funding, Animal Care is able to 
attend only about 6 percent of the more than 500 Tennessee Walking 
Horse shows held annually. An appropriation at the requested level will 
help provide for additional inspectors, training, security (to address 
threats of violence against inspectors), and advanced detection 
equipment (thermography and gas chromatography/mass spectrometry 
machines).

               APHIS/ANIMAL WELFARE ACT (AWA) ENFORCEMENT

    We request that you support the President's request of $22,333,000 
for AWA enforcement under the Animal and Plant Health Inspection 
Service (APHIS). We commend the Committee for responding in recent 
years to the urgent need for increased funding for the Animal Care 
division to improve its inspections of more than 12,000 sites, 
including commercial breeding facilities, laboratories, zoos, circuses, 
and airlines, to ensure compliance with AWA standards. Under the 2008 
Farm Bill, Congress established a new responsibility for this 
division--to enforce a ban on imports from foreign puppy mills where 
puppies are mass produced under inhumane conditions and forced to 
endure harsh long-distance transport. Animal Care currently has 115 
inspectors (with 2 vacancies to be filled), compared to 64 inspectors 
at the end of the 1990s. An appropriation at the requested level would 
maintain fiscal year 2010 funding with a modest increase to cover pay 
costs and help ensure that the Agency can provide adequate oversight of 
the increasing number of licensed/registered facilities.

              APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES

    We request that you support the President's request of $14,213,000 
for APHIS Investigative and Enforcement Services (IES). We appreciate 
the Committee's consistent support for this division, which handles 
many important responsibilities, including the investigation of alleged 
violations of Federal animal welfare laws and the initiation of 
appropriate enforcement actions. The volume of animal welfare cases is 
rising significantly as new facilities become licensed and registered. 
An appropriation at the requested level would maintain fiscal year 2009 
funding with a modest increase to cover pay costs.

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

    We request that you support the President's request of $90,000,000 
for the Office of Inspector General (OIG) to maintain staff, improve 
effectiveness, and allow investigations in various areas, including 
enforcement of animal fighting laws. We appreciate the Committee's 
inclusion of funding and language in recent years for USDA's OIG to 
focus on animal fighting cases. Congress first prohibited most 
interstate and foreign commerce of animals for fighting in 1976, 
tightened loopholes in the law in 2002, established felony penalties in 
2007, and further strengthened the law as part of the 2008 Farm Bill. 
We are pleased that USDA is taking seriously its responsibility to 
enforce this law, working with State and local agencies to complement 
their efforts and address these barbaric practices, in which animals 
are drugged to heighten their aggression and forced to keep fighting 
even after they've suffered grievous injuries. Dogs bred and trained to 
fight endanger public safety, and some dogfighters steal pets to use as 
bait for training their dogs. Cockfighting was linked to an outbreak of 
Exotic Newcastle Disease in 2002-2003 that cost taxpayers more than 
$200 million to contain. It's also been linked to the death of a number 
of people in Asia reportedly exposed through cockfighting activity to 
bird flu. Given the potential for further costly disease transmission, 
as well as the animal cruelty involved, we believe it is a sound 
investment for the Federal Government to increase its efforts to combat 
illegal animal fighting activity. We also support the OIG's auditing 
and investigative work to improve compliance with the humane slaughter 
law and downed animal rules and the Horse Protection Act.

  NATIONAL INSTITUTE OF FOOD AND AGRICULTURE/VETERINARY STUDENT LOAN 
                              FORGIVENESS

    We request that you support the President's request of $5,000,000 
to continue the implementation of the National Veterinary Medical 
Service Act (Public Law 108-161). This program received $2,950,000 in 
fiscal year 2009, $4,800,000 in fiscal year 2010, and was projected to 
need $5,000,000 in its third year under the CBO score accompanying 
authorization. We appreciate that Congress is working to address the 
critical shortage of veterinarians practicing in rural and inner-city 
areas, as well as in government positions at FSIS and APHIS. A 2009 
Government Accountability Office report enumerating the challenges 
facing veterinary medicine identified that an inadequate number of 
veterinarians to meet national needs is among the foremost challenges. 
A 2006 study demonstrated the acute and worsening shortage of 
veterinarians working in rural farm animal practice, while domestic 
pets in both rural and urban areas are often left without necessary 
medical care. Having adequate veterinary care is a core animal welfare 
concern. To ensure adequate oversight of humane handling and food 
safety rules, FSIS must be able to fill vacancies in inspector 
positions. Veterinarians also support our Nation's defense against 
bioterrorism (the Centers for Disease Control estimate that 75 percent 
of potential bioterrorism agents are zoonotic--transmitted from animals 
to human). They are also on the front lines addressing public health 
problems such as those associated with pet overpopulation, parasites, 
rabies, chronic wasting disease, and bovine spongiform encephalopathy 
(``mad cow'' disease). Veterinary school graduates face a crushing debt 
burden of $130,000 on average, with an average starting salary of 
$65,000. For those who choose employment in underserved rural or inner-
city areas or public health practice, the National Veterinary Medical 
Service Act authorizes the Secretary of Agriculture to forgive student 
debt. It also authorizes financial assistance for those who provide 
services during Federal emergency situations such as disease outbreaks.

    APHIS/EMERGENCY MANAGEMENT SYSTEMS/DISASTER PLANNING FOR ANIMALS

    We request that you support the President's request of $1,017,000 
for Animal Care under APHIS' Emergency Management Systems line item. 
Hurricanes Katrina and Rita demonstrated that many people refuse to 
evacuate if they are forced to leave their pets behind. The Animal Care 
division has been asked to develop infrastructure to help prepare for 
and respond to animal issues in a disaster and incorporate lessons 
learned from previous disasters. These funds are used for staff time 
and resources to support State and local governments' and humane 
organizations' efforts to plan for protection of people with animals, 
and to enable the Agency to participate, in partnership with FEMA, in 
the National Response Plan without jeopardizing other Animal Care 
programs.

                      APHIS/WILDLIFE SERVICES (WS)

    We also hope the committee will consider a funding limitation on 
two particularly cruel, indiscriminate wildlife control methods used by 
the WS division to kill more than 13,000 animals every year: the 
toxicants sodium cyanide (delivered via small explosive devices known 
as M-44s) and sodium fluoroacetate (commonly known as Compound 1080). 
Not only are these two substances undeniably cruel to animals, they 
also pose an unnecessary threat to human health and public safety. The 
FBI has declared that both Compound 1080 and sodium cyanide are 
``highly toxic pesticides judged most likely to be used by terrorists 
or for malicious intent.'' The FBI and the Canadian Security 
Intelligence Service have listed Compound 1080 as a substance that may 
be sought for use as a possible chemical warfare agent in public water 
supplies. As early as 1999, the U.S. Air Force identified Compound 1080 
as a likely biological agent. A funding limitation on the use of these 
particular methods would not only reduce the number of animals killed 
every year and the amount of suffering animals endure as a result of 
the continued use of these inhumane methods by WS, it would help 
protect homeland security and move WS toward non-lethal wildlife 
control methods that are safer, more effective, less expensive, and 
more humane. With the most indefensible methods eliminated, there will 
be more money for other, more beneficial WS programs.

                ANIMAL WELFARE INFORMATION CENTER (AWIC)

    We request $1,978,400 for AWIC. These funds will enable AWIC to 
improve its services as a clearinghouse, training center, and 
educational resource to help institutions using animals in research, 
testing and teaching comply with the requirements of the AWA, including 
consideration of alternatives to minimize or eliminate animal use in 
specific research protocols.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, FDA, and Related 
Agencies Appropriation Act of fiscal year 2011. We are grateful for the 
Committee's past support, and hope you will be able to accommodate 
these modest requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

 Prepared Statement of The Humane Society of the United States--Equine 
                               Protection

    On behalf of the undersigned animal welfare and horse industry 
organizations, with combined supporters exceeding 12 million, we submit 
the following testimony seeking an increase in funding for the USDA/
APHIS Horse Protection Program to $900,000, as requested in the 
President's budget for fiscal year 2011. This funding is urgently 
needed to begin to fulfill the intent of the Horse Protection Act--to 
eliminate the cruel practice of soring--by allowing the USDA to 
strengthen its enforcement capabilities for this law.
    In 1970, Congress passed the Horse Protection Act to end soring, 
the intentional infliction of pain to the hooves and legs of a horse to 
produce an exaggerated gait, practiced primarily in the Tennessee 
Walking Horse show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a horse, then the 
legs are wrapped for days in plastic wrap and bandages to ``cook'' the 
chemicals deep into the horse's flesh. This makes the horse's legs 
extremely painful and sensitive, and when ridden, the horse is fitted 
with chains that slide up and down the horse's sore legs, forcing him 
to produce an exaggerated, high-stepping gait in the show ring. 
Additional tactics include inserting foreign objects such as metal 
screws or hard acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to remove evidence of soring.
    The Horse Protection Act authorizes the USDA to inspect Tennessee 
Walking Horses and Racking Horses--in transport to and at shows, 
exhibits, auctions and sales--for signs of soring, and to pursue 
penalties against violators. Unfortunately, since its inception, 
enforcement of the Act has been plagued by underfunding. As a result, 
the USDA has never been able to adequately enforce the Act, allowing 
this extreme and deliberate cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the Act is for USDA officials to be present at more shows. However, 
limited funds allow USDA attendance at only about 6 percent of 
Tennessee Walking Horse shows. So the Agency set up an industry-run 
system of certified Horse Industry Organization (HIO) inspection 
programs, which are charged with inspecting horses for signs of soring 
at the majority of shows. These groups license examiners known as 
Designated Qualified Persons (DQPs) to conduct inspections. To perform 
this function, they often hire industry insiders who have an obvious 
stake in preserving the status quo. Statistics clearly show that when 
USDA inspectors are in attendance to oversee shows, the numbers of 
noted violations are many times higher than at shows where industry 
inspectors alone are conducting the inspections. By all measures, the 
overall DQP program has been a failure--the only remedy is to abolish 
it or greatly reduce dependence on this conflicted industry-run program 
of self-regulation and give USDA the resources it needs to adequately 
enforce the Act.
    USDA appears to have recently attempted to step up its enforcement 
efforts, as evidenced in 2009 by a more than twofold increase over the 
previous year in the number of violations cited at the industry's 
largest show (the Tennessee Walking Horse National Celebration). 
However, the top three prize winning horses at that show were all found 
after their wins to have been in violation of the HPA, and their owners 
and trainers were allowed to keep the titles and prizes awarded. Horses 
identified as sored at shows also continue to be shown in subsequent 
events, and their owners continue to win lucrative prizes. USDA needs 
enhanced resources to carry out its responsibilities as Congress, and 
the public, expects.
    Lack of a consistent presence by USDA officials at Tennessee 
Walking Horse events has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has tainted the Tennessee Walking 
Horse industry as a whole, and creates an unfair advantage for those 
who are willing to break the law in pursuit of victory. Besides the 
indefensible suffering of the animals themselves, the continued 
acceptance of sored horses in the show ring prevents those with sound 
horses from competing fairly for prizes, breeding fees and other 
financial incentives, while those horse owners whose horses are sored 
may unwittingly suffer property damage and be duped into believing that 
their now abused, damaged horses are naturally superior.
    Currently, when USDA inspectors arrive at shows, many exhibitors 
load up and leave to avoid being caught with sored horses. While USDA 
could stop these trailers on the way out, Agency officials have stated 
that inspectors are wary of going outside of their designated 
inspection area, for fear of harassment and physical violence from 
exhibitors. Recently, armed security has been utilized to allow such 
inspections, at additional expense to this program. The fact that 
exhibitors feel they can intimidate government officials without 
penalty is a testament to the inherent shortcomings of the current 
system.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. New technologies, such as thermography and 
``sniffer'' devices (gas chromatography/mass spectrometry machines), 
have been developed, which can help inspectors identify soring more 
effectively and objectively. However, USDA has been unable to purchase 
and put enough of this equipment in use in the field, allowing for 
industry insiders to continually evade detection. With increased 
funding, the USDA could purchase this equipment and train more 
inspectors to use it properly, greatly increasing its ability to 
enforce the HPA.
    The egregious cruelty of soring is not only a concern for animal 
protection and horse industry organizations, but also for 
veterinarians. In 2008, the American Association of Equine 
Practitioners (AAEP) issued a white paper condemning soring, calling it 
``one of the most significant welfare issues faced by the equine 
industry.'' It called for the abolition of the DQP Program, saying 
``the acknowledged conflicts of interest which involve many of them 
cannot be reasonably resolved, and these individuals should be excluded 
from the regulatory process.'' The AAEP further stated, ``The failure 
of the HPA to eliminate the practice of soring can be traced to the 
woefully inadequate annual budget of $500,000 allocated to the USDA to 
enforce these rules and regulations.''
    It is unacceptable that nearly 40 years after passage of the Horse 
Protection Act, the USDA still lacks the resources needed to end this 
extreme form of abuse. It is time for Congress to give our public 
servants charged with enforcing this Act the support and resources they 
want and need to fulfill their duty to protect these horses as 
effectively and safely as possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.

The Humane Society of the United States.
Friends of Sound Horses, Inc.
Animal Welfare Institute.
American Society for the Prevention of Cruelty to Animals (ASPCA).
American Horse Protection Association.
American Horse Defense Fund.
Plantation Walking Horses of Maryland.
United Animal Nations.
National Plantation Walking Horse Association.
Plantation Walking Horse Association of California.
United Pleasure Walking Horse Association.
Pennsylvania Pleasure Walking Horse Association.
Gaitway Walking Horse Association.
Mid Atlantic Tennessee Walking Horse Association.
International Pleasure Walking Horse Registry.
Sound Horse Outreach (SHO).
One Horse At a Time, Inc. Horse Rescue.
Northern California Walking Horse Association.
Tennessee Walking Horse Association of Oklahoma.
Pure Pleasure Gaited Horse Association.
United Mountain Horses.
Northwest Gaited Horse Club.
New York State Plantation Walking Horse Club.
                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2011 budgets for the Animal Plant 
Health Inspection Service (APHIS), National Institute of Food and 
Agriculture (NIFA), and Natural Resources Conservation Service (NRCS). 
The Wildlife Society represents over 9,000 professional wildlife 
biologists and managers dedicated to sound wildlife stewardship through 
science and education. The Wildlife Society is committed to 
strengthening all Federal programs that benefit wildlife and their 
habitats on agricultural and other private land.
    This is a difficult financial year, with many programs across the 
board being asked to take significant cuts in appropriations. While 
budget cuts may be unavoidable, we urge Congress to remember that many 
of the programs funded by the U.S. Department of Agriculture (USDA) 
play a key role in protecting our natural resources, safeguarding 
wildlife and human health, and securing our economy in the face of a 
changing climate. And, with the President's focus on addressing climate 
change, as well as the potential for climate change and energy 
legislation to emerge from Congress, funding for the programs within 
USDA that support environmental science, develop mitigation strategies, 
and implement conservation measures are more important now than ever 
before.

               ANIMAL AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and protecting 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with State fish and wildlife agencies. The 
administration's request this year is a $7.69 million decrease from 
fiscal year 2010. Such a significant decrease would substantially 
reduce funding for State and Federal cooperative wildlife damage 
programs across the country; just a few of the programs affected would 
be Hawaii Wildlife Operations, Louisiana Rice Damage, and Pennsylvania 
Cooperative Livestock Protection. Funding cuts for these programs not 
only result in significant ecological damage, but they threaten local 
economies as well. TWS recommends that Congress increase the 
appropriation for Wildlife Services Operations to $79.9 million; this 
amount would continue to provide support for the ongoing programs 
funded through the direct appropriations process, and it would as well 
as fund necessary safety improvements and cover the programmed pay 
costs for operations.
    Another key budget line in Wildlife Services is Methods 
Development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest and most cross-cutting research that is critical to 
State wildlife agencies is being performed at the NWRC, and in order 
for State wildlife management programs to be the most up-to-date, the 
mission of the NWRC must continue. The President's request is currently 
a $2.84 million decrease from fiscal year 2010 enacted levels. The 
result of this decrease is that programs conducting research into 
human-wildlife conflict (Jack Berryman Institute), invasive species and 
seed crops (Hilo Hawaii Field Station), and wildlife disease 
(Kingsville Texas Field Station) would all be eliminated or severely 
reduced. Such a loss could be devastating in this era as human and 
wildlife issues are becoming increasingly intertwined. TWS requests 
that Congress restore $3.7 million to the Methods Development line to 
ensure adequate funding for the National Wildlife Research Center.
    Finally, TWS is recommending providing $20.6 million to Veterinary 
Services for addressing the import and export of invasive species. The 
potential import of exotic diseases, parasites, and vectors into the 
United States is a grave threat to human, wildlife, and habitat health 
and has the potential to cause incalculable economic damage. To 
mitigate this, it is important that APHIS-Veterinary Services is able 
to conduct inspections at all U.S. ports. The historic method of 
relying on import or user fees is inadequate and varies greatly from 
year to year. Also, as wildlife disease continues to spread worldwide, 
more exotic species are continually imported, and the number of ports 
of entry increase, the resources for inspections are stretched even 
further. Therefore, TWS recommends funding $7 million beyond the 
Administration's request of $13.6 million, $3 million to support 
inspections, and an additional $4 million for surveillance of exotic 
parasites, and staffing and operations of offshore disease monitoring 
and evaluation.

               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater than ever today because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million, as 
authorized in the 2008 Farm Bill.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on non-industrial private 
forestlands, as forest products are produced while conserving natural 
resources, including fish and wildlife. As demand for forest products 
grow, privately held forests will increasingly be needed to supplement 
supplies, but trees suitable for harvest take decades to produce. In 
the absence of long-term and on-going research, such as provided 
through McIntire-Stennis, the Nation could be unable to meet future 
forest-product needs. We appreciate the over $29 million in funding 
allocated in the fiscal year 2010 appropriations and urge that amount 
to be increased to $31 million in fiscal year 2011.

                 NATURAL RESOURCES CONSERVATION SERVICE

    The Farm Bill conservation programs are more important than ever, 
given huge backlogs of qualified applicants for these programs, 
increased pressure on farmland from the biofuels boom, sprawling 
development, and the ongoing declines in wildlife habitat and water 
quality. The Natural Resources Conservation Service (NRCS), which 
administers many of the Farm Bill conservation programs, is one of the 
primary contributors to ensuring that our public and private lands are 
made resilient to climate change. NRCS does this through a variety of 
programs that are aimed to preserve land, protect water resources, and 
mitigate effects of climate change.
    The Wildlife Society recommends that the Farm Bill conservation 
programs be funded at the levels mandated in the 2008 Farm Bill. 
Currently, the Administration's request results in collective program 
reductions of about $705 million less than authorized levels. TWS 
encourages Congress to restore funding for all conservation programs at 
authorized levels. Demand for these programs continues to grow during 
this difficult economic climate when more assistance than ever is 
needed to address natural resource challenges and conservation goals, 
such as climate change, soil quality deficiencies, declining pollinator 
health, disease and invasive species, water quality and quantity 
issues, as well as degraded, fragmented and lost habitat for fish and 
wildlife. We would also like to particularly highlight the Wildlife 
Habitat Incentive Program (WHIP), a voluntary program for landowners 
who want to improve wildlife habitat on agricultural, nonindustrial, 
and Indian land. WHIP plays an important role in protecting and 
restoring America's environment, and is doubly important because it 
actively engages public participation in conservation. We urge Congress 
to fully fund WHIP at $85 million.

                      FARM SERVICES ADMINISTRATION

    We also note that 4 million acres of Conservation Reserve Program 
(CRP) contracts have expired, and we recommend that a general sign up 
of these 4 million+ acres be added in order to more fully realize the 
conservation needs of the Nation. Additionally, the Administration's 
budget request, $15 million less than fiscal year 2010, in part 
reflects a CRP enrollment projection of 30.2 million acres by the end 
of fiscal year 2011, which is 1.8 million acres below the enrollment 
authorized in the 2008 Farm Bill. Farmers need CRP to provide 
supplemental income, and enrolled lands provide an important source of 
fish and wildlife habitat as well as help achieve soil and water 
conservation needs. We also recommend that CRP should be funded at a 
level that allows for full enrollment of authorized CRP acres.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 

               Prepared Statement of Hon. Joseph Tydings

    As the author of the Horse Protection Act (HPA), and on behalf of 
Friends of Sound Horses (FOSH), I submit the following testimony 
requesting an increase in funding for the USDA/APHIS Horse Protection 
Program to $900,000, as requested in the President's fiscal year 2011 
budget.
    Forty-two years ago while serving in the United States Senate, I 
introduced the Horse Protection Act, which was enacted in 1970 with the 
assistance of Senator Tom Eagleton of Missouri. As you may have 
surmised, I am a horseman. I grew up and worked on a farm in the summer 
which still used draft horses. I was in the last horse cavalry unit in 
the U.S. Army. I am working hard in Washington, DC to keep honor in 
horsemanship by eliminating the cruel and sadistic soring of the 
magnificent Tennessee Walking Horses in hopes to bring respect back to 
the industry.
    Horse soring is the malicious and illegal process of deliberately 
causing extreme pain to the legs and hooves of Tennessee Walking Horses 
in order to trigger the exaggerated high-stepping gait, known as the 
``Big Lick,'' desired during showing. Trainers sore the horses by 
applying caustic chemicals, like mustard oil or diesel fuel, to the 
horse's legs and hooves and then cover the substances with plastic wrap 
to ``cook'' the chemicals into the skin. Trainers have also been known 
to use foreign objects, such as bolts, to mechanically sore the horses' 
hooves. The practice is savage and wanton and show horses live 24-7 in 
the intolerable pain with a lifetime of consequences from the damage 
that is inflicted. The HPA made this practice illegal, but much more 
must be done to bring an end to soring.
    The USDA's funding for HPA enforcement has not increased since 
1976, nor has it been adjusted for inflation. Currently, the $500,000 
funding limit only allows the USDA to inspect less than 7 percent of 
Tennessee Walking Horse shows. Although these inspections can be 
effective, this low monitoring rate obviously leaves the majority of 
horse shows uninspected. Additionally, independent Horse Industry 
Organizations, charged with the task of inspecting shows when the USDA 
is unavailable, only report and penalize a small fraction of violations 
compared to the USDA. The USDA's inability to sustain a consistent 
presence at shows has allowed rampant soring to continue in the 
industry.
    I believe Congress can play a vital role in ending this extreme 
abuse. The most effective way to abolish horse soring is to increase 
USDA funding so that it can expand its monitoring and enforcement 
efforts. The USDA needs several million dollars a year in order to 
effectively inspect all Tennessee Walking Horse shows, and even if a 
simple inflation adjustment had been made over the years since 
enactment, USDA would have roughly $2.5 million annually to enforce the 
Act. I realize times are tough in our struggling economy, but if the 
USDA's budget were increased to $900,000, as in the President's budget 
request, a signal could be sent to the industry that enforcement 
efforts have not stalled. I encourage you to support the enforcement of 
the HPA by granting the USDA the resources it needs to successfully 
carry out its duties.
    Thank you for your consideration in making this funding request a 
reality. Simply leaving USDA funding levels for enforcement at its 
current level and allowing the industry to continue to govern on its 
own, will only exacerbate the problem. I hope Congress will support 
this funding to help eradicate this shameful practice and bring honor 
and pride back into the Walking Horse industry.
                                 ______
                                 

    Prepared Statement of the Union of Concerned Scientists, et al.

    Antibiotic-resistant infections have been identified by the Centers 
for Disease Control and Prevention (CDC) as one of the top public 
health challenges in the United States. Massive use of medically 
important antibiotics like penicillin and tetracycline in food animal 
production is a significant contributor to this problem.\1\ Antibiotic-
resistant pathogens, which are found in and on food animals, can be 
transferred to humans though several pathways, including handling of 
farm animals,\2\ movement through ground and surface water, and most 
commonly on contaminated food.\3\ Animal food products can become 
contaminated during slaughter and processing and food and crops can 
become contaminated with resistant bacteria in the field or during food 
processing. Infections caused by foodborne pathogens are more severe 
and more costly to treat than those caused by susceptible bacteria. The 
existence of resistant bacteria also means that more cases of infection 
will occur than would otherwise be the case.\4\
---------------------------------------------------------------------------
    \1\ Silbergeld, Graham, and Price. 2008. ``Industrial food animal 
production, antimicrobial resistance, and human health,''Annual Review 
of Public Health 29:151-69.
    \2\ Akwar et al. 2007. ``Risk factors for antimicrobial resistance 
among fecal Escherichia coli from residents on 43 swine farms,'' 
Microbial Drug Resistance 13(1):69-76.
    \3\ WHO. 1997. ``The Medical Impact of Antimicrobial Use in Food 
Animals,'' Report of a WHO Meeting. Berlin, Germany, 13-17 October. 
whqlibdoc.who.int/hq/1997/WHO__EMC__ZOO__97.4.pdf
    \4\ Anderson et al. 2003. ``Public Health Consequences of Use of 
Antimicrobial Agents in Food Animals in the United States,'' Microbial 
Drug Resistance 9(4):373-379. whqlibdoc.who.int/hq/1997/
WHO__EMC__ZOO__97.4.pdf
---------------------------------------------------------------------------
    As recently reported in The New York Times, some infections caused 
by resistant bacteria now cannot be treated. There simply are no longer 
antibiotics that work. There are 5,815 hospitals in the U.S. registered 
with the American Hospital Association. The yearly cost associated with 
antibiotic-resistant patient infections in one U.S. hospital has been 
estimated at $13.5 million.\5\
---------------------------------------------------------------------------
    \5\ Roberts, 2009. ``Hospital and Societal Costs of Antimicrobial-
Resistant Infections in a Chicago Teaching Hospital: Implications for 
Antibiotic Stewardship,'' Clinical Infectious Diseases 49:1175-84.
---------------------------------------------------------------------------
    Additional research and data are critical to understanding how to 
address the public health and food safety concerns associated with such 
uses. As you consider fiscal year 2011 appropriations, we would like to 
propose three appropriations that will help research, monitor, and find 
solutions to the problem of antibiotic resistance. The requests below 
are in priority order:
    Request #1.--$5 million of funds from the FDA's Transforming Food 
Safety Initiative to finish, update, and publish reviews on the safety 
of antimicrobials important in human medicine currently used for 
nontherapeutic purposes in food-producing animals for their role in the 
selection and dissemination of antibiotic-resistant foodborne 
pathogens.
    Request #2.--$3 million to fund Research and Education Grants for 
the Study of Antibiotic Resistant Bacteria as authorized in Section 
7521 of the 2008 Farm Bill.
    Request #3.--$10 million for the FDA/USDA/CDC National 
Antimicrobial Resistance Monitoring System (NARMS) in order to expand 
data collection by $3 million beyond current annual funding of 
approximately $7 million.
    The rationale and background for each of these requests are 
detailed below.
    Request #1.--$5 million of funds from the FDA's Transforming Food 
Safety Initiative to finish, update, and publish reviews on the safety 
of antimicrobials important in human medicine currently used for 
nontherapeutic purposes in food-producing animals for their role in the 
selection and dissemination of antibiotic-resistant foodborne 
pathogens.
    Requested accompanying report language: In conducting these post-
market safety reviews, the FDA shall use the same standards and 
methodology currently used in pre-market safety evaluations. The 
Committee directs the FDA to report the findings of the safety reviews 
to Congress within 2 years and to include a time line of any regulatory 
action steps needed to address drug uses found not to be safe. Congress 
directs the FDA immediately to report to Congress on any post-market 
safety reviews of animal antimicrobials already completed, but not yet 
made public.
    Background.--The FDA's Center for Veterinary Medicine is 
responsible for reviewing the safety of animal drugs, including 
antibiotics, and has the authority to approve, withdraw, or restrict 
drugs based on their safety. Since 2003, the FDA has required that the 
pre-approval safety review for all new antibiotic veterinary drugs 
include an evaluation of the likelihood that the proposed drug use in 
animals will lead to resistant infections in humans.
    Because almost all antibiotics being used for growth promotion and 
other nontherapeutic purposes in livestock production were approved by 
the FDA before 2003, most have either not undergone reviews with 
respect to antibiotic resistance or have undergone reviews that are 
inconsistent with current standards. In order to ensure that these 
drugs meet current safety standards, it is now critical to conduct 
post-market safety reviews of those antibiotic classes important to 
human medicine that are also being used for routine nontherapeutic 
purposes in animal agriculture.
    Seven classes of antibiotics considered by the FDA to be either 
critically or highly important for therapy of infectious diseases in 
humans are used for nontherapeutic purposes in livestock production. 
These are the penicillins, tetracyclines, macrolides, lincosamides, 
streptogramins, aminoglycosides, and sulfonamides. Nontherapeutic uses 
of these drugs include growth promotion and routine disease prevention 
in healthy farm animals.
    In 1977 the FDA proposed to withdraw its approval for 
nontherapeutic uses of both penicillin \6\ and tetracycline \7\ in food 
animals because of then new evidence showing that such uses undercut 
the efficacy of human drugs and as such were not safe for humans. The 
FDA took no final action on either of these 1977 proposals. In the 
interim since the proposed cancellations, the European Union has banned 
use of all medically important antibiotics to accelerate the growth of 
food animals, and Australia, Japan, and New Zealand do not allow the 
use of penicillin and tetracycline as growth promoters.\8\
---------------------------------------------------------------------------
    \6\ 42 Fed. Reg. 43770 (August 30, 1977).
    \7\ 42 Fed. Reg. 56264 (October 21, 1977).
    \8\ General Accounting Office, Antibiotic Resistance, Federal 
Agencies Need to Better Focus Efforts to Address Risk to Humans from 
Antibiotic Use in Animals (April 2004) at 44.
---------------------------------------------------------------------------
    Citing its still-pending 1977 regulatory proposal, in May 2004 the 
FDA wrote to three manufacturers of penicillin for animal use--Alpharma 
Inc, Pennfield Oil Company, and Phibro Animal Health--to express its 
concerns about their products' ``possible role in the emergence and 
dissemination of antimicrobial resistance'' in humans.
    In its July 2007 report on the fiscal year 2008 appropriations 
bill, the House Committee on Appropriations expressed its concern that 
the use of antimicrobials in animals produced for food can also render 
less effective critically important human antibiotics, including those 
used to treat foodborne illnesses. The Committee was particularly 
concerned that the FDA had not finished its review of the safety for 
humans of using penicillin nontherapeutically in animal feed and 
directed the FDA to finish this review and make it public by June 30, 
2008.
    In September 2008 the FDA told Congress that it had completed its 
review of the ``scientific literature for microbial food safety 
information for penicillin-containing products'' and that it 
``continues to have safety concerns regarding the non-therapeutic use 
of antimicrobial drugs in food-producing animals.'' \9\ The FDA has 
not, however, either made public the results of its penicillin review 
or taken any action on the other medically important antibiotics that 
are used to accelerate the growth of food animals.
---------------------------------------------------------------------------
    \9\ September 19, 2008 letter from FDA to Senator Kennedy (at 8).
---------------------------------------------------------------------------
    In fiscal year 2009 and fiscal year 2010, the FDA received a 
significant amount of new funding to address food safety. An additional 
$318.3 million and 718 new FTEs for the Transforming Food Safety 
initiative have been proposed for fiscal year 2011. With the additional 
resources FDA should take a more aggressive approach to tackling the 
growing problem of antibiotic resistant foodborne pathogens.
    Congress should ensure that the FDA finishes, updates, and 
publishes reviews on the safety of antimicrobials important in human 
medicine used for nontherapeutic purposes in food-producing animals.
    Request #2.--$3 million to fund Research and Education Grants for 
the Study of Antibiotic Resistant Bacteria as authorized in Section 
7521 of the 2008 Farm Bill.
    Background.--Antibiotic-resistant disease has been identified by 
the CDC as the number one public health challenge in the United States. 
Massive use of medically important antibiotics like penicillin and 
tetracycline in food animal production is a significant contributor to 
this problem. Research to develop animal production systems less 
dependent on antibiotics would help American producers address this 
crisis, add consumer value to their products, and position themselves 
advantageously in the global marketplace.
    In 2004, the U.S. Government Accountability Office (GAO) released a 
report highlighting the looming trade implications for countries that 
do not improve their agricultural antibiotic-use practices. GAO found 
that two of our major competitors in world meat markets (New Zealand 
and Denmark) have already banned the use of medically important 
antibiotics for growth promotion in food animals, as has the European 
Union. In addition, Japan, a major market for U.S. meat exports, is now 
reviewing such uses and considering a ban. The international trend is 
clear. To keep up and maintain market share, U.S. meat producers need 
to have the option to raise animals with less dependence on 
antibiotics.
    The 2008 Farm Bill addressed this need by creating a new 
competitive grant program called Research and Education Grants for the 
Study of Antibiotic-Resistant Bacteria. This program will provide the 
research needed to understand the phenomenon of antibiotic resistance 
and devise food animal production systems less dependent on antibiotic 
use. But, this important program will not get off the ground without 
funding. If U.S. meat producers hope to maintain a competitive 
advantage in the global market, funding is needed to support research 
to provide technical information on antibiotic-free production methods 
to all meat producers, and to enable those producers seeking to 
transition away from routine antibiotic use to do so smoothly. 
Accordingly, we urge the committee to appropriate $3 million to launch 
the grant program.
    Request #3.--$10 million for the FDA/USDA/CDC National 
Antimicrobial Resistance Monitoring System (NARMS) in order to expand 
data collection by $3 million beyond current annual funding of 
approximately $7 million.
    Systematic collection and analyses of data are essential to 
addressing the growing problem of antibiotic resistant disease. NARMS 
has been funded at about $7 million for the last several years and at 
that level has been unable to keep up with emerging new public health 
concerns, such as the Committee-recognized (in the report on the fiscal 
year 2009 appropriations bill) threat of methicillin-resistant 
Staphylococcus aureus (``MRSA''). Additional funding will enable 
increased surveillance, to include additional bacterial species and 
numbers and/or types of samples as well as allow NARMS researchers to 
utilize more sensitive methods (e.g., antibiotic-supplemented media and 
molecular assays). Furthermore, the additional funding should be used 
to improve sampling of bacteria on farm animals.
    NARMS is a national public health surveillance system that tracks 
changes in the susceptibility of certain enteric bacteria to 
antimicrobial agents of human and veterinary medical importance. The 
NARMS program was established in 1996 as a collaboration among three 
Federal agencies: the FDA, the CDC, and the U.S. Department of 
Agriculture (USDA). NARMS is included in the FDA's budget, and the FDA 
then gives some of the appropriated funds to CDC and USDA.
    NARMS also collaborates with scientists involved in antimicrobial 
resistance monitoring in other countries so that information can be 
shared on the global dimensions of antimicrobial resistance in 
foodborne bacteria. The NARMS program currently looks at only four 
pathogens: Salmonella, Campylobacter, Escherichia coli, and Enterococci 
on retail meats. However, the scientific literature on foodborne 
antibiotic-resistant bacteria shows that additional pathogens may be 
contaminating our food supply, such as Staphylococcus aureus.
    As a public health monitoring system, the primary objectives of 
NARMS are to:
  --Monitor trends in antimicrobial resistance among foodborne bacteria 
        from humans (CDC), retail meats (FDA), and animals (USDA);
  --Disseminate timely information on antimicrobial resistance to 
        promote interventions that reduce resistance among foodborne 
        bacteria;
  --Conduct research to better understand the emergence, persistence, 
        and spread of antimicrobial resistance;
  --Assist the FDA in making decisions related to the approval of safe 
        and effective antimicrobial drugs for animals.
    The NARMS program is important for identifying trends in 
antimicrobial resistance and for setting policy to address problems 
that are identified. For example, NARMS data have been used to support 
regulatory action such as the FDA's withdrawal in 2005 of the approval 
for fluoroquinolones in poultry and a proposed FDA ban in 2008 on the 
extralabel use of cephalosporins in food animals.
    Thank you for your support of these priorities.

Adrian Dominicans Sisters.
Alliance for Sustainability.
Alliance for the Prudent Use of Antibiotics.
American Academy of Pediatrics, District II.
American Academy of Pediatrics, NY Chapter 2.
American Academy of Pediatrics, NY Chapter 3.
American Academy of Physician Assistants.
American Grassfed Association.
American Nurses Association.
American Society for the Prevention of Cruelty to Animals.
Animal Welfare Approved.
Arkansas Nature Alliance.
Blue Heron Environmental Network Inc.
Breast Cancer Fund.
Butte Environmental Council.
California Public Health Association, North.
Catholic Healthcare West.
Center for Science in the Public Interest.
Chicago Physicians for Social Responsibility.
Citizen Action of Wisconsin.
Citizens Action Coalition of Indiana.
Citizens for Pennsylvania's Future.
Citizens for Sludge-free Land.
Clean Water Action.
Coast Action Group.
Colorado Academy of Family Physicians.
Consumers Union.
Earth Day Coalition, Cleveland.
Endangered Habitats League.
Environmental Defense Fund.
Fair Food.
Family Farm Defenders.
Farms Without Harm.
Farmworker Justice.
Food & Water Watch.
Food Animal Concerns Trust.
Food Democracy Now!.
Friends of Arizona Rivers.
Friends of the Earth.
Georgia AIDS Coalition.
Grass-roots.
Halifax River Audubon.
Humane Farming Association.
Humane Society of the United States.
Humane Society Veterinary Medical Association.
Illinois Citizens for Clean Air & Water.
Infectious Disease Association of California.
Institute for Agriculture & Trade Policy.
Iowa Association of Water Agencies.
Iowa Citizens for Community Improvement.
Iowa Environmental Council.
Iowa Farmers Union.
Izaak Walton League of America, Midwest.
Keep Antibiotics Working.
Kentucky Resources Council.
Klamath Forest Alliance.
Land Stewardship Project.
Lymphoma Foundation of America.
Maine Organic Farmers & Gardeners Association.
Maine Public Health Association.
Michigan Antibiotic Resistance Reduction Coalition.
Michigan Public Health Association.
Minnesota Citizens Organized Acting Together.
Montana Public Health Association.
National Anti-Vivisection Society.
National Catholic Rural Life Conference.
National Latino Farmers & Ranchers Trade Association.
National Organic Coalition.
National Organization for Rare Disorders.
National Sustainable Agriculture Coalition.
Naturesource Communications.
Network for Environmental & Economic Responsibility United Church of 
Christ.
New Mexico Environmental Law Center.
North Carolina Association of Pharmacists.
Northeast Organic Farming Association--Interstate Council.
Northeast Organic Farming Association--Massachusetts.
NY/NJ Environmental Watch.
Occidental Arts & Ecology Center.
Ohio Ecological Food & Farm Association.
Ohio Environmental Council.
Ohio Nurses Association.
Ohio River Foundation.
Oklahoma Chapter, American Academy of Pediatrics.
Oregon Pediatric Society.
Organic Consumers Association.
Pennsylvania Coalition of Nurse Practitioners.
Pennsylvania Farmers Union.
Pennsylvania State Nurses Association, Environmental Health Task Force.
Pew Campaign on Human Health & Industrial Farming.
Physicians for Social Responsibility-Los Angeles.
Preserve Wild Santee.
Protect Our Earth's Treasures.
Rivers Unlimited.
Rural Advancement Foundation International, USA.
Safe Food & Fertilizer.
Safe Tables Our Priority.
San Francisco Bay Area Physicians for Social Responsibility.
San Francisco Medical Society.
South Carolina Nurses Association.
Southwest Environmental Center.
Stonyfield Farm, Inc.
Sustain LA.
Sustainable Earth.
The Cornucopia Institute.
The Minnesota Project.
The Society of Infectious Diseases Pharmacists.
Trust for America's Health.
Union of Concerned Scientists.
Upper Merrimack River Local Advisory Committee.
U.S. Environmental Watch.
Washington Sustainable Food & Farming Network.
Waterkeeper Alliance.
Western Nebraska Resources Council.
Wisconsin Chapter, American Academy of Pediatrics.
Women's Environmental Institute.
Women, Food & Agriculture Network.
Women's Health & Environmental Network.
                                 ______
                                 

                  Letter From the USA Rice Federation

                                                    March 26, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, FDA, and 
        Related Agencies, Committee on Appropriations, U.S. Senate, 
        Washington, DC.
Hon. Rosa DeLauro, 
Chairman, Subcommittee on Agriculture, Rural Development, FDA, and 
        Related Agencies, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC.

Re: USA Rice Federation's Fiscal Year 2011 Agriculture Appropriations 
        Requests
    Dear Chairman Kohl and Chairman DeLauro: This is to convey the rice 
industry's requests for fiscal year 2011 funding for selected programs 
under the jurisdiction of your respective subcommittees. The USA Rice 
Federation appreciates your assistance in making this letter a part of 
the hearing record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants, and allied businesses. USA 
Rice members are active in all major rice-producing States: Arkansas, 
California, Florida, Louisiana, Mississippi, Missouri, and Texas. The 
USA Rice Producers' Group, the USA Rice Council, the USA Rice Millers' 
Association, and the USA Rice Merchants' Association are members of the 
USA Rice Federation.
    USA Rice understands the budget constraints the subcommittees face 
when developing the fiscal year 2011 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid, and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the Farm Bill. Therefore, we oppose any attempts to 
modify the support levels provided by this vital legislation through 
more restrictive payment limitations or other means and encourage the 
subcommittees and committees to resist such efforts during the 
appropriations process, especially given that the Farm Bill was 
reauthorized in June of 2008 and represents a contract with America's 
producers.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2011 are as follows:

                           FUNDING PRIORITIES

Research and APHIS
    The Dale Bumpers National Rice Research Center (DBNRRC) conducts 
research to help keep the U.S. rice industry competitive in the global 
marketplace by assuring high yields, superior grain quality, pest 
resistance, and stress tolerance. We urge you to provide fiscal year 
2011 funding for rice at the DBNRRC at least at the fiscal year 2010 
approved level of $3,607,338 in base funding. In addition, we strongly 
support the President's proposed $500,000 funding increase for rice-
related climate-change research and $400,000 increase for rice-breeding 
research at the DBNRRC. We also urge funding a $1.3 million increase 
for the ARS facility at Stuttgart for research on diversified rice-
farming techniques to help reduce water use by developing varieties 
that are more drought tolerant.
    For APHIS-Wildlife Services, we encourage the subcommittees to fund 
the Louisiana blackbird control project at $150,000, which we strongly 
support. This program annually saves rice farmers in Southwest 
Louisiana over $4,000 per farm, or $2.9 million total.
Market Access
    Exports are critical to the U.S. rice industry. Historically, 40-50 
percent of annual U.S. rice production has been shipped overseas. Thus, 
building healthy export demand for U.S. rice is a high priority.
    The Foreign Market Development Program allows USA Rice to focus on 
importer, foodservice, and other non-retail promotion activities around 
the world. This program should be fully funded for fiscal year 2011 at 
the authorized level of $34.5 million.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. This program should also be fully funded for fiscal year 2011 at 
the authorized level of $200 million. USA Rice strongly opposes the 
President's proposed 20 percent reduction in MAP funding.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade-policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.
Food Safety
    Food safety, including the safety of imported food, is one of the 
national issues that deserves significantly more funding. The USA Rice 
Federation appreciates greatly the increased funding that Congress 
appropriated for the Food and Drug Administration in fiscal year 2010 
for food-safety purposes. We urge Congress to continue this funding 
direction by increasing the Agency's fiscal year 2011 appropriations 
for food-safety personnel, programs, and related technology, including 
continuing to ensure the safety of imported food.
    Appropriations increases would allow the FDA to help reassure 
consumers and accelerate innovation in food-safety programs and related 
research and technology development. FDA would be able to administer 
food-safety inspections and other related activities more fully and 
effectively, speed up approvals for safe, new food technologies and 
products, and provide leadership in protecting the food supply from 
intentional domestic and foreign threats.
    As importantly, USA Rice opposes the President's proposed food-
safety-related user fees, including for food registration and 
inspection and export certificates. These public-safety activities 
should continue to be funded from annual appropriations.
Food Aid
    We urge the subcommittees to fund Public Law 480 title I. No title 
I funding has been provided since fiscal year 2006. At a minimum, 
fiscal year 2011 funding should be the same as 2006. Public Law 480 
title I is our top food-aid priority and we support continued funding 
in order to meet international demand. Food-aid sales historically 
account for an important portion of U.S. rice exports.
    For Public Law 480 title II, we strongly support funding title II 
up front at the fully authorized $2.5 billion level, which would help 
to make possible satisfying the 2.5 million MT required by statute. We 
encourage the subcommittees to fund title II at the higher level to 
ensure consistent tonnage amounts for the rice industry. We strongly 
oppose any shifting of title II funds, which have traditionally been 
contained within USDA's budget. We believe all food-aid funds should 
continue to be used for food-aid purchases of rice and other 
commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels, at 
a minimum, for the Food for Progress Program's Public Law 480 title I-
sourced funding. For the program's Commodity Credit Corporation funding 
component, a minimum at USDA's estimated fiscal year 2010 level of $150 
million is requested. Funding for this program is important to improve 
food security for food-deficit nations.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multi-year programming. USA Rice supports 
funding at the $300 million level for this education initiative because 
it efficiently delivers food to its targeted group, children, while 
also encouraging education, a primary stepping-stone for populations to 
improve economic conditions.
Other
    Farm Service Agency.--We encourage the subcommittees to provide 
adequate funding so the Agency can deliver essential programs and 
services, including for improved computer hardware and software. The 
Agency has been hard hit by staff reductions and our members fear a 
reduction in service if sufficient funds are not allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittees receive 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
            Sincerely,
                                             Reece Langley,
                                Vice President, Government Affairs.
                                 ______
                                 

            Letter From the Wyoming State Engineer's Office

                                                    March 10, 2010.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration and Related Agencies, Washington, DC.
Hon. Sam Brownback,
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration and Related Agencies, Washington, DC.

Re: Support for Designation to the Colorado River Basin Salinity 
        Control Program of 2.5 per centum of the Total Environmental 
        Quality Incentives Program (EQIP) Funding Recommended in the 
        President's Fiscal Year 2011 Budget.
    Dear Chairman Kohl and Ranking Member Brownback: This letter is 
sent in support of the designation of 2.5 percent of the fiscal year 
2010 Environmental Quality Incentive Program (EQIP) funding for the 
Department of Agriculture's Colorado River Salinity Control (CRSC) 
Program. With the enactment of the Federal Agriculture Improvement and 
Reform Act of 1996 (FAIRA, which was designated Public Law 104-127), 
the USDA's CRSC Program is a component program within EQIP. Wyoming 
views the inclusion of the CRSC Program in EQIP as a direct recognition 
on the part of Congress of the Federal commitment to maintenance of the 
water quality standards for salinity in the Colorado River. The vital 
role of the Department of Agriculture in meeting that commitment is 
apparent pursuant to the law, as well as based on the past 25 years we 
have observed and encouraged Agriculture's efforts effectively reducing 
salt loading into the Colorado River system through proven and cost-
effective irrigation water application and management practices. Each 
of the seven Colorado River Basin States, acting collectively through 
the Colorado River Basin Salinity Control Forum, have actively assisted 
the U.S. Department of Agriculture in implementing its unique, 
collaborative and important program.
    Established in 1973, the seven-State Colorado River Basin Salinity 
Control Forum coordinates with the Federal Government on the 
maintenance of the basin-wide Water Quality Standards for Salinity in 
the Colorado River System. The Forum is composed of gubernatorial 
representatives and serves as a liaison between the seven States and 
the Secretaries of the Interior and Agriculture and the Administrator 
of the Environmental Protection Agency. The Forum advises the Federal 
agencies on the progress of efforts to control the salinity of the 
Colorado River. Its annual funding recommendation process includes 
suggesting to the Department of Agriculture the amount the Forum 
believes USDA should be expending in the subsequent 2 years for its on-
farm CRSC Program. Overall, the combined efforts of the Basin States, 
the Bureau of Reclamation and the Department of Agriculture have 
resulted in one of the Nation's most successful non-point source 
control programs.
    The Colorado River provides municipal and industrial water for 
nearly 30 million people and irrigation water to approximately 4 
million acres of land in the United States. The River is also the water 
source for some 2.5 million people and 500,000 acres in Mexico. 
Limitations on users' abilities to make the greatest use of that water 
supply due to the River's high concentration of total dissolved solids 
(e.g., the water's salinity concentration) remains a major issue and 
continuing concern in both the United States and Mexico. The salinity 
concentration in this water supply especially affects agricultural, 
municipal, and industrial water users. While economic detriments and 
damages in Mexico are unquantified, the Bureau of Reclamation presently 
estimates direct and computable salinity-related damages in the United 
States amount to $376 million per year.
    At its recent October 2009 meeting, the Forum recommended that the 
USDA CRSC Program expend 2.5 percent of the Environmental Quality 
Incentive Program funding. In the Forum's judgment, this amount of 
funding is necessary to implement one of the most successful Federal/
State cooperative non-point source pollution control programs in the 
United States. The Colorado River Basin Salinity Control Advisory 
Council has taken the position that the funding for the salinity 
control program should not be below $20 million per year. The amount of 
State and local cost-sharing that can be applied in each given fiscal 
year is driven by the amount of Federal appropriations and the EQIP 
allocation.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits support by your subcommittee. We request that your 
subcommittee direct the allocation of 2.5 percent of the Environmental 
Quality Incentives Program funding for the USDA's CRSC Program during 
fiscal year 2011. Thank you in advance for your consideration of this 
statement and its inclusion in the formal record for fiscal year 2011 
appropriations.
            Respectfully submitted,
                                        Patrick T. Tyrrell,
   Wyoming State Engineer, Chairman, Colorado River Basin Salinity 
                                                     Control Forum.
                                               Dan S. Budd,
      Interstate Stream Commissioner, Member, Colorado River Basin 
                                            Salinity Control Forum.

</pre></body></html>
